APPENDIX TABLE OF CONTENTS
Judgment of the United States Court of Appeals
for the Federal Circuit (September 19, 2019) ... 1a
Final Written Decision of United States Patent
Trial and Appeal Board on ’760 Patent–
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
(April 26, 2018) ................................................... 3a
Final Written Decision of United States Patent
Trial and Appeal Board on ’012 Patent—
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
(January 23, 2018)............................................ 90a
Final Written Decision of United States Patent
Trial and Appeal Board on ’838 Patent—
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
(December 29, 2017) ....................................... 213a
Final Written Decision of United States Patent
Trial and Appeal Board on ’107 Patent—
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
(December 20, 2017) ....................................... 290a
Patent Trial and Appeal Board Consolidated Trial
Practice Guide November 2019—
Relevant Excerpts .......................................... 386a

App.1a
JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE FEDERAL CIRCUIT
(SEPTEMBER 19, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
CHRIMAR SYSTEMS, INC.,

Appellant,
v.
JUNIPER NETWORKS, INC.,
RUCKUS WIRELESS, INC., NETGEAR, INC.,

Appellees.

________________________

2018-1499, 2018-1500, 2018-1503, 2018-1984
Appeals from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
Nos. IPR2016-01389, IPR2016-01391,
IPR2016-01397, IPR2016-01399, IPR2017-00719
Before: TARANTO, CLEVENGER, and HUGHES,
Circuit Judges.

it is

THIS CAUSE having been heard and considered,
ORDERED and ADJUDGED:

PER CURIAM (TARANTO, CLEVENGER, and
HUGHES, Circuit Judges).

App.2a
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF
THE COURT
/s/ Peter R. Marksteiner
Clerk of Court
Date: September 19, 2019

App.3a
FINAL WRITTEN DECISION OF UNITED STATES
PATENT TRIAL AND APPEAL BOARD ON ’760
PATENT–35 U.S.C. § 318(A) AND 37 C.F.R. § 42.73
(APRIL 26, 2018)
UNITED STATES PATENT AND
TRADEMARK OFFICE
________________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
________________________
JUNIPER NETWORKS, INC., RUCKUS
WIRELESS, INC., BROCADE COMMUNICATION
SYSTEMS, INC., and NETGEAR, INC.,

Petitioner,
v.
CHRIMAR SYSTEMS, INC.,

Patent Owner.

________________________
Case IPR2016-013991
Patent 8,902,760 B2

Before: Karl D. EASTHOM, Gregg I. ANDERSON,
and Robert J. WEINSCHENK,
Administrative Patent Judges.
1 Ruckus Wireless, Inc., Brocade Communication Systems, Inc.,
and Netgear, Inc. filed a petition in IPR2017-00719 (now
terminated), and were joined to this proceeding.

App.4a
WEINSCHENK, Administrative Patent Judge.
I.

Introduction

Juniper Networks, Inc. filed a Petition (Paper 1,
“Pet.”) requesting an inter partes review of claims 1,
31, 37, 59, 69, 72, 73, 106, 112, 134, 142, and 145 of
U.S. Patent No. 8,902,760 B2 (Ex. 1001, “the ’760
patent”). Chrimar Systems, Inc. (“Patent Owner”)
filed a Preliminary Response (Paper 6, “Prelim. Resp.”)
to the Petition. On January 4, 2017, we instituted an
inter partes review of claims 1, 31, 37, 59, 69, 72, 73,
106, 112, 134, 142, and 145 (“the challenged claims”)
of the ’760 patent on the following grounds:
Claims

Statutory
Basis

Applied References

1, 31, 37,
59, 69,
72, 73,
106, 112,
134, 142,
and 145

35 U.S.C.
§ 103(a)2

Hunter et al., PCT Publication
No. WO 96/23377 (published
Aug. 1, 1996) (Ex. 1003,
“Hunter”); and Bulan et al.,
U.S. Patent No. 5,089,927
(issued Feb. 18, 1992) (Ex.
1004, “Bulan”)

1, 31, 37,
59, 69,
72, 73,
106, 112,

35 U.S.C. Bloch et al., U.S. Patent No.
4,173,714 (issued Nov. 6, 1979)
§ 103(a)
(Ex. 1005, “Bloch”); The
Institute of Electrical and

2 The Leahy-Smith America Invents Act (“AIA”), Pub. L. No.
112-29, which was enacted on September 16, 2011, made
amendments to 35 U.S.C. §§ 102, 103. AIA § 3(b), (c). Those
amendments became effective eighteen months later on March
16, 2013. Id. at § 3(n). Because the application from which the
’760 patent issued was filed before March 16, 2013, any citations
herein to 35 U.S.C. §§ 102, 103 are to their pre-AIA versions.

App.5a
Electronics Engineers, Inc.,
IEEE Standard 802.3-1993
(1993) (Ex. 1006, “IEEE
802.3-1993”); and The
Institute of Electrical and
Electronics Engineers, Inc.,
IEEE Standard 802.3u-1995
(1995) (Exs. 1007-1008,
“IEEE 802.3-1995”)

134, 142,
and 145

1, 31, 37,
59, 69,
72, 73,
106, 112,
134, 142,
and 145

35
U.S.C.
§ 103(a)

Bloch; IEEE 802.3-1993;
IEEE 802.3-1995; and
Huizinga et al., U.S. Patent
No. 4,046,972 (issued Sept.
6, 1977) (Ex. 1009,
“Huizinga”)

Paper 8 (“Dec. on Inst.”), 20-21.
After institution, Ruckus Wireless, Inc., Brocade
Communication Systems, Inc., and Netgear, Inc. filed
a petition in IPR2017-00719 requesting an inter
partes review of the challenged claims of the ’760
patent and filed a motion requesting joinder to this
case. Paper 25, 2. On March 16, 2017, we joined Ruckus
Wireless, Inc., Brocade Communication Systems, Inc.,
and Netgear, Inc. to this case and terminated IPR201700719. Id. at 5-6. In this Decision, we refer to
Juniper Networks, Inc., Ruckus Wireless, Inc., Brocade
Communication Systems, Inc., and Netgear, Inc.
collectively as Petitioner. Also, after institution, Patent
Owner filed a Response (Paper 26, “PO Resp.”) to the
Petition, and Petitioner filed a Reply (Paper 33, “Pet.
Reply”) to the Response. An oral hearing was held on
August 31, 2017, and a transcript of the hearing is
included in the record. Paper 63 (“Tr.”).

App.6a
On September 18, 2017, an ex parte reexamination
certificate issued for the ’760 patent. Ex. 2056. The
ex parte reexamination certificate amends independent
claim 73 and dependent claim 145. Id. at 1:18-19,
1:23-2:9. The ex parte reexamination certificate also
amends dependent claims 106, 112, 134, and 142, by
virtue of their dependency from amended claim 73.
Id. at 1:20-22. We instituted an inter partes review of
claims 73, 106, 112, 134, 142, and 145, as originally
issued, and, thus, we address the patentability of
original claims 73, 106, 112, 134, 142, and 145 in this
Decision.3 See infra Sections II.C, II.D; 35 U.S.C.
§ 318(a) (“the Patent Trial and Appeal Board shall
issue a final written decision with respect to the
patentability of any patent claim challenged by the
petitioner”). Petitioner, however, does not challenge
the patentability of claims 73, 106, 112, 134, 142, and
145, as amended by the ex parte reexamination
certificate, in the Petition. See Pet. 7. Therefore, we
did not institute an inter partes review of amended
claims 73, 106, 112, 134, 142, and 145, and we do not
address the patentability of amended claims 73, 106,
112, 134, 142, and 145 in this Decision. See infra Section II.E; 35 U.S.C. § 318(a).
We issue this Final Written Decision pursuant
to 35 U.S.C. § 318(a) and 37 C.F.R. § 42.73. For the
3 Patent Owner’s amendment of original claims 73, 106, 112,
134, 142, and 145 in the ex parte reexamination also may be
considered a concession of unpatentability, and, thus, a request
for adverse judgment as to original claims 73, 106, 112, 134,
142, and 145. See 37 C.F.R. § 42.73(b)(3); Bloom Eng’g Co. v. N.
Am. Mfg. Co., 129 F.3d 1247, 1249 (Fed. Cir. 1997) (“the making
of substantive changes in the claims is treated as an irrebuttable
presumption that the original claims were materially flawed”).

App.7a
reasons set forth below, Petitioner has shown by a
preponderance of the evidence that claims 1, 31, 37,
59, 69, and 72, and original claims 73, 106, 112, 134,
142, and 145 of the ’760 patent are unpatentable.
A. Related Proceedings
The parties indicate that the ’760 patent is the
subject of several cases in the United States District
Court for the Eastern District of Michigan, the United
States District Court for the Eastern District of
Texas, and the United States District Court for the
Northern District of California. Pet. 1; Paper 5, 2-3;
Ex. 1012. The parties also indicate that the following
petitions for inter partes review are related to this
case:
Case No.

Involved U.S. Patent No.

IPR2016-00569

U.S. Patent No. 8,942,107

IPR2016-00573

U.S. Patent No. 9,019,838

IPR2016-00574

U.S. Patent No. 8,902,760

IPR2016-00983

U.S. Patent No. 8,155,012

IPR2016-01151

U.S. Patent No. 9,019,838

IPR2016-01389

U.S. Patent No. 8,155,012

IPR2016-01391

U.S. Patent No. 8,942,107

IPR2016-01397

U.S. Patent No. 9,019,838

IPR2016-01425

U.S. Patent No. 8,155,012

IPR2016-01426

U.S. Patent No. 9,019,838

Pet. 1; Paper 5, 3.

App.8a
B. The ’760 Patent
The ’760 patent relates to a system for managing,
tracking, and identifying remotely located electronic equipment. Ex. 1001, 1:27-30. According to
the ’760 patent, one of the difficulties in managing a
computerized office environment is keeping track of a
company’s electronic assets. Id. at 1:32-57. Previous
systems for tracking electronic assets suffered from
several deficiencies. Id. at 1:62-65. For example,
previous systems could not determine the connection
status or physical location of an asset and could only
track assets that were powered-up. Id. at 1:65-2:2.
To address these deficiencies, the ’760 patent
describes a system for tracking an electronic asset.
Id. at 2:3-6, 3:23-27. In one embodiment described in
the ’760 patent, the system includes a central module
and a remote module. Id. at 3:27-30. The remote module
attaches to the electronic asset and transmits a low
frequency signal. Id. A receiver in the central module
monitors the signal transmitted by the remote module
and determines if the status or location of the electronic
asset changes. Id. at 3:30-32, 3:34-40.
C. Illustrative Claim
Claims 1 and 73 are independent. Claim 1 is reproduced below.
1. A BaseT Ethernet system comprising:
a piece of central BaseT Ethernet equipment;
a piece of BaseT Ethernet terminal equipment;
data signaling pairs of conductors comprising
first and second pairs used to carry BaseT

App.9a
Ethernet communication signals between
the piece of central BaseT Ethernet equipment
and the piece of BaseT Ethernet terminal
equipment, the first and second pairs
physically connect between the piece of
BaseT Ethernet terminal equipment and
the piece of central BaseT Ethernet equipment, the piece of central BaseT Ethernet
equipment having at least one DC supply,
the piece of BaseT Ethernet terminal equipment having at least one path to draw different magnitudes of current flow from the
at least one DC supply through a loop
formed over at least one of the conductors of
the first pair and at least one of the conductors of the second pair, the piece of
central BaseT Ethernet equipment to detect
at least two different magnitudes of the
current flow through the loop and to control
the application of at least one electrical condition to at least two of the conductors.
Ex. 1001, 17:16-36.
II.

Analysis
A. Level of Ordinary Skill in the Art

Petitioner argues that a person of ordinary skill
in the art would have had “at least a B.S. degree in
electrical engineering or computer science, or the
equivalent, and at least three years of experience in
the design of network communication products.” Pet.
5. Petitioner also argues that a person of ordinary
skill in the art would have been “familiar with, inter
alia, data communications protocols, data communica-

App.10a
tions standards (and standards under development at
the time), and the behavior and use of common data
communications products available on the market.”
Id. (citing Ex. 1002 ¶¶ 49-51). Patent Owner argues
that a person of ordinary skill in the art would
have had “a B.S. degree (or equivalent) in electrical
engineering or computer science, and three years of
experience in the design of network communications
products.” PO Resp. 14 (citing Ex. 2038 ¶ 26). Patent
Owner also argues that a person of ordinary skill
in the art would have been “familiar with data communications protocols, data communications standards
(and standards under development at the time,
including the 802.3 standard), and the behavior of data
communications products available on the market.”
PO Resp. 14 (citing Ex. 2038 ¶ 26).
Patent Owner indicates that the only difference
between the parties’ respective definitions of the
level of ordinary skill in the art is that Petitioner
uses the phrase “at least.” PO Resp. 14. According to
Patent Owner, the phrase “at least” is “too open
ended” and “would result in an expert, who has a Ph.D.
and 15 years of experience, being considered an
ordinary artisan.” Id. at 14-15. Patent Owner, however,
does not identify any specific instance in which the
difference between the parties’ respective definitions
of the level of ordinary skill in the art impacts the
analysis or conclusions of either party, or either party’s
declarant, in this case. See id.
Our findings and conclusions in this case would
be the same under either party’s definition of the
level of ordinary skill in the art. To the extent
necessary, though, we adopt Patent Owner’s definition,
which is supported by the declaration of Dr. Vijay K.

App.11a
Madisetti. Id.; Ex. 2038 ¶ 26. As such, we determine
that a person of ordinary skill in the art would have had
a B.S. degree (or equivalent) in electrical engineering
or computer science and three years of experience in
the design of network communications products, and
would have been familiar with data communications
protocols, data communications standards (and standards under development at the time, including the
802.3 standard), and the behavior of data communications products available on the market.
B. Claim Construction
The claims of an unexpired patent are interpreted
using the broadest reasonable interpretation in light
of the specification of the patent in which they appear.
37 C.F.R. § 42.100(b); Cuozzo Speed Techs., LLC v.
Lee, 136 S. Ct. 2131, 2144-45 (2016). In applying that
standard, claim terms generally are given their ordinary
and customary meaning, as would be understood by one
of ordinary skill in the art in the context of the
specification. In re Translogic Tech., Inc., 504 F.3d
1249, 1257 (Fed. Cir. 2007). An applicant may provide
a different definition of the term in the specification
with reasonable clarity, deliberateness, and precision.
In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). In
the absence of such a definition, limitations are not
to be read into the claims from the specification. In re
Van Geuns, 988 F.2d 1181, 1184 (Fed. Cir. 1993).
1. BaseT
The challenged claims include the term “BaseT.”
See, e.g., Ex. 1001, 17:16-36, 21:37-52. In a decision
on institution in IPR2016-01391, which involves the
same parties, we construed the term “BaseT” in a

App.12a
related patent to mean “twisted pair Ethernet in
accordance with the 10BASE-T or 100BASE-T standards.” Juniper Networks, Inc. v. Chrimar Systems,
Inc., Case IPR2016-01391, slip op. at 11-12 (PTAB
Dec. 22, 2016) (Paper 9). Our construction is consistent
with Petitioner’s proposal that the term “BaseT” be
construed to mean “10BASE-T and 100BASE-T.” Pet. 6.
Our construction also is consistent with the construction
adopted by the United States District Court for the
Eastern District of Texas (“District Court”) in a
related case. Ex. 2021, 18. Further, Patent Owner
“does not contest” our construction. PO Resp. 19. We
note that our findings and conclusions in this case
are not dependent on a particular construction of the
term “BaseT.” Nonetheless, because neither party disputes our prior construction of that term, we adopt it
in this case. Specifically, we construe the term “BaseT”
in the challenged claims to mean “twisted pair Ethernet in accordance with the 10Base-T or 100Base-T
standards.”
2. Protocol
Claim 59 and original claim 134 recite “wherein
at least one of the different magnitudes of current
flow through the loop is part of a detection protocol.”
Ex. 1001, 20:61-63, 25:13-15. Patent Owner proposes
construing the term “protocol” to mean “a mutually
agreed upon method of communication.” PO Resp. 18.
Patent Owner argues that its proposed construction
is supported by a document entitled “FYI on ‘What is
the Internet?’” produced by the User Services Working
Group of the Internet Engineering Task Force. Id.
(citing Ex. 2038 ¶ 104; Ex. 2047, 1). Petitioner responds
that Patent Owner’s proposed construction improperly
“reads in a requirement that two devices use an agreed

App.13a
upon communication method,” which is not supported
by the claim language or the specification. Pet. Reply
21-22.
We agree with Petitioner that Patent Owner’s
proposed construction is not the broadest reasonable
interpretation. First, Patent Owner does not direct
us to any intrinsic evidence to support its proposed
construction, but instead relies on a single piece of
extrinsic evidence. PO Resp. 18. Specifically, Patent
Owner cites to a document that discusses the term
“protocol” in the context of explaining how “networks
that make up the Internet” communicate with one
another. Ex. 2047, 1. That, however, is not the context
in which the term “protocol” is used in the ’760 patent.
For example, the ’760 patent relates to tracking
electronic equipment in an Ethernet network. Ex. 1001,
1:27-30, 17:16-36. As a result, we are not persuaded
that the extrinsic evidence cited by Patent Owner
establishes the meaning of the term “protocol” in the
context of the ’760 patent.
Second, Patent Owner’s proposed construction
addresses the term “protocol” in isolation from the
remainder of the claim language. By limiting the term
“protocol” to a mutually agreed upon method of
communication, Patent Owner’s proposed construction
appears to require a communication protocol. Claims
59 and 134, though, recite a detection protocol, not a
communication protocol. Id. at 20:61-63, 25:13-15.
Claims 59 and 134 further specify that the detection
protocol is based on at least one magnitude of current
flow detected by the central Base-T Ethernet equipment. Id. Patent owner does not explain specifically why
the central Base-T Ethernet equipment must mutually
agree upon a method of communication with other

App.14a
network equipment to detect a magnitude of current
flow. See PO Resp. 18; Pet. Reply 21-22.
Third, the specification of the ’760 patent indicates
that the detection protocol does not require a mutually
agreed upon method of communication. For example,
the ’760 patent describes one embodiment as follows:
The existence of a connection between hub 1
and central module 15a is monitored by test
voltage source 64 and test voltage monitor
66 through a pair of receive data lines.
Current from test voltage source 64 flows
through a data line to an isolation transformer
within hub 1. The current flows through the
primary winding of the isolation transformer
and returns on the other receive data line to
the test voltage monitor 66. An interruption
in the flow of current is detected by the
test voltage monitor 66. . . . Similarly, current
sourced onto a transmit line from signal
modulator 7 and isolation power supply 8
through remote module 16a to the isolation
transformer of PC 3A which returns on the
other transmit line is monitored by test
voltage monitor 84 to verify that both
remote module 16a and PC 3A are connected to central module 15a.
Ex. 1001, 8:6-24 (emphases added). In other words,
central module 15a (i.e., the central piece of network
equipment) monitors the existence of connections
with hub 1, remote module 16a, and PC 3A simply by
detecting interruptions in the DC current flow between
central module 15a and those other pieces of network
equipment. Id. Thus, the detection protocol described
in at least this embodiment of the ’760 patent does

App.15a
not require a mutually agreed upon method of communication.
For the foregoing reasons, we do not adopt Patent
Owner’s proposed construction of the term “protocol.”
Specifically, we determine that the term “protocol” in
claims 59 and 134 is not limited to a mutually agreed
upon method of communication.4 We also determine
that further construction of
the term “protocol” is not necessary to resolve
the parties’ dispute regarding claims 59 and 134 in
this case. See infra Section II.C.5; Vivid Techs., Inc.
v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999) (“[O]nly those terms need be construed that
are in controversy, and only to the extent necessary
to resolve the controversy.”).
3. Powered-Off
Claim 72 and original claim 145 recite “wherein
the piece of BaseT Ethernet terminal equipment is a
powered-off piece of BaseT Ethernet equipment.” Ex.
1001, 21:33-36, 25:46-49. In a decision on institution
in IPR2016-01391, which involves the same parties,
we construed the term “powered-off” in a related patent
to mean “without operating power.” Juniper Networks,
Case IPR2016-01391, slip op. at 9-10 (Paper 9). Our
construction is consistent with Petitioner’s proposal
4 Our determination that the term “protocol” does not require a
mutually agreed upon method of communication is consistent
with the opinion of Patent Owner’s expert in a related district
court case that “[i]n the context of these claims, ‘detection
protocol’ means that the equipment is configured or designed so
that the magnitude of the current (flow) or the impedance in the
path allow it to detect or determine some information about the
equipment at the other end of the path.” Ex. 2020, 9.

App.16a
that the term “powered-off” be construed to mean
“without operating power.” Pet. 6. Our construction
also is consistent with the construction adopted by
the District Court in a related case. Ex. 2021, 20.
The parties do not dispute our previous construction, but the parties’ arguments indicate that
our interpretation of “without operating power”
requires further clarification. Pet. 6; PO Resp. 16-18;
Pet. Reply 24-28. Specifically, Petitioner argues that
“without operating power” allows for power to be applied
to the Base-T Ethernet terminal equipment (Pet. 6),
such as power for a component of the Base-T Ethernet
terminal equipment (Pet. Reply 24-28). Patent Owner
contends that the phrase “without operating power”
does not allow for operating power to be applied to
the Base-T Ethernet terminal equipment. PO Resp. 1718. We find that both parties’ requested clarifications
are supported by the intrinsic evidence. Specifically,
the ’760 patent indicates that power can be applied to
a component of the Base-T Ethernet terminal equipment (as Petitioner contends), even though operating
power is not applied to the Base-T Ethernet terminal
equipment (as Patent Owner contends).
The ’760 patent explains that one of the problems
with previous tracking systems is that they could
only track assets that were powered-up. Ex. 1001,
1:62-2:2. To address that problem, the ’760 patent
describes a tracking system that can “identify[] the
location of network assets without applying power to
the assets.” Id. at 12:57-59 (emphasis added); see also
id. at 5:4-6 (“identifying the existence and location of
network assets without power being applied to the
assets”). Specifically, the ’760 patent describes a
remote module that attaches to an electronic asset,

App.17a
such as a piece of Base-T Ethernet terminal equipment.
Id. at 3:27-30. A central module then supplies a DC
current for powering the remote module so that the
central module can track the connection status of the
remote module and the attached Base-T Ethernet
terminal equipment. Id. at 5:39-43, 5:64-67, 8:6-24.
Thus, the specification of the ‘760 patent describes
applying power to the remote module even when the
attached Base-T Ethernet terminal equipment is
powered-off.
Some of the aforementioned features of the ’760
patent are included in claims 1 and 73, which recite
that the piece of central Base-T Ethernet equipment
has a “DC supply,” and the piece of Base-T Ethernet
terminal equipment has “at least one path to draw
different magnitudes of current flow from the at least
one DC supply.” Id. at 17:26-30, 21:43-47. Notably,
claims 1 and 73 do not recite a remote module separate
from the Base-T Ethernet terminal equipment, thereby
supporting Petitioner’s position that the remote module
is a component of the Base-T Ethernet terminal
equipment. Id. Thus, we determine that the intrinsic
evidence indicates that “without operating power”
allows for power to be applied to a component of the
Base-T Ethernet terminal equipment, but does not
allow for operating power to be applied to the Base-T
Ethernet terminal equipment.
For the foregoing reasons, we maintain our
previous construction that the term “powered-off” in
claims 72 and 145 means “without operating power.”
We clarify, though, that “without operating power”
includes applying power to a component of the BaseT Ethernet terminal equipment, but does not include

App.18a
applying operating power to the Base-T Ethernet
terminal equipment.
C. Obviousness of Claims 1, 31, 37, 59, 69, 72,
73, 106, 112, 134, 142, and 145 over Hunter and
Bulan
Petitioner argues that claims 1, 31, 37, 59, 69,
72, 73, 106, 112, 134, 142, and 145 would have been
obvious over Hunter and Bulan. Pet. 7. A claim is
unpatentable as obvious under 35 U.S.C. § 103(a) if
the differences between the claimed subject matter
and the prior art are such that the subject matter as
a whole would have been obvious at the time the
invention was made to a person having ordinary skill
in the art to which the subject matter pertains. KSR
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007).
The question of obviousness is resolved on the basis
of underlying factual determinations, including: (1)
the scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of ordinary skill in the art; and (4) any
objective indicia of non-obviousness. Graham v. John
Deere Co., 383 U.S. 1, 17-18 (1966).
We have considered the parties’ arguments and
supporting evidence, and we determine that Petitioner
has shown by a preponderance of the evidence that
claims 1, 31, 37, 59, 69, and 72, and original claims
73, 106, 112, 134, 142, and 145 would have been obvious
over Hunter and Bulan.
1. Overview of Hunter and Bulan
Hunter relates to a system for providing power
to terminal equipment in a computer network. Ex. 1003,

App.19a
Abstract, 16:26.5 Hunter explains that power can be
provided to terminal equipment in one of three ways.
Id. at 16:26. First, a local power supply (e.g., in the
office) can provide power to the terminal equipment.
Id. at 16:27-17:1. This is known as “local” power. Id.
at 17:1-2. Second, power may be delivered to the
terminal equipment using the same cable that carries
data through the network. Id. at 17:2-3. This is known
as “phantom” power. Id. at 17:3-5. Third, power may
be delivered to the terminal equipment using a
separate, dedicated power cable. Id. at 17:5-6. This is
known as “third pair” power. Id. at 17:6-8.
Hunter explains that there are advantages and
disadvantages to each type of power. Id. at 17:9-26.
For example, the advantage of phantom power is that
it does not require a dedicated power cable, but the
disadvantage is that it must be implemented carefully
to avoid potential interactions between the power
and the data. Id. at 17:13-19. The advantage of third
pair power is that it separates the power from the
data, thereby avoiding potential interactions between
them, but the disadvantage is that it requires a
dedicated power cable, which can be expensive to
install. Id. at 17:20-26.
Hunter describes a preferred embodiment in which
phantom power is provided to terminal equipment using
a 10Base-T Ethernet bus. Id. at 19:18-19, 21:17-18,

5 Petitioner cites to the original page numbers of Hunter,
whereas Patent Owner cites to the page numbers that Petitioner
added when Hunter was filed as Exhibit 1003 in this case. To
avoid confusion, we cite to the original page numbers of Hunter.

App.20a
37:19-20. 10Base-T is an IEEE Ethernet standard.6 Ex.
1002 ¶ 100 n.5; Ex. 2038 ¶ 32. Hunter explains that
the 10Base-T Ethernet bus comprises two twisted
pair conductors, with one pair used for transmitting
data from the terminal equipment and the other pair
used for receiving data into the terminal equipment.
Ex. 1003, 21:22-27, 37:20-26. In order to implement
phantom power, Hunter teaches that the same two
twisted pair conductors of the 10Base-T Ethernet bus
that transmit data are used to deliver DC power to the
terminal equipment. Id. at 21:27-29, 37:26-28. Hunter
explains that its phantom power embodiment is not
limited to networks that use the 10Base-T Ethernet
standard and indicates that it “is also compatible
with Ethernet® . . . , Token Ring® . . . , ATM, and
isoEthernet® . . . standards.” Id. at 21:17-21, 26:3-11.
Hunter further describes the preferred embodiment
as including a current protection circuit. Id. at 22:2723:7, 38:12-20. The current protection circuit can be a
resettable device, such as a thermistor or polyfuse,
which protects both the power supply and the bus from
a potentially damaging overcurrent. Id. at 23:3-6,
38:15-19.
Bulan relates to an improved current protection
circuit. Ex. 1004, 2:9-14. Bulan explains that a typical
current protection circuit with just a single threshold
value, such as the one described in Hunter, is
inadequate because it cannot distinguish between a
normal power up event for a DC-to-DC converter and
an operational fault. Id. at 1:26-31, 1:52-2:8. As a result,
6 Thus, contrary to Patent Owner’s argument that the asserted
prior art relates to telephone technology (PO Resp. 4), Hunter
relates to Ethernet technology.

App.21a
a typical current protection circuit may stop current
from flowing during a normal power up event and
prevent the terminal equipment from starting properly,
or may allow current to flow during an operational
fault and jeopardize the terminal equipment. Id. at
1:65-2:8.
Bulan describes an improved current protection
circuit that addresses the aforementioned problem.
Id. at 2:9-14. Specifically, Bulan teaches a current
control apparatus that detects whether DC current
flow in a path exceeds static and dynamic current
limits, and, if so, switches a high impedance into the
path. Id. at 3:5-21, 4:35-40, 6:34-43. If the high
impedance reduces the DC current flow to a trickle
and then zero, the current control apparatus detects
a normal start up event for a DC-to-DC converter and
switches the high impedance out of the path to allow
the terminal equipment to start up properly. Id. at
3:22-25, 4:62-5:1, 6:43-58. On the other hand, if the
high impedance only reduces the DC current flow to
a trickle, the current control apparatus detects an
operational fault and keeps the high impedance in
the path to protect the terminal equipment. Id.
2. Claims 1 and 73
Claim 1 recites “[a] BaseT Ethernet system” comprising “a piece of central BaseT Ethernet equipment”
and “a piece of BaseT Ethernet terminal equipment.”
Ex. 1001, 17:16-18. Hunter teaches a 10Base-T Ethernet system with a piece of central 10Base-T Ethernet
equipment, such as a hub, and a piece of 10Base-T
Ethernet terminal equipment, such as an Integrated
Services Terminal Equipment (“ISTE”) device. Pet. 25-

App.22a
29; Ex. 1003, 23:18-20, 32:7-9, 34:18-19, 37:19-28, 39:1415, Figs. 1, 2.
Patent Owner responds that Petitioner does
not show sufficiently that Hunter teaches a Base-T
Ethernet system. PO Resp. 34-35, 45-47. Specifically,
Patent Owner argues that Hunter repeatedly refers
to “Ethernet® . . . ,” but does not explain what the
term “Ethernet® . . . ” means. Id. at 34 (citing Ex. 1003,
12, 14, 21, 23, 28, 35, 36). Patent Owner contends that
the term “Ethernet® . . . ” in Hunter refers to the
original trademarked version of Ethernet owned by
Xerox Corporation, not the subsequent nontrademarked versions of Ethernet, such as 10Base-T
and 100Base-T. PO Resp. 34 (citing Pet. 26; Ex. 1002
¶ 101 n.6). In addition, Patent Owner alleges that
“[w]hile Hunter mentions the terms ‘10Base-T’ and
‘100Base-T,’ he is referring to twisted pair wiring, not
Ethernet.” PO Resp. 46-47 (citing Ex. 1003, 21:22-24,
26:5-8, 51 (claim 3); Ex. 2038 ¶¶ 197-198).
Patent Owner’s argument is not persuasive. Patent
Owner does not dispute that the term “BaseT Ethernet”
in claim 1 includes 10Base-T Ethernet. PO Resp. 1819. As discussed above, Hunter teaches a 10Base-T
Ethernet bus comprising two twisted pair conductors
for the transmission of data. Pet. 25-30; Pet. Reply
11-12; Ex. 1003, 26:3-6, 37:19-28. For example, Hunter
teaches the following:
In the illustrated embodiment, the bus
comprises a 10Base-T bus. A 10Base-T bus
conventionally comprises two twisted-pair
conductors 240, 250, each used for unidirectional transmission of data. Thus, in
this embodiment, one of the twisted pairs
(say, 250) is employed for transmitting data

App.23a
from the equipment 260, while the other of
the twisted-pairs (say, 240) is used for
receiving data into the equipment 260. The
present invention preferably employs each
of the twisted-pair conductors as a rail by
which to deliver DC power to the equipment
260.
Ex. 1003, 37:19-28 (emphasis added). Thus, regardless
of whether Hunter’s use of the term “Ethernet®”
includes 10Base-T Ethernet, Hunter independently
teaches 10Base-T Ethernet. Id. Further, we are not
persuaded that Hunter’s use of the term “10Base-T”
only refers to twisted pair wiring, not Ethernet, because
Patent Owner and Patent Owner’s declarant, Dr.
Madisetti, acknowledge that 10Base-T is an IEEE
Ethernet standard. PO Resp. 6; Ex. 1002 ¶ 100 n.5;
Ex. 2038 ¶ 32.
Patent Owner also responds that Petitioner does
not show sufficiently that Hunter teaches providing phantom power to Base-T Ethernet terminal
equipment. PO Resp. 35-39. Patent Owner contends
that the ISTE device in Figure 2 of Hunter (which
Petitioner identifies as the Base-T Ethernet terminal
equipment (Pet. 28)) is just an intermediate hub. PO
Resp. 35-39. Patent Owner alleges that the only
terminal equipment in Figure 2 of Hunter is voice
instrument 299. Id. at 35 (citing Ex. 2038 ¶ 69).
According to Patent Owner, when Figures 1 and 2 of
Hunter are considered together, those figures “show
phantom-power being delivered from a multimedia Hub
(‘120’ in Hunter’s Figure 1) through multiple connectors
(each labelled ‘297’ in Hunter’s Figure 2) to an
intermediate Hub (‘150’ in Hunter’s Figure 1).” PO
Resp. 37 (citing Ex. 2038 ¶ 71). Patent Owner concludes

App.24a
that “Hunter’s phantom-power circuit does not connect
to the phones (‘end devices’), which are connected to
the intermediate Hub through separate connectors
(each labelled ‘298’ in Hunter’s Figure 2).” PO Resp.
37 (citing Ex. 2038 ¶ 71).
Patent Owner’s argument is not persuasive. Patent
Owner’s argument focuses on the specific configuration
shown in Figure 2 of Hunter. PO Resp. 35-39. But, as
Petitioner explains in the Petition, Hunter is not
limited to the configuration shown in Figure 2. Pet.
28-29. Hunter teaches generally supplying phantom
power to network equipment. Ex. 1003, 19:2-7 (“[I]t is
a primary object of the present invention to provide
power subsystems for providing either phantom or third
pair power to equipment coupled to a local area
network.”). For example, Hunter teaches that phantom
power and data are delivered to network equipment
using the two twisted pair conductors of the 10BaseT Ethernet bus (id. at 21:22-29), and that “[i]n an
overall LAN, many pieces of equipment, each with its
own third and fourth transformers, can take power
as well as data from the bus” (id. at 21:11-13 (emphasis
added)). Thus, regardless of the specific configuration
shown in Figure 2, Hunter teaches providing phantom
power to Base-T Ethernet terminal equipment.
In addition, even if Hunter is limited to the configuration shown in Figure 2, Hunter still teaches
providing phantom power to Base-T Ethernet terminal
equipment. Specifically, as discussed above, Hunter
teaches that equipment 260 in Figure 2 of Hunter is
an Integrated Services Terminal Equipment (“ISTE”)
device. Ex. 1003, 23:18-20, 39:14-15, Fig. 2. The fact
that the “TE” in ISTE device stands for “Terminal
Equipment” indicates by itself that equipment 260 is

App.25a
terminal equipment. Id. Further, Patent Owner proposed in the Preliminary Response that the term
“Ethernet terminal equipment” be construed to mean
a “device at which data transmission can originate or
terminate and that is capable of Ethernet communication.”7 Prelim. Resp. 14. Consistent with that construction, the evidence of record indicates that Ethernet
data transmissions can originate and terminate at
the ISTE device in Hunter.8 Pet. 28; Ex. 1002 ¶ 104;
Ex. 1003, 37:19-28, 39:14-15. Further, Hunter teaches
delivering phantom power to equipment 260 in Figure
2 over the same two twisted pair conductors 240, 250
of the 10Base-T Ethernet bus used to transmit data
to equipment 260. Id. at 37:19-28, Fig. 2.
Moreover, even if Patent Owner were correct that
voice instrument 299 is the only terminal equipment
in Figure 2 of Hunter, Patent Owner’s argument is
not persuasive. Hunter teaches that the phantom power
and data transmitted over the 10Base-T Ethernet
bus are supplied to both equipment 260 and voice
instrument 299. Pet. Reply 15; Ex. 1003, 38:25-27 (“A
voice instrument 299 is therefore couplable to the

7 Patent Owner does not propose a specific construction of the
term “Ethernet terminal equipment” in the Response. See PO
Resp. 16-19, 35-39. Nonetheless, Patent Owner’s proposed
construction in the Preliminary Response is consistent with
Petitioner’s proposed construction in the Petition (Pet. 28
(“because (10Base-T) Ethernet data transmissions can originate
and terminate there”)) and the District Court’s construction (Ex.
2018, 13).
8 Hunter indicates that the ISTE device is compatible with
ISDN standards, but Hunter does not indicate that the ISTE
device is limited to ISDN standards. Ex. 1003, 23:18-24.

App.26a
equipment 260 and receives both data and power
therefrom.”).
Claim 1 recites “data signaling pairs of conductors
comprising first and second pairs used to carry BaseT
Ethernet communication signals between the piece
of central BaseT Ethernet equipment and the piece
of BaseT Ethernet terminal equipment, the first
and second pairs physically connect between the
piece of BaseT Ethernet terminal equipment and the
piece of central BaseT Ethernet equipment.” Ex.
1001, 17:19-25. Hunter teaches that the piece of
central 10Base-T Ethernet equipment and the piece of
10Base-T Ethernet terminal equipment are physically
connected to a 10Base-T Ethernet bus with two twisted
pair conductors for carrying power and data between
the piece of central 10Base-T Ethernet equipment and
the piece of 10Base-T Ethernet terminal equipment.
Pet. 29-30; Ex. 1003, 36:6-12, 37:19-28, Fig. 2.
Patent Owner responds that Petitioner does not
show sufficiently that the two twisted pair conductors
of the 10Base-T bus in Hunter carry Base-T Ethernet
communication signals, as required by claim 1. PO
Resp. 40-41. Specifically, Patent Owner argues that
hubs 140, 150, 160, 180 in Figure 1 of Hunter are
connected to multimedia hub 120 through isoEthernet
interfaces. Id. at 40 (citing Ex. 1003, 34:19-21, 35:1416, 35:27-28, 36:13-17, 36:28-37:2). According to Patent
Owner, isoEthernet interfaces only carry Integrated
Services Digital Network (“ISDN”) signals, not Ethernet
signals. PO Resp. 40 (citing Ex. 1003, 17:15-18; Ex.
2038 ¶ 76). Patent Owner also argues that hub 170
in Figure 1 of Hunter is connected to multimedia hub
120 through a 10Base-F interface. PO Resp. 40-41
(citing Ex. 1003, 36:20). According to Patent Owner,

App.27a
a 10Base-F interface requires a fiber connection, and
“fiber cannot carry electrical current.” PO Resp. 41
(citing Ex. 2038 ¶ 78).
Patent Owner’s argument is not persuasive. Patent
Owner focuses on the embodiment shown in Figure 1
of Hunter. PO Resp. 40-41. Hunter, though, is not
limited to that embodiment. Hunter teaches that preferably “the bus comprises a 10Base-T bus,” but
notes that “[t]hose of skill in the art will recognize
. . . that the present invention is also compatible with
Ethernet®, Token Ring®, ATM and isoEthernet®
standards.” Ex. 1003, 21:17-21, 26:3-11 (emphases
added). Similarly, claim 3 of Hunter states that the
“bus comprises a two-pair twisted-pair bus selected
from the group consisting of: 10Base-T, Ethernet®,
Token Ring®, ATM, 100Base-T, and isoEthernet®.”
Ex. 1003, 51 (emphases added). These portions of
Hunter teach a network that preferably uses a
10Base-T Ethernet bus for connecting network equipment, but alternatively may use an isoEthernet bus.
Therefore, contrary to Patent Owner’s argument,
Hunter is not limited to an embodiment in which network equipment is connected by isoEthernet interfaces.
Moreover, even if Hunter is limited to an embodiment in which network equipment is connected by
isoEthernet interfaces, Patent Owner’s argument still
is not persuasive. As discussed above, Patent Owner
alleges that isoEthernet interfaces only carry ISDN
signals, not Ethernet signals. PO Resp. 40 (citing Ex.
1003, 17:15-18; Ex. 2038 ¶ 76). The evidence cited by
Patent Owner, however, does not support that argument. The portion of Hunter cited by Patent Owner
indicates that isoEthernet interfaces can carry ISDN
signals, but does not establish that isoEthernet inter-

App.28a
faces only carry ISDN signals. Ex. 1003, 15:15-18.
Further, the portion of Dr. Madisetti’s declaration
cited by Patent Owner states that “isoEthernet used
ISDN signals, not Ethernet signals,” but Dr. Madisetti
provides no support for that statement other than
citing the same portion of Hunter discussed above.
Ex. 2038 ¶ 76. In contrast, the documentary evidence
that Petitioner submitted with the Petition (Pet. iii
(exhibit list); Pet. Reply 12) indicates that isoEthernet
includes a 10Base-T mode in which the “IsoEthernet
layer functions as a 10Base-T transceiver” (Ex. 1010,
165).9 As a result, even if we accept Patent Owner’s
premise that hub 120 in Figure 1 of Hunter communicates with hubs 140, 150, 160, 180 using isoEthernet
interfaces, the evidence of record indicates that isoEthernet interfaces carry 10Base-T Ethernet signals at
least when used in the 10Base-T mode of isoEthernet.
Patent Owner’s argument regarding 10Base-T hub
170 in Figure 1 of Hunter also is not persuasive for
an additional reason. As discussed above, Patent Owner
alleges that 10Base-T hub 170 is connected to multimedia hub 120 only through a 10Base-F interface. PO
Resp. 40-41 (citing Ex. 1003, 36:20). The evidence
cited by Patent Owner, however, does not support that
argument. The cited portion of Hunter states that
“[t]he 10Base-T hub 170 further provides an Ethernet®
AU interface and a single 10Base-F network interface.”
Ex. 1003, 34:18-20 (emphasis added). The phrase
“further provides” in this portion of Hunter indicates
that 10Base-T hub 170 includes an AU interface and
a 10Base-F interface, but does not establish that
9 We cite to the page numbers that Petitioner added to Exhibit
1010. Also, like Hunter, Exhibit 1010 refers to the IEEE 802.9a
standard for isoEthernet. Ex. 1003, 15:15-18; Ex. 1010, 160.

App.29a
10Base-T hub 170 only includes an AU interface and
a 10Base-F interface. Id. Further, Hunter teaches
that multimedia hub 120 includes a 10Base-T repeater,
and Figure 1 of Hunter shows that the 10Base-T
repeater in multimedia hub 120 is connected to 10BaseT hub 170 over the 10Base-T Ethernet bus. Pet. Reply
11-12; Ex. 1003, 26:3-8, 32:16-27, 34:18-20, 37:19-28,
Fig. 1. This indicates that the 10Base-T Ethernet bus
in Hunter carries 10Base-T Ethernet signals from the
10Base-T repeater in multimedia hub 120 to 10BaseT hub 170.
At the oral hearing, Patent Owner further argued
that, although Hunter teaches a 10Base-T Ethernet
bus, Hunter does not teach that the 10Base-T Ethernet
bus carries both 10Base-T Ethernet signals and DC
power. Tr. 126:9-127:11. According to Patent Owner,
when the 10Base-T Ethernet bus carries DC power, it
only carries ISDN signals. Id. at 128:22-129:3. Patent
Owner reads Hunter too narrowly. For example, Hunter
teaches the following:
In the illustrated embodiment, the bus comprises a 10Base-T bus. A 10Base-T bus conventionally comprises two twisted-pair conductors 240, 250, each used for unidirectional transmission of data. Thus, in this
embodiment, one of the twisted pairs (say,
250) is employed for transmitting data from
the equipment 260, while the other of the
twisted-pairs (say, 240) is used for receiving
data into the equipment 260. The present
invention preferably employs each of the
twisted-pair conductors as a rail by which to
deliver DC power to the equipment 260.

App.30a
Ex. 1003, 37:19-28 (emphases added). In other words,
Hunter teaches generally that the 10Base-T Ethernet
bus can deliver DC power over the same two twisted
pair conductors used to transmit data. Id. at 21:2229, 37:19-28. We, therefore, do not read Hunter as
teaching that the 10Base-T Ethernet bus can only
carry DC power with ISDN signals. Rather, as discussed above, Hunter indicates that isoEthernet and
ISDN are just alternatives to a preferred embodiment
that uses 10Base-T Ethernet. Id. at 21:17-21 (“also
compatible with . . . isoEthernet®”); id. at 26:3-11 (“also
compatible with . . . isoEthernet®”); id. at 39:15-16
(“compatible with ISDN standards”).
Claim 1 recites “the piece of central BaseT
Ethernet equipment having at least one DC supply,
the piece of BaseT Ethernet terminal equipment having
at least one path to draw different magnitudes of
current flow from the at least one DC supply through
a loop formed over at least one of the conductors of
the first pair and at least one of the conductors of the
second pair.” Ex. 1001, 17:26-32. Hunter teaches that
the piece of central 10Base-T Ethernet equipment
includes a DC supply. Pet. 30; Ex. 1003, 35:27-36:1,
37:26-28, 52 (claim 5). Hunter also teaches that
the piece of 10Base-T Ethernet terminal equipment
includes a DC-to-DC converter and draws current flow
from the DC supply through a loop formed over the
two twisted pair conductors of the 10Base-T Ethernet
bus. Pet. 13, 30-34; Ex. 1002 ¶¶ 109-111; Ex. 1003,
35:27-38:25, 39:5-8. Bulan teaches that a typical
piece of terminal equipment includes a DC-to-DC
converter that draws different magnitudes of current
flow from a DC supply. Pet. 11-13; Ex. 1002 ¶¶ 70,
74; Ex. 1004, 1:52-65.

App.31a
Patent Owner responds that Petitioner does not
show sufficiently that Hunter teaches a path by which
a piece of Base-T Ethernet terminal equipment draws
different magnitudes of current flow from a DC supply.
PO Resp. 47-49. Specifically, Patent Owner refers
back to its previous argument, discussed above, that
Hunter does not teach providing phantom power to
Ethernet terminal equipment. Id. at 47. Patent Owner
also argues that, even if voice instrument 299 in
Figure 2 of Hunter is a piece of Base-T Ethernet
terminal equipment, “Hunter’s phantom power path
does not connect to it.” Id. at 47-49 (citing Ex. 2038
¶ 201; Ex. 2039, 84:22-85:21).
Patent Owner’s argument is not persuasive. As
discussed above, Hunter teaches generally providing
phantom power to Ethernet terminal equipment, and
is not limited to the configuration shown in Figure 2.
Ex. 1003, 19:2-7, 21:11-13, 21:22-29. Further, as also
discussed above, Hunter indicates that equipment 260
in Figure 2 is terminal equipment (id. at 23:18-20,
39:14-15, Fig. 2), and there is no dispute that Hunter
teaches a path for delivering phantom power to
equipment 260 (id. at 37:19-28, Fig. 2). Moreover,
Hunter also teaches that the path for delivering
phantom power connects to voice instrument 299. Pet.
Reply 15; Ex. 1003, 38:25-27 (“A voice instrument
299 is therefore couplable to the equipment 260 and
receives both data and power therefrom.”).
Claim 1 recites “the piece of central BaseT
Ethernet equipment to detect at least two different
magnitudes of the current flow through the loop and
to control the application of at least one electrical
condition to at least two of the conductors.” Ex. 1001,
17:32-36. Bulan teaches a current control apparatus

App.32a
that detects whether DC current flow in a path exceeds
static and dynamic current limits, and, if so, applies
an electrical condition by switching a high impedance
into the path. Pet. 12, 22-23, 32-33, 35; Ex. 1004, 3:521, 4:35-40, 6:34-43. Bulan teaches that, if the high
impedance reduces the DC current flow to a trickle
and then zero, the current control apparatus detects
a normal start up event for a DC-to-DC-converter and
applies an electrical condition by switching the high
impedance out of the path. Pet. 12-13, 23, 33-35; Ex.
1004, 3:22-25, 4:62-5:1, 6:43-58. In contrast, Bulan
teaches that, if the high impedance only reduces the
DC current flow to a trickle, the current control
apparatus detects an operational fault and keeps the
high impedance in the path. Pet. 12, 23, 33, 35; Ex.
1004, 3:22-25, 4:62-5:1, 6:43-58. By combining the
current control apparatus of Bulan with the central
piece of network equipment of Hunter, as Petitioner
proposes (see infra Section II.C.8), the current control
apparatus of Bulan detects the aforementioned different
magnitudes of DC current flow and applies the
aforementioned electrical conditions via at least one
of the contacts of the first and second pairs of the
10Base-T Ethernet bus of Hunter. Pet. 15, 31-32; Ex.
1002 ¶¶ 78-79, 109-111. Other than the arguments
discussed above, Patent Owner does not dispute that
the combination of Hunter and Bulan teaches the above
limitation of claim 1.
Original claim 73 recites limitations similar to
those discussed above for claim 1. Ex. 1001, 21:37-52.
Petitioner identifies evidence showing that the combination of Hunter and Bulan teaches the limitations of
original claim 73. Pet. 42. Our analysis of the limitations of claim 1 applies to the similar limitations of

App.33a
original claim 73. Patent Owner raises the same arguments for original claim 73 that we discussed above
for claim 1. For the same reasons discussed above,
Patent Owner’s arguments are not persuasive.
3. Claims 31 and 106
Claim 31 depends from claim 1, and recites
“wherein the BaseT Ethernet terminal equipment
comprises a controller coupled to the at least one
path.” Ex. 1001, 19:34-36. Original claim 106 depends
from original claim 73, and recites a similar limitation.
Id. at 23:53-55. The evidence of record demonstrates
that it would have been obvious to a person of ordinary
skill in the art that the piece of 10Base-T Ethernet
terminal equipment in Hunter includes a controller
coupled to the path. Pet. 35-36; Ex. 1002 ¶ 120; Ex.
1003, 10:12-14. Patent Owner does not dispute that
the combination of Hunter and Bulan teaches the above
limitation of claim 31 and original claim 106.
4. Claims 37 and 112
Claim 37 depends from claim 1, and recites
“wherein one or more magnitudes of the current flow
through the loop represent information about the piece
of BaseT Ethernet terminal equipment.” Ex. 1001,
19:52-55. Original claim 112 depends from original
claim 73, and recites a similar limitation. Id. at 24:36. Hunter teaches that the piece of 10Base-T
Ethernet terminal equipment includes a DC-to-DC
converter and draws current flow from the DC supply
through a loop formed over the two twisted pair
conductors of the 10Base-T Ethernet bus. Pet. 13, 3034; Ex. 1002 ¶¶ 109-111; Ex. 1003, 35:27-38:25, 39:58. Bulan teaches that the current control apparatus

App.34a
detects information about the Ethernet terminal
equipment based on the magnitudes of current flow
through the loop, such as whether the Ethernet
terminal equipment is experiencing an overcurrent
condition, and, if so, whether the overcurrent condition
is due to a normal start up event or an operational
fault. Pet. 12-13, 22-23, 32-37; Ex. 1004, 3:5-25, 4:3540, 4:62-5:1, 6:34-58.
Patent Owner repeats its previous argument that
the ISTE device in Hunter is not a piece of Base-T
Ethernet terminal equipment. PO Resp. 50 (citing Ex.
2038 ¶ 207). Patent Owner’s argument is not persuasive
because, as discussed above, the ISTE device in Hunter
is a piece of Base-T Ethernet terminal equipment.
See supra Section II.C.2. Further, Patent Owner
acknowledges that current flow through the loop
“provides information about the ISTE Card.” PO Resp.
51.
Patent Owner repeats its previous argument that,
even if voice instrument 299 in Hunter is a piece of
Base-T Ethernet terminal equipment, Hunter does not
teach that the loop of current flow includes voice
instrument 299. PO Resp. 50-51 (citing Ex. 2038 ¶ 207).
Patent Owner’s argument is not persuasive because,
as discussed above, Hunter teaches that the path for
delivering phantom power connects to voice instrument
299. See supra Section II.C.2.
Patent Owner also argues that an event that
causes an overcurrent condition “could occur anywhere
in the extended circuit leading from the Bulan hub to
the ISTE card and back to the Bulan hub,” and, thus,
“Bulan cannot distinguish a short in the wiring from
short in a device, such as the ISTE Card.” PO Resp.
51 (citing Ex. 1004, 1:26-31; Ex. 2038 ¶ 209; Ex.

App.35a
2039, 160:17-161:14). Patent Owner’s argument is not
persuasive. As discussed above, Bulan teaches that
the current flow through the loop indicates whether
the Ethernet terminal equipment is experiencing an
overcurrent condition, and, if so, whether the overcurrent condition is due to a normal start up event
for a DC-to-DC converter or an operational fault. Pet.
12-13, 22-23, 32-37; Ex. 1004, 3:5-25, 4:35-40, 4:625:1, 6:34-58. Regardless of whether the overcurrent
condition arose in the ISTE device or somewhere else
in the circuit, the fact that the ISTE card (or another
piece of terminal equipment) is experiencing an
overcurrent condition is information about the BaseT Ethernet terminal equipment, as required by claim
37 and original claim 112. Pet. Reply 21; Ex. 1046
¶ 88.
5. Claims 59 and 134
Claim 59 depends from claim 1, and recites
“wherein at least one of the different magnitudes of
current flow through the loop is part of a detection
protocol.” Ex. 1001, 20:61-63. Original claim 134
depends from original claim 73, and recites a similar
limitation. Id. at 25:13-15. Bulan teaches that the
current control apparatus detects whether DC current
flow in a path exceeds static and dynamic current
limits, and, if so, switches a high impedance into the
path. Pet. 12, 22-23, 32-33, 35, 38; Ex. 1004, 3:5-21,
4:35-40, 6:34-43. Bulan also teaches that, if the high
impedance reduces the DC current flow to a trickle
and then zero, the current control apparatus detects
a normal start up event, whereas, if the high impedance
only reduces the DC current flow to a trickle, the
current control apparatus detects an operational fault.

App.36a
Pet. 12-13, 23, 33-35, 38; Ex. 1002 ¶ 127; Ex. 1004,
3:22-25, 4:62-5:1, 6:43-58.
Patent Owner responds that Petitioner “do[es]
not identify any mutually agreed upon protocol, and
do[es] not explain how Bulan and the TE are communicating using such a protocol.” PO Resp. 52 (Ex.
2038 ¶ 212). Patent Owner’s argument is not persuasive. Patent Owner’s argument is premised on its
proposed construction of the term “protocol,” which
we do not adopt. See supra Section II.B.2. Specifically,
as discussed above, we determine that the term
“protocol” is not limited to a mutually agreed upon
method of communication. See id. Patent Owner does
not provide any other specific reason why the aforementioned teachings of Bulan would not have been
considered a detection protocol. See PO Resp. 52.
6. Claims 69 and 142
Claim 69 depends from claim 1, and recites
“wherein the piece of central BaseT Ethernet equipment
to distinguish the piece of BaseT Ethernet terminal
equipment from at least one other piece of BaseT
Ethernet terminal equipment.” Ex. 1001, 21:22-25.
Original claim 142 depends from original claim 73,
and recites a similar limitation. Id. at 25:36-39.
Bulan teaches that the current control apparatus
determines whether DC current flow exceeds static
and dynamic current limits, and, thus, distinguishes
one piece of terminal equipment that is experiencing
an overcurrent condition from other pieces of terminal
equipment that are not experiencing an overcurrent
condition. Pet. 12, 22-23, 32-33, 35, 39; Ex. 1002
¶ 128; Ex. 1004, 3:5-21, 4:35-40, 6:34-43. Bulan also
teaches that the current control apparatus detects

App.37a
whether a piece of terminal equipment is experiencing
a normal start up event or an operational fault, thereby
distinguishing different pieces of terminal equipment
that are experiencing different types of overcurrent
conditions. Pet. 12-13, 23, 33-35, 39; Ex. 1002 ¶ 128;
Ex. 1004, 3:22-25, 4:62-5:1, 6:43-58. Further, Bulan
teaches that the current control apparatus observes
an iterative pattern that is unique to a particular
piece of terminal equipment, and, thus, distinguishes
that piece of terminal equipment from other pieces of
terminal equipment. Pet. 39; Ex. 1002 ¶ 128; Ex. 1004,
7:7-13.
Patent Owner responds that the current control
apparatus in Bulan does not distinguish one piece of
Base-T Ethernet terminal equipment from another
because “the Bulan circuit does not have any information on where the current surges are coming from
in the network.” PO Resp. 53 (citing Ex. 2038 ¶¶ 214215). Patent Owner’s argument is not persuasive.
Hunter teaches that the central piece of network
equipment can include a separate current protection
circuit for each piece of Base-T Ethernet terminal
equipment. Pet. Reply 20-21; Ex. 1003, 42:21-23; Ex.
1046 ¶ 87. Further, as discussed above, Bulan teaches
that the current control apparatus observes an iterative
pattern that is “peculiar to the particular terminal
equipment being connected to the line.” Ex. 1004, 7:713 (emphasis added). Thus, in the proposed combination of Hunter and Bulan, the central piece of
network equipment includes a separate current control
apparatus that detects an overcurrent condition for
each piece of Base-T Ethernet terminal equipment,
thereby allowing the central piece of network equipment
to distinguish one piece of Base-T Ethernet terminal

App.38a
equipment from another. Ex. 1046 ¶ 87. Further,
regardless of whether the overcurrent condition arose
in a piece of
Base-T Ethernet terminal equipment or somewhere else in the circuit, the fact that the piece of
Base-T Ethernet terminal equipment is experiencing
an overcurrent condition distinguishes it from others
that are not. Pet. Reply 21; Ex. 1046 ¶ 88.
7. Claims 72 and 145
Claim 72 depends from claim 1, and recites
“wherein the piece of BaseT Ethernet terminal equipment is a powered-off piece of BaseT Ethernet equipment.” Ex. 1001, 21:33-36. Original claim 145 depends
from original claim 73, and recites a similar limitation.
Id. at 25:46-49. As discussed above, we construe the
term “powered-off” in claim 72 and original claim 145 to
mean “without operating power.” See supra Section
II.B.3. We also clarify that “without operating power”
includes applying power to a component of the Base-T
Ethernet terminal equipment, but does not include
applying operating power to the Base-T Ethernet
terminal equipment. See id.
Hunter teaches that the piece of 10Base-T Ethernet
terminal equipment includes a DC-to-DC converter that
draws current from the DC supply through a loop
formed over the two twisted pair conductors of the
10Base-T Ethernet bus. Pet. 13, 30-34, 40-42; Ex.
1002 ¶¶ 109-111; Ex. 1003, 35:27-38:25, 39:5-8. Bulan
teaches that a piece of terminal equipment with a
DC-to-DC converter, such as the one in Hunter, is
not supplied with operating power until the DC-to-

App.39a
DC converter completes its startup.10 Pet. 40-42; Ex.
1002 ¶¶ 132-133; Ex. 1003, 38:28-39:8, Ex. 1004, 1:5262, 6:65-7:14. Bulan also teaches that the detection of
the different magnitudes of DC current flow and the
application of the electrical conditions discussed above
(see supra Section II.C.2) occur before the DC-to-DC
converter completes its startup, and, thus, before the
terminal equipment is supplied with operating power.
Pet. 40-42; Ex. 1002 ¶¶ 132-133; Ex. 1004, 1:52-62,
6:65-7:14.
Patent Owner responds that “[b]ecause Bulan
supplies operating power to the converter inside the
purported end device, Bulan is applying operating
power to the ‘piece of BaseT Ethernet terminal
equipment,’ and therefore, the ‘piece of BaseT Ethernet
terminal equipment’ is not ‘powered off.’” PO Resp.
54 (citing Ex. 2038 ¶ 217). According to Patent Owner,
“[w]hether the device and the circuit beyond the DCDC converter are actually operating is irrelevant to
the claim requirements” because “[t]hat device—at
least via its DC-DC converter—is drawing operating
power.” PO Resp. 57 (citing Ex. 2038 ¶ 222).
Patent Owner’s argument is not persuasive. As
discussed above, we clarify that “without operating
power” includes applying some power to the Base-T
Ethernet terminal equipment, such as applying power
to a component of the Base-T Ethernet terminal
equipment. See supra Section II.B.3. Patent Owner
10 For example, Hunter explains that a DC-to-DC converter
“convert[s] 48V to transistor-to-transistor logic (‘TTL’) voltage
levels (i.e. 3V or 5V).” Ex. 1003, 39:5-8. Thus, the power applied
to the DC-to-DC converter is not the same as the operating
power applied to the Base-T Ethernet terminal equipment.

App.40a
does not dispute that the DC-to-DC converter is just
a component of the Base-T Ethernet terminal equipment, or that the Base-T Ethernet terminal equipment
is not operational until the DC-to-DC converter completes its startup. See PO Resp. 57 (“[w]hether the
device and the circuit beyond the DC-DC converter are
actually operating is irrelevant”). Patent Owner also
does not dispute that, when the current control
apparatus detects the different magnitudes of DC
current flow and applies the electrical conditions (see
supra Section II.C.2), the DC-to-DC converter has not
completed its startup. See PO Resp. 54-57. Thus, we
determine that the combination of Hunter and Bulan
teaches that the current control apparatus detects the
different magnitudes of DC current flow and applies
the electrical conditions when the Base-T Ethernet
terminal equipment is without operating power. Our
determination is consistent with Patent Owner’s
position in a related district court case that “[a] television, for example, is a ‘powered-off end device’ when
it is turned off, even though it remains connected to
AC power and current still flows through some of its
components to allow the remote control to turn it on.”
Ex. 2021, 18-19.
Moreover, as discussed above, Bulan teaches that
the current control apparatus switches a high impedance into the path when DC current flow exceeds
static and dynamic current limits. Pet. 12, 22-23, 3233, 35; Ex. 1004, 3:5-21, 4:35-40, 6:34-43. If the high
impedance only reduces the DC current flow to a trickle,
the current control apparatus keeps the high impedance
in the path, thereby maintaining the current flow to
a trickle. Pet. 12, 23, 33, 35; Ex. 1004, 3:22-25, 4:625:1, 6:43-58. If the DC current flow eventually reduces

App.41a
to zero, the current control apparatus switches the
high impedance out of the path, thereby allowing
current to flow again. Pet. 12-13, 23, 33-35; Ex. 1004,
3:22-25, 4:62-5:1, 6:43-58. In this example taught by
Bulan, the current control apparatus detects two
different magnitudes of current flow (i.e., a trickle
and then zero) and applies an electrical condition to
the path (i.e., switching the high impedance out of
path) during a time period when there is at most a
trickle of current applied to any component of the
Base-T Ethernet terminal equipment.
8. Reasons for Combining Hunter and
Bulan
Petitioner argues that a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Hunter and Bulan. Pet. 10-15. We
agree with and adopt Petitioner’s reasoning. Specifically, a person of ordinary skill in the art would
have substituted the typical current protection circuit
in Hunter with the improved current protection circuit
in Bulan. Id. at 14-15. Hunter and Bulan relate to the
same field of endeavor, which is powering network
terminal equipment. Id. at 10; Ex. 1002 ¶ 68; Ex.
1003, Abstract; Ex. 1004, Abstract. Further, Bulan
teaches that typical current protection circuits are
inadequate because they cannot distinguish between
a normal power up event for a DC-to-DC converter and
an operational fault. Pet. 11; Ex. 1002 ¶ 70; Ex. 1004,
1:26-31, 1:52-2:8. As a result, a typical current protection circuit may stop current from flowing during a
normal power up event and prevent network equipment
from starting properly, or may allow current to flow
during an operational fault and jeopardize network

App.42a
equipment. Pet. 11-12; Ex. 1002 ¶ 71; Ex. 1004, 1:652:8.
Hunter includes a typical current protection circuit
that is a simple thermistor or polyfuse, and, thus,
would have suffered from the deficiency identified in
Bulan. Pet. 12; Ex. 1002 ¶ 72; Ex. 1003, 38:12-19. A
person of ordinary skill in the art would have substituted the current protection circuit in Hunter with
the current protection circuit in Bulan because a person
of ordinary skill in the art would have recognized
that “the Bulan current control apparatus would be a
superior alternative to Hunter’s existing protective
device.” Pet. 13; Ex. 1002 ¶¶ 74-75. Further, this
substitution would have been a straightforward task
with a reasonable expectation of success. Pet. 14-15;
Ex. 1002 ¶¶ 76-79.
Patent Owner responds that a person of ordinary
skill in the art would not have had a reason to combine
the cited teachings of Hunter and Bulan. PO Resp.
19. The crux of Patent Owner’s argument is that a
person of ordinary skill in the art would not have had
a reason to use phantom power for Ethernet terminal
equipment. Id. at 19-32. However, as Patent Owner
acknowledged at the oral hearing, the basis for
Petitioner’s proposed combination of Hunter and Bulan
does not relate to using phantom power for Ethernet
terminal equipment. Tr. 157:19-158:12. We explain
in detail above that Hunter alone teaches using
phantom power for Ethernet terminal equipment. See
supra Section II.C.2. The proposed combination of
Hunter and Bulan instead relates to substituting the
current protection circuit in Hunter with the improved
current protection circuit in Bulan. Pet. 10-15. Thus,
any alleged issues with using phantom power for

App.43a
Ethernet terminal equipment are not pertinent to the
question of whether a person of ordinary skill in the
art would have had a reason to combine the cited
teachings of Hunter and Bulan in the manner proposed
by Petitioner. As such, Patent Owner’s argument is
not persuasive. Nonetheless, we address each of Patent
Owner’s specific contentions in detail below, and we
find that they also are not persuasive for additional
reasons.
First, Patent Owner argues that the invention of
the ’760 patent is “directed to equipment networked
over ‘pre-existing wiring or cables that connect pieces
of networked computer equipment to a network.’” PO
Resp. 19 (citing Pet. 3; Ex. 1002 ¶ 45) (emphasis
added). According to Patent Owner, at the time of the
’760 patent, a pre-existing Ethernet network would
have contained millions of nodes that “commonly”
included Bob Smith terminations and common mode
chokes. PO Resp. 19-20 (citing Ex. 2038 ¶ 42; Ex.
2039, 43:20-44:2, 45:6-8, 193:6, 195:3-196:3). Patent
Owner contends that supplying phantom power to
Ethernet terminal equipment using a pre-existing
Ethernet network, as proposed in Petitioner’s combination of Hunter and Bulan, “would have burned out
the existing Bob Smith terminations” and “would
saturate the common mode chokes.” PO Resp. 20-22
(citing Ex. 2038 ¶¶ 45, 47, 48).
Patent Owner’s argument depends on the premise
that the invention of the ’760 patent is limited to
equipment networked over pre-existing wiring or cables.
PO Resp. 19-22. The specification and claims of the
’760 patent, however, do not support that premise.
The specification of the ’760 patent states that “[t]his
invention is particularly adapted to be used with an

App.44a
existing Ethernet communications link.” Ex. 1001,
3:40-42. This portion of the ’760 patent indicates that
the system of the ’760 patent, while particularly
suited for use with an existing Ethernet network, is
not limited to such a use. Id. Further, the challenged
claims of the ’760 patent do not require a pre-existing
Ethernet network or pre-existing wiring or cables.11
Tr. 107:18-111:6.
We also note that Patent Owner does not direct
us to specific evidence indicating that the teachings
of Hunter or Bulan are limited to Ethernet equipment
networked over pre-existing wiring or cables. See PO
Resp. 19-22. And Patent Owner acknowledged at the
oral hearing that applying phantom power to “new”
Ethernet terminal equipment would not have caused
any problems with Bob Smith terminations or common
mode chokes. Tr. 135:1-12. Thus, any alleged issues
with Bob Smith terminations or common node chokes
in a pre-existing Ethernet network are not pertinent
to the question of whether a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Hunter and Bulan.
Moreover, even if we accepted Patent Owner’s
premise, Patent Owner’s argument still is not persuasive. Patent Owner and Patent Owner’s declarant,
Dr. Madisetti, acknowledged that not all pre-existing
Ethernet networks included Bob Smith terminations
11 At the oral hearing, Patent Owner argued that the ’760
patent describes transmitting a low DC current, which, according
to Patent Owner, would not have damaged Bob Smith terminations
or common mode chokes. Tr. 111:7-22. Patent Owner, however,
acknowledged that the challenged claims do not recite a limit on
the magnitude of the DC current flow. Id. at 130:20-131:15.

App.45a
or common mode chokes.12 Tr. 115:19-116:3, 150:16151:8; Ex. 1020, 55:19-56:2, 80:16-23. Further,
Petitioner’s declarant, Mr. Ian Crayford, explains
that, even for those preexisting Ethernet networks
that did include Bob Smith terminations and/or
common mode chokes, it would have been within the
knowledge and capabilities of a person of ordinary
skill in the art to implement phantom power without
damaging the Bob Smith terminations or common mode
chokes, such as by incorporating a blocking capacitor.
Pet. Reply 4; Ex. 1046 ¶¶ 22-26.
Second, Patent Owner argues that a person of
ordinary skill in the art seeking to supply operating
power to Ethernet terminal equipment would have
supplied that operating power over the unused lines
in an Ethernet connection, rather than over the same
lines used to transmit data. PO Resp. 22-26. Patent
Owner alleges that a standard 10Base-T Ethernet
network used eight lines, with four of the lines used
to transmit data and the other four lines left unused.
Id. at 24-26 (citing Pet. 50-51; Ex. 2038 ¶ 54; Ex.
2039, 70:23-71:3). According to Patent Owner, a
person of ordinary skill would have provided operating
power to Ethernet terminal equipment over the unused
lines to avoid interference with the data signals. PO
Resp. 23-24 (citing Ex. 1003, 19:20-22; Ex. 2038 ¶¶ 4951; Ex. 2039, 138:16-139:11).
12 For example, as Petitioner explains (Pet. Reply 2-4), Bob
Smith terminations and common mode chokes were used to
satisfy electromagnetic emissions standards (Ex. 1046 ¶ 13),
but those emissions standards also could have been satisfied
without using Bob Smith terminations and common mode
chokes (id. ¶¶ 18-21).

App.46a
Patent Owner’s argument is not persuasive.
Hunter teaches a 10Base-T Ethernet bus that includes
only two twisted pair conductors, both of which are
used to transmit data. Ex. 1003, 37:19-28. Thus,
contrary to Patent Owner’s argument, the 10Base-T
Ethernet bus in Hunter does not include any unused
lines. Id. Further, Hunter teaches delivering DC power
over the same lines of the 10Base-T Ethernet bus
used to transmit data (see supra Section II.C.2)
because it “has the advantage of not requiring the
installation of a dedicated power cable” (Ex. 1003, 17:
13-26). Hunter even addresses Patent Owner’s alleged
concerns about interference by explaining that “a
careful phantom power scheme must be implemented
to avoid problems that may arise due to interactions
between the power and the data.” Id. Thus, although
alternative ways of providing operating power to Ethernet terminal equipment may have existed (PO Resp.
23-26), that does not detract from the express teachings
of Hunter. See In re Mouttet, 686 F.3d 1322, 1334
(Fed. Cir. 2012) (“[J]ust because better alternatives
exist in the prior art does not mean that an inferior
combination is inapt for obviousness purposes.”); In
re Fulton, 391 F.3d 1195, 1200 (Fed. Cir. 2004).
Third, Patent Owner argues that “[a]t the time
of the invention, and for several years afterward,
experts in the field were skeptical that operating
power could be delivered to terminal equipment using
the Ethernet data pairs . . . without disrupting the data
propagation.” PO Resp. 27 (citing Ex. 2038 ¶ 56).
Specifically, Patent Owner relies on evidence relating
to meetings of an IEEE committee. PO Resp. 27-31.
In particular, Patent Owner explains that certain
members of the committee identified the advantages

App.47a
of supplying power over unused lines (id. at 27-29
(citing Ex. 2040, 2-3; Ex. 2044, 3; Ex. 2048)), and
identified the technical issues with supplying power
over the data lines (PO Resp. 29 (citing Ex. 2044, 2)).
Patent Owner also explains that at a meeting in March
2000, “no one brought a motion seeking to apply
power to the data-carrying pairs,” (PO Resp. 28
(citing Ex. 2041, 3) (emphasis omitted)), and that it
was only in July 2000, after 250 hours of investigation,
that the committee was “convinced that putting
power on the data pairs was technically feasible
without affecting the propagation of Ethernet data”
(PO Resp. 30-31 (citing Ex. 2045, 1, 3; Ex. 2046, 2)).
Patent Owner’s argument is not persuasive.
The evidence cited by Patent Owner relates to whether
certain IEEE committee members believed that
phantom power should be adopted as an Ethernet
standard, not whether phantom power would work in
an Ethernet network. PO Resp. 27-31; Ex. 2041, 3
(“The standard for DTE power distribution”). Further,
although Patent Owner’s evidence indicates that some
IEEE committee members were in favor of adopting
an Ethernet standard in which operating power was
delivered over unused lines, Petitioner identifies
evidence indicating that other committee members
were in favor of using phantom power as the Ethernet
standard. Pet. Reply 7; Ex. 1037, 3 (“Current will be
injected via the center taps using a Phantom Power
method on the TX and RX pairs.”); Ex. 1040, 3
(“Power over signal pairs allows easier integration of
discovery & power control circuitry onto the PHY.”);
Ex. 1046 ¶¶ 38-44. In any event, the fact that an
alternative way of providing operating power to
Ethernet terminal equipment existed and was consid-

App.48a
ered for an IEEE standard does not detract from the
express teachings of Hunter. See Mouttet, 686 F.3d
at 1334; Fulton, 391 F.3d at 1200. Moreover, we note
that, even if Patent Owner’s evidence indicates some
amount of skepticism, we determine that it does not
outweigh the strong evidence of obviousness presented
by Petitioner and discussed in this Decision. See In re
Cyclobenzaprine Hydrochloride Extended-Release
Capsule Patent Litigation, 676 F.3d 1063, 1079 (Fed.
Cir. 2012).
Fourth, Patent Owner argues that Petitioner does
not show sufficiently “that Hunter had the ‘problem’
that the complex Bulan circuit allegedly solves.” PO
Resp. 42. More specifically, Patent Owner contends
that the central piece of network equipment in Hunter
does not need to be able to determine whether an
overcurrent condition is due to a normal power up
event or an operational fault. Id. at 42-43. Further,
according to Patent Owner, Hunter teaches using a
simpler thermistor or polyfuse (id. at 43-44 (citing
Ex. 1003, 40:19-20), and a person of ordinary skill in
the art would have been able to select the correct
thermistor for a given circuit in order to prevent the
thermistor from blocking the necessary start up current
(PO Resp. 44-45 (citing Ex. 2038 ¶¶ 84-85)).
Patent Owner’s argument is not persuasive.
Hunter itself does not have to identify the problem
that would have motivated a person of ordinary skill
in the art to combine the cited teachings of Hunter
and Bulan. See KSR, 550 U.S. at 417. Rather, “if a
technique has been used to improve one device, and a
person of ordinary skill in the art would recognize
that it would improve similar devices in the same
way, using the technique is obvious unless its actual

App.49a
application is beyond his or her skill.” Id. As discussed
above, Bulan explains that a typical current protection
circuit with just a single threshold value, such as the
one taught by Hunter, cannot distinguish between a
normal power up event for a DC-to-DC converter and
an operational fault. Pet. 11-12; Ex. 1002 ¶¶ 70-72;
Ex. 1003, 38:12-19; Ex. 1004, 1:26-31, 1:52-2:8; Tr. 13:315. Because the Base-T Ethernet terminal equipment
in Hunter includes a DC-to-DC converter, the current
protection circuit in Hunter would have suffered from
the same problem described in Bulan. Pet. 13; Ex.
1002 ¶ 74; Ex. 1003, 39:5-8. As a result, even if
Hunter does not require the more advanced current
protection circuit taught by Bulan, a person of ordinary
skill in the art would have recognized it as an
improvement. Pet. 13; Ex. 1002 ¶¶ 74-75. Further,
even if Bulan’s current protection circuit was more
complex than Hunter’s simple thermistor or polyfuse,
that alone does not negate the identified reason for
combining the teachings of Hunter and Bulan. See KSR,
550 U.S. at 417 (“[I]f a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is obvious
unless its actual application is beyond his or her
skill.”); Winner Int’l Royalty Corp. v. Wang, 202 F.3d
1340, 1349 n.8 (Fed. Cir. 2000) (“The fact that the
motivating benefit comes at the expense of another
benefit, however, should not nullify its use as a basis
to modify the disclosure of one reference with the
teachings of another.”).
9. Summary
For the reasons discussed above, we determine
that Petitioner has shown by a preponderance of the

App.50a
evidence that claims 1, 31, 37, 59, 69, and 72, and
original claims 73, 106, 112, 134, 142, and 145 would
have been obvious over Hunter and Bulan.
D. Obviousness of Claims 1, 31, 37, 59, 69, 72,
73, 106, 112, 134, 142, and 145 over Bloch,
IEEE 802.3-1993, and IEEE 802.3-1995, and
over Bloch, Huizinga, IEEE 802.3-1993, and
IEEE 802.3-1995
Petitioner argues that claims 1, 31, 37, 59, 69,
72, 73, 106, 112, 134, 142, and 145 would have been
obvious over Bloch, Huizinga, IEEE 802.31993, and
IEEE 802.3-1995. Pet. 7. In the Decision on Institution,
we explained that Petitioner demonstrated a reasonable
likelihood of prevailing in showing that claims 1, 31,
37, 59, 69, and 72, and original claims 73, 106, 112,
134, 142, and 145 would have been obvious over Bloch,
IEEE 802.31993, and IEEE 802.3-1995, even without
Huizinga. Dec. on Inst. 16. Therefore, we instituted
an inter partes review on the grounds that claims 1,
31, 37, 59, 69, and 72, and original claims 73, 106,
112, 134, 142, and 145 would have been obvious over
Bloch, IEEE 802.3-1993, and IEEE 802.3-1995, and over
Bloch, Huizinga, IEEE 802.3-1993, and IEEE 802.31995. Id. at 20-21.
We have considered the parties’ arguments and
supporting evidence, and we determine that Petitioner
has shown by a preponderance of the evidence that
claims 1, 31, 37, 59, 69, and 72, and original claims
73, 106, 112, 134, 142, and 145 would have been obvious
over Bloch, IEEE 802.3-1993, and IEEE 802.3-1995,
and over Bloch, Huizinga, IEEE 802.3-1993, and IEEE
802.3-1995.

App.51a
1. Overview of Bloch, Huizinga, IEEE
802.3-1993, and IEEE 802.3-1995
Bloch describes a system that comprises a control
unit and a terminal connected by two communication
channels with each communication channel having
two conductors. Ex. 1005, Abstract. According to
Bloch, “[p]ower feed and bi-directional signaling are
accomplished simultaneously over the same four
conductors used for the two communication channels
without interference.” Id. Although Bloch describes
this phantom power circuit in the context of a key
telephone system, Bloch explains that it “can find
application in many different control unit/terminal
applications.” Id. at 4:49-52.
Bloch explains that the control unit detects DC
current pulses applied to the conductors when the
terminal switches a resistor into and out of the path.
Id. at 5:44-55. The DC current pulses detected by the
control unit provide information regarding the status
of different elements of the terminal. Id. at 5:56-6:2.
In response to the detected DC current pulses, the
control unit applies voltage pulses to the conductors
to control indicators in the terminal. Id. at 10:34-40,
11:1-5.
Huizinga also describes a key telephone system.
Ex. 1009, 1:6-9. Huizinga explains that, when a user
presses a button to select a telephone line, the terminal
sends status information to the control unit. Id. at
5:29-39. In response, the control unit sends data to
the terminal causing a lamp associated with the
selected telephone line to light up. Id.
IEEE 802.3-1993 and IEEE 802.3-1995 describe a
10Base-T Ethernet network. Ex. 1006, 243; Ex. 1007,

App.52a
23. In particular, IEEE 802.3-1993 and IEEE 802.31995 describe central network equipment, such as
a 10Base-T repeater, and terminal equipment. Ex.
1006, 243, 267; Ex. 1007, 27; Ex. 1008, 303-304. IEEE
802.3-1993 and IEEE 802.3-1995 further describe an
Ethernet connector comprising one pair of contacts
(TD+ and TD-) used to transmit 10Base-T Ethernet
communication signals and a second pair of contacts
(RD+ and RD-) used to receive 10Base-T Ethernet
communication signals. Ex. 1006, 266-267; Ex. 1007,
147-148.
2. Claims 1 and 73
Claim 1 recites “[a] BaseT Ethernet system” comprising “a piece of central BaseT Ethernet equipment”
and “a piece of BaseT Ethernet terminal equipment.”
Ex. 1001, 17:16-18. IEEE 802.3-1993 and IEEE 802.31995 teach a Base-T Ethernet system with a piece of
central Base-T Ethernet equipment, such as a Base-T
repeater, and a piece of Base-T Ethernet terminal
equipment, such as a piece of Data Terminal Equipment (“DTE”). Pet. 55-56; Ex. 1006, 243, 267; Ex. 1007,
27; Ex. 1008, 303-304. Patent Owner does not dispute
that the combination of Bloch, IEEE 802.3-1993, and
IEEE 802.3-1995 teaches the above limitation of
claim 1.
Claim 1 recites “data signaling pairs of conductors
comprising first and second pairs used to carry BaseT
Ethernet communication signals between the piece of
central BaseT Ethernet equipment and the piece of
BaseT Ethernet terminal equipment, the first and
second pairs physically connect between the piece of
BaseT Ethernet terminal equipment and the piece of
central BaseT Ethernet equipment.” Ex. 1001, 17:19-

App.53a
25. IEEE 802.3-1993 and IEEE 802.3-1995 teach a
connector that physically connects the piece of central
Base-T Ethernet equipment and the piece of Base-T
Ethernet terminal equipment. Pet. 56-57; Ex. 1006,
266-267; Ex. 1007, 147-148; Ex. 1008, 303-304. IEEE
802.3-1993 and IEEE 802.3-1995 teach that the
Ethernet connector comprises one pair of contacts
(TD+ and TD-) used to transmit 10Base-T Ethernet
communication signals and a second pair of contacts
(RD+ and RD-) used to receive Base-T Ethernet
communication signals. Pet. 56-57; Ex. 1006, 266-267;
Ex. 1007, 147-148. Patent Owner does not dispute that
the combination of Bloch, IEEE 802.31993, and IEEE
802.3-1995 teaches the above limitation of claim 1.
Claim 1 recites “the piece of central BaseT Ethernet equipment having at least one DC supply, the
piece of BaseT Ethernet terminal equipment having at
least one path to draw different magnitudes of current
flow from the at least one DC supply through a loop
formed over at least one of the conductors of the first
pair and at least one of the conductors of the second
pair.” Ex. 1001, 17:26-32. Bloch teaches a control
unit with a DC power supply. Pet. 57-58; Ex. 1005,
4:14-17, 6:3-10, 6:28-40, Fig. 1. Bloch teaches a terminal
that draws different magnitudes of current flow from
the DC power supply over two pairs of conductors by
switching a resistor into and out of a path between
the control unit and the terminal. Pet. 58-59; Ex.
1005, 5:20-30, 5:44-55, 6:3-10, 6:28-40, 9:6-22. By
combining the circuit of Bloch with the Base-T Ethernet
system of IEEE 802.3-1993 and IEEE 802.3-1995, as
Petitioner proposes (see infra Section II.D.8), the
terminal of Bloch draws the aforementioned different
magnitudes of current flow via at least one of the

App.54a
conductors of the first and second pairs of the connector
of IEEE 802.3-1993 and IEEE 802.3-1995. Pet. 51-53;
Ex. 1002 ¶¶ 156-158. Patent Owner does not dispute
that the combination of Bloch, IEEE 802.31993, and
IEEE 802.3-1995 teaches the above limitation of
claim 1.
Claim 1 recites “the piece of central BaseT
Ethernet equipment to detect at least two different
magnitudes of the current flow through the loop and
to control the application of at least one electrical
condition to at least two of the conductors.” Ex. 1001,
17:32-36. Bloch teaches that the control unit detects
the DC current pulses applied to the path by the
terminal. Pet. 59-60; Ex. 1005, 5:44-6:2, 9:6-15, 10:5665. Bloch also teaches that, in response to the
detected DC current pulses, the control unit applies
voltage pulses to the path to control indicators in the
terminal. Pet. 60-61; Ex. 1005, 10:34-55, 10:66-11:10.
By combining the circuit of Bloch with the Base-T
Ethernet system of IEEE 802.3-1993 and IEEE 802.31995, as Petitioner proposes (see infra Section II.D.8),
the control unit of Bloch detects the aforementioned
DC current pulses and applies the aforementioned
voltage pulses through the connector of IEEE 802.31993 and IEEE 802.3-1995. Pet. 51-53; Ex. 1002
¶¶ 156-158. Patent Owner does not dispute that the
combination of Bloch, IEEE 802.3-1993, and IEEE
802.3-1995 teaches the above limitation of claim 1.13

13 Although not necessary to our ultimate determination, we
note that Huizinga teaches that the indicators in the terminal
can be lamps that illuminate for different telephone lines. Pet.
61; Ex. 1009, 4:26-30, 5:29-39. Patent Owner does not dispute
that the combination of Bloch, Huizinga, IEEE 802.3-1993, and

App.55a
Original claim 73 recites limitations similar to
those discussed above for claim 1. Ex. 1001, 21:37-52.
Petitioner identifies evidence showing that the combination of Bloch, IEEE 802.3-1993, and IEEE 802.31995 teaches the limitations of original claim 73. Pet.
66. Our analysis of the limitations of claim 1 applies
to the similar limitations of original claim 73.
3. Claims 31 and 106
Claim 31 depends from claim 1, and recites
“wherein the BaseT Ethernet terminal equipment
comprises a controller coupled to the at least one
path.” Ex. 1001, 19:34-36. Original claim 106 depends
from original claim 73, and recites a similar limitation.
Id. at 23:53-55. Bloch teaches that the terminal
includes a controller coupled to the path for switching
the resistor into and out of the path. Pet. 61-62; Ex.
1002 ¶ 174; Ex. 1005, 9:6-22. Patent Owner does not
dispute that the combination of Bloch, IEEE 802.31993, and IEEE 802.3-1995 teaches the above limitation of claim 31 and original claim 106.
4. Claims 37 and 112
Claim 37 depends from claim 1, and recites
“wherein one or more magnitudes of the current flow
through the loop represent information about the
piece of BaseT Ethernet terminal equipment.” Ex.
1001, 19:52-55. Original claim 112 depends from
original claim 73, and recites a similar limitation. Id.
at 24:3-6. Bloch teaches that the control unit detects
the DC current pulses applied to the loop by the
IEEE 802.3-1995 teaches the limitations of claim 1 and original
claim 73.

App.56a
terminal, which provide information regarding the
status of different elements of the terminal. Pet. 5960, 62-63; Ex. 1005, 5:44-6:2, 9:6-15, 10:56-65. Patent
Owner does not dispute that the combination of
Bloch, IEEE 802.3-1993, and IEEE 802.3-1995 teaches
the above limitation of claim 37 and original claim
112.
5. Claims 59 and 134
Claim 59 depends from claim 1, and recites
“wherein at least one of the different magnitudes of
current flow through the loop is part of a detection
protocol.” Ex. 1001, 20:61-63. Original claim 134
depends from original claim 73, and recites a similar
limitation. Id. at 25:13-15. Bloch teaches that the
control unit detects the DC current pulses applied to
the loop by the terminal, which provide information
regarding the status of different elements of the
terminal. Pet. 59-60, 63-64; Ex. 1005, 5:44-6:2, 9:615, 10:3-12, 10:34-40, 10:56-65,11:37-42. Patent Owner
does not dispute that the combination of Bloch, IEEE
802.3-1993, and IEEE 802.3-1995 teaches the above
limitation of claim 59 and original claim 134.
6. Claims 69 and 142
Claim 69 depends from claim 1, and recites
“wherein the piece of central BaseT Ethernet equipment to distinguish the piece of BaseT Ethernet
terminal equipment from at least one other piece of
BaseT Ethernet terminal equipment.” Ex. 1001, 21:2225. Original claim 142 depends from original claim
73, and recites a similar limitation. Id. at 25:36-39.
Bloch teaches that the control unit detects the DC
current pulses applied to the loop by the terminal,

App.57a
which provide distinguishing information regarding
the status of different elements of the terminal. Pet.
59-60, 64-65; Ex. 1005, 5:44-6:2, 9:6-15, 10:56-65.
Patent Owner does not dispute that the combination
of Bloch, IEEE 802.3-1993, and IEEE 802.3-1995
teaches the above limitation of claim 69 and original
claim 142.14
7. Claims 72 and 145
Claim 72 depends from claim 1, and recites
“wherein the piece of BaseT Ethernet terminal equipment is a powered-off piece of BaseT Ethernet
equipment.” Ex. 1001, 21:33-36. Original claim 145
depends from original claim 73, and recites a similar
limitation. Id. at 25:46-49. As discussed above, we
construe the term “powered-off” in claim 72 and
original claim 145 to mean “without operating power.”
See supra Section II.B.3. We also clarify that “without
operating power” includes applying power to a
component of the Base-T Ethernet terminal equipment,
but does not include applying operating power to the
Base-T Ethernet terminal equipment. See id. Bloch
teaches that the control unit detects the DC current
pulses applied to the loop by the terminal, even when
the terminal telephone station is “on hook” and the
speakerphone is not operational. Pet. 65-66; Ex. 1002
¶ 181; Ex. 1005, 11:17-22, 11:31-34.
14 Although not necessary to our ultimate determination, we
note that Huizinga teaches that the status information from the
terminal is used by the control unit to determine which
telephone station is using a particular telephone line. Pet. 65;
Ex. 1009, 5:29-39. Patent Owner does not dispute that the
combination of Bloch, Huizinga, IEEE 802.3-1993, and IEEE
802.3-1995 teaches the above limitation of claim 69 and original
claim 142.

App.58a
Patent Owner responds that “Bloch’s Terminal
device has operating power when the Bloch circuit is
operating because the Voltage Regulator 500 inside
the terminal device has operating power, regardless
of whether the ‘speakerphone’ is operating.” PO
Resp. 58-59 (citing Ex. 1005, 3:17-23; Ex. 2038 ¶ 225;
Ex. 2039, 211:24-212:21). Patent Owner’s argument
is not persuasive. As discussed above, we clarify that
“without operating power” includes applying some
power to the Base-T Ethernet terminal equipment,
such as applying power to a component of the Base-T
Ethernet terminal equipment. See supra Section
II.B.3. Thus, the fact that power is applied to the
voltage regulator component of the terminal in Bloch
does not mean that operating power is applied to the
terminal. Patent Owner does not dispute that, when
the control unit detects the different magnitudes of
DC current flow and applies the electrical conditions
(see supra Section II.D.2), the terminal telephone
station is “on hook” and the speakerphone is not
operational (see PO Resp. 59 (“regardless of whether
the ‘speakerphone’ is operating”)). Thus, we determine that the combination of Bloch, IEEE 802.31993, and IEEE 802.3-1995 teaches that the control
unit detects the different magnitudes of DC current
flow and applies the electrical conditions when the
terminal equipment is without operating power. Our
determination is consistent with Patent Owner’s
position in a related district court case that “[a]
television, for example, is a ‘powered-off end device’
when it is turned off, even though it remains connected
to AC power and current still flows through some of
its components to allow the remote control to turn it
on.” Ex. 2021, 18-19.

App.59a
8. Reasons for Combining Bloch, Huizinga,
IEEE 802.3-1993, and IEEE 802.3-1995
Petitioner argues that a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Bloch, IEEE 802.3-1993, and IEEE
802.3-1995. Pet. 53-55. We agree with and adopt
Petitioner’s reasoning. Specifically, Bloch describes a
phantom power circuit in the context of a key telephone system, but explains that it “can find application
in many different control unit/terminal applications.”
Id. at 43-44 (emphasis omitted); Ex. 1005, 4:49-52. A
person of ordinary skill in the art would have combined
the circuit of Bloch with the 10Base-T Ethernet
network of IEEE 802.3-1993 and IEEE 802.3-1995 to
achieve the “benefit of supplying power over the
same wires used for the Ethernet communication
channel.” Pet. 54; Ex. 1002 ¶ 160. This combination
would have “eliminate[d] the need to provide a local
power supply or separate conductors and connectors
for powering the DTE device,” and would have allowed
devices to “communicate and provide status and
control information even when they are not operating
normally and the communication channel is not in
use.” Pet. 54-55; Ex. 1002 ¶ 160.
Patent Owner responds that a person of ordinary skill in the art would not have had a reason to
combine the cited teachings of Bloch, IEEE 802.31993, and IEEE 802.3-1995. PO Resp. 19. Patent
Owner relies on some of the same arguments discussed
above with respect to the combination of Hunter and
Bulan (id. at 19-32), but also presents some additional
arguments that are specific to the combination of
Bloch, IEEE 802.3-1993, and IEEE 802.3-1995 (id. at

App.60a
32-34). We address each of Patent Owner’s specific
contentions in detail below.
First, Patent Owner argues that providing phantom power over pre-existing Ethernet wiring and
cables would have damaged Bob Smith terminations
and common mode chokes. Id. at 19-22. Patent
Owner’s argument is not persuasive. As discussed
above, Patent Owner’s premise that the invention of
the ’760 patent is limited to a pre-existing Ethernet
network is not supported by the specification or
claims of the ’760 patent. See supra Section II.C.8. In
addition, we note that Patent Owner does not direct
us to specific evidence indicating that the teachings
of Bloch, IEEE 802.3-1993, or IEEE 802.3-1995 are
limited to a pre-existing Ethernet network. See PO
Resp. 19-22. And Patent Owner acknowledged at the
oral hearing that applying phantom power to “new”
Ethernet terminal equipment would not have caused
any problems with Bob Smith terminations or common
mode chokes. Tr. 135:1-12. Thus, any alleged issues
with Bob Smith terminations or common node chokes
in a pre-existing Ethernet network are not pertinent
to the question of whether a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Bloch, IEEE 802.3-1993, and IEEE
802.3-1995.
Moreover, even if we accepted Patent Owner’s
premise, Patent Owner’s argument still is not persuasive because not all pre-existing Ethernet networks
included Bob Smith terminations or common mode
chokes. See supra Section II.C.8. And, even for those
pre-existing Ethernet networks that did include Bob
Smith terminations or common mode chokes, it would
have been within the knowledge and capabilities of a

App.61a
person of ordinary skill in the art to implement
phantom power without damaging the Bob Smith
terminations or common mode chokes. See id.
Second, Patent Owner argues that a person of
ordinary skill in the art would have provided operating power to Ethernet terminal equipment over the
unused lines in an Ethernet connection to avoid
interference with the data signals. PO Resp. 22-26.
In particular, Patent Owner points out that the
Ethernet connector taught by IEEE 802.3-1993 and
IEEE 802.3-1995 includes two unused pairs of
conductors. Id. at 24-25 (citing Ex. 1006, 266-267; Ex.
1007, 147).
Patent Owner’s argument is not persuasive.
Bloch teaches providing operating power to terminal
equipment over the same lines used to transmit data.
Pet. 43-44; Ex. 1005, 2:54-61, 5:20-30, Fig. 1. Although
Bloch relates to a key telephone system, Bloch explains
that its phantom power circuit “can find application
in many different control unit/terminal applications.”
Ex. 1005, 4:49-52. Further, a person of ordinary skill
in the art would have possessed the background
knowledge that phantom power also would work in
an Ethernet network. See Randall Mfg. v. Rea, 733
F.3d 1355, 1362-63 (Fed. Cir. 2013). For example, as
discussed above, Hunter teaches providing phantom
power to Ethernet terminal equipment over a 10BaseT Ethernet bus. See supra Section II.C.2. In addition,
at least two patents identified on the face of the ’760
patent, namely U.S. Patent No. 5,994,998 (“Fisher
’998”) and U.S. Patent No. 6,140,911 (“Fisher ’911”)
(collectively, “the Fisher patents”), teach providing

App.62a
phantom power to Ethernet terminal equipment.15
Pet. Reply 5; Ex. 1025, 2:21-41, 3:49-67, 6:7-10; Ex.
1026, 2:32-52, 3:59-4:10, 6:17-20. Thus, although
alternative ways of providing operating power to
Ethernet terminal equipment may have existed (PO
Resp. 23-26), that does not detract from the phantom
power technique taught by Bloch (as well as Hunter
and the Fisher patents). See Mouttet, 686 F.3d at
1334; Fulton, 391 F.3d at 1200.
Third, Patent Owner argues that members of an
IEEE committee were skeptical that phantom power
would work in an Ethernet network. PO Resp. 27-32.
Patent Owner’s argument is not persuasive. As discussed above, the evidence cited by Patent Owner
relates to whether the IEEE committee members
believed that phantom power should be adopted as
an Ethernet standard, not whether phantom power
would work in an Ethernet network. See supra Section
II.C.8. Further, as also discussed above, at least
some committee members were in favor of using
phantom power as an Ethernet standard. See id. In
any event, the fact that an alternative way of providing
operating power to Ethernet terminal equipment
existed and was considered for an IEEE standard
does not detract from the phantom power technique
taught by Bloch. See Mouttet, 686 F.3d at 1334; Fulton,
391 F.3d at 1200. Moreover, we note that, even if
15 Patent Owner argued at the oral hearing that the Fisher
patents do not teach certain limitations of the challenged
claims. Tr. 124:7-126:8. However, we do not rely on the Fisher
patents to teach any limitations of the challenged claims. We
rely on the Fisher patents as evidence that a person of ordinary
skill in the art would have known that phantom power would
work in an Ethernet network.

App.63a
Patent Owner’s evidence indicates some amount of
skepticism, we determine that it does not outweigh
the strong evidence of obviousness presented by
Petitioner and discussed in this Decision. See In re
Cyclobenzaprine, 676 F.3d at 1079.
Fourth, Patent Owner argues that Petitioner’s
proposed combination of Bloch, IEEE 802.3-1993,
and IEEE 802.3-1995 would have degraded the Ethernet data signal. PO Resp. 32-34. Specifically, Patent
Owner argues that switching a resistor into and out
of the phantom power circuit, as taught in Bloch,
would have created noise and degraded the Ethernet
data signal. Id. at 32-33 (citing Ex. 2038 ¶ 86; Ex. 2039,
172:20-173:3). In addition, Patent Owner contends
that applying operating power to just one side of the
transformers in Bloch, as Petitioner proposes in
Figure 6 of the Petition, would have saturated the
coils and degraded the Ethernet data signal. PO
Resp. 33 (citing Ex. 2038 ¶ 87; Ex. 2039, 168:6-14).
Patent Owner also notes that, even if operating
power was applied to both sides of the transformers
in Bloch, “a saturation problem would still exist
because the center taps are never perfectly centered
and there can be imbalances in the wires.” PO Resp.
33-34 (citing Ex. 2038 ¶ 88; Ex. 2039, 169:14-15).
Patent Owner’s argument that switching a
resistor into and out of the phantom power circuit
would have degraded the Ethernet data signal is not
persuasive. Patent Owner’s declarant, Dr. Madisetti,
states that “[s]witching the resistor would create noise
that would degrade the Ethernet data propagation
and reduce bandwidth,” but does not otherwise explain
or provide support for that statement. Ex. 2038 ¶ 86.
In contrast, Petitioner’s declarant, Mr. Crayford,

App.64a
explains that the resistor in Bloch would have produced
low frequency signals, which would have been unlikely
to interfere with the higher frequency data signals of
an Ethernet network. Pet. Reply 8; Ex. 1046 ¶¶ 4951. Mr. Crayford also explains that, even if the
resistor in Bloch would have caused some interference
with the Ethernet data signals, it would have been
within the knowledge and capabilities of a person of
ordinary skill in the art to separate the low frequency
resistor signals from the high frequency Ethernet
data signals, such as by using a filter. Pet. Reply 8;
Ex. 1046 ¶ 49; Ex. 2039, 172:20-173:3.
Patent Owner’s argument that applying operating power to the transformers in Bloch would
saturate the coils also is not persuasive. Patent
Owner’s argument is premised on annotations that
Petitioner added to Figure 1 of Bloch in the Petition.
PO Resp. 33 (citing Pet. 45). Specifically, Petitioner
added a red line to Figure 1 of Bloch to indicate the
flow of DC current through the system, but, as
Patent Owner points out, the red line only shows
current flowing through one side of the transformer.
Pet. 45; PO Resp. 33. Petitioner’s declarant, Mr.
Crayford, clarified during his deposition that the
annotations to Figure 1 were intended to illustrate
the direction of current flow, and that, even if not
shown expressly by the annotations, the current
clearly flows through both sides of the transformer.
Ex. 2039, 167:14-169:22. Specifically, Mr. Crayford
stated that he “did not choose to highlight both of the
pairs of the twisted pair which is the current path,
but clearly they’re parallel connectors connected to
the same transformers with the power and return
path on the center tap,” so “they probably should be

App.65a
highlighted.” Id. at 167:23-168:4. Thus, contrary to
Patent Owner’s argument, Petitioner does not propose applying operating power to just one side of the
transformers in Bloch.
Further, we are not persuaded by Patent Owner’s
argument that, even if operating power was applied
to both sides of the transformer in Bloch, there would
still be a saturation problem. Bloch teaches that the
phantom power circuit “is connected to the two center
taps of the transformers,” thereby indicating that
applying operating power to the center taps of the
transformers would work. Ex. 1005, 3:9-23. Further,
consistent with the teaching of Bloch, Mr. Crayford
explained that the objective of balancing the coils on
either side of the transformer is “very well known.”
Ex. 2039, 169:14-22.
In addition to combining the cited teachings of
Bloch with IEEE 802.3-1993, and IEEE 802.3-1995,
Petitioner also argues that a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Bloch and Huizinga. Pet. 53.
Although the teachings of Huizinga are not necessary
to our ultimate determination in this Decision, we
nonetheless agree with and adopt Petitioner’s reasoning. Specifically, Bloch teaches a control unit that
detects the status of different elements of a terminal
and controls indicators in the terminal. Pet. 53; Ex.
1005, 5:61-6:2, 10:66-11:10. Huizinga teaches that
the indicators in Bloch can be lamps that illuminate
for different telephone lines. Pet. 53; Ex. 1009, 4:1930, 5:29-39. These interrelated teachings of Bloch
and Huizinga would have provided a person of ordinary
skill in the art with a reason to combine Bloch and
Huizinga. See KSR, 550 U.S. at 418 (explaining that

App.66a
“interrelated teachings” of multiple prior art references
may provide a reason to combine known elements).
Patent Owner does not dispute that a person of
ordinary skill in the art would have had a reason to
combine the cited teachings of Bloch and Huizinga.
9. Summary
For the reasons discussed above, we determine
that Petitioner has shown by a preponderance of the
evidence that claims 1, 31, 37, 59, 69, and 72, and
original claims 73, 106, 112, 134, 142, and 145 would
have been obvious over Bloch, IEEE 802.3-1993, and
IEEE 802.3-1995, and over Bloch, Huizinga, IEEE
802.3-1993, and IEEE 802.3-1995.
E. Amended Claims 73, 106, 112, 134, 142, and
145
A request for an ex parte reexamination of the
’760 patent was filed on August 29, 2016. Ex. 2056.
Both parties knew about the related ex parte reexamination, but did not update their mandatory notices
under 37 C.F.R. §§ 42.8(a)(3), (b)(2) or otherwise notify
us of the related ex parte reexamination until the
oral hearing on August 31, 2017. Tr. 226:11-228:20;
Paper 61, 8:2-12:21. By that time, the related ex
parte reexamination already had concluded with a
notice of intent to issue a reexamination certificate.
Tr. 226:11-227:3; Ex. 3006. Neither party provided
an explanation for its delay in notifying us of the
related ex parte reexamination. Tr. 227:17-228:12;
Paper 61, 8:2-12:21.
The ex parte reexamination certificate for the
’760 patent amends independent claim 73 to further
recite that “the piece of central network equipment is

App.67a
a BaseT Ethernet hub.” Ex. 2056, 1:29-30 (emphasis
omitted). In other words, amended independent claim
73 incorporates the limitation of original dependent
claim 101. Ex. 1001, 23:40-41. The ex parte reexamination certificate also amends dependent claim 145,
and amends dependent claims 106, 112, 134, and
142, by virtue of their dependency from amended
independent claim 73. Ex. 2056, 1:20-22, 2:5-9.
Petitioner does not challenge the patentability of
original claim 101 or amended claims 73, 106, 112,
134, 142, and 145 in the Petition. See Pet. 7. As a
result, we did not institute an inter partes review in
this proceeding with respect to original claim 101 or
amended claims 73, 106, 112, 134, 142, and 145. See
Dec. on Inst. 2, 20-21. We have considered the additional briefing we authorized regarding amended
claim 73. See Papers 65-67, 69-72. However, because
Petitioner does not challenge the patentability of
original claim 101 or amended claims 73, 106, 112,
134, 142, and 145 in the Petition and we did not
institute an inter partes review with respect to
original claim 101 or amended claims 73, 106, 112,
134, 142, and 145, we do not address the patentability
of original claim 101 or amended claims 73, 106, 112,
134, 142, and 145 in this Decision. See 35 U.S.C.
318(a) (“the Patent Trial and Appeal Board shall
issue a final written decision with respect to the
patentability of any patent claim challenged by the
petitioner and any new claim added under section
316(d)”).
F. Patent Owner’s Motion to Strike
Patent Owner filed a Motion to Strike Petitioner’s Reply (Paper 47, “PO Mot. Str.”), to which

App.68a
Petitioner filed an Opposition (Paper 54, “Pet. Opp.
Str.”).16 Patent Owner argues that several portions
of Petitioner’s Reply should be stricken because they
are beyond the scope of a proper reply.17 PO Mot.
Str. 1. Petitioner responds that the Reply is proper
because it responds to arguments raised by Patent
Owner in the Response. Pet. Opp. Str. 1. We have
considered the parties’ arguments, and, for the reasons
discussed below, Patent Owner’s Motion to Strike is
denied. In addition, to the extent that this Decision
does not rely on an argument that Patent Owner
contends is improper, Patent Owner’s Motion to
Strike is moot as to that particular argument.
1. IsoEthernet
Patent Owner argues that Petitioner presented
a new theory of unpatentability in the Reply based
on Hunter’s teaching of isoEthernet. PO Mot. Str. 2.
Specifically, Patent Owner contends that “[t]he Reply
newly asserts that ‘Hunter’s disclosure of isoEthernet
also teaches Ethernet’ and interjects new concepts:
‘[i]soEthernet . . . 10Base-T and ISDN modes’ and
‘isoEthernet interfaces.’” Id. (citing Pet. Reply 12:5-8,
15:21-16:4, 18:10-17; Ex. 1046 ¶¶ 48, 67-69, 74, 8081).

16 We authorized Patent Owner to file a motion to strike and
Petitioner to file an opposition. Paper 42, 3.
17 Patent Owner also argues that Petitioner’s Reply should be
stricken in its entirety. PO Mot. Str. 1. Because we are not
persuaded that any specific portions of the Reply should be
stricken, we also are not persuaded that the entire Reply should
be stricken.

App.69a
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Petitioner explains
in the Petition that Hunter preferably uses a 10BaseT Ethernet bus, but points out that Hunter is not
limited to a 10Base-T Ethernet bus because Hunter
also is compatible with 100Base-T, isoEthernet, and
ISDN. Pet. 25 (“[T]he bus comprises a 10Base-T bus.”);
id. at 26 (“a system applying other BaseT Ethernet
standards, such as 100Base-T”); id. at 26 (“[T]he
present invention is also compatible with Ethernet®,
Token Ring® . . . , ATM, and isoEthernet® standards.”);
id. at 28 (“compatible with ISDN standards”). Petitioner
also argues in the Petition that “it would have been
obvious to a PHOSITA to implement the teachings of
Hunter in a system applying other BaseT Ethernet
standards.” Id. at 26. Thus, Petitioner’s reliance on
isoEthernet is not a new theory of unpatentability
raised for the first time in the Reply. See Belden Inc.
v. Berk-Tek LLC, 805 F.3d 1064, 1080 (Fed. Cir.
2015).
Further, Patent Owner argues in the Response
that Hunter does not teach a Base-T Ethernet system.
PO Resp. 40-41. In particular, Patent Owner contends
that the “isoEthernet® . . . interfaces [in Hunter] were
part of an IEEE standard called 802.9a,” which
indicates that “isoEthernet used ISDN signals, not
Ethernet signals, to transmit data.” Id. at 40 (citing
Ex. 1003, 17:15-18; Ex. 2038 ¶ 76). Petitioner responds
in the Reply by explaining why Patent Owner’s
argument in the Response is incorrect. Pet. Reply 1112. Specifically, in the Reply, Petitioner identifies
evidence indicating that isoEthernet includes both an
ISDN mode and a 10Base-T mode, and, as a result, is
not limited to carrying just ISDN signals. Id. at 12

App.70a
(citing Ex. 1003, 23:21-24, Ex. 1010, 165; Ex. 1032,
377; Ex. 1046 ¶ 68). Thus, Petitioner’s argument
regarding isoEthernet in the Reply properly responds
to an argument raised by Patent Owner in the
Response. See 37 C.F.R. § 42.23(b); Belden, 805 F.3d
at 1078-79. Further, we rely on the disputed portions
of Petitioner’s Reply only to explain, at least in part,
why we are not persuaded by Patent Owner’s argument
in the Response. See supra Section II.C.2; Belden,
805 F.3d at 1078-79.
We note that Patent Owner specifically objects
to Petitioner’s reliance on “a newly-cited IEEE standard for 802.9,” which Petitioner submitted as Exhibit
1032 with the Reply. PO Mot. Str. 2 (citing Pet. Reply
12:5-8, 12:14-18, 18:16; Ex. 1032). Patent Owner
contends that Hunter only teaches “the trademarked
version ‘isoEthernet®,’” and Petitioner does not link
the trademarked version of isoEthernet in Hunter
with the IEEE standard described in Exhibit 1032.
PO Mot. Str. 2-3 (citing Pet. 26 n.8; Ex. 2055, 25:1014, 31:9-21). Patent Owner also argues that Hunter
refers to “IEEE draft standard 802.9a,” but Exhibit
1032 is not a draft and only describes IEEE standard
802.9. PO Mot. Str. 3 (citing Ex. 1003, 16:7; Ex. 1032).
For the reasons discussed above, Petitioner’s
argument in the Reply regarding isoEthernet is a
proper response to an argument raised by Patent
Owner in the Response, not a new theory of unpatentability. Thus, we see no problem with Petitioner’s
reliance on Exhibit 1032 to support its argument
regarding isoEthernet in the Reply. Nonetheless, we
do not rely on Exhibit 1032 in this Decision. Rather,
as discussed above, we rely on Exhibit 1010 as
showing that isoEthernet includes a 10Base-T mode.

App.71a

See supra Section II.C.2. Petitioner submitted Exhibit

1010 with the Petition (Pet. iii), and cites Exhibit
1010 in the Reply (Pet. Reply 12). Also, like Hunter,
Exhibit 1010 refers to the IEEE 802.9a standard for
isoEthernet. Ex. 1003, 15:15-18; Ex. 1010, 160. Patent
Owner does not raise any specific objections to Petitioner’s reliance on Exhibit 1010 in the Motion to
Strike. See PO Mot. Str. 1-3.
Patent Owner also argues that “had the Petition
relied on isoEthernet (trademarked or otherwise)
and/or Ex. 1032 as a basis for Ground 1, [Patent Owner]
would have provided evidence with its Response that,
as late as 1999, the IEEE isoEthernet committee
prohibited combining phantom-power and Ethernet
data signals (‘10Base-T mode’) to ‘insure[] that 10BaseT services are unaffected.’”18 PO Mot. Str. 3 (citing
Ex. 2055, 38:23-39:18). Patent Owner also presented
this argument at the oral hearing and referred to it
as an offer of proof under Fed. R. Evid. 103(a)(2).
Tr. 83:2-18, 218:8-21. In connection with this offer of
proof, Patent Owner alleged that it would have
18 The evidence that Patent Owner allegedly would have presented
to support this argument is a draft IEEE 802.9f standard dated
June 17, 1999. Tr. 83:2-18; Paper 44 ¶ 4; Ex. 2055, 35:15-39:18.
We do not see how a draft IEEE standard dated after Hunter’s
publication date limits the express teachings of Hunter. Further,
Patent Owner’s attempt to rely on this draft IEEE 802.9f
standard is inconsistent with Patent Owner’s position that Petitioner cannot rely on evidence relating to an isoEthernet standard
other than the IEEE 802.9a standard expressly mentioned in
Hunter. Tr. 75:16-77:19. As discussed above, the evidence
relating to an isoEthernet standard that we rely on in this Decision
is Exhibit 1010, which refers to the IEEE 802.9a standard
mentioned in Hunter. See supra Section II.C.2; Ex. 1003, 15:1518; Ex. 1010, 160 (“IEEE 802.9a standard—IsoEthernet”).

App.72a
presented this evidence in a sur-reply, but was denied
the opportunity to do so by the Board. Id.
Fed. R. Evid. 103(a)(2) provides that “[a] party
may claim error in a ruling to . . . exclude evidence
only if the error affects a substantial right of the
party,” and the party “informs the court of its substance by an offer of proof. . . . ” We did not, however,
exclude any evidence offered by Patent Owner or
deny Patent Owner the opportunity to file a sur-reply
in this proceeding. Patent Owner instead made a
strategic decision to seek a motion to strike instead
of a sur-reply. Specifically, Patent Owner requested
“leave to file a motion to strike Petitioner’s Reply
Briefs in IPR Nos. 2016-01389, 2016-1391, 20161397, and 2016-1399 or, in the alternative, for leave
to file a Sur-Reply.” Ex. 3008, 1 (emphasis added). In
other words, Patent Owner identified a motion to strike
as the preferred method to respond to Petitioner’s
Reply, and identified a sur-reply as an alternative to
the motion to strike. Id. Because we granted Patent
Owner’s request for leave to file a motion to strike,
we did not grant the proposed alternative of a surreply. Paper 42, 2-3. Patent Owner did not at any
time prior to the oral hearing request a clarification
of our ruling or identify any error in our ruling.
Further, Patent Owner’s attempt at the oral hearing
to re-characterize its request as being for both a
motion to strike and a sur-reply (Tr. 222:11-223:17)
is contradicted by the express language Patent Owner
used in its request to the Board (Ex. 3008, 1).
Moreover, the disputed portions of Petitioner’s
Reply that address isoEthernet are not necessary to
our ultimate determination in this proceeding. As
discussed above, Hunter’s teachings regarding 10Base-

App.73a
T Ethernet alone satisfy the disputed limitations of
the challenged claims. See supra Section II.C.2.
Therefore, we determine that the challenged claims
would have been obvious over Hunter and Bulan,
even without relying on Hunter’s teachings regarding
isoEthernet.
2. Bob Smith Terminations and Common
Mode Chokes
Patent Owner argues that Petitioner addresses
Bob Smith terminations and common mode chokes
for the first time in the Reply. PO Mot. Str. 4 (citing
Pet. Reply 2:15-4:14, 6:7-10; Exs. 1021-1024, 1029;
Ex. 1046 ¶¶ 12-21). Specifically, Patent Owner argues
that Petitioner knew that the invention of the ’760
patent is directed to equipment networked over preexisting wiring and cables (PO Mot. Str. 4 (citing Pet.
3)), and that pre-existing Ethernet networks included
Bob Smith terminations and common mode chokes
(PO Mot. Str. 4 (citing Ex. 2039, 45:10-21; Ex. 2055,
65:13-67:11)), but did not address them in the Petition.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of Bob Smith terminations and
common mode chokes in the Response (PO Resp. 1922), and Petitioner responds in the Reply with an
explanation and evidence showing why Patent Owner’s
argument in the Response is incorrect (Pet. Reply 24). Thus, the portions of Petitioner’s Reply that
address Bob Smith terminations and common mode
chokes are a proper response to an argument raised
by Patent Owner in the Response, not a new theory
of unpatentability. See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80. Further, we rely on the disputed

App.74a
portions of Petitioner’s Reply only to explain, at least
in part, why we are not persuaded by Patent Owner’s
argument in the Response. See supra Sections II.C.8,
II.D.8; Belden, 805 F.3d at 1078-79.
Moreover, the disputed portions of Petitioner’s
Reply that address Bob Smith terminations and
common mode chokes are not necessary to our ultimate determination in this proceeding. As discussed
above, the premise of Patent Owner’s argument
regarding Bob Smith terminations and common mode
chokes—that the invention of the ’760 patent is
limited to equipment networked over pre-existing
wiring or cables—is not supported by the specification
or claims of the ’760 patent. See supra Sections II.C.8,
II.D.8. Therefore, we determine that the challenged
claims would have been obvious over the asserted
prior art combinations, even without relying on the
disputed portions of Petitioner’s Reply.
3. Fisher and De Nicolo Patents
Patent Owner argues that Petitioner submitted
new exhibits with the Reply, specifically, the Fisher
and De Nicolo patents, to show that using phantom
power in an Ethernet network was known at the
time of the ’760 patent. PO Mot. Str. 5 (citing Pet.
Reply 4:15-13, 9:18-10:4; Exs. 1025-1028; Ex. 1046
¶¶ 27-35). Patent Owner acknowledges that Petitioner
presents the same position in the Petition, but
contends that Petitioner cannot cite new evidence in
the Reply to support that position. PO Mot. Str. 5
(citing Pet. 4-5).
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Petitioner’s position that using phantom power in an Ethernet network

App.75a
was known at the time of the ’760 patent is presented
in the Petition. Pet. 4-5. Patent Owner argues in the
Response that “operating Power-over-Ethernet (‘PoE’)
did not exist in 1997” (PO Resp. 8), and Petitioner
responds in the Reply by citing to the Fisher and De
Nicolo patents as evidence that Patent Owner’s argument in the Response is incorrect (Pet. Reply 5 (citing
Exs. 1025-1028)). Thus, the portions of Petitioner’s
Reply that cite to the Fisher and De Nicolo patents
are a proper response to an argument raised by
Patent Owner in the Response, not a new theory of
unpatentability. See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80. Further, we rely on the disputed
portions of Petitioner’s Reply only to explain, at least
in part, why we are not persuaded by Patent Owner’s
argument in the Response. See supra Sections II.C.8,
II.D.8; Belden, 805 F.3d at 1078-79.
We note that Patent Owner specifically objects
to Petitioner’s reliance on the De Nicolo patents
because Patent Owner alleges it could have demonstrated that the De Nicolo patents are not prior art to
the ’760 patent. PO Mot. Str. 5-6. We do not rely on
the De Nicolo patents in this Decision. Rather, as
discussed above, we rely on Hunter and the Fisher
patents as showing that using phantom power in an
Ethernet network was known at the time of the ’760
patent. See supra Sections II.C.8, II.D.8.
Moreover, the disputed portions of Petitioner’s
Reply that rely on the Fisher and De Nicolo patents
are not necessary to our ultimate determination in
this proceeding. As discussed above, the teachings of
Hunter alone demonstrate that using phantom power
in an Ethernet network was known at the time of the
’760 patent. See supra Sections II.C.2, II.C.8, II.D.8.

App.76a
Therefore, we determine that the challenged claims
would have been obvious over the asserted prior art
combinations, even without relying on the disputed
portions of Petitioner’s Reply.
4. Alleged Skepticism
Patent Owner argues that Petitioner addresses
the objective indicia of non-obviousness, including
skepticism of those skilled in the art, for the first
time in the Reply. PO Mot. Str. 6 (citing Pet. Reply
6:14-7:15; Exs. 1035-1042; Ex. 1046 ¶¶ 36-44). Specifically, Patent Owner contends that Petitioner was
“aware of the secondary considerations issues, but
failed to address them in the Petition.” PO Mot.
Str. 6.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of skepticism by those skilled in the
art in the Response (PO Resp. 27-32), and Petitioner
responds in the Reply with an explanation and
evidence showing why Patent Owner’s argument in
the Response is incorrect (Pet. Reply 6-7). Thus, the
portions of Petitioner’s Reply that address the alleged
skepticism of those skilled in the art are a proper
response to an argument raised by Patent Owner in
the Response, not a new theory of unpatentability.
See 37 C.F.R. § 42.23(b); Belden, 805 F.3d at 107880. Further, we rely on the disputed portions of
Petitioner’s Reply only to explain, at least in part,
why we are not persuaded by Patent Owner’s argument
in the Response. See supra Sections II.C.8, II.D.8;
Belden, 805 F.3d at 1078-79.
Moreover, the disputed portions of Petitioner’s
Reply that address the alleged skepticism of those

App.77a
skilled in the art are not necessary to our ultimate
determination in this proceeding. As discussed above,
even if we just consider the evidence submitted by
Patent Owner, it does not establish that those of
ordinary skill in the art were skeptical that phantom
power would work in an Ethernet network. See supra
Sections II.C.8, II.D.8. Therefore, we determine that
the challenged claims would have been obvious over
the asserted prior art combinations, even without
relying on the disputed portions of Petitioner’s Reply.
5. CAT-3 and CAT-5 Cabling
Patent Owner argues that Petitioner addresses
the number of conductors in CAT-3 and CAT-5
cabling for the first time in the Reply. PO Mot. Str. 7
(citing Pet. Reply 10:5-16; Ex. 1031; Ex. 1046 ¶ 61).
Specifically, Patent Owner contends that Petitioner
knew that CAT-3 cabling was used for 10Base-T
Ethernet and CAT-5 cabling was used for 100Base-T
Ethernet, and, thus, “could have included” argument
and evidence in the Petition regarding the number of
conductors in that cabling. PO Mot. Str. 7.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of the number of conductors in CAT-3
and CAT-5 cabling in the Response (PO Resp. 25-26),
and Petitioner responds in the Reply with an explanation and evidence showing why Patent Owner’s
argument in the Response is incorrect (Pet. Reply
10). Thus, the portions of Petitioner’s Reply that
address the number of conductors in CAT-3 and
CAT-5 cabling are a proper response to an argument
raised by Patent Owner in the Response, not a new

App.78a
theory of unpatentability. See 37 C.F.R. § 42.23(b);
Belden, 805 F.3d at 1078-80.
Patent Owner also argues that, if Petitioner had
addressed the number of conductors in CAT-3 and
CAT-5 cabling in the Petition, Patent Owner “would
have included the cable specification for CAT-3/CAT5 wiring, confirming that such cables comprise four
wire pairs.” PO Mot. Str. 7. (citing Ex. 2055, 171:23176:13). Patent Owner also presented this argument
at the oral hearing and referred to it as an offer of
proof under Fed. R. Evid. 103(a)(2). Tr. 220:19-221:2.
As discussed above, Fed. R. Evid. 103(a)(2) provides
that “[a] party may claim error in a ruling to . . .
exclude evidence only if the error affects a substantial right of the party,” and the party “informs the
court of its substance by an offer of proof. . . . ” We
did not, however, exclude any evidence offered by
Patent Owner or deny Patent Owner the opportunity
to file a sur-reply in this proceeding. See supra
Section II.F.1. Patent Owner instead made a strategic
decision to seek a motion to strike instead of a surreply. See id.
Moreover, the disputed portions of Petitioner’s
Reply that address the number of conductors in CAT3 and CAT-5 cabling are not necessary to our ultimate determination in this proceeding. As discussed
above, the portions of Hunter cited in the Petition
independently demonstrate that a 10Base-T Ethernet
bus may include only two twisted pair conductors,
not four. See supra Sections II.C.2, II.C.8. Therefore,
we determine that the challenged claims would have
been obvious over the asserted prior art combinations,
even without relying on the disputed portions of
Petitioner’s Reply.

App.79a
G. Petitioner’s Motion to Exclude
Petitioner filed a Motion to Exclude (Paper 46,
“Pet. Mot. Excl.”), to which Patent Owner filed an Opposition (Paper 50, “PO Opp. Excl.”), and Petitioner
filed a Reply (Paper 58, “Pet. Reply Excl.”). We have
considered the parties’ arguments, and, for the reasons
discussed below, Petitioner’s Motion to Exclude is
denied.19
1. Exhibit 2038
Exhibit 2038 is Dr. Madisetti’s Declaration.
Petitioner argues that Exhibit 2038 should be excluded
under Fed. R. Evid. 401, 402, 403, 702, 703, as
irrelevant, prejudicial, and unreliable. Pet. Mot. Excl.
1-11. Specifically, Petitioner argues that Dr. Madisetti:
1) relies on an incorrect date of invention for the
challenged claims of the ’760 patent (id. at 2-4); 2)
fails to provide support for his opinion that a person
of ordinary skill in the art would have provided
operating power over the unused lines in an Ethernet
connection (id. at 5-6); 3) misunderstands the isoEthernet standard (id. at 6-7); 4) fails to provide
support for his opinion that the resistor in Bloch
would interfere with Ethernet data signals (id. at 8);
5) provides inconsistent interpretations of what constitutes terminal equipment (id. at 8-10); 6) fails to read
19 Patent Owner requested authorization to file Exhibits 20522054 with its Opposition to Petitioner’s Motion to Exclude.
Paper 60, 2. Patent Owner withdrew that request with respect
to Exhibits 2052 and 2053, because Patent Owner did not cite
those exhibits in its Opposition. Id.; Paper 59, 12:11-15:1. We
note that Exhibits 2052 and 2053 would not change our
ultimate determination because we deny Petitioner’s Motion to
Exclude even without considering Exhibits 2052 and 2053.

App.80a
the teachings of Hunter as a whole (id. at 10); and 7)
relies on an improper construction of the claim term
“powered-off” (id. at 11). Petitioner’s arguments raise
a question of the weight that should be given to Dr.
Madisetti’s testimony, not admissibility. Therefore,
Petitioner’s Motion to Exclude is denied with respect
to Exhibit 2038.
2. Exhibits 2040-2046 and 2048
Exhibits 2040-2046 and 2048 are documents relating to meetings of an IEEE committee. Petitioner
argues that Exhibits 2040-2046 and 2048 should be
excluded under Fed. R. Evid. 401, 402, 403, 801, 802,
804, 901, as irrelevant, prejudicial, hearsay, and lacking
authentication. Pet. Mot. Excl. 11-13. Petitioner’s
arguments are not persuasive.
The proponent of an item of evidence must
produce evidence sufficient to support a finding that
the item is what the proponent claims it is. Fed. R.
Evid. 901. Here, Patent Owner submits Mr. Clyde
Camp’s testimony that “[t]he 802.3af Committee maintained a record of its proceedings by posting documents
pertaining to its work, including meeting minutes
and presentations, on its public document server at
http://www.ieee802.org/3/af/public/ (“the Website”),”
and that Exhibits 2040-2046 are such records. Ex.
2048 ¶¶ 4-11. Mr. Camp explains that his statements
in Exhibit 2048 are based on personal knowledge. Id.
¶ 1. Petitioner, on the other hand, does not provide
any specific reason for us to believe that Exhibits
2040-2046 are not what Petitioner and Mr. Camp
claim them to be. See Pet. Mot. Excl. 11-13.
Hearsay is limited to a statement that a party
offers in evidence to prove the truth of the matter

App.81a
asserted in the statement. Fed. R. Evid. 801. Patent
Owner offers, and we consider, Exhibits 2040-2046 as
evidence of the effect that the statements in Exhibits
2040-2046 would have had on a person of ordinary
skill in the art considering the prior art combinations
proposed by Petitioner in this case. See supra Sections II.C.8, II.D.8. Thus, the statements in Exhibits
2040-2046 are not hearsay because they are not
offered as evidence of the truth of the matter asserted.
Petitioner’s arguments regarding the relevance of
Exhibits 2040-2046 and 2048 raise a question of
sufficiency of proof, not admissibility. Further, as discussed above, we considered Exhibits 2040-2046 and
2048 in connection with Patent Owner’s arguments in
the Response, but we do not find Patent Owner’s
arguments that rely on Exhibits 2040-2046 and 2048
to be persuasive. See supra Sections II.C.8, II.D.8. As a
result, Petitioner does not suffer any prejudice by our
admission of Exhibits 2040-2046 and 2048. Therefore,
Petitioner’s Motion to Exclude is denied with respect
to Exhibits 2040-2046 and 2048.
3. Exhibit 2047
Exhibit 2047 is a document entitled “FYI on ‘What
is the Internet?’” produced by the User Services
Working Group of the Internet Engineering Task
Force. Petitioner argues that Exhibit 2047 should be
excluded under Fed. R. Evid. 401, 402, 403, 801, 802,
805, 901, as irrelevant, hearsay, and lacking authentication. Pet. Mot. Excl. 13-14. Petitioner’s arguments
are not persuasive.
The proponent of an item of evidence must
produce evidence sufficient to support a finding that
the item is what the proponent claims it is. Fed. R.

App.82a
Evid. 901. Here, Patent Owner submits Dr. Madisetti’s
testimony that Exhibit 2047 is a document entitled
“FYI on ‘What is the Internet?’” produced by the
Internet Engineering Task Force, and available at
https://tools.ietf.org/html/rfc1462. Ex. 2038 ¶ 104.
Petitioner, on the other hand, does not provide any
specific reason for us to believe that Exhibit 2047 is
not what Petitioner and Dr. Madisetti claim it to be.
See Pet. Mot. Excl. 13-14.
Hearsay is limited to a statement that a party
offers in evidence to prove the truth of the matter
asserted in the statement. Fed. R. Evid. 801. Patent
Owner offers Exhibit 2047 as evidence of the fact
that the term “protocol” had been defined a certain
way by the Internet Engineering Task Force, not
necessarily for the truth of the definition asserted.
PO Resp. 18. Thus, at least certain statements in
Exhibit 2047 are not hearsay.
Petitioner’s arguments regarding the relevance
of Exhibit 2047 raise a question of sufficiency of
proof, not admissibility. Further, as discussed above,
we considered Exhibit 2047 in connection with Patent
Owner’s proposed construction of the term “protocol,”
but we do not find Patent Owner’s arguments that
rely on Exhibit 2047 to be persuasive. See supra
Section II.B.2. As a result, Petitioner does not suffer
any prejudice by our admission of Exhibit 2047.
Therefore, Petitioner’s Motion to Exclude is denied
with respect to Exhibit 2047.
4. Exhibits 2049, 2050, 2054
Petitioner argues that Exhibits 2049, 2050, and
2054 should be excluded under Fed. R. Evid. 401,
402, 403, as irrelevant and prejudicial. Pet. Mot.

App.83a
Excl. 14-15. Petitioner’s arguments regarding the
relevance of Exhibits 2049, 2050, and 2054 raise a
question of sufficiency of proof, not admissibility.
Further, we do not discern that Petitioner suffers
any prejudice by our admission of Exhibits 2049,
2050, and 2054. Therefore, Petitioner’s Motion to
Exclude is denied with respect to Exhibits 2049,
2050, and 2054.
H. Patent Owner’s Motion to Exclude
Patent Owner filed a Motion to Exclude (Paper
45, “PO Mot. Excl.”), to which Petitioner filed an
Opposition (Paper 52, “Pet. Opp. Excl.”), and Patent
Owner filed a Reply (Paper 57, “PO Reply Excl.”). We
have considered the parties’ arguments, and, for the
reasons discussed below, Patent Owner’s Motion to
Exclude is denied-in-part and dismissed-in-part.
1. Exhibits 1021-1024, 1029, and 1043
Exhibits 1021-1024 are product datasheets, catalogs, and specifications, Exhibit 1029 is U.S. Patent
No. 5,321,372, and Exhibit 1043 is U.S. Patent No.
8,155,012, which is related to the ’760 patent and
also owned by Patent Owner. Patent Owner argues
that Exhibits 1021-1024, 1029, and 1043 should be
excluded as improper new evidence for the same
reasons set forth in the Motion to Strike. PO Mot.
Excl. 4-5; PO Mot. Str. 3-5. Patent Owner’s arguments
are not persuasive for the same reasons discussed
above with respect to the Motion to Strike. See supra
Section II.F.2.
Patent Owner also argues that Exhibits 10211024 and 1029 should be excluded as impermissible
hearsay. PO Mot. Excl. 11. We rely on Exhibits 1021-

App.84a
1024 and 1029 in this Decision only to the extent
they provide a basis for certain portions of Mr.
Crayford’s declaration that are cited in this Decision.
See supra Sections II.C.8, II.D.8 (citing Ex. 1046 ¶¶ 2226). Patent Owner does not dispute that Exhibits
1021-1024 and 1029 present the kinds of facts and
data that Mr. Crayford would reasonably rely upon
in forming an opinion. See PO Mot. Excl. 11; PO
Reply Excl. 2-3. As a result, Exhibits 1021-1024 and
1029 do not need to be independently admissible. See
Fed. R. Evid. 703; Power Integrations, Inc. v. Fairchild
Semiconductor Int’l, Inc., 711 F.3d 1348, 1373 (Fed.
Cir. 2013). Therefore, Patent Owner’s Motion to
Exclude is denied with respect to Exhibits 1021-1024,
1029, and 1043.
2. Exhibits 1025 and 1026
Exhibits 1025 and 1026 are the Fisher patents.
Patent Owner argues that Exhibits 1025 and 1026
should be excluded as improper new evidence for the
same reasons set forth in the Motion to Strike. PO
Mot. Excl. 3-4; PO Mot. Str. 5-6. Patent Owner’s
arguments are not persuasive for the same reasons
discussed above with respect to the Motion to Strike.
See supra Section II.F.3.
Patent Owner also argues that Exhibits 1025 and
1026 should be excluded as impermissible hearsay.
PO Mot. Excl. 10-11. Hearsay is limited to a statement
that a party offers in evidence to prove the truth of
the matter asserted in the statement. Fed. R. Evid.
801. Petitioner offers, and we rely on, the statements
in Exhibits 1025 and 1026 as evidence of the effect
those statements would have had on a person of
ordinary skill in the art, not for the truth of the

App.85a
matter asserted. See supra Section II.D.8 (citing Pet.
Reply 5; Ex. 1025, 2:21-41, 3:49-67, 6:7-10; Ex. 1026,
2:32-52, 3:59-4:10, 6:17-20). As a result, Exhibits
1025 and 1026 are not hearsay. However, even if the
statements in Exhibits 1025 and 1026 are hearsay,
Exhibits 1025 and 1026 are admissible at least under
Fed. R. Evid. 803(8). Specifically, Exhibits 1025 and
1026 are records of the activities of the U.S. Patent
and Trademark Office, and Patent Owner has not
shown that the source of information or circumstances
lack trustworthiness. See PO Mot. Excl. 10-11; PO
Reply Excl. 3; Fed. R. Evid. 803(8); Fresenius Med.
Care Holdings, Inc. v. Baxter Int’l, Inc., No. C 031431, 2006 WL 1330003, at *2-4 (N.D. Cal. May 15,
2006). Therefore, Patent Owner’s Motion to Exclude
is denied with respect to Exhibits 1025 and 1026.
3. Exhibits 1036-1042
Exhibits 1036-1042 are documents relating to
meetings of an IEEE committee. Patent Owner
argues that Exhibits 1036-1042 should be excluded
as improper new evidence for the same reasons set
forth in the Motion to Strike. PO Mot. Excl. 5-6; PO
Mot. Str. 6. Patent Owner’s arguments are not persuasive for the same reasons discussed above with respect
to the Motion to Strike. See supra Section II.F.4.
Therefore, Patent Owner’s Motion to Exclude is denied
with respect to Exhibits 1036-1042.
4. Exhibit 1044
Exhibit 1044 is U.S. Patent No. 8,942,107, which
is related to the ’760 patent and also owned by
Patent Owner. Other than pointing out that Exhibit
1044 was filed with Petitioner’s Reply, Patent Owner

App.86a
does not provide any specific reason why Exhibit
1044 should be excluded. See PO Mot. Excl. 1-9.
Therefore, Patent Owner’s Motion to Exclude is
denied with respect to Exhibit 1044.
5. Exhibits 1027, 1028, and 1030-1035
We do not rely on Exhibits 1027, 1028, and 10301035 in this Decision. Therefore, Patent Owner’s
Motion to Exclude is dismissed as moot with respect
to Exhibits 1027, 1028, and 1030-1035.
I. Oral Hearing Objections
Each party objected to arguments presented by
the other party during the oral hearing. Petitioner
objected that Patent Owner improperly raised new
arguments for the first time at the oral hearing
regarding the IEEE 802.9f specification, the CAT-3
and CAT-5 cabling specifications, blind power, and
power levels. Tr. 216:15-217:7. We considered Patent
Owner’s arguments in the Response in light of any
additional arguments presented by Patent Owner at
the oral hearing, but we ultimately do not find Patent
Owner’s arguments persuasive for the reasons discussed in this Decision. Thus, Petitioner does not
suffer any prejudice by our admission of the arguments
presented by Patent Owner at the oral hearing.
Patent Owner objected that Petitioner raised
arguments at the oral hearing that were the subject
of Patent Owner’s Motion to Strike and/or Motion to
Exclude. Tr. 66:20-67:20. For the reasons discussed
above, we deny Patent Owner’s Motion to Strike and
deny-in-part and dismiss-in-part Patent Owner’s
Motion to Exclude. See supra Sections F, H. Thus, we

App.87a

see no problem with the arguments presented by

Petitioner at the oral hearing.
J. Patent Owner’s
Examination

Observations

on

Cross

Patent Owner filed a Motion for Observations on
the cross examination of Mr. Ian Crayford (Paper
44), to which Petitioner filed a Response (Paper 55).
We have considered Patent Owner’s observations and
Petitioner’s responses, and we determine that
Patent Owner’s observations do not demonstrate any
issues with respect to the credibility of Mr. Crayford’s
testimony. We also have considered Patent Owner’s
observations in connection with the arguments and
evidence discussed above, and we have given Mr.
Crayford’s testimony the appropriate weight in making
our determination in this case.
III. Conclusion
Petitioner has shown by a preponderance of the
evidence that claims 1, 31, 37, 59, 69, and 72, and
original claims 73, 106, 112, 134, 142, and 145 of the
’760 patent are unpatentable.
IV. Order
In consideration of the foregoing, it is hereby
ORDERED that claims 1, 31, 37, 59, 69, and 72,
and original claims 73, 106, 112, 134, 142, and 145 of
the ’760 patent are shown unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Strike is denied;

App.88a
FURTHER ORDERED that Petitioner’s Motion
to Exclude is denied; FURTHER ORDERED that
Patent Owner’s Motion to Exclude is denied-in-part
and dismissed-in-part; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
PETITIONER:
Nima Hefazi
Michael Fleming
Jonathan Kagan
Talin Gordnia
Irell & Manella, LLP
nhefazi@irell.com
mfleming@irell.com
jkagan@irell.com
tgordnia@irell.com
Joseph A. Powers
Christopher J. Tyson
Matthew S. Yungwirth
Duane Morris LLP
japowers@duanemorris.com
cjtyson@duanemorris.com
msyungwirth@duanemorris.com
PATENT OWNER:
Frank A. Angileri
Thomas A. Lewry
Marc Lorelli
Christopher C. Smith

App.89a
Brooks Kushman P.C.
CHRMC0110IPR2@brookskushman.com
Richard W. Hoffmann
Reising Ethington P.C.
hoffmann@reising.com

App.90a
FINAL WRITTEN DECISION OF UNITED STATES
PATENT TRIAL AND APPEAL BOARD ON ’012
PATENT—35 U.S.C. § 318(A) AND 37 C.F.R. § 42.73
(JANUARY 23, 2018)
UNITED STATES PATENT AND
TRADEMARK OFFICE
________________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
________________________
JUNIPER NETWORKS, INC., RUCKUS
WIRELESS, INC., BROCADE COMMUNICATION
SYSTEMS, INC., and NETGEAR, INC.,

Petitioner,1
v.
CHRIMAR SYSTEMS, INC.,

Patent Owner.

________________________
Case IPR2016-01389
Patent 8,155,012 B2

Before: Karl D. EASTHOM, Gregg I. ANDERSON,
and Robert J. WEINSCHENK,
Administrative Patent Judges.
1 The Board joined the latter three Petitioner parties to the instant
proceeding after they collectively filed a petition in Case
IPR2017-00790 (terminated).

App.91a
EASTHOM, Administrative Patent Judge.
I.

Introduction

Juniper Networks, Inc. filed a Petition (Paper 1,
“Pet.”) pursuant to 35 U.S.C. §§ 311-19 to institute
an inter partes review of claims 31, 35, 36, 40, 43, 52,
55, 56, 59, 60, and 65 (the “challenged claims”) of
U.S. Patent No. 8,155,012 B2 (Ex. 1001 (the “’012
patent”)). Pet. 1. After ChriMar Systems, Inc. (“Patent
Owner”) filed a Preliminary Response (Paper 10,
“Prelim. Resp.”), we instituted an inter partes review
of the challenged claims (Paper 12, “Institution Decision” or “Inst. Dec.”). We then joined the other three
Petitioner parties listed in the heading and refer to
the four Petitioner parties collectively as “Petitioner.”
See note 1; Paper 28.
After the Institution Decision, Patent Owner
filed a Response. Paper 29 (“PO Resp.”). Petitioner
filed a Reply. Paper 36 (“Pet. Reply”). Patent Owner
filed a Motion to Exclude Evidence (Paper 48) and a
Motion to Strike Petitioner’s Reply (Paper 50). Petitioner filed a Motion to Exclude Evidence. Paper 49.
Petitioner relies on, inter alia, three Declarations
by Ian Crayford. Ex. 1002; Ex. 1046; Ex. 1048.
Patent Owner relies on, inter alia, a Declaration by
Dr. Vijay K. Madisetti. Ex. 2038. The Board filed a
transcription of the Oral Hearing held on July 31,
2017. (Paper 66, “Tr.”).2

2 Oral hearings in related Cases IPR2016-01391, IPR2016-01397,
and IPR2016-01399 occurred on the same day, with similar
issues presented and argued.

App.92a
The Board has jurisdiction under 35 U.S.C.
§ 6(c). This Final Written Decision issues pursuant to
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73. For the
reasons that follow, we determine that Petitioner has
shown by a preponderance of the evidence that the
challenged claims are unpatentable.
A. Related Proceedings
Petitioner cites 56 civil actions based on the ’012
patent filed in the Eastern District of Michigan,
Eastern District of Texas, and Northern District of
California.3 Pet. 1 (citing Ex. 1012 (“a list identifying
each of these civil actions”)). Patent Owner identifies
20 civil actions as “related matters.” Paper 9, 2-3.
The parties also identify a number of related requests
for inter partes review, including Case Nos. IPR201600569 (terminated/settled), IPR2016-00573 (terminated/settled), IPR2016-00574 (terminated/ settled),
IPR2016-00983 (terminated/settled), IPR2016-01151
(terminated/settled), IPR2016-01391 (final written
decision), IPR2016-01397 (final written decision),
IPR2016-01399 (pending), IPR2016-01425 (terminated/
settled), and IPR2016-01426 (not instituted). See Pet.
1; Paper 9, 3.
During the Oral Hearing, Patent Owner informed
the panel that a reexamination examiner finally
rejected claims in the ’012 patent. See Paper 67, Ex.
2058 (Examiner’s Answer).4 Patent Owner also
3 Patent Owner also cites a number of district court cases
involving related claim construction issues. See Prelim. Resp.
16-18 & nn.19-22.
4 The reexamination Examiner sustained a final rejection for
obviousness of claims 1-3, 5, 6, 10, 11, 13, 16, 18, 19, 22, 24-33,
35, 36, 40-41, 43, 46, 48, 49, 52, 54-73, 76, 80-88, 91, 93-96, 98-104,

App.93a
informed the panel during the Oral Hearing that
another reexamination examiner considered claims
of U.S. Patent No. 8,902,760, which are at issue in
Case IPR2016-01399. See IPR2016-01399, Paper 69
(ordering briefing to address the claims amended
during the reexamination proceeding).
B. The ’012 Patent (Ex. 1001)
The ’012 patent describes systems for monitoring
assets connected to a communication system. Ex.
1001, Abstract. One aspect of the system “generat[es]
and monitor[s] data over a pre-existing wiring or
cables that connect pieces of networked computer
equipment [assets] to a network.” Ex. 1001, 3:19-22.
To monitor the assets, central module 15 and remote
module 16 identify electronic computer equipment
attached to computer network 17. Id. at 4:44-47. For
example, “central module 15 monitors remote module
circuitry 16 that may be permanently attached to
remotely located electronic workstations such as
personal computers 3A through 3D.” Id. at 4:53-56.

and 106 over prior art not involved in the instant case. See Ex. 2058,
3.

App.94a
Figure 3 of the ’012 patent follows:

App.95a
Ex. 1001, Fig. 3. Figure 3 portrays isolation power
supply 8 in central module 15, which supplies direct
current (DC) to current loops 2a-2d, personal computers (PCs) 3a-3d, and remote module 16a. See id. at
5:33-35, Figs. 3, 4.
Patent Owner argued during the Oral Hearing
that the ’012 patent supports the last clause of
challenged claim 31 (“wherein distinguishing information about the piece of Ethernet data terminal
equipment is associated to impedance within the at
least one path”), because it supports monitoring
assets simply by monitoring a resistor attached to the
asset. See Ex. 1001, Fig. 8, 8:22-31; Tr. 98:6-103:22.

App.96a
Figure 8 of the ’012 patent follows:

Figure 8 shows resistor 112 connected on a bus
between the central module (not depicted) at connector 101 and a PC (not depicted) connected at
connector 116. See Ex. 1001, 8:22-31, Fig. 4 (showing
remote module 16a connected to PC 3a on one side
and connected to central module 15a on another side
via connectors and a bus). Although the Specification
describes resistor circuitry 112 as part of a central

App.97a
module (Ex. 1001, 3:65-67), clearly that cannot be
correct because Figure 8 describes “16a” (at top),
shows “RECEIVE (FROM CENTRAL MODULE) (at
left),” and the location of the circuitry that includes
resistor 112 hangs off a bus between connectors 101
and 116, similar to the configuration of Figure 4,
showing “REMOTE MODULE” 16a on a bus between
connectors 101 and 116. See infra Section II.A.1
(reproducing Figure 4 of the “102 patent); Ex. 1001,
8:22-25 (describing “sourced power from central module
15a” through resistor 112 in reference to Figure 8
(emphasis added)). Therefore, central module 15 (Ex.
1001, Fig. 3) or 15a (id. at Fig. 4) monitors a personal
computer (PC) asset connected to remote module 16a
having resistor 112 attached to a bus connecting the
PC and the central module. See Ex. 1001, Fig. 3, Fig.
4, Fig. 8, 8:22-31 (describing “sourced power from
central module 15a” in reference to Figure 8). Even if
resistor 112 does not constitute part of a remote
module, Figure 8 shows it external to a PC, external
to a central module, and attached on a bus (just like
remote module 16a of Figure 4).
During the Oral Hearing, Patent Owner pointed
to language in the ’012 patent Specification at column
8, lines 27-31 (Tr. 99:18-22) as supporting the “wherein
distinguishing” phrase in claim 31. See claim 31
below (reciting “wherein distinguishing information
about the piece of Ethernet data terminal equipment
is associated to impedance within the at least one
path”). See Tr. 98:6-103:22 (citing Ex. 1008, Fig. 8,
8:27-31). Patent Owner generally explained that a
central module determines the value of resistor 112
(see Figure 8) to determine information about terminal
equipment. See id. at 99:12-13 (“[I]t has to be able to

App.98a
work with a . . . central module.”); see also Ex. 1001,
8:5-23 (central module 15a monitors current through
both PC 3a and remote module 16a) (discussed
further below, Section II.A.2).
The ’102 patent states the “remote module
circuitry 16 [e.g., including an impedance or a resistor]
. . . may be permanently attached” (Ex. 1001, 4:54
(emphasis added)) or generally “attached” (id. at
3:22-24) to a monitored PC. See Tr. 98:6-100:2; Fig. 4
(showing mere electrical connections between module
16a and PC 3a). In other words, remote module 16a
(as a simple resistor or with more circuitry) may or
may not be permanently attached to a PC or other
asset (terminal equipment) to be monitored. See Ex.
1001, 3:22-24, 4:54; see also Tr. 101:19-20 (Patent
Owner arguing “I didn’t intend to say that you have
to have one piece” for the asset or terminal equipment);
Tr. 103:10-22 (contending an adapted piece of terminal
equipment includes an asset such as a PC with an
attached module (resistor)).5
In operation, the resistance or impedance (or
change thereof) of resistor, such as resistor 112,
associated with an asset, such as a PC, may be
determined by a DC voltage and current impressed
5 Patent Owner initially argued during the Oral Hearing that
the claimed invention does not require a remote module
(Tr. 99:6-10), but then explained its invention in terms of
resistor 112 (which can be part of remote module at least with
respect to Figures 4 and 8). See Ex. 1001, 8:27-31, Figs. 4, 8.
Patent Owner argued the resistor must be “a bolt-on” or
“permanently fixed to the equipment”-i.e., “the piece of terminal
equipment.” See id. at 100:10-101:9. Later, Patent Owner stated
“I didn’t intend to say that you have one piece” for the terminal
equipment. See Tr. 101:19-20.

App.99a
on Ethernet bus lines, in order to identify whether or
not the PC is still connected to the bus, or to identify
other information about the asset, including specific
circuitry of the PC asset. See Ex. 1001, 3:25-37, 4:4867, 6:33-41, 8:27-31.
In addition to describing the return path from
resistor 112 as being associated with remote module
and/or PC as described above, the ’012 patent refers
to “a current loop through one of the personal
computers 3A through 3D which is advantageously
employed in accordance with the approach described
herein” (id. at 5:29-32), and also states “[t]he return
path for current from PC 3A is the pair of receive
data lines” (id. at 7:34-35). These generic descriptions
imply an identifying resistor or impedance alternatively
may be located inside one of the PCs (because the
current loop includes that impedance/ resistance).
The column 8 passage cited by Patent Owner
during the Oral Hearing states “it is within the scope
of the invention to receive the encoded data by monitoring various signals, such as the voltage amplitude
of the data line relative to ground, the voltage across
resistor 112, and the current through resistor 112.”
Ex. 1001, 8:27-31 (emphasis added); Tr. 99:18-22 (citing
Ex. 1008, Fig. 8, 8:27-31). Other than resistor 112,
this passage does not necessarily require any of the
other circuitry of Figure 8. See id.; see also Tr. 103:1922 (describing the resistor as “a key part of this”).
Such a resistor may constitute part of the recited
“terminal equipment” of claim 31. See Tr. 100:4-9
(Patent Owner arguing as follows: “[T]here’s a resistance . . . within the scope of the invention . . . monitoring various signals such as the voltage amplitude
and data line relative to the ground voltage across

App.100a
[the] resistor and current through the resistor. Those
are all pieces in the terminal equipment.” (emphasis
added)).
The column 8 passage also does not necessarily
describe the current providing operating power to the
PC (or other terminal equipment), nor does it specify
the location, relative to any of the disclosed modules
(e.g., 15a, 16a) or PCs 3a-3d, of the monitored
impedance/resistor that may be used for “monitoring
various signals.” See Ex. 1001, 8:27-31. In other
words, the passage also refers to “the invention”
without limiting the passage to a single embodiment
(such as Figures 7 and 8). See id.
The disclosed invention may involve using DC
voltage and current on the same data lines that
include Ethernet signals. See Ex. 1001, 3:25-37 (power
may be supplied via the central module); PO Resp. 9.
The parties refer to a dual use of Ethernet lines that
carry both data and sufficient DC operating power as
power over Ethernet (“PoE”) or “Ethernet phantom
power.” See PO Resp. 8 (asserting “Power over Ethernet
(‘PoE’) did not exist in 1997. Rather, Ethernet terminal
devices needed their own power supplies.”); Pet.
Reply 7 (asserting Patent Owner “did not enable
Ethernet phantom power to function with [known
Ethernet circuitry such as] BSTs [(Bob Smith
Terminations)] and CMCs [(Common Mode Chokes)]”).
With further respect to supplied power (i.e., voltage
and current), the Specification describes “isolation
power supply 8 (see FIG. 3)” which provides “direct
current . . . to each of current loops 2A through 2D.”
Ex. 1001, 5:33-35. This DC power from the central
module provides “a low current preferably on the
order of magnitude of about 1 mA.” Id. at 5:36-37.

App.101a
Regarding voltage, the Specification generally describes
“providing other voltage levels such as 3V dc and 20
V dc.” Id. 5:42-43. These disclosures relate generally to
the “present embodiment” of providing “current for the
immediate power needs of the remote module,” but
“it is also within the scope of the invention to supply
current to charge a battery, capacitor bank, or other
energy storage device that powers the remote module.”
Id. at 5:42-48. In addition, “powering the remote
module from some other source such as a primary
battery, rechargeable battery or capacitor bank that
receives energy from a source other than the central
module is within the scope of the invention.” Id. at
5:48-52. Each remote module may associate with
multiple external devices, including PCs. See id. at
5:33-52, 6:62-66 (describing “connect[ing] multiple
external devices” or a “single [PC] device” to each
module 15a).
Patent Owner initially asserted during the Oral
Hearing that the challenged claims “absolutely do
not” require PoE. See Tr. 86:10-12 (Q. “So your claims
do not require power over Ethernet?” A. “They
absolutely do not.”). Patent Owner explained that the
claims “do require some level of DC power.” Tr. 91:1515, 93:12-94:16 (Patent Owner confirming its claims
require sending some amount of DC power to an
impedance (e.g., a resistor) to determine its impedance
(resistance)). Patent Owner clarified “[i]t’s the difference between power sufficient to power the actual
device [PoE] versus power sufficient to inquire whether
or not this particular piece of equipment can—is a
piece of equipment that is part of our claims.” Id. at
91:20-92:2. On the other hand, Patent Owner also
argues its invention enables PoE-i.e., it enables the

App.102a
network to provide “operating power”-after the Ethernet terminal device conveys distinguishing information
(obtained by providing low DC power) about “how
much [operating] power it can accept.” See PO Resp.
9. Patent Owner, however, does not identify any
specific portions of the ’012 patent indicating that its
invention enables PoE.
In summary, according to Patent Owner, its disclosed system initially provides some (low) DC power
to identify terminal equipment (via an impedance/
resistance), but not necessarily sufficient power to
provide operating power to the terminal equipment.
See Tr. 92:4-93:6 (Patent Owner explaining their
patents disclose “a very, very low DC current and
voltage applied. . . . so low that there’s no possibility
that the terminal equipment could actually run off
that voltage, or in that—at that power”); PO Resp. 9
(initially providing low power). Nevertheless, after
providing low power for identification purposes, as
noted above, Patent Owner argues its disclosed invention can deliver PoE (i.e., it enables “operating power”
for terminal devices). See PO Resp. 9. As also noted
above, Patent Owner does not provide a citation to
the ’012 patent showing it enables PoE.
C. Illustrative Challenged Claims
Of the challenged claims, claim 31 is the only
independent claim. Claims 35, 36, 40, 43, 52, 55, 56,
59, 60 and 65 depend directly or indirectly from
claim 31. Claims 31 and 36 follow:
31. An adapted piece of Ethernet data terminal
equipment comprising:
an Ethernet connector comprising a plural-

App.103a
ity of contacts; and
at least one path coupled across selected
contacts, the selected contacts comprising at
least one of the plurality of contacts of the
Ethernet connector and at least another one
of the plurality of contacts of the Ethernet
connector,
wherein distinguishing information about
the piece of Ethernet data terminal equipment is associated to impedance within the
at least one path.
Ex. 1001, 18:62-19:5.
36. The piece of Ethernet data terminal
equipment according to claim 31 wherein
the piece of Ethernet data terminal equipment is a piece of BaseT Ethernet data
terminal equipment.

Id. at 19:23-26.
D. Trial Grounds of Unpatentability
We instituted trial for obviousness under 35
U.S.C. § 103(a) as follows:

App.104a
References

Claims Challenged

Hunter (Ex. 1003)6 and
Bulan (Ex. 1004)7

31, 35, 36, 40, 43, 52, 55,
56, 59, 60 and 65

Bloch (Ex. 1005)8,
Huizinga (Ex. 1009)9,
and IEEE 802.3 (Exs.
1006-08)10

31, 35, 36, 40, 43, 52, 55,
56, 59, 60 and 65

Inst. Dec. 35; Pet. 6-59.
II.

Analysis
A. Claim Construction

In an inter partes review, the Board construes
claims by applying the broadest reasonable interpretation in light of the specification. 37 C.F.R.
§ 42.100(b); Cuozzo Speed Techs., LLC v. Lee, 136 S.
Ct. 2131, 2142 (2016) (affirming the Patent Office’s
authority to issue regulations governing inter partes
review under 35 U.S.C. § 316(a)(4)). Under this standard, absent any special definitions, claim terms or
phrases carry their ordinary and customary meaning,
as would be understood by one of ordinary skill in the
6 WO 96/23377, Richard K. Hunter et al., published August 1,
1996.
7 US 5,089,927, Sergiu Bulan et al., issued February 18, 1992.
8 US 4,173,714, Alan Bloch et al., issued November 6, 1979.
9 US 4,046,972, Donald D. Huizinga et al., issued September 6,
1977.
10 IEEE Standard 802.3-1993 (“IEEE-93,” Ex. 1006) and IEEE
Standard 802.3-1995, Parts 1 and 2 (“IEEE-95,” Ex. 1007 (Part
1) and Ex. 1008 (Part 2)), collectively “IEEE 802.3.”

App.105a
art, in the context of the entire disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007).
1. “Distinguishing Information About the
Piece of Ethernet Data Terminal Equipment Is Associated to Impedance Within
the At Least One Path”
The parties do not dispute the preliminary claim
construction as set forth in the Institution Decision,
wherein we determined the claim 31 phrase “distinguishing information about the piece of Ethernet
data terminal equipment is associated to impedance
within the at least one path” means “distinguishing
information about the piece of Ethernet data terminal
equipment, including information that differentiates
it from another device, wherein the information is
capable of being associated to impedance within the
at least one path.” See Inst. Dec. 10; PO Resp. 14.11
In interpreting the construction, during the Oral
Hearing, Patent Owner agreed that distinguishing
information includes information showing the resistance of a resistor (or impedance), as discussed
above. See Tr. 94:1-96:10; Section I.B; Ex. 1001, 8:2731 (“monitoring various signals, such as . . . the voltage
across resistor 112, and the current through resistor
112”). In addition, the ’012 patent shows that
monitoring current includes monitoring whether a
device becomes unattached (i.e., removed) from the
network. See Ex. 1001, 6:39-40 (“[I]f the potential
thief later disconnects protected equipment from the
network, this action is also detected and an alarm
11 Petitioner does not address the construction in its Reply.

App.106a
can be generated.”); PO Resp. 8 (arguing the claimed
device “enhances network security because the device
can convey information about itself to a network”
(emphasis added)). In other words, in claim 31,
“distinguishing information about the piece of Ethernet
data terminal equipment is associated to impedance
within the at least one path” includes the capability
to convey a change in impedance as “distinguishing
[impedance] information about” the device-i.e.,
conveying that the device (and/or its attached module)
has been disconnected from the bus or network.
Given that claim 31 recites a wherein clause and
recites a device (not a method), any resistor (or other
impedance) connected to, or within, an Ethernet
device has the capability of distinguishing that device
from another device, because neither party contends
all Ethernet devices have the same input resistance.
An artisan of ordinary skill would expect different
devices, which draw different amounts of current
and/or voltage, to have different input impedances.
See, e.g., Ex. 1004, 1:53-55 (noting even a “typical
TE” (terminal equipment) draws “between about 40
to 60 milliamperes of current” at “the required
voltage or voltages”—i.e., even like TE devices have
varying input impedances of V/I); Ex. 1003, 50:1-5
(providing varying power depending on equipment;
PO Resp. 9 (arguing the disclosed invention can
determine “how much power to accept” for a given
“Ethernet terminal device,” thereby implying different
devices necessarily draw different power levels with
different input impedances).
The analogous case of In re Schreiber, 128 F.3d
1473, 1475-77 (Fed. Cir. 1997) sheds light on the
claim construction at issue here. As background, in

App.107a

Schreiber, the court determined that the prior art

Harz reference’s funnel for “dispensing oil from an oil
can,” id. at 1475, anticipated a claim to a funnel for
dispensing popcorn, even though Harz failed to disclose its funnel could dispense popcorn:
Schreiber argues . . . that Harz does not disclose that such a[n oil funnel] structure can
be used to dispense popcorn from an openended popcorn container.
Although Schreiber is correct that Harz
does not address the use of the disclosed
structure to dispense popcorn, the absence
of a disclosure relating to function does not
defeat the Board’s finding of anticipation. It
is well settled that the recitation of a new
intended use for an old product does not
make a claim to that old product patentable.
. . . Accordingly, Schreiber’s contention that
his structure will be used to dispense
popcorn does not have patentable weight if
the structure is already known, regardless
of whether it has ever been used in any way
in connection with popcorn.

Id. at 1477 (citations omitted) (emphasis added); see
also Tr. 93:12-94:10 (Patent Owner agreeing that a

resistor connected across Ethernet contacts satisfies
the “wherein” clause; i.e., agreeing the Ethernet
device “has the ability to receive voltage and return
current, and that information that’s coming back is
the resistance in the Ethernet device”).
Under the logic and holding of Schreiber, the
“wherein” clause of claim 31 specifies an intended
use of an existing product-an intent to use the value

App.108a
of a resistor or other impedance as Ethernet device
associating information. The ’012 patent makes this
clear, because, as discussed above, central module 15
(Fig. 3) or 15a (Fig. 4) associates device information
by using voltage and current (to determine impedance),
and claim 31 does not include a central module. See
supra Section I.B. In other words, the disclosed
invention, as a system, indicates an intended use of
terminal equipment with a module or other circuitry,
such as central module 15, but claim 31, drawn to
Ethernet terminal equipment, does not claim such a
system and corresponds to a disclosed PC and/or
remote module 16 or 16a for support. See id.; Ex.
1001, Figs. 3, 7, 8.
Patent Owner’s argument that “the improved
Ethernet terminal device . . . can use its impedance
to convey information” (PO Resp. 8 (emphasis added))
agrees with the logic and holding of Schreiber,
because disclosed (but unclaimed) system components,
including central module 15a, can use impedance or
resistance information coupled across the path to
convey information about remote module 16a and PC
3a. See Ex. 1001, Fig. 4; supra Section I.B.
Figure 4 of the ’012 patent showing an embodiment of the disclosed system follows:

App.109a

Figure 4 discloses remote module 16a and PC 3a
electrically connected together. As noted above, Patent
Owner argued during the Oral Hearing that the

App.110a
remote module may me be “a bolt-on” module or one
“permanently fixed to the equipment”-the “piece of
terminal equipment.” See supra note 5; Tr. 100:10101:22, 103:10-22 (arguing an adapted piece of terminal
equipment includes a module (resistor)). But as
discussed above, the Specification and challenged
claims neither require nor preclude permanent attachment and do not specify the location of “impedance
within the at least one path.” See Tr. 101:19-20
(Patent Owner partially clarifying as follows: “I didn’t
intend to say that you have to have one piece” for the
claimed terminal equipment). As also discussed above
in connection with Figure 8, an impedance inside or
outside remote module 16a on the bus (i.e., path) may
include circuitry or a single circuit device, including a
single resistor, such as resistor 112. Supra Section
I.B; Ex. 1001, 8:27-31 (generally describing, without
specifying a location for the impedance or contacts,
monitoring “various signals, such as the voltage
amplitude of the data line relative to ground, the
voltage across resistor 112, and the current through
resistor 112” (emphasis added)).
Accordingly, based on the current record and the
foregoing discussion, we maintain the construction
set forth in the Institution Decision as quoted above.
See Inst. Dec. 10.
2. “Detection Protocol”
Claim 35 depends from claim 31 and recites
“wherein the impedance within the at least one path
is part of a detection protocol.” Patent Owner contends
“[a] protocol, as defined in the computer networking
field, is ‘a mutually agreed upon method of communication.’” PO Resp. 13 (citing Ex. 2038 ¶ 104; Ex.

App.111a
2047, 1). Patent Owner does not cite to intrinsic evidence in the ’012 patent Specification to support its
construction, and its cited extrinsic evidence relates to
a communication protocol, not a detection protocol.
See Ex. 2047, 1.
As Petitioner contends, neither claim 35 nor the
Specification requires “a mutually agreed upon method of communication.” Pet. Reply 25.
Petitioner argues as follows:
Under BRI, neither “detect” nor “protocol”
requires the concept that two devices agree
to a method of communication. Crayford-2,
¶90. Instead, a POSITA understood that
“detection” simply requires a discovery of
something, and a “protocol” as rules. Id. In
other words, a detection protocol is merely
rules for making a discovery. Id.; Ex. 2039,
27:9-34:2.
Pet. Reply 25 (citing Ex. 1046 (Crayford-2)).
Claim 35 and the Specification support Petitioner’s
contentions. Claim 35, an apparatus claim, does not
recite any other component that could provide the
necessary mechanism for an agreed upon communication. As discussed above, the disclosed detection
involves central module 15 or 15a. Supra Sections
I.B, II.A.1; Ex. 1001, 6:33-37 (“central module 15
detects the absence of the proper identification code
from the laptop”). Further regarding detection with a
central module (which the challenged claims do not
require), the Specification describes one embodiment
that includes monitoring by the central module, but
no actual two-way communication between two
modules:

App.112a
[C]urrent sourced onto a transmit line from
signal modulator 7 and isolation power
supply 8 [in central module 15a of Figures 4
and 5] through remote module 16a to the
isolation transformer of PC 3A which returns
on the other transmit line is monitored by
test voltage monitor 84 to verify that both
remote module 16a and PC 3A are connected
to central module 15a.
Ex. 1001, 8:5-23 (emphasis added). In other words,
central module 15a monitors the existence of connections with the claimed terminal equipment (both
remote module 16a and PC 3A in this embodiment)
simply by detecting interruptions in the DC current
flow between central module 15a and that network
equipment. Id. Thus, even with a central module (which
claim 35 does not include), the detection protocol
described in at least this embodiment of the ’012 patent
does not require a mutually agreed upon method of
communication.
In any event, even if the central module includes
an agreed upon detection protocol, dependent claim
35 and independent claim 31, each drawn to “Ethernet data terminal equipment,” do not require a
central module (such as disclosed central module 15
or 15a). See supra Sections I.B., II.A.1; Ex. 1001, 8:556, Fig. 4. Therefore, the limitation recited in apparatus
claim 35 constitutes an intended use of the recited
impedance as being part of a detection protocol,
because apparatus claim 35 does not require another
component, such as remote central module 15 or 15a,
which the ’012 patent discloses as part of any detection
scheme.

App.113a
Patent Owner does not argue that “Ethernet
data terminal equipment” encompasses central
module such as central module 15a (or even a remote
module such as remote module 16a), and appears to
argue to the opposite. See PO Resp. 40 (“such a device
is at the end of an Ethernet network” and does not
include an “intermediate device”). Under Schreiber,
and in line with the discussion in the preceding
section, the claimed device at most only needs to be
capable of being part of a detection protocol. See
Schreiber, 128 F.3d at 1477.
During the Oral Hearing, after the panel noted
claim 35 recites “the piece of Ethernet data terminal
equipment,” i.e., “just a device” (Tr. 95:14, 20), Patent
Owner succinctly agreed with the Schreiber principles
outlined above:
Well, if you just had the device and it wasn’t
connected to the rest of the world, okay, and
you read our claims on it, if the device,
standing by itself, has the ability to respond
to a detection request-if it were connected –
that’s what our claims are covering.
Tr. 95:21-96:3 (emphasis added).12
Accordingly, based on the respective positions of
the parties and the foregoing discussion, “wherein
the impedance within the at least one path includes
12 In similar fashion, Patent Owner’s expert in a related
district court case also agreed with these underlying principles,
stating “[i]n the context of these claims, ‘detection protocol’
means that the equipment is configured or designed so that the
magnitude of the current (flow) or the impedance in the path allow
it to detect or determine some information about the equipment
at the other end of the path.” Ex. 2020, 9 (emphasis added).

App.114a
a detection protocol” represents an intended use of
the impedance such that it must be capable of being
part of a scheme involving signals, current, and/or
voltage, or similar inputs, for detecting the impedance
or a change in impedance. See supra Section I.B; Ex.
1001, 8:27-31.
3. “Adapted Piece of Ethernet
Terminal Equipment”

Data

Claim 31 recites, in its preamble, an “adapted
piece of Ethernet data terminal equipment comprising.”
The body of the claim includes “an Ethernet connector,” having “contacts,” which have “at least one
path coupled across selected contacts” having an
“impedance” per the “wherein” clause as discussed
above. Supra Sections I.B, II.A.1. Therefore, the body
of claim 31 sufficiently defines the “adapted piece of
Ethernet data terminal equipment” as recited in the
preamble.
The parties do not address the construction of
“adapted” in the preamble. That term does not present a dispositive issue relative to the grounds at
issue and arguments presented.13 In challenged claim
31, “adapted Ethernet data terminal equipment” does
not specify what part of “Ethernet data terminal
equipment” to adapt. The ’012 patent Specification
indicates “Ethernet data terminal equipment” may
include a resistor or impedance, as a module or
otherwise. Supra Section I.B., II.A.1, II. A.2. Even if
13 As discussed below, Petitioner persuasively contends Hunter
with or without Bulan, and Bloch with IEEE 802.3, teach or
suggest modifying Ethernet terminal equipment. Patent Owner
does not challenge the “adapted” aspect of Petitioner’s showing.

App.115a
the resistor or impedance were added to existing
Ethernet data terminal equipment, the term “adapted”
in that respect, at most, would represent a productby-process limitation-i.e., the old Ethernet terminal
equipment would have been “adapted” to include an
added resistor or impedance as a process step. Nevertheless, such adapted Ethernet terminal equipment
creates no patentable distinction over Ethernet
terminal equipment originally including the added
resistor or impedance during manufacture.14 See
Abbott Labs. v. Sandoz, Inc., 566 F.3d 1282, 1299
(Fed. Cir. 2009) (discussing product-by-process history,
distinguishing infringement analysis from prosecution analysis). In both cases with respect to claim 31,
an input resistor or impedance, in a “path,” necessarily
accomplishes the identical function of being “associated” with “distinguishing information” regardless
of the time a process step “adapted” each Ethernet
terminal equipment to include such a resistor or
impedance in a path.
Setting aside the term “adapted,” Petitioner
contends the broadest reasonable construction of “data
terminal equipment” includes its ordinary meaning
of “[a] device that serves as a data source and/or data
sink.” Pet. Reply 16 (citing Ex. 1033, 10). This
construction corresponds to the PCs disclosed in the
’012 patent, because they necessarily source or sink
data on a bus. See, e.g., Ex. 1001, Fig. 4.
14 Patent Owner argued during the Oral Hearing that “adapting, in
the ’012 case. . . . has to be something that modifies the terminal
equipment.” Tr. 103:15-18 (emphases added). The argument,
even if timely, is not persuasive for the reasons noted. Patent
Owner does not argue the term creates a patentable distinction,
or otherwise overcome Petitioner’s showing in the briefing.

App.116a
Patent Owner does not propose a construction
for the “data terminal equipment,” but argues “such
a device is at the end of an Ethernet network” and
does not include an “intermediate device.” PO Resp.
40. Contrary to Patent Owner’s argument, however,
the ’012 patent clearly describes the terminal equipment
as broad enough to include at least two devices or
modules, including remote module 16 and/or PC 3a.
See supra Sections I.B, II.A.1, 2 (discussing, inter
alia, Ex. 1001, Fig. 4 (showing remote module 16a
and PC 3a), Fig. 8 (showing resistor 112 attached to
a bus), 4:63-64 (discussing Ethernet peripherals to a
PC such as “telephones, fax machines, robots, and
printers”), 8:27-31 (describing a resistor, such as
resistor 112, attached to a bus without limitation);
8:5-23 (terminal equipment may include, inter alia,
remote module 16a and PC 3A).
In addition, with respect to “Ethernet data
terminal equipment” as claim 31 recites, the ’012
patent broadly describes using “an existing Ethernet
communication link or equivalents thereof” without
pointing specifically to any particular device as being
Ethernet equipment. See Ex. 1001, 3:35-37. Nevertheless, as noted, an implied Ethernet PC, or any Ethernet
device, as terminal equipment, logically sources and
sinks Ethernet data, which corresponds to Petitioner’s
reasonable construction. The Specification indicates
such an Ethernet PC may be coupled to other devices
(either upstream or downstream in terms of data or
power). For example, the ’012 patent broadly refers
to “workstations such as personal computers” (Ex.
1001, 4:55-56), indicating other peripheral devices,
including, for example, “telephones, fax machines,
robots, and printers” (id. at 4:63-64), may be attached

App.117a
in such a work station to a monitored Ethernet PC
(regardless of whether or not those devices represent
separately monitored Ethernet devices).
As noted above, the body of claim 31 also makes
clear that the recited terminal equipment includes
“at least one path” with an impedance, with the ’012
patent describing an impedance such as resistor 112
somewhere along the path, including within remote
module 16 and/or PC 3a. See supra Sections I.B;
II.A.1, A.2; Ex. 1001, Fig. 4, Fig. 8, 8:27-31. As also
indicated above, Patent Owner described “bolt-on”
modules or modules “permanently fixed to the equipment,” as included in the terminal equipment, but
the Specification describes generic attachment of
simple resistors and other circuitry as discussed above.
Supra note 5; Sections IB.1, II.A.1, A.2. Furthermore,
during the Oral Hearing, Patent Owner verified that
the “path” may be “a hundred meters long” and the
claimed “contacts” could be “anywhere to the left of
where [resistor] 112 connects” to the bus in Figure 8.
See Tr. 106:106:15-107:7.
With further respect to “Ethernet,” the parties
agree that Ethernet at least includes standard 10BaseT Ethernet and 100Base-T Internet. See PO Resp. 7
(“At the time of ChriMar”s invention (1997),” “Standard
10Base-T Ethernet [was] still the most common type
of network architecture in use.”), 14 (agreeing with
the Board”s construction of “BaseT” as “twisted pair
Ethernet in accordance with the 10Base-T or 100BaseT standards” (citing related IPR 2016-01398, Paper
9)); Reply Br. 1, 13, 14 & n.7 (Patent Owner “agrees
10Base-T and 100Base-T teach ‘Ethernet.’” (citing
PO Resp. 14)).

App.118a
No valid reason exists to construe or interpret
an “adapted piece of Ethernet data terminal equipment” further. See Vivid Techs., Inc. v. Am. Sci. &
Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999) (“[O]nly
those terms need be construed that are in controversy,
and only to the extent necessary to resolve the
controversy.”).
B. Obviousness Analysis and Level of Skill in
the Art
A claim is unpatentable under 35 U.S.C. § 103(a)
if the differences between the subject matter sought
to be patented and the prior art are such that the
subject matter as a whole would have been obvious
at the time the invention was made to a person
having ordinary skill in the art to which said subject
matter pertains. See KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398, 406 (2007). The question of obviousness
involves resolving underlying factual determinations
including (1) the scope and content of the prior art;
(2) any differences between the claimed subject matter
and the prior art; (3) the level of ordinary skill in the
art; and (4) objective evidence of nonobviousness.
Graham v. John Deere Co., 383 U.S. 1, 17-18 (1966).
The parties’ positions on the level of ordinary
skill in the art do not differ materially. Pet. 5: PO
Resp. 11 (“The parties disagree slightly on the level
of skill in the art.”). A person of ordinary skill has an
undergraduate degree in electrical engineering or
computer science, or the equivalent, and three years
of experience with network communication products
and the relevant standards and protocols. See Inst.

App.119a
Dec. 11 (similar finding).15 The references of record
reflect the level of ordinary skill.
C. Alleged Obviousness, Hunter and Bulan
Petitioner alleges claims 31, 35, 36, 40, 43, 52, 55,
56, 59, 60 and 65 would have been obvious to the
person of ordinary skill in the art over Hunter and
Bulan. Pet. 7-37. Petitioner cites the Crayford Declaration (Ex. 1002) in support of its positions. Patent
Owner denies the challenged claims are obvious over
Hunter and Bulan. See, e.g., PO Resp. 14-16. Patent
Owner cites the Madisetti Declaration (Ex. 2038) in
support of its positions.
1. Hunter (Exhibit 1003)
Hunter discloses “[a] power subsystem and method for providing phantom power and third pair power
via a computer network bus.” Ex. 1003, Abstract.
Hunter shows phantom power means that the same
cable pair carries both data and power, as in PoE. Id.
at 19:2-5.16

15 Patent Owner contends “at least a B.S. degree” is “too open
ended,” because “it would result in an expert . . . being considered
an ordinary artisan.” PO Resp. 11. Patent Owner’s hypothetical
distinction has no bearing on the outcome here, and Patent
Owner does not argue it does.
16 Citations throughout refer to the page numbers that
Petitioner added to Exhibit 1003, instead of original page
therein. (The Petition cites the original page numbers, but the
Board transposed the citations to reflect the added Exhibit pages.)

App.120a
Figure 2 of Hunter follows:

App.121a
Figure 2 represents a schematic diagram of an
example of a phantom powering subsystem 200. Ex.
1003, 35:21-23. “The phantom powering subsystem
200 comprises a power supply 210 having a positive
output 211 and a negative output 212.” Id. at 35:2729. The subsystem also includes first and second
transformers 220 and 230 with windings having end
taps and center taps 224, 234. Id. at 36:1-6. First and
second twisted-pair conductors 240 and 250 are
connected to the respective end taps of the transformers
“to allow data communication therebetween.” Id. at
36:7-12.
“In a preferred embodiment of the first aspect of
the present invention, the [twisted pair] bus comprises a
10Base-T bus.” Id. at 23:17-18. “A 10base-T bus
conventionally comprises two twisted-pair conductors,
each used for unidirectional transmission of data. . . .
The present invention preferably employs each of the
twisted-pair conductors as a rail by which to deliver
DC power to the equipment.” Id. at 22-29 (emphasis
added).
One of the twisted pairs transmits data from
equipment 260 (Integrated Services Terminal Equipment, “ISTE”) while the other twisted pair receives
data into the equipment. Id. at 23:18-21, 37:22-26.
“The subsystem further comprises a protective device
213 coupled to the power supply 210 to prevent
power exceeding a desired amount from passing
through the protective device 213.” Id. at 38:12-15.
2. Bulan (Exhibit 1004)
Bulan discloses a current control apparatus for
supplying direct current flow from a source of power
via a transmission line to a telecommunications

App.122a
terminal apparatus “being continuously operable while
drawing a load current which is exceeded by an
inrush current being greater than the load current at
a moment of power up.” Ex. 1004, 2:17-23. Bulan is
used in a network having terminal equipment (“TE”)
which includes a DC to DC converter (“DC-DC”) in a
well-known phantom power feed arrangement. Id. at
1:52-56, 3:53-56, 4:2-10.
“The current control apparatus is for connection
in series between the power source and the transmission line.” Ex. 1004, 2:23-25. A current path
switch exists between the power source and the
transmission line. Id. at 4:17-25, Fig. 2.
Figure 2 of Bulan is reproduced below.

Figure 2 represents a schematic diagram of a
line interface circuit for coupling current from the
power source. Id. at 4:17-22. As depicted in Figure 2,
a static reference generator provides a stable voltage
supply on a lead for use by a dynamic reference
generator and the current path switch. Id. at 4:25-30.
The dynamic reference generator generates a control
signal for use by the current path switch. Id. at 4:3336. The current path switch provides a current path

App.123a
that alternates between low and high impedance, in
accordance with operation of the TE connected to the
network. Id. at 4:35-40.
Current exceeding Bulan’s static limit, set by the
static reference generator, causes the current sensor
to indicate a current inrush condition. Ex. 1004, 3:512, 4:23-24, 5:37-39. Bulan’s system responds to this
magnitude of current by setting a high limit on the
inrush current. Id. at 2:31-36, 3:7-12, 5:42-46. After
TE’s DC-DC completes its startup, the TE draws
normal operating power and current remains below
Bulan’s static limit (unless a fault later occurs). See
id. at 2:1-14, 3:5-6, 4:60-67.
If “during start up there are several inrushes,
the maximum permitted current will return to a high
point of slightly more than the current which was
permitted just before the envelope returned to the
normal load current level.” Ex. 1004, 7:7-13. “This
may happen several times, as may be peculiar to the
particular terminal equipment being connected to the
line.” Id.
3. Claim 31, Hunter and Bulan
Addressing the preamble of claim 31, an “adapted
piece of Ethernet data terminal equipment,” Petitioner
contends that Hunter discloses an Integrated Services
Terminal Equipment (“ISTE”) device 260 that communicates with a central device (“Hub”) over a 10Base-T
bus. See Pet. 25-28 (citing Ex. 1003, Fig. 2, 25:19-21,
34:3-4, 36:18, 41:19-21). Petitioner argues that Hunter’s
method adapts Ethernet data terminal equipment by
adding phantom power circuitry to it, and attaching
it to the network bus via the center taps of transformers in a network interface. Pet. 27-28 (citing Ex.

App.124a
1003, 23:10-13 (“The third and fourth transformers
allow the [terminal] equipment to draw power from
the conductors [supplying Hunter’s phantom power].
In an overall LAN, many pieces of equipment, each
with its own third and fourth transformers, can take
power as well as data from the bus.”)); Ex. 1002
¶ 95); Fig. 2 (transformers attached to or on ISTE
card 260).17 Hunter’s system includes “legacy” equipment to receive the phantom power. See Ex. 1003,
10:14-16 (“An interactive multimedia system must
closely follow the availability requirements of the
legacy voice system.”).
Claim 31 also recites “an Ethernet connector
comprising a plurality of contacts” and “at least one
path coupled across selected contacts, the selected
contacts comprising at least one of the plurality of
contacts of the Ethernet connector and at least another
one of the plurality of contacts of the Ethernet
connector.” For this limitation, Petitioner cites to
Hunter’s disclosure of an Ethernet connector with a
first and second pair of contacts for connecting to
each of the two twisted-pairs, asserting the pairs carry
both phantom power and Ethernet communication
signals. Pet. 28 (citing Ex. 1003, Fig. 2, 40:21-25, 39:1926; Ex. 1002 ¶ 96). Petitioner contends that Hunter’s
phantom powering system permits the terminal equip17 Hunter refers to “the two connectors 298 shown in FIGURE
2 between the equipment 260 (an ISTE device) and the voice
instrument 299.” Ex. 1003, 43:24-44:1 (emphases added).
Therefore, where Figure 2 specifies “CONNECTOR ON ISTE”
with respect to contacts 297 (on the left) and contacts 298 (on
the right), Hunter appears to indicate these ISTE connectors
correspond to ISTE equipment 260, not necessarily just ISTE
card 260.

App.125a
ment (TE) to draw DC current from the same twistedpairs that communicates Ethernet data to the TE.
Pet. 29 (citing Ex. 1003, 23:27-29).
Petitioner explains that in the combined system
of Hunter and Bulan, as shown in Petition Figure 3,
DC current flows in a counterclockwise direction
from the positive terminal of the Hub’s power supply
201, through the TE device, and back to the negative
terminal of the Hub’s power supply. Pet. 29; Pet. Fig.
3.
Petition Figure 3 follows:

App.126a

Petition Figure 3

App.127a
Pet. 16. Petitioner’s Figure 3 represents the combined
system of Hunter and Bulan in which Bulan’s control
apparatus replaces protective device 213 of Hunter.
Pet. 15-16.
Petitioner explains that current flows from power
supply 210 through the wire of twisted-pair conductor
250 through the TE device and returns through
twisted-pair conductor 240. Pet. 29 (citing Ex. 1003,
37:27-38:25; Ex. 1002 ¶ 97). Accordingly, Petitioner
contends that the path couples across at least one of
the plurality of contacts of the terminal equipment’s
Ethernet connector. Petitioner also explains how based
on Ohm’s law, the TE equipment draws power through
a resistor (generally impedance) to satisfy the
distinguishing information “wherein” clause. See Pet.
30-33. As noted above, Petitioner contends allowing
power to flow through the TE device and transformers
via Hunter’s circuit constitutes an adapted piece of
terminal equipment.
As summarized above and in view of the record,
by a preponderance of evidence, the record supports
Petitioner’s showing that Hunter and Bulan collectively
teach or suggest the limitations of claim 31. We
adopt Petitioner’s persuasive showing as our own.
See Pet. 7-32. In addition, as discussed further below,
Petitioner shows by a preponderance of evidence that
an artisan of ordinary skill would have been motivated to combine Bulan with Hunter in order to
protect loads, including Ethernet terminal equipment,
under varying load conditions. As discussed next,
Patent Owner’s arguments do not overcome Petitioner’s
persuasive showing.

App.128a
a. Path, Impedance,
Information

Distinguishing

Patent Owner disputes that Petitioner’s combination discloses the path and related distinguishing
information limitation of claim 31. According to
Patent Owner “[t]he ‘path’ required by the patent
claims is identified by a green line below.” PO Resp.
44.

App.129a

Patent Owner’s annotated version of Petition Figure
3 above identifies a (green) path inside an (orange)
box that both includes Hunter’s ISTE card 260 and
Ethernet contacts. See id. According to Patent Owner,

App.130a
Petitioners only argue that the current
magnitudes monitored by the Bulan current
limiting circuit are associated to an impedance
within the path because “they directly
result from it per Ohm’s Law (where the
current magnitude equals the Hunter power
supply voltage divided by the total impedance within the path).” (Pet. at 30.) But
Petitioners’ reliance on Ohm’s Law misses
the point: first you need something to apply
impedance within the path of the Ethernet
terminal equipment before Ohm’s Law is
even relevant, and there is no circuitry
disclosed for applying an impedance to the
relevant ISTE Card path.
PO Resp. 44-45.
Patent Owner relies on the same argument to
allege the combination does not render obvious the
“distinguishing information” clause. PO Resp. 45 (“For
the same reasons, the examples of ‘distinguishing
information’ . . . do not satisfy claim 31 because none
of those examples are “associated to impedance within the at least one path. . . . To the contrary, the impedance identified in those examples is applied by the
Bulan current limiting circuit in the hub outside of
the claimed path of the adapted Ethernet data
terminal equipment.” (citing Ex. 2038 ¶ 177)). In a
related argument, Patent Owner contends the claimed
terminal equipment does not encompass “an intermediate device.” See PO Resp. 40 (Ex. 2038 ¶¶ 6974).
These related arguments are not persuasive and
turn, in some aspects, on claim construction. Patent
Owner appears to refer to Hunter’s ISTE card/

App.131a
equipment 260 (including the attached transformer
circuitry with connectors 297) as an “intermediate
device.” See PO Resp. 40, 44; Ex. 1003, Fig. 2; supra
note 17. Based on our claim construction above, the
claimed Ethernet data terminal equipment encompasses an intermediate (or remote) module, attached
peripheral devices, and a long path with Ethernet
contacts somewhere along the path. See Sections B1,
II.A1, A.3. Petitioner shows by a preponderance of
evidence that the claimed terminal equipment reads
on Hunter’s ISTE card/equipment 260 (see supra
note 17), as construed above, because it attaches to a
10Base-T bus according to Ethernet standards, and
therefore, sources or sinks Ethernet data, even though
that device also couples (in the embodiment of Figure
2) to voice instrument/card 299 in Hunter, as Petitioner
contends (as discussed further below). See Pet. 27-31;
Reply Br. 15-16 (citing Ex. 1046 ¶¶ 69-72); supra
Section II.A.3.
Even if the recited “path” must be limited to the
green path specified by Patent Owner so that the
path ends at contacts 297 of Hunter’s ISTE card
/equipment (see PO Resp. 40, 44, Pet. 28), as Petitioner
argues based on Ohms law and specific teachings in
Hunter, Hunter’s Ethernet ISTE 260 necessarily
includes a resistor (i.e., inside the green path identified
by Patent Owner), or else that equipment could not
draw power. The Petition persuasively shows “[t]he
Ethernet data terminal equipment is . . . adapted to
draw phantom power from the network bus.” Pet. 2728 (citing Ex. 1002 ¶¶ 94-95; Ex. 1003, 21:2-8, 23:1013); Pet. 31 (describing driving “operating power to
the TE” over the twisted-pair Ethernet cable.”); Pet.
2931 (citing “Ohm’s Law (where the current magnitude

App.132a
equals the Hunter power supply voltage divided by
the total impedance within the path”)).
Patent Owner’s arguments reduce to the untenable
assertion that Hunter’s ISTE 260 equipment does not
draw power, an impossible event as a matter of
energy conservation. Of course, only a resistor R
consumes power P (as heat in Watts (W)), where
P=I2R or (V)2/R, so if R, V, or I=0, then P=0). See Ex.
2055, 171:4-10 (Patent Owner’s counsel asking “[i]f
the resistance of a particular piece of equipment is a
fixed value, then power becomes just a function of
voltage; correct?” and Mr. Crayford agreeing “[m]athematically that would appear to be correct.”); Ex.
1003, 45:2-4 (“For example, if the maximum short
circuit is 500mA, then a 1/2W [balancing] resistor [in
the terminal equipment’s transformer circuit, Fig. 3,
310] is required (P=I*I*R=.5*.5*2=.5W)”).
Accordingly, the record contradicts Patent Owner’s
argument that the orange box referenced by Patent
Owner shows “no circuitry . . . for applying an impedance.” See PO Resp. 45. As indicated, equipment
within the orange box or connected as part of the
card, including ISTE equipment/card 260, necessarily
draws power by itself and necessarily has a resistance
to draw that power. As Mr. Crayford testifies in his
first Declaration “[i]n an overall LAN [in Hunter’s
system], many pieces of equipment, each with its
own third and fourth transformers, can take power
as well as data from the bus.” Ex. 1002 ¶ 95 (emphasis
added).
In addition, the Petition refers to “the total
impedance within the path” as indicated by “Ohm’s
Law,”-asserting whatever Hunter’s system includes
in the path contributes to the impedance/resistance

App.133a
(as it must). See Pet. 30; see also Ex. 1003, 43
(calculating cable resistance and balance resistors in
path equipment path); Ex. 1003, 45:2-4 (balance
resistors). Petitioner’s showing also indicates that when
Hunter’s LAN/Ethernet equipment also includes
couplable ISDN voice instrument 299 at the end of
the impedance path (with a resistor which also draws/
consumes power) as the embodiment of Figure 2
shows, such voice equipment also contributes to
impedance/resistance of the claimed path according
to Ohms law. See Pet. 28-33. In either case, the total
impedance/resistance can be associated to one or
more couplable devices making up the terminal equipment-i.e., ISTE card/equipment 260 and/or voice
instrument 260.
Hunter supports Petitioner in several places,
further disclosing that the terminal equipment 260
(itself) draws power (and LAN data, see Fig. 2 bottom
of card) through a “10Base-T bus conventionally
compris[ing] two twisted-pair conductors 240, 250,
each used for unidirectional transmission of data”:
The third and fourth transformers 270, 280
allow the equipment 260 to draw power
from the twisted-pair conductors 240, 250,
thereby enabling phantom powering. In an
overall LAN, many pieces of equipment,
each with its own third and fourth transformers 270, 280, can take power as 15 well
as data from the bus. Thus, telephone instruments coupled to the equipment can remain
powered even when associated devices are
not or in the event of a power failure.
Ex. 1003, 39 (emphasis added).

App.134a
Hunter also teaches “[a] voice instrument 299 is
therefore couplable to the equipment 260 and receives
both data and power therefrom.” Ex. 1003, 40
(emphases added); Pet. Reply 18 (asserting “the path
delivering power to the ISTE continues to the Voice
Instrument), quoting Ex. 1003, 40, citing Ex. 1002
¶ 97; Ex. 1046 ¶ 72). As Petitioner’s showing implies
(though not necessary to the holding here), similar to
the optional peripheral equipment (phones, printers
etc.) at the ’012 patent’s disclosed workstations (Ex.
1001, 4:53-64), Hunter’s “couplable” telephones/ instruments 299 certainly may be uncoupled by a simple
disconnection, so that all the power would be drawn
by the implicit resistance of the ISTE card /equipment
260, rendering that equipment no longer “intermediate”
(assuming Patent Owner’s narrow claim construction
of terminal equipment applies). See supra Sections
II.A.2, A.3; PO Resp. 40 (implying Hunter’s ISTE
equipment cannot be Ethernet data terminal equipment because it is “intermediate” equipment); Ex.
1002 ¶ 95 (citing Hunter’s LAN equipment).
As Petitioner also alleges, Hunter’s system delivers
DC current “from the same twisted-pairs it uses to
communicate Ethernet data.” Pet. 29 (citing Ex. 1002
¶ 98; Ex. 1003, 21:27-29). The Petition quotes Hunter:
“The present invention preferably employs each of
the twisted-pair [10Base-T] conductors as a rail by
which to deliver DC power to the equipment.” Id.
(quoting Ex. 1003, 21:27-29 (emphasis added)). On
the same page, Hunter also refers to “telephone
instruments coupled to the equipment” that “receive
power.” Ex. 1003, 21:14-16.
Therefore, Patent Owner’s arguments do not rebut
Petitioner’s showing that Hunter’s circuit delivers

App.135a
power to ISTE equipment/card 260 and/or other
devices (e.g., voice instrument 299) connected thereto.
See Ex. 1002, Fig. 2 (ISTE 260 and voice instrument
299 connected). As Petitioner shows, different resistor
values necessarily draw different current (power),
thereby necessarily having the capability to provide
distinguishing information (different current magnitudes) from a resistor or resistors in the TE
equipment about that equipment. See Pet. 30-32
(Bulan shows varying current magnitudes responsive
to varying loads).
Patent Owner also argues the combination does
not teach the distinguishing limitation because Bulan’s
circuit does not “differentiate the adapted Ethernet
data terminal equipment from another device. Petitioners are silent as to how any of the current
magnitudes differentiate the adapted Ethernet terminal equipment.” PO Resp. 42. These arguments and
related arguments ignore that the claimed Ethernet
device and Hunter’s Ethernet device need only, at
most, be capable of being distinguished via impedance
under the rationale of Schreiber. See supra Section
I.B., II.A.1.18
In any event, even if claim 31 requires the
limitation as interpreted by Patent Owner, at least
some different Ethernet devices necessarily have
different internal impedances/resistances than other
18 The claim phrase “wherein distinguishing information about
the piece of Ethernet data terminal equipment is associated to
impedance within the at least one path” does not require the
association to occur within the path of the Ethernet data
terminal equipment. Under Schreiber, as explained above in the
claim construction section, claim 31 does not require any
association actually to occur. See supra Sections II.A.1-3.

App.136a
Ethernet devices, rendering any Ethernet device
capable of being distinguished. See supra Section II.A.1
(citing support for the finding). Even if claim 31
somehow requires more, as Petitioner notes, Bulan
specifically describes its circuit as providing different
responsive information based on different load devices.
See Pet. 30-32 (citations omitted), 21 (quoting Ex.
1004, 7:7-13); Ex. 1004, 7:7-13 (“If . . . the apparatus
during start up requires several inrushes” this procedure “may happen several times, as may be peculiar
to the particular equipment being connected to the
line.” (emphasis added)); Pet. Reply 24 (arguing Patent
Owner “does not account for Bulan’s statement that
these detected magnitudes may provide information
‘that is peculiar to the particular terminal equipment
being connected to the line.’” (quoting Ex. 1007, 7:911 (emphasis by Petitioner), citing Pet., 21, 24, 33)).
b. Ethernet
Patent Owner also argues with respect to claim
31 that Hunter and Bulan do not disclose or suggest
Ethernet. PO Resp. 6. For example, Patent Owner
contends “10Base-T (1993) and 100Base-T (1995) did
not employ phantom powering for Ethernet communications.” Id. Patent Owner also argues installed
Ethernet networks employed “common mode chokes”
(“CMCs”) and “Bob Smith” terminations (“BSTs”) as
terminations “to clean up [the] signal and minimize
emissions.” Id. at 6-7 (citing Ex. 2039, 43:11-18, 43:2044:2, 45:6-8; Ex. 2038 ¶ 34). According to Patent Owner,
“adding power to an Ethernet cable could saturate
the common mode chokes, interfering with the Ethernet
transmissions.” Id. at 7 (citing Ex. 2038 ¶ 35). Patent
Owner similarly contends power could damage the
BSTs and impair the signal integrity. Id. (citing Ex.

App.137a
2039, 45:10-21; Ex. 2038 ¶ 35). Patent Owner also
argues that “as late as 1999-2000, the IEEE experts
were skeptical about using PoE [(i.e., sending operating
power and data on the same lines, supra Section
I.B)], because of potential damage to the equipment
or degrading the Ethernet data signal.” Id. at 7
(citing Ex. 2038 ¶ 36). Patent Owner also argues at
the time of the invention (1997), “Standard 10Base-T
Ethernet [was] still the most common type of network
architecture in use.” Id. at 7 (citing Ex.1010, 99, 157;
Ex.2039, 24:18-25:15.). Patent Owner contends IEEE
802.3-the “[s]tandard [for] 10Base-T Ethernet”-required
an RJ-45 “MDI connector” having eight contacts,
with two unused pairs, thereby suggesting putting
power over those unused pairs, instead of pairs used
for the data. Id. (citing Ex.2039, 77:21-78:8).
Patent Owner also argued during the Oral
Hearing that skilled artisans would have recognized
that its disclosed low power would not destroy the
BSTs or CMCs in “legacy devices,” but high power
(i.e., PoE) would. See Tr. 111:7-22 (arguing “[b]ecause it
can operate at low power, it doesn’t saturate Bob Smith
and it can communicate.”); 134:21-135:12 (similar
testimony); supra Section I.B. Patent Owner explains
that pre-existing networks would have contained
“billions of nodes” (i.e., existing devices) each having
BSTs and CMCs. PO Resp. 15 (citing Ex. 2039, 43:2044:2, 45:6-8, 193:6, 195:3-196:3; Ex. 2038 ¶ 42). As
noted above, Patent Owner similarly argues that its
invention solves a PoE legacy problem because its
system first checks for power requirements, then
delivers PoE. See PO Resp. 9 (“[A] PoE network could
not provide PoE power to an Ethernet terminal

App.138a
device unless it knew whether the device was a PoE
terminal device.”); supra Section I.B.
Based on these arguments, Patent Owner contends
“an ordinary artisan never would have combined
references and acted as Petitioner[’]s propose.” Id. at
14. Patent Owner refines the summarized arguments
above on pages 16-27 of its Brief. Dr. Madisetti’s
testimony largely tracks Patent Owner’s arguments.
See, e.g., Ex. 2038 ¶¶ 41-68.
These arguments are not persuasive. First, the
arguments reveal that not all Ethernet terminal
devices (legacy or otherwise) have BSTs and CMCs.
Tr. 115:19-116:3, 150:16-151:8; Ex. 1020, 55:19-56:2,
80:16-23; see also PO Resp. 9 (alleging the disclosed
invention enables PoE only after checking power
and/or equipment requirements).19 Second, because
not all Ethernet terminal devices had BSTs and
CMCs, Patent Owner’s arguments implicitly recognize
that providing PoE to those devices would have been
obvious-and the claims cover those devices. Third,
the claims do not limit the amount of power delivered
to any Ethernet devices, regardless of whether such
devices have BSTs and CMCs. Fourth, the challenged
(apparatus) claims do not require checking for power
requirements prior to sending PoE (i.e., operating
19 In other words, Patent Owner alleges that after determining
the Ethernet equipment could handle operating power (because,
inter alia, it did not have BSTs or CMCs), the disclosed
invention could supply operating power (PoE). See PO Resp. 9.
Regardless of whether the record supports Patent Owner’s
arguments that its disclosed invention enables PoE, the record
shows, and Patent Owner agrees, that not all legacy Ethernet
equipment had BSTs or CMCs. Tr. 115:19-116:3, 150:16-151:8;
Ex. 1020, 55:19-56:2, 80:16-23.

App.139a
power). See supra Section I.B. Finally, Patent Owner
admitted during the Oral Hearing that for “new
devices, you can put whatever you want to in them.
You can fix the problem.” Tr. 135:6-7. This argument
suggests a person of ordinary skill also could “fix the
problem” with legacy Ethernet devices (assuming for
the sake of argument the claims require legacy
Ethernet devices). The latter suggestion coalesces
with Mr. Crayford’s credible testimony showing that
skilled artisans knew how to provide PoE, even if
they would have had to modify Ethernet circuitry
that includes BSTs or CMCs. See Ex. 1046 ¶¶ 23-25
(including simple DC current blocking capacitors).
According to Patent Owner, an artisan of ordinary
skill would have recognized that using Hunter’s
Ethernet with Hunter’s phantom power would have
degraded signal quality or damaged legacy equipment
having BSTs or CMCs, and then abandoned Hunter’s
teaching/suggestion of providing Hunter’s phantom
power system with Hunter’s Ethernet. See PO Resp.
17 (citing Ex. 2038 ¶ 48). But even if a legacy Ethernet
terminal included a BST or CMC, the record shows
an artisan of ordinary skill easily would have accommodated it in order to provide beneficial PoE. See Ex.
1046 ¶¶ 23-33.
For example, in addition to disclosing providing
power and data to interactive multimedia systems
via twisted pairs and Ethernet standards, Hunter
teaches accommodating existing systems (Ex. 1001,
3:4-17, 21:3-12): “It is a further primary object of the
present invention to remain as compatible as possible
with existing standards for video, voice and data
communications.” Id. at 21:10-12 (emphasis added).
Hunter also mentions “legacy voice systems,” noting

App.140a
“[a]n interactive multimedia system must closely
follow the availability requirements of the legacy
voice system.” Ex. 1003, 5:4-9, 10:14-16, 23:24-29.
Hunter describes varying “the values of . . . balancing
resistors . . . depend[e]nt on the current the load (the
equipment 260 of FIGURE 2, for example) requires.”
Id. at 43:10-12 (emphasis added). Hunter describes
preferably using a 48V source, but describes using
sources with a “wide range of power levels” and using
“DC-DC convertors” for other “voltage levels (i.e. 3V
or 5V).” Id. at 41:5-8. Hunter describes providing
balance circuits for signal quality, noting “[o]f course,
those of skill in the art will recognize that the
balance circuits 290 of the present invention may be
deleted at the risk of impairing signal quality.” Id. at
42:4-7 (emphasis added). Hunter further explains
that “a careful phantom power scheme must be implemented to avoid problems that may arise due to
interactions between the power and the data.” Ex.
1003, 19:13-26 (emphasis added). Bulan’s circuit prevents damage to circuit components under varying
load conditions, further showing artisans of ordinary
skill routinely designed protective circuits by considering load power and other system constraints.
See Ex. 1004, Abstract (“providing effective overcurrent
protection in spite of widely variable load current
requirements”). These disclosures further support
Mr. Crayford’s credible testimony that accommodating
CMCs and BSTs to provide PoE would have been
routine. See Ex. 1046 ¶¶ 18-26.
Patent Owner’s contention regarding the requirement for BSTs and CMCS to prevent noise for billions
of existing terminal devices also is not commensurate
in scope with the challenged claims, because the chal-

App.141a
lenged claims only require a single Ethernet device.
An artisan seeking to power a single isolated Ethernet
device need not have considered in all cases embraced
by the claims whether noise and emissions interfered
with other Ethernet devices, because those isolated
devices would be too far away for them to interfere
with other devices. Even if FCC emissions were a
concern, a skilled artisan could have implemented
other designs. See Ex. 1046 ¶¶ 16-21 (showing CMCs
and BSTs would have been optional and not required
by the claims and other devices could have been used
to solve their “purpose”-FCC regulations); Tr. 150:22151:14 (Patent Owner arguing BSTs were “prevalent”
but conceding “[w]e can’t represent . . .they’re in every
single circuit ever made by man”); 115:19-116:4 (Patent
Owner asserting with respect to the number of BSTs
in Ethernet equipment “the record is that it’s
somewhere between some and all, and a lot closer to
all”).
In addition, the ’012 patent does not discuss
BSTs or CMCs in any of its disclosed networks. See
Pet. Reply 2. Even if a skilled artisan desired to use
BSTs and/or CMCs with billions of nodes, this relates
to satisfying FCC regulations. See Ex. 1046 ¶¶ 13-14
(citing Ex. 1029 (patent for BSTs)). The claims do not
require satisfying FCC regulations. See id. ¶¶ 14-15.
Even if an artisan of ordinary skill would have
contemplated satisfying FCC regulations, Mr. Crayford credibly and persuasively shows skilled artisans
knew how to do reduce regulated emissions with or
without using BSTs or CMCs. Id. ¶¶ 14-24.
Accordingly, Patent Owner’s arguments that the
challenged claims solve a problem with legacy devices
are not commensurate in scope with the claims. See

App.142a
PO Resp. 17. As noted, the claims read on devices
that do not solve any alleged problems for several
reasons: 1) not all legacy Ethernet devices included
BSTs and CMCs; 2) even if some legacy Ethernet
devices included BSTs and CMCs, the claims read on
providing high power to them without checking any
power requirements; and 3) skilled artisans already
knew how to provide the correct PoE without burning
out components, including legacy Ethernet components.
See Therasense, Inc. v. Becton, Dickinson & Co., 593
F.3d 1325, 1336 (Fed. Cir. 2010) (“Because the claims
are broad enough to cover devices that either do or do
not solve the ‘short fill’ problem, Abbott’s objective
evidence of non-obviousness fails because it is not
‘commensurate in scope with the claims which the
evidence is offered to support.’“ (emphasis added)
(quoting In re Grasselli, 713 F.2d 731, 743 (Fed. Cir.
1983)); MeadWestVaco Corp. v. Rexam Beauty and
Closures, Inc., 731 F.3d 1258, 1264 (Fed. Circ. 2013)
(holding a district court erred because it credited
“secondary considerations of nonobviousness [that]
involved only fragrance-specific uses, but the claims
now at issue are not fragrance-specific.” (emphasis
added)); In re Tiffin, 448 F.2d 791, 792 (CCPA 1971)
(claims that are “too broad” fail to show that the
claims are reasonably commensurate with the scope
of the objective evidence of non-obviousness: “The
solicitor’s position is that the objective evidence of
non-obviousness is not commensurate with the scope
of claims 1-3 and 10-16, reciting ‘containers’ generally,
but establishes non-obviousness only with respect to
“cups” and processes of making them. We agree.”); In
re Law, 303 F.2d 9515 1162 (CCPA 1961) (“Thus,
assuming the affidavits are a proper showing of
commercial success, they do not show commercial

App.143a
success of dockboards covered by the appealed claims
which are not limited to the bead of claim 13.”
(emphasis added)).20
In any event, setting aside the breadth of the
claims, BSTs and CMCs pertain to, at most, design
issues, as indicated above. The IEEE 10Base-T standard does not require them. See Ex. 1020, 141:19144:10 (testifying the standard does not specify
BSTs, but maintaining a skilled artisan would have
understood “you require circuitry such as” BSTs “to
maintain signal integrity and . . . [to] reduce other
impairments”); Pet. Reply 2-4; Ex. 1046 ¶ 16 (BSTs
and CMCs address FCC issues).
Regarding alleged skepticism, as discussed further
below (see infra Section II.D.3) and as Petitioner
argues, Patent Owner’s evidence at most shows that
some committee members did not favor using PoE as
an IEEE standard, but other committee members
did. See Pet. Rep. 8-9; PO Resp. 23-24 (arguing “the
clear majority . . . rejected applying power to the datacarrying pins)). In addition, any skepticism about
whether PoE would become a standard does not
relate to whether or not it worked, and more
importantly, does not relate to the obviousness of the
challenged claims. Merely considering PoE as an
IEEE standard shows the method was well-known.

20 The cited cases deal with secondary considerations, and Patent
Owner’s arguments relate to solving an alleged problem. Even if
Patent Owner’s arguments do not raise issues of secondary
considerations directly, the cited cases reveal in principle that
arguments asserting non-obviousness must be reasonably
commensurate in scope with the claims.

App.144a
Patent Owner’s cited evidence shows that at
least one member identified “[p]ossible” or “[p]otential”
“[i]ssues” with PoE, but the same member listed
“[a]ttributes,” including that PoE “[u]ses less [sic:
fewer] wires” and “would work on non-standard
legacy two pair cabling.” Ex. 2044, 2. PO Resp. 24
(citing Ex. 2044, 2). No reasonable dispute exists over
the fact that PoE was used at the time of the
invention. See id.; Tr. 84:13-92:6 (admitting the
inventors of the ’012 patent did not invent PoE, the
challenged claims do not require PoE, and the
challenged claims cover merely identifying equipmenti.e., without providing PoE); PO Resp. 8 (one purpose
of the claimed invention involves providing securityi.e., not power).
Regarding Patent Owner’s related arguments
that some Ethernet cables and connectors included
unused pairs (see PO Resp. 20-21, inter alia CAT-3,
and CAT-5 cables and connectors), using data lines
and power simultaneously over the same lines was so
well-known that Hunter, Bloch, and skilled artisans
referred to the practice as “phantom” power or PoE,
as noted above and further below. Supra Section I.B;
infra Section II.D.3. In addition to Hunter, Bloch
explains phantom power circuits “can find application
in many different control unit/terminal applications.”
Ex. 1005, 4:49-52. And as Petitioner argues, simply
because some prior art connectors showed unused
pins does not mean an existing circuit included wires
for the connector pins or that other Ethernet TEs
could not use existing wire pairs. See Reply Br. 13-14
(citing Ex. 1046 ¶¶ 61-62; Ex. 1008, 214; Ex. 1020,
345:21-346:7; 363:1-9; 364:21-365:5) (arguing “[e]ven
the IEEE could not determine what percentage of

App.145a
installations had unused pairs”). As Patent Owner’s
evidence shows, and as Hunter suggests, using fewer
wires to provide data and power constitutes a benefit
of cost and the related benefit of communicating with
more equipment. See Ex. 2044, 2; Ex. 1003, 23:23-29;
Ex. 1040, 3 (decreases system cost and allows “easier
integration of discovery & power control circuitry”).
Challenged claim 31 requires Ethernet equipment to have the implicit capability of receiving
sufficient power on a path coupled to Ethernet contacts so that its impedance can be detected. On this
record, Petitioner shows by a preponderance of
evidence that Hunter’s Ethernet equipment necessarily
does that, with or without the suggested features of
Bulan that explicitly teach an impedance distinction
in detected load equipment.
Patent Owner also contends that Hunter repeatedly refers to “Ethernet®,” but does not explain what
the term “Ethernet®” means. PO Resp. 29-30 (citing
Ex. 1003, 12, 14, 21, 23, 28, 35, 36; Ex. 2038 ¶ 68).
Patent Owner explains that the term “Ethernet®” in
Hunter refers to the original trademarked version of
Ethernet owned by Xerox Corp, not the subsequent
non-trademarked versions of Ethernet, such as 10BaseT and 100Base-T. Id. at 29 (citing Pet. 27; Ex. 1002
¶ 94 n.5).
These additional arguments regarding Ethernet
are not persuasive. The ’012 patent makes no distinction about Ethernet types, and broadly states “[t]his
invention is particularly adapted to be used with an
existing Ethernet communications link or equivalents
thereof.” Ex. 1001, 3:35-37. Hunter discloses a 10BaseT bus comprising two twisted pair conductors for the
transmission of data. Pet. 27-28; Ex. 1003, 37:19-28.

App.146a
Hunter also teaches connectors for connecting network
equipment to the 10Base-T bus. Pet. 28; Ex. 1003,
38:21-25, Fig. 2.
Patent Owner does not dispute that the term
“BaseT” (which unchallenged claim 14 recites as a
type of Ethernet) refers to a “twisted pair Ethernet in
accordance with the 10Base-T or 100Base-T standards.” PO Resp. 14. Patent Owner does not dispute
Petitioner’s showing that Hunter teaches a “10BaseT” bus comprising two twisted pair conductors for the
transmission of data. Pet. 27-28; Pet. Reply 19-20;
Ex. 1003, 26:3-6, 37:19-28. For example, Hunter
teaches a power “rail” on the 10Base-T bus:
In the illustrated embodiment, the bus
comprises a 10Base-T bus. A 10Base-T bus
conventionally comprises two twisted-pair
conductors 240, 250, each used for unidirectional transmission of data. Thus, in
this embodiment, one of the twisted pairs
(say, 250) is employed for transmitting data
from the equipment 260, while the other of
the twisted-pairs (say, 240) is used for
receiving data into the equipment 260. The
present invention preferably employs each
of the twisted-pair conductors as a rail by
which to deliver DC power to the equipment
260.
Ex. 1003, 37:19-28 (emphases added). Therefore,
regardless of whether Hunter’s “Ethernet®” nomenclature includes 10Base-T, Hunter independently teaches
10Base-T.21 Id.
21 The parties agree that the IEEE published the 10Base-T
standard prior to the invention. Ex. 1002 ¶ 92 n.5 (testifying

App.147a
Patent Owner also contends that Petitioner does
not show sufficiently that the two twisted pair conductors of the 10Base-T bus in Hunter carry Base-T
Ethernet signals. See PO Resp. 35. Specifically, Patent
Owner argues that hubs 140, 150, 160, and 180 in
Figure 1 of Hunter connect to multimedia hub 120
through isoEthernet interfaces. Id. (citing Ex. 1003,
34:19-21, 35:14-16, 35:27-28, 36:13-17, 36:28-37:2).
According to Patent Owner, isoEthernet interfaces
only carry ISDN signals, not Ethernet signals. Id.
(citing Ex. 1003, 15:15-18; Ex. 2038 ¶ 77). Patent
Owner also argues that hub 170 in Figure 1 of
Hunter connects to multimedia hub 120 through a
10Base-F interface. Id. at 35-36 (citing Ex. 1003,
36:20). According to Patent Owner, a 10Base-F interface requires a fiber connection, and “fiber cannot
carry electrical current.” Id. (citing Ex. 2038 ¶ 78).
Patent Owner’s arguments regarding isoEthernet
and 10Base-F arguments are not persuasive. Patent
Owner’s arguments rely on the unpersuasive premise
that the phantom powering subsystem represented in
Figure 2 of Hunter necessarily must be incorporated
bodily into specific hubs represented in the system of
Figure 1 of Hunter. Id. at 35-36. Figure 2 represents
an “illustrated embodiment” (Ex. 1003, 39:19) and “a
schematic diagram of a phantom powering subsystem”
200 (id. at 37:21-22). Figure 1 represents an “illustrated
embodiment” of the system 100 (id. at 34:17) and also
“illustrate[s] a system diagram of an interactive
multimedia subsystem employing the power subsystem
of the present invention” (id. at 34:4-5).
both 10-Base-T and 100Base-T were well-known by 1997); Ex.
2038 ¶ 32 (testifying IEEE published the standard in 1993).

App.148a
As Petitioner argues, Hunter does not limit its
teachings about its phantom powering subsystem or
its multimedia system to Figures 1 and 2, which
merely represent embodiments. See Reply Br. 20-21.
Hunter teaches generally that each hub in Figure 1
may represent “one of the cards” that otherwise may
be in multimedia chassis 110 of the overall system
100. See Ex. 1003, 34:5-15, Figure 1. As noted,
Figures 1 and 2 merely each represent an “illustrated
embodiment.” Id. at 34:17, 39:19. Hunter does not
limit its system to each “illustrated embodiment,” let
alone, to a combined version of the embodiments
according to Patent Owner’s restricted view. As
Petitioner also persuasively argues, Figure 2 does
not require every connector depicted; Figure 1 does
not require any specific hub or card arrangement;
and Hunter generally discloses powering equipment
by connecting phantom power to any hub along the
10Base-T bus, using 10Base-T as a standard. See Pet.
Reply 20-22; Ex. 1003, 34:5-21, 39:19-20 (describing
illustrated embodiments).
Hunter teaches that “in a preferred embodiment
. . . the bus [to which cards or hubs attach] comprises
a 10Base-T bus,” and notes that “[t]hose of skill in
the art will recognize . . . that the present invention
is also compatible with Ethernet®, Token Ring®,
ATM and isoEthernet® standards.” Ex. 1003, 26:3-11
(emphases added). Hunter refers to “[o]ne standard
that employs” the “two twisted-pair conductors” bus
as “10Base-T.” Id. at 4-6. Similarly, claim 3 of Hunter
states that the “bus comprises a two-pair twisted-pair
bus selected from the group consisting of: 10Base-T,
Ethernet®, Token Ring®, ATM, 100Base-T, and
isoEthernet®.” Id. at 51 (emphases added). These

App.149a
portions of Hunter teach a network that preferably
uses a 10Base-T bus for connecting network equipment,
and alternatively may use an isoEthernet bus.
Therefore, contrary to Patent Owner’s argument,
skilled artisans would have recognized that Hunter
does not cabin its teachings to an isoEthernet ISDN
embodiment or any other embodiment.
Patent Owner’s remaining arguments regarding
Hunter’s Ethernet each impermissibly restrict Hunter’s
teachings by relying on specific card/hub bodily
incorporations of the phantom powering subsystem
200 embodiment represented in Figure 2 into the
system 100 embodiment represented in Figure 1 of
Hunter. See PO Resp. 31-32 (citing Ex. 2038 ¶ 70).
For example, Patent Owner’s arguments assume that
because Hunter shows voice instruments 155 connected
to hub 150 in Figure 1, and because Figure 2 shows
multiple connectors 297, 298, this shows that voice
instruments 155 and hub 150 of Figure 1 respectively
must represent voice instrument 299 and ISTE card
260 of Figure 2. See PO Resp. 32-34. In other words,
Patent Owner reasons that ISTE 260 of Figure 2
must represent hub 150 of Figure 1, based on
connectors 297, 298 respectively on each side of ISTE
card 260 in Figure 2 (and implicit similar connections
on hub 150 in Figure 1 with respect to ISDN phone
155 connections). See PO Resp. 33-34.
As another example, Patent Owner argues that
hub 120 in Figure 1 of Hunter corresponds to the
phantom power source on the left-hand side of Figure
2 of Hunter. See PO Resp. 32. Based on that and
other indications noted above (e.g., connections 297,
298), Patent Owner equates Figure 1’s hub 150 with
Figure 2’s ISTE card 260, and contends hub 120

App.150a
(allegedly with phantom power and data) communicates
with hub 150/card 260 using isoEthernet interfaces.
See id. at 32, 35. (With the exception of hub 170 discussed below, Patent Owner chooses hub 150 as a
representative example of hubs 140, 150, 160, and
180 that each allegedly transmit only isoEthernet.
See id.)
Hunter’s Figure 1 depicts telephones 155 and
165 connected to hubs 150 and 160, and phone 127
(and video camera 126) connected to computer 125,
which connects to multimedia Hub 120. Hunter
simply does not confine any depicted telephones and
connections of the embodiment of Figure 2 to any
specific hub or connection depicted in the embodiment
of Figure 1. See id. at 32:16-17, 41; Reply Br. 19-22;
Ex. 1046 ¶¶ 77-78.
In addition, Figure 2 shows “ISTE Card 260,”
but Hunter refers to “two connectors 298 shown in
FIGURE 2 between the equipment 260 (an ISTE
device) and the voice instrument 299.” Ex. 1003,
43:4-44:2. Connectors 297 exist on the other side of
card 260 and include the transformer circuitry attached
to card 260. See id. at Fig. 2. Patent Owner’s showing
relies on cards and respective connectors only. See
PO Resp. 32 (Response Figure 1, citing Ex. 2038
¶ 70). Hunter’s teachings, including generic teachings
regarding 10Base-T and phantom power, indicate
that Hunter’s ISTE equipment communicates using
10Base-T Ethernet standards, with the system
“preferably” providing “DC power to the equipment”
using “twisted-pair conductors as a rail.” See Ex.
1003, 23:17-29.
As Petitioner argues, Hunter implies phantom
power “can be located in any of the hubs or PCs.”

App.151a
Reply Br. 20 (citing Ex. 1046 ¶¶ 73-76). Petitioner
describes the example of 10Base-T hub 170, which
provides power over 10Base-T ports to 24 devices. Id.
(citing Ex. 1003, 36:18-19). Petitioner persuasively
contends that “[a] POSITA would understand a power
source in Hub 120 would be unable to power all the
connected Hubs and the dozens of devices connected
to them.” Pet. Reply 20 (citing Ex. 1046 ¶¶ 73-76);
see also Pet. Reply 19-20 (arguing “ChriMar acknowledges there must be an ISTE Card in Hub 150”
based on similar telephone connections in Figures 1 and
2 and listing hubs 150, 160, and 170 as candidates);
Ex. 1046 ¶¶ 73-78.
As another example supporting Petitioner’s showing, in reference to a generic application of the
phantom powering subsystem represented schematically by Figure 2, Hunter states “[i]n an overall
LAN, many pieces of equipment, each with its own
third and fourth transformers, 270, 280, can take
power as well as data from the bus.” Ex. 1003, 39:1315 (emphasis added). Hunter also generally describes
providing “various connectors . . . interposed to allow
the twisted-pair conductors 240, 250 to be rerouted
as necessary.” Ex. 1003, 40:21-23 (emphases added);
Pet. Reply 21 (making same point, citing Ex. 1003,
40:21-23).
Accepting for the sake of argument Patent
Owner’s premise that combining Figures 1 and 2
limit Hunter’s teachings to an isoEthernet configuration, Patent Owner unpersuasively also assumes
isoEthernet interfaces only carry ISDN signals, not
Ethernet signals. See PO Resp. 35 (citing Ex. 1003,
17:15—18; Ex. 2038 ¶ 77). Contrary to that added
assumption, the portion of Hunter cited by Patent

App.152a
Owner indicates that isoEthernet interfaces include
ISDN signals, but Hunter does not indicate that
isoEthernet interfaces do not include 10Base-T signals,
and Petitioner shows they do. See Ex. 1003, 15:15—
18; Ex. 1046 ¶ 69 (“an ISTE [of Hunter’s Figure 2]
splits isoEthernet data, a combined ISDN and 10BaseT signal into ISDN voice data for Voice Instrument
299 and 10Base-T LAN data for other equipment in
the system”).22 Similarly, the portion of Dr. Madisetti’s
declaration cited by Patent Owner states that
“isoEthernet used ISDN signals, not Ethernet,” but
Dr. Madisetti provides insufficient support for that
statement (i.e., it cites the same portion of Hunter
discussed above). Ex. 2038 ¶ 77.
In addition to Mr. Crayford’s testimony regarding
10Base-T (Ex. 1046 ¶ 69), to the extent ISTE card
260 represents isoEthernet as Patent Owner contends,
Petitioner submits corroborating evidence with the
Petition (Pet. iv,) and cites it in its Reply (Pet. Reply
15, 22) to show that the “IsoEthernet layer functions
as a 10Base-T transceiver” (Pet. Reply 15 (citing Ex.
1010, 165)).23 As a result, even accepting Patent
Owner’s premise that hub 120 in Figure 1 of Hunter
communicates with hub 150 using isoEthernet inte22 Mr. Crayford explains that his reading of Hunter’s ISTE
coincides with IEEE 802.9a standards, which define an ISTE as
“a device that serves as an information source and/or information
sink for the provision of voice, facsimile, video, data, and other
information.” Ex. 1046 ¶ 69 (citing Ex. 1032, 20). Figure 2
supports the testimony and shows ISTE Card 260 splitting data
by transferring LAN data (at the bottom of the card) and voice
data (to the right to voice instrument 299).
23 Like Hunter, Exhibit 1010 refers to the IEEE 802.9a standard
for isoEthernet. Ex. 1003, 15:15-18; Ex. 1010, 160.

App.153a
rfaces, and the premise that those hubs correspond to
the above-noted components in Figure 2 (see PO
Resp. 32), the evidence of record indicates that isoEthernet interfaces carry 10Base-T signals, at least when
used in the 10Base-T mode of isoEthernet.
Patent Owner also alleges that 10Base-T hub 170
connects to multimedia hub 120 (again assumed by
Patent Owner to be the phantom power source of
Figure 2) only through a 10Base-F interface. See PO
Resp. 35-36 (citing Ex. 1003, 36:20). The evidence
cited by Patent Owner, however, does not support
that argument. The cited portion of Hunter states
that “[t]he 10Base-T hub 170 further provides an
Ethernet®. AU interface and a single 10Base-F network
interface.” Ex. 1003, 34:18-20 (emphasis added). The
phrase “further provides” does not establish that
10Base-T hub 170 only includes a 10Base-F interface
to hub 120. See id.; Reply Br. 22. Hunter teaches that
multimedia hub 120 includes a 10Base-T repeater,
which, like the preferred embodiment of Hunter
(discussed further next), indicates that multimedia
hub 120 communicates with 10Base-T hub 170 over a
10Base-T bus, not just a 10Base-F interface. See Pet.
Reply 15, 22; Ex. 1003, 26:3-8, 32:16-27, 34:18-20,
37:19-28, Fig. 1.
At the Oral Hearing, Patent Owner argued that
although Hunter teaches a 10Base-T bus, Hunter
does not teach that the 10Base-T bus carries both
10Base-T signals and DC power. Tr. 126:9-127:11.
According to Patent Owner, when the 10Base-T bus
carries DC power, it only carries ISDN signals. Id. at
128:22-129:3. Patent Owner reads Hunter too narrowly.
As quoted above, Hunter teaches the following:
In the illustrated embodiment [of Figure 2],

App.154a
the bus comprises a 10Base-T bus. A 10BaseT bus conventionally comprises two twistedpair conductors 240, 250, each used for
unidirectional transmission of data. Thus,
in this embodiment, one of the twisted pairs
(say, 250) is employed for transmitting data
from the equipment 260, while the other of
the twisted-pairs (say, 240) is used for
receiving data into the equipment 260. The
present invention preferably employs each
of the twisted-pair conductors as a rail by
which to deliver DC power to the equipment
260.
Ex. 1003, 37:19-28 (emphases added).
In other words, Hunter teaches that the 10BaseT bus preferably delivers DC power over the same
two twisted pair conductors used to transmit data, and
it highlights the Figure 2 subsystem embodiment as
a “10Base-T bus.” Id. at 21:22-29, 37:19-28. Patent
Owner’s arguments that confine Hunter by attempting
to bodily incorporate cards and power of the Figure 2
embodiment into certain hubs or cards of the Figure
1 embodiment do not account for Hunter’s central
teaching of delivering power and data over 10Base-T
Ethernet twisted-pair bus.
Moreover, as Petitioner shows, “[t]he ’012 patent
acknowledges that at the time of the alleged invention, ‘existing Ethernet communications’ and equivalents thereof were known.” Pet. 3 (quoting Ex. 1001,
3:36, citing 5:20-24). At the cited passage, the ’012
patent states the invention “employs a conventional
wiring approach of the type which may include twisted
pair wiring such as Ethernet, Token Ring, or ATM.
Wiring schemes similar to Ethernet are commonly

App.155a
employed to provide data communication links for
electronic computer equipment.” Ex. 1001, 5:16-20
(emphasis added). See In re Baxter Travenol Labs,
952 F.2d 388, 390 (Fed. Cir. 1991) (holding extrinsic
evidence, including admissions, may be used to explain
what a reference discloses in a reexamination proceeding).
As noted above, the Petition generally relies on
Hunter’s disclosure of “10Base-T hub” and other
specific Ethernet disclosures that transmit power.
See, e.g., Pet. 26-27 (citing Ex. 1002 ¶ 96; Ex. 1003,
16:26-18:1). Petitioner alternatively alleges using Ethernet would have been obvious, as follows: “Moreover, it
would have been obvious to a PHOSITA to implement
the teachings of Hunter with terminal equipment
other than the exemplary ISTE, and/or with a bus
applying other Ethernet standards (such as 100BaseT). Hunter seeks to supply phantom power to equipment generally.” Id. (citing Ex. 1003, 18:26-20:1,
21:2-8, 28:7-11).
In addition to noting that the ’012 patent admits
Ethernet conventionally was used to supply data,
Petitioner provides the following citations to Hunter
to support its showing of anticipation and/or obviousness with respect to the Ethernet limitation:

See Hunter [18]:26-[20]:1 (general advantages
of phantom powering), [21]:2-8 (“primary
object” to provide “phantom” power “to
equipment coupled to a local area network,
including, but not limited to, Ethernet®,
Token Ring®, ATM, and isoEthernet®.”),
2[3]:11-13 (“In an overall LAN, many pieces
of equipment . . . can take power as well as
data from the bus.”), 2[8]:7-11 (“[I]n a pre-

App.156a
ferred embodiment . . . the bus comprises a
10Base-T bus. Those of skill in the art will
recognize, however, that the present invention is also compatible with Ethernet®,
Token Ring®, ATM, and isoEthernet®
standards.”), 51 (claim 3: “bus comprises a
two-pair twisted-pair bus selected from the
group consisting of. “10Base-T, Ethernet®,
Token Ring®, ATM, 100Base-T, and
isoEthernet®”), 54 (claim 13: same), 58
(where dependent claim 29 confirms the TE
need not be an ISTE by adding “wherein
said equipment is an Integrated Services
Terminal Equipment (ISTE) device”); Crayford ¶ 94.
Pet. 26-27.
Accordingly, even though Hunter discloses several
types of communication standards, Petitioner shows
that Hunter clearly discloses Ethernet as an option
and suggests it as a preferred option. Patent Owner’s
argument that Hunter’s disclosure of a 10Base-T
Ethernet bus only refers to Ethernet wires is not
persuasive. See PO Resp. 49 (“On page 26, [Hunter]
. . . confirms that [it] is invoking ‘10Base-T’ to
describe the twisted pair wiring for his bus. . . . The
claims also confirm that Hunter uses the terms
‘10Base-T’ and ‘100Base-T’ only to refer to the twistedpair wiring.”).
As Petitioner’s Reply makes clear, “Hunter . . .
discloses 10Base-T, 100Base-T, and isoEthernet standards, that all teach the ‘Ethernet’ limitation.” Pet.
Reply 14 (citing Pet. 25-28) (internal footnote omitted).
Petitioner also notes the following Ethernet disclosures:

App.157a
Hunter also teaches 10Base-T equipment.
For example, Hunter discloses a “10Base-T
hub 170.” Id., 3[6]:18-20; Fig. 1. “Multimedia
hub 120” is connected to “10Base-T hub 170”
and handles “bridging among standards.”
Id., Fig. 1, 3[4]:16-33:2. Multimedia hub 120
has a “10base-T hub repeater.” Id. Hunter
also teaches “a 10Base-T LAN system.” Id.,
2[5]:16-17. One objective of Hunter is “compatibility . . . with existing standards,” which
included 10Base-T (1993) and 100Base-T
(1995). Id.
Pet. Reply 15 (citing Exs. 1006-08).
No reasonable dispute exists that 10Base-T
constitutes an Ethernet standard. By disclosing a
desire to create “compatibility of the present invention with existing standards” (Ex. 1003, 25:21-24)
and explicitly disclosing a “10base-T hub repeater”
(id. at 32:19) and transformers “for a 10Base-T LAN
system” (id. at 23:16-17), Hunter discloses, or at least
renders obvious, Ethernet communication and equipment including terminal equipment for the purpose
of sending and receiving data using a conventional
standard.
4. Rationale to Combine Hunter and
Bulan
Petitioner advances several persuasive reasons
to combine Hunter and Bulan, primarily based on
their interrelated teachings. Pet. 9-16. Petitioner
argues both Hunter and Bulan direct their respective
teachings to systems that provide phantom powering
to network terminal equipment. Id. at 9 (citing Ex.
1003, Abstract, 38:12-15, Fig. 2; Ex. 1004, 4:7-10, Fig.

App.158a
1). Petitioner argues “Hunter and Bulan disclose
similar examples of terminal equipment that could
be phantom powered, and even similar levels of DC
voltage.” Id. at 10 (citing Ex. 1003, 25:19-21, 23:9;
Ex. 1004, Abstract, 1:49-50; Ex. 1002 ¶ 64).
Petitioner further persuasively argues “Bulan is
intended to provide a superior replacement for the
‘typical current limiting circuit’ in such phantom
powering systems, and Hunter employs just such a
current limiting circuit: i.e., its ‘protective device
213.’” Pet. 10 (citing Ex. 1004, 1:65-2:14; Ex. 1003,
40:12-15). The current control circuit of Bulan would,
according to Petitioner, replace Hunter’s protective
device 213. Id. (citing Ex. 1003, 40:15-19 (protective
device protects from “overcurrents that may damage”
the “power supply 210 and the bus”); Ex. 1002 ¶ 68).
Petitioner notes persuasively that “Bulan criticizes the ‘typical current limiting circuit’ as ‘inappropriate for operation throughout the whole current
load regime’,” because it fails to distinguish between
operational faults and a normal power up event in a
TE that contains a DC-DC. Pet. 10 (citing Ex. 1004,
Abstract, 1:26-31, 1:52-2:1; Ex. 1002 ¶ 67). This is,
according to Petitioner, in part because the “typical
current limiting circuit” either sets a current limit so
low that startup cannot occur or so high that a fault
will draw excessive current jeopardizing the operation
of the power circuit. Id. at 11 (citing Ex. 1004, 1:66-2:8;
Ex. 1002 ¶ 67). Petitioner argues “Hunter’s protective
device 213 suffers from [the] same deficiency” identified
in Bulan. Id. at 11 (citing Ex. 1003, 40:12-19; Ex.
1002 ¶ 68).
Based on the preceding, Petitioner argues persuasively that replacement of the protective circuit of

App.159a
Hunter with Bulan’s current control circuit would be
a “particularly straightforward task” for the person
of ordinary skill in the art who would have had “a
more than reasonable expectation of success, since
the Bulan appar[a]tus is intended to simply replace
prior art current limiting circuits without further
modification.” Pet. 13 (citing Ex. 1004, 2:23-26; Ex.
1003, Fig. 2 (showing protective device 213); Ex. 1002
¶ 72). Petitioner also persuasively shows that both
Hunter and Bulan “assume there is a separate
protective device in the Hub to regulate the current
to each separate TE, making the combination a
simple one-for-one replacement.” Id. at 13-14 (citing
Ex. 1003, Fig. 2 (arguing “protective device 213 [is] in
series to single remote ‘ISTE’“); Ex. 1004, Fig. 1
(arguing “each ‘NT1’ in Hub [is] connected to a single
remote TE device”), 4:17-25 (“‘Each of the NT1s
includes a line interface circuit’ that includes the
current control apparatus of the invention.” (quoting
Bulan)); Ex. 1002 ¶ 72 (discussing separate power in
Hunter and Bulan)). Petitioner concludes that “[i]n
the combined system, Bulan’s current control apparatus simply replaces the existing ‘protective device
213’ of Hunter, and DC current and power continue
to flow through the phantom power circuit unchanged.”
Pet. 15.
As summarized above and in view of the record,
by a preponderance of evidence, the record supports
Petitioner’s showing that a person of ordinary skill
would have been motivated to combine Bulan with
Hunter in order to protect Ethernet loads under
varying conditions. As discussed next, Patent Owner’s
arguments do not overcome Petitioner’s showing.

App.160a
Patent Owner argues Petitioner fails to show
“Hunter had the ‘problem’ that the complex Bulan
circuit allegedly solves.” PO Resp. 37. Patent Owner
explains Hunter does not teach that its central piece
of network equipment must determine why an overcurrent condition exists-i.e., whether due to a normal
power up event or an operational fault. Id. at 37-38.
According to Patent Owner, Hunter teaches using a
simpler system, i.e., a single thermistor or polyfuse
(id. at 38 (citing Ex. 1003, 40:19-20)), and a person of
ordinary skill in the art would have been able to
select the correct thermistor for a given circuit in
order to prevent the thermistor from blocking the
necessary start up current (id. at 39 (citing Ex. 2038
¶¶ 84-85)). Patent Owner also argues Hunter “steers
an ordinary artisan away” from using Bulan’s
protection circuit, because Hunter states “protective
device 213 is desirable, but not necessary to the
present invention.” Id. (quoting Ex. 1003, 40:19-20).
Patent Owner’s arguments are not persuasive.
Describing protection as desirable, but not necessary,
does not steer away from protection. In addition,
Hunter need not identify the same problem Bulan
identifies. Rather, “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” See KSR, 550 U.S. at 417.
Regarding protection by a thermistor, Bulan
explains that a typical current protection circuit,
such as the one taught by Hunter, cannot distinguish
between a normal power up event and an operational
fault, and, thus, may prevent terminal equipment

App.161a
from starting properly or may allow an operational
fault to jeopardize terminal equipment. See Ex. 1004,
Abstract, 1:62-2:14; Pet. 10; Ex. 1002 ¶¶ 67-68 (“‘typical current limiting circuit’ must blindly apply the
same current limit to both conditions”); Ex. 1004,
1:65-2:8. Mr. Crayford maintains in his Reply Declaration that Patent Owner’s argument that a skilled
artisan could select a proper thermistor size “misses
the point,” because a thermistor cannot “distinguish
a normal inrush current during start-up from a fault
such as a short.” Ex. 1046 ¶ 83.
Dr. Madisetti contends a thermistor can be
selected to allow in-rush current and also contends
“thermistors existed that would protect the device
from damage.” See Ex. 2038 ¶ 85 (citing Ex. 2049,
2:29-33). The thermistor cited by Dr. Madisetti appears
in a protection circuit as disclosed in U.S. Patent No.
5,995,392 filed on December 5, 1997 (the “’392 patent”).
See id. That date occurs after the effective filing date
of the ’012 patent. Assuming the relevancy of the ’392
patent, its circuit includes resistor 50, thermistor
100, switch 70, and control circuitry for switch 70.
See Ex. 2049, Fig. 3, Abstract. The ’392 patent’s
circuit closes switch 70 to bypass thermistor 100
after sufficiently charging capacitor 20 to hold DC
current from a rectifier circuit during normal startup conditions. See 1:4:32-37, Abstract, Figs. 2-4.
Hence, the circuit control circuitry adds complexity relative to Hunter’s thermistor, similar to complexity alleged by Patent Owner to be added by Bulan’s
circuit relative to Hunter’s thermistor. Furthermore,
although the ’392 patent’s circuit appears to handle inrush conditions during start-up of a motor as Dr.
Madisetti’s testimony implies, and it also provides

App.162a
some fault protection during start-up when other
conditions fail, Dr. Madisetti does not contend that
the circuit also provides fault protection after normal
start-up conditions subside, which Bulan’s circuit
provides-i.e., providing fault protection even when
the fault load current mimics the start-up current
under varying load conditions. See Ex. 2038 ¶ 85
(citing Ex. 2049, 2:29-33).
Patent Owner’s quotation of the ’392 patent’s
protection during a “fault . . . in the components associated with the circuit” pertains to fault protection
during and right after start-up. See PO Resp. 40
(quoting Ex. 2049, 2:29-33). In other words, the ’392
patent states it preferably closes the switch “once the
magnitude of the current surge has subsided,” thereby
providing “a short circuit for the current . . . preventing
it from flowing through the resistors [including the
PTC thermistor]. . . . The PTC thermistor acts to
prevent overheating of the first resistor when the
switch is open if there is a current surge.”24 Ex.
2049, 2:63-3:3. Therefore, the ‘392 patent supports
Mr. Crayford’s testimony the Dr. Madisetti and Patent
Owner fail to show how a simple thermistor provides
what Bulan’s circuit provides.25
24 Stated differently, the ’392 patent’s circuit controls switch 70
to by-pass PTC thermistor 100 after the start-up subsides (and
capacitor 20 charges fully). It also provides current protection if
the switch fails to close immediately after start-up-but the bypassed PTC thermistor necessarily cannot protect the circuit
thereafter as Bulan’s circuit does. See Ex. 2049, 4:23-64, Fig. 4.
25 Even without the understanding of the ’392 patent’s thermistor
circuit, the record shows a simple thermistor cannot perform
the dual functions of Bulan’s circuit. See Ex. 1004, Abstract,
1:62-2:14; Pet. 10; Ex. 1002 ¶¶ 67-68.

App.163a
Bulan’s circuit operates over “widely variable
load current requirements which occasionally may
mimic a faulty over current condition.” Ex. 1004,
Abstract (emphasis added). Bulan specifically describes,
in some circumstances, “the typical current limiting
circuit” as “inappropriate” throughout the whole “load
regime.” Id. at 1:65-2:1. According to Bulan, merely
setting a typical circuit device to trip at some multiple
of the normal current level either cannot accommodate
a start-up, or if it does, may allow the higher current
level to “seriously jeopardize the operations.” See id.
at 2:1-7. Therefore, Bulan’s circuitry provides a benefit relative to a simple thermistor of Hunter and
relative to the more complicated start-up protection
disclosed in the ’392 patent relied upon by Dr.
Madisetti, because as Mr. Crayford testifies, any
thermistor has a “single threshold value” and “cannot
distinguish a normal inrush current during start-up
from a fault.” See Ex. 1046 ¶ 83. In summary, Bulan’s
circuit provides a benefit to Hunter’s circuit, and
Bulan operates in the same environment as Hunter.
As a result, a person of ordinary skill in the art
would have recognized Bulan as an improvement to
similar circuits using DC to DC conversion to power
equipment, such as that of Hunter. See Pet. 11-12;
Ex. 1002 ¶¶ 69-72; Ex. 1046 ¶¶ 81-83; Ex. 1004, Fig.
1 (DC to DC convertor for powering telephones); Ex.
1003, Fig 2 (same). Accordingly, the simplicity of a
thermistor or fuse does not negate the obviousness of
using Bulan’s beneficial current protection circuit in
Hunter’s circuit. See Pet. Reply 22-23; cf. In re
Mouttet, 686 F.3d 1322, 1334 (Fed. Cir. 2012) (“[J]ust
because better alternatives exist in the prior art does

App.164a
not mean that an inferior combination is inapt for
obviousness purposes.”).
Patent Owner similarly contends that the combination would require “the use of 24 complex Bulan
current limiting circuits for just one of Hunter’s
hubs.” PO Resp. 39 (citing Ex.2039, 126:21-127:9). At
the cited deposition testimony, Patent Owner asked
Mr. Crayford “if we add Bulan as you suggest to
Hunter, then we would have to have—if we have 28
ports on our 10BASE-T line card, we would have to
have 28 Bulan circuits, one for each of the line card
connectors; is that right?” Mr. Crayford responds
“correct. The number was 24, but yes.” See Ex. 2039,
126:21-127:9. Nevertheless, the challenged claims do
not require more than one terminal device, so it only
requires a single port suggested by the combination
of Bulan and Hunter. And even if a skilled artisan
would have preferred to connect up to 24 devices to
24 ports using 24 protection circuits, Bulan’s system
provides individual control during start-up and fault
protection for one power phantom supply. See Ex.
2039, 127:8-9 (“It would be one power supply to the
24 ports.”).
5. Dependent Claims 35, 36, 40, 43, 52,
55, 56, 59, and 60
Claim 35 depends from claim 31 and recites
“wherein the impedance within the at least one path
is part of a detection protocol.” Patent Owner asserts
Petitioner does “not identify any mutually agreed
upon protocol.” PO Resp. 48. Contrary to this argument,
claim 35, an apparatus claim, neither recites nor
requires a “mutually agreed upon protocol.” Supra
Section II.A.2 (claim construction).

App.165a
As found above in connection with claim 31,
Hunter necessarily discloses a resistor in the Ethernet terminal equipment (or it could not consume
power). See Pet. 30-36; supra Section II.C.3. Such a
resistor at least has the capability of being used in a
detection protocol, and Bulan’s circuit employs loads
as part of its detection scheme. See id. at 33-34.
(arguing Bulan’s circuit distinguishes impedances as
necessary to control and protect the circuit). In addition,
Hunter’s resistor or resistors necessarily have the
same capabilities as resistor 212 as disclosed in the
’012 patent. See Ex. 1001, 8:27-31; supra Sections
I.B; II.A1-3.
As determined above in the claim construction
section, under Schreiber, the claimed apparatus must
only be capable of being part of a detection protocol
as an intended use of the apparatus. See Schreiber,
128 F.3d at 1476; supra Section II.A.2. Petitioner
shows that the Bulan-Hunter TE device (with a
resistor) at least has such a capability, because “the
total impedance within the path determines the
current magnitudes, which represent information about
the terminal equipment.” See Pet. 33; Schreiber 128
F.3d at 1476 (“It is well settled that the recitation of
a new intended use for an old product does not make
a claim to that old product patentable.”).
Claim 36 depends from claim 31 and recites
“wherein the piece of Ethernet data terminal equipment is a piece of BaseT Ethernet data terminal
equipment.” Petitioner relies on its showing with
respect to claim 31. See Pet. 34. Patent Owner
argues “Hunter does not disclose the use of the
10Base-T or 100Base-T standards.” PO Resp. 48.
This argument fails to rebut Petitioner’s showing

App.166a
that the Hunter at least discloses 10Base-T. See, e.g.,
Ex. 1003, 51 (claim 3 reciting “said bus comprises a
two-pair twisted-pair bus selected from the group
consisting of . . . 10Base-T . . . [and] 100Base-T.”); supra
Section II.C.3-4.
Claim 40 depends from claim 31 and recites “the
at least one path comprises at least one resistor.”
Patent Owner’s arguments track the arguments
asserted with respect to claim 31. See PO Resp. 46-47
(arguing “the ISTE card path . . . does not include a
resistor”). As found above, Hunter necessarily discloses
a resistor in the Ethernet terminal device else it
could not consume power. See Pet. 30-36 (citing
Ohm’s law); Pet. Reply 26; supra Section II.C.3-4.
Petitioner also cites to “various resistors [in Bulan]
. . . which would comprise parts of the path, including
e.g., ‘resistor 40’ and ‘resistor 48.’” Pet. 34. Regarding
the latter alternative showing, as discussed further
below in connection with claim 52, and above in
connection with claim 31, the claim construction, and
the disclosed invention, the claimed path need only
be coupled to contacts and can extend past the
contacts 297 of Hunter into Bulan’s circuitry, where
Patent Owner states the path “could be a hundred
meters long” (Tr. 107:2-3). See Supra Sections I.B.,
II.A.1-3.
Claim 43 depends from claim 31 and recites
“wherein the at least one path comprises a controller.”
Petitioner shows by a preponderance of evidence that
Hunter suggests various protocols, providing evidence
that circuit equipment of Hunter “very commonly
included a network controller to execute various
network protocol(s)” including Ethernet, in order to
execute the known protocols. See Pet. 34 (citing Ex.

App.167a
1002 ¶ 105). Patent Owner does not present an
argument challenging Petitioner’s showing regarding
claim 43. Claim 43 further shows that the “path”
may extend from the recited Ethernet data terminal
equipment in order to include the network controller.
Claim 52 depends from claim 31 and recites “the
impedance within the at least one path is a function
of voltage across the selected contacts.” Patent Owner
contends the path relied upon by Petitioner cannot
include “the hub where Bulan’s circuit is located,”
and Petitioner relies on impedance “inside the hub,
not the Ethernet data terminal equipment.” PO
Resp. 46-47. Patent Owner also argues “[t]here is no
disclosure in Bulan or Hunter about taking or even
having an ability to determine, voltage measurements
across certain contacts.” Id. (citing Ex. 2038 ¶ 182).
Contrary to Patent Owner’s characterization,
Petitioner relies on its showing with respect to claim
31, and refers to the whole path for which Bulan
“detects an overcurrent condition.” See Pet. 35 (citing
its showing for “[c]laim 31(d)”). As noted above, the
panel queried Patent Owner during the Oral Hearing
about its disclosure for the claimed distinguishing
information limitation in claim 31, and Patent Owner
cited to column 8, lines 27-31 of the ’012 patent. See
supra Section I.B; Tr. 98:6-100:2 (citing Ex. 1008,
Fig. 8, 8:27-31). That passage describes “monitoring
various signals, such as . . . the voltage across resistor
112.”
As Petitioner shows, and as discussed above in
connection with claim 31, the Hunter-Bulan combination, if not Hunter alone, necessarily includes contacts having the capability of monitoring voltage to
determine the resistance or other impedance in the

App.168a
path. See Pet. 30-31 (discussing, inter alia, Ohm’s
law); supra Sections II.C.3-4. In addition, as also discussed above (supra Sections I.B, II.A.1), neither the
’012 patent, nor claim 31, defines how far the path
extends, provided it is “coupled” across selected contacts-i.e., “at least one path coupled across selected
contacts” may include part of the bus that extends
from ISTE 260 of Hunter into the Bulan hub. Stated
differently, independent claim 31, from which claim
52 depends, defines the adapted Ethernet terminal
equipment as including a path (e.g., a bus) without
limiting the extent of the path’s length. Petitioner’s
showing persuasively recognizes the breadth of claims
31 and 52, because it relies on the impedance of the
whole path, as discussed in connection with claim 31.
See Pet. 30-31 (citing Ohm’s law), Pet. 35-36 (open
circuit detection); Pet. Reply 26-27 (arguing dependent
claim 7 requires the path to be attached to the TE).
The open circuit detection of Bulan cited by Petitioner
also corresponds to the ’012 patent’s disclosure of
detecting the removal of equipment (i.e., an open
circuit condition-no resistor to detect). See supra Sections I.B, II.A.1; Ex. 1001, 6:39-41 (“[I]f the potential
thief later disconnects protected equipment from the
network, this action is also detected and an alarm
can be generated”).
Claim 55 depends from claim 31 and recites
“wherein the selected contacts are the same contacts
used for normal network communication.” Claim 56
depends from claim 55 and recites “wherein the
normal network communication is BaseT Ethernet
communication.” Dependent claims 59 and 60 recite
similar limitations. Petitioner persuasively identifies
the same contacts as noted above with respect to

App.169a
claim 31, and also relies on its showing that Hunter
discloses or suggests sending 10Base-T and 100BaseT Ethernet communications over those contacts as
PoE. See Pet. 36-37.
As summarized above and in view of the record,
by a preponderance of evidence, the record supports
Petitioner’s showing that Hunter and Bulan collectively teach or suggest the limitations of the challenged
dependent claims. We adopt Petitioner’s persuasive
showing as our own. See Pet. 33-37.
6. Summary of Claims 31, 35, 36, 40, 43,
52, 55, 56, 59, and 60
Based on the record and the foregoing discussion, Petitioner shows by a preponderance of
evidence that the challenged claims would have been
obvious over the combination of Hunter and Bulan.
Patent Owner presents a number of arguments
regarding Hunter and Bulan that also apply to Bloch
and IEEE 802.3. See, e.g., PO Resp. 14-27 (directing
arguments to both combinations). We address some
of the arguments below in addressing the combination
based on Bloch and IEEE 802.3, and incorporate that
discussion hereinabove to the extent it applies to the
combination based on Hunter and Bulan. Similarly,
rather than repeating other discussion portions above,
we incorporate them below to the extent they apply.
D. Alleged Obviousness, Bloch, Huizinga, and
IEEE 802.3
Petitioner alleges claims 31, 35, 36, 40, 43, 52,
55, 56, 59, 60 and 65 would have been obvious to the
person of ordinary skill in the art over Bloch, Huizinga,
and IEEE 802.3. Pet. 38-59. Petitioner cites the

App.170a
Crayford Declaration in support of its positions. See
Ex. 1002 ¶¶ 112-155. After considering the parties’
arguments and supporting evidence, we determine
that Petitioner has shown by a preponderance of the
evidence that claims 31, 35, 36, 40, 43, 52, 55, 56, 59,
60 and 65 would have been obvious over Bloch, IEEE
802.3-1993, and IEEE 802.3-1995, and alternatively,
over Bloch, Huizinga, IEEE 802.3-1993, and IEEE
802.3-1995.
1. Overview of Bloch, Huizinga, and IEEE
802.3
Bloch’s system allows a user to communicate via
two audio channels, for example, an intercom system
on one channel, and a typical outside call on another
channel, while providing control and power signals
over the four lines. Ex. 1005, 2:21-51, 6:11-21. Control
unit 10 and terminal 20 connects the two audio
communication channels with each channel having
two conductors. Id. at 3:1-8; Fig. 1. “Power feed and
bi-directional signaling are accomplished simultaneously over the same four conductors used for the two
communication channels without interference.” Id. at
[57]. Although Bloch describes this phantom power
circuit in the context of a key telephone system,
Bloch explains that it “can find application in many
different control unit/terminal applications.” Id. at
4:49-52.26

26 Bloch explains its arrangement “is known as” a “phantom
circuit” or “phantom pair” because DC current divides and then
recombines: i.e., “because in a closed circuit connected to taps
C3 and C4 of T3 and T4 and to taps C1 and C2 of T1 and T2,
the current supplied at a center tap point will divide at the

App.171a
Figure 1 of Bloch follows:

center tap connection[,] flow over two conductors[,] and be
received in recombined form at the other end.” Id. at 4:61-5:2.

App.172a
Figure 1 represents a block diagram of the
circuit arrangement of Bloch and shows terminal
unit 20 connected to control unit 10 via two conductor
pairs, conductor pair 1 and 2 and conductor pair 3
and 4. Id. at 4:7-13, 4:46-52.
“Connected to both conductor pairs 1,2 and 3,4
at each end is circuitry necessary to create a complete
communication channel.” Id. at 5:3-5. This circuitry
includes two transformers at each unit, connected to
information receivers and generators for receiving
and generating voice signals, such as microphones
and speakers. Id. at 5:5-11.
Bloch explains that control unit 10 detects DC
current pulses applied to the conductors when the
terminal 20 switches resistor 210 into and out of its
parallel connection with the phantom power path. Id.
at 5:44-55. The DC current pulses detected by the
control unit provide information regarding the status
of different elements of the terminal. Id. at 5:56-6:2.
In response to the detected DC current pulses, the
control unit applies voltage pulses to the conductors
to control indicators in the terminal. Id. at 10:34-40,
11:1-5.
Huizinga also describes a key telephone system.
Ex. 1009, 1:6-9. Huizinga explains that, when a user
presses a button to select a telephone line, the
terminal sends status information to the control unit.
Id. at 5:29-39. In response, the control unit sends
data to the terminal causing a lamp associated with
the selected telephone line to light up. Id. Petitioner
employs Huizinga (cited by Bloch (Ex. 1005 [56]) only

App.173a
to clarify or explain the purpose of Bloch’s telephone
circuit.27
IEEE-93 and IEEE-95 (collectively IEEE 802.3)
describe a 10Base-T Ethernet network. Ex. 1006,
243; Ex. 1007, 23. In particular, IEEE-93 and IEEE95 describe central network equipment, such as a
10Base-T repeater, and data terminal equipment.
Ex. 1006, 243, 267; Ex. 1007, 27, 303-304. IEEE-93
and IEEE-95 further describe an Ethernet connector
comprising one pair of contacts (TD+ and TD-) used
to transmit 10Base-T communication signals and a
second pair of contacts (RD+ and RD-) used to receive
10Base-T communications signals. Ex. 1006, 266267; Ex. 1007, 147-148.
2. Claim 31, Bloch, Huizinga, and IEEE
802.3
Addressing the preamble of claim 31, an “adapted
piece of Ethernet data terminal equipment,” Petitioner
contends that IEEE 802.3 discloses a piece of BaseT
Ethernet terminal equipment, namely a piece of Data
Terminal Equipment (“DTE”). See Pet. 50 (citing Ex.
27 The parties agree Petitioner no longer relies upon Huizinga
to teach a claim limitation at this juncture of the trial. See
Tr. 198:14 (Petitioner stating they do not employ Huizinga “as
part of our combination” to satisfy a claim limitation); PO Resp.
2 n.2 (arguing “Petitioners have dropped their reliance on
Huizinga” (citing Ex. 2039, 173:24-175:20, 179:4-8)).
Petitioner explained during the Oral Hearing that Huizinga,
“referenced by Bloch” (Tr. 197:1), merely “provide[s] more color
to Bloch” (id. at 198:10) regarding, for example, the purpose of
the control signals (see id. at 198:15-16), including for lighting
“the LED” on telephones “so that everyone knows line 1 is in
use” (id. at 198:22).

App.174a
1007, 27; Ex. 1008, 303; Ex. 1006, 267; Ex. 1002
¶ 136). Petitioner contends the DTEs of the combined
system include the portion of the phantom circuitry
in Bloch’s terminal unit, including resistor 201,
modulator 200, constant current sink 300, voltage
regulator 500, A.C. high element 600, and receiver
150, thereby rendering the Ethernet DTEs “adapted”
to receive normal network communication and remote
power from the same conductors. Pet. 50-51 (citing
Ex. 1005, Fig. 1; Ex. 1002 ¶ 137).
Claim 31 also recites “an Ethernet connector
comprising a plurality of contacts” and “at least one
path coupled across selected contacts, the selected
contacts comprising at least one of the plurality of
contacts of the Ethernet connector and at least another
one of the plurality of contacts of the Ethernet
connector.” For this limitation, Petitioner cites to the
disclosure in IEEE 802.3 that the DTE shall include
an Ethernet connector (MDI connector) which accepts
an Ethernet cable containing several twisted-pair
conductors. Id. at 51 (citing Ex. 1006, Figs. 14-20, 1421; Ex. 1007, 147; Ex. 1002 ¶ 139). Petitioner argues
that IEEE 802.3 specifies that the MDI connector
includes eight contacts, including one pair to transmit
Ethernet communication signals and one pair to
receive Ethernet communication signals. Id. (citing
Ex. 1006, 268-69). Petitioner further alleges “[i]n the
combined system, the DTE would include the Ethernet
MDI connector and the conductors (1, 2, 3, and 4)
would connect to the transformers T1 and T2 through
the connector’s receive pair and transmit pair of
contacts.” Id. at 55 (citing Ex. 1005, Fig. 1; Ex. 1006,
266-67; Ex. 1007, 147; Ex. 1002 ¶ 140).

App.175a
Petitioner further argues that in the combined
system of Bloch and IEEE 802.3, shown in Petition
Figure 6, the DTE includes a path coupled across the
four contacts. Id. at 52 (citing Ex. 1005, 6:27-40).
Petition Figure 6 follows:

App.176a
Pet. 40. Petition Figure 6, shown above, includes
annotations in red to Bloch’s Figure 1, annotated to
indicate the phantom power path through transformers at control unit 10 and terminal 20. Id. at
40.28 Petitioner explains “the DTE has a path coupled
across the four contacts that connect the DTE to
conductors 1, 2, 3, 4.” Id. at 52 (citing Ex. 1005, 6:2740 (“‘Voltage sources 10 and 12’ are ‘connected in
series so as to force current in the same direction,
that is [in] from terminal center tap connection C3’
through ‘Q2 and then through voltage sources 12 and
10’ to ‘Q1’ and then out ‘the center tap connection
C4’’), 5:20-27). Petitioner contends the path provides
DC current from the control unit to the DTE via the
conductors 1-4. Id. at 56 (citing Ex. 1005, Fig. 1 (as
annotated in Petition Fig. 6), 6:3-6; 9:6-22; Ex. 1002
¶ 141). Accordingly, Petitioner shows that the path
couples across at least one of the plurality of contacts
of the terminal equipment’s Ethernet connector.
Finally, claim 31 recites the distinguishing information limitation. As construed above, the limitation
means “distinguishing information about the piece of
Ethernet data terminal equipment, including information that differentiates it from another device,
wherein the information is capable of being associated
to impedance within the at least one path.” Supra
Section II.A.1. With respect to this limitation, Petitioner explains that in the combined (adapted) system,
the Ethernet DTE includes the modulation circuitry
28 Similar to Petitioner’s reliance on Hunter, the current would
flow in both of the twisted wires of a pair (as it must, with the
wires being in parallel), even though Petitioner only highlights
one wire of each twisted pair in red. See Ex. 2039, 167:23-168:4
(discussed further below).

App.177a
(in addition to the phantom power circuitry) taught
by Bloch, which includes resistor 201 switched in and
out of the current path to generate pulses that
convey status information about the DTE. Pet. 53
(citing Ex. 1005, 5:44-6:2; Ex. 1002 ¶ 142). Petitioner
contends the different current magnitudes “provide
information with respect to the status of different
elements of [the DTE].” Id. (quoting Ex. 1005, 5:446:2; Ex. 1002 ¶ 142).
Petitioner explains, and persuasively shows, that
this information constitutes the claimed “distinguishing information” associated to impedance within at
least one path, because switching of resistor R201 in
and out of the current path generates information
represented by current pulses. Id. In addition, as
summarized above and in view of the record, by a preponderance of evidence, the record supports Petitioner’s
showing that Bloch and IEEE 802.3 collectively teach
or suggest the limitations of claim 31. We adopt
Petitioner’s persuasive showing as our own. See Pet.
38-54. As discussed in the next section, Patent Owner’s
arguments do not overcome Petitioner’s persuasive
showing.
Additionally, Petitioner provides Huizinga as an
example of information provided by Bloch’s control
unit. See supra note 27 (Huizinga provides insight,
but is not necessary to meet claim 31.). For example,
the control unit can use the status information about
the line keys to determine which telephone station
set uses a particular line, for example Line 1, and
send a signal to that phone to light the L1 and I1
lamps on that phone. See Pet. 53 (citing Ex. 1009,
5:29-39). Petitioner further explains the control unit
sends a different signal to phones not using Line 1 to

App.178a
light only the L1 key on those phones to indicate that
Line 1 is in use. Pet. 53-54 (citing Ex. 1009, 3:30-35).
Therefore, as an example in Petitioner’s proposed
combination involving Bloch’s circuit, the status information about the line keys, generated by switching
Bloch’s resistor R201 in and out of the path,
distinguishes a phone set using Line 1 from all other
phone sets not using Line 1. See Pet. 54 (citing Ex.
1002 ¶ 143). This type of information at least tracks
the ’012 patent’s disclosure of impedance providing
information about whether terminal equipment became
disconnected from a circuit. See supra Section II.A.1;
Ex. 1001, 6:29-41.
3. Rationale to Combine Bloch, Huizinga,
and IEEE 802.3
Petitioner advances several persuasive reasons
to combine Bloch (as elucidated by Huizinga) and
IEEE 802.3. For example, Bloch expressly references
Huizinga and suggests its phantom circuit would
provide DC power benefitting many different control
unit/terminal applications, which a person of skill in
the art would understand to include an Ethernet
network. See Pet. 48-49 (citing Ex. 1005, 4:49-52; Ex.
1002 ¶¶ 134-135). Petitioner identifies evidence
indicating that Bloch teaches a control unit that detects
the status of different telephone lines in a terminal
and controls indicators in the terminal, and Huizinga
teaches that the indicators in Bloch can be lamps. Id.
(citing Ex. 1005, 5:64-6:2, 1:1-10; Ex. 1009, 4:19-25,
5:29-34; Ex. 1002 ¶ 134). Petitioner also contends
“[u]sing the phantom pair circuit taught by Bloch in
an Ethernet network topology has the obvious benefit
of supplying power over the same wires used for the
Ethernet communication channel; this eliminates the

App.179a
need to provide a local power supply or separate
conductors and connectors for powering the DTE
device.” Id. at 49 (citing Ex. 1002 ¶ 135).
The record supports Petitioner’s reasoning as
persuasive. Bloch describes a phantom power circuit
in the context of a key telephone system, but explains
that it “can find application in many different control
unit/terminal applications.” Ex. 1005, 4:49-52. As
Petitioner reasons, a person of ordinary skill in the
art would have combined the phantom power circuit
of Bloch with the 10Base-T Ethernet network of
IEEE-93 and IEEE-95 to achieve the benefit of
supplying power over the same wires used for the
Ethernet communication channel. See id.; Ex. 1002
¶ 135. As Petitioner also reasons, the combination
would have “eliminate[d] the need to provide a local
power supply or separate conductors and connectors for
powering the DTE device,” and would have allowed
devices to “communicate and provide status and
control information even when they are not operating
normally and the communication channel is not in
use.” Pet. 49-50; Ex. 1002 ¶ 135.
Patent Owner contends “Huizinga motivates
using separate pairs to separate power from data.”
PO Resp. 22 (citing Ex. 2038, ¶55). According further
to Patent Owner, “[u]nlike Huizinga and the Ethernet standard, Bloch had only two pairs available, so
it is not a relevant reference (except using hindsight).”
PO Resp. 22. This argument does not rebut Petitioner’s
persuasive showing. An artisan of ordinary skill
would have recognized advantages of supplying power
over data lines as Bloch teaches, including the benefit
of providing data to multiple devices while also

App.180a
supplying power, instead of relying on dedicated
power lines or local power.
Similar to its argument with respect to Hunter,
Patent Owner argues that providing phantom power
over pre-existing Ethernet wiring and cables would
have damaged BSTs and CMCs. Id. at 15-17. Patent
Owner’s arguments are not persuasive for the same
or similar reasons noted above in connection with
Hunter, which we adopt here. Supra Sections II.C.3,
4. By way of summary, as discussed above in connection with Hunter, the challenged claims do not require
the argued terminations, and even if the claims
contemplate such terminations, an artisan of ordinary
skill would have been able to accommodate the
features. Supra Sections II.C.3, 4. Patent Owner also
acknowledged at the Oral Hearing that applying
phantom power to “new” Ethernet terminal equipment
would not have caused any problems with BSTs or
CMCs. Tr. 135:1-12. As also discussed above, this
further indicates a person of ordinary skill in the art
would have had good reasons to combine the cited
teachings of Bloch and IEEE 802.3-i.e., to provide
phantom power to a maximum number of desired
Ethernet TEs over available communication channels
without requiring dedicated power lines or remote
power. See Ex. 1005, 5:11-21; supra Sections II.C.3,
4.
Patent Owner also argues that a person of ordinary skill in the art would have provided operating
power to Ethernet terminal equipment over the unused
lines in an Ethernet connection to avoid interference
with the data signals. PO Resp. 16-20. In particular,
Patent Owner points out that the Ethernet connector
taught by IEEE-93 and IEEE-95 includes two unused

App.181a
pairs of conductors. Id. at 18-22 (citing Ex. 1006, 266267; Ex. 1007, 147).
These arguments also track arguments addressed
above and are not persuasive for similar reasons. See
supra Section II.C.3, C.4. As Patent Owner argues,
Bloch’s circuit does not include unused pairs. See PO
Resp. 21. Block’s system does this for a good reasonusing the same lines for control, communications,
and power maximizes the use of existing lines to
communicate and power different equipment types.
See Ex. 1005, 6:11-12 (“The invention allows simultaneous provision via only four conductors. . . . ”), 2:5461, 5:20-30, Fig. 1.
In addition, using data lines and power simultaneously over the same lines was so well-known that
skilled artisans referred to the practice as “phantom”
power or PoE, as noted above. Supra Section I.B,
II.C.3, 4. Although Bloch relates to a key telephone
system, Bloch explains that its phantom power circuit
“can find application in many different control unit/
terminal applications.” Ex. 1005, 4:49-52. And as
Petitioner argues, simply because some prior art
connectors showed unused pins does not mean an
existing circuit included wires for the connector pins
or that other Ethernet TEs could not use existing
wire pairs. See Reply Br. 13-14 (citing Ex. 1046
¶¶ 61-62; Ex. 1008, 214; Ex. 1020, 345:21-346:7; 363:19; 364:21-365:5) (arguing “[e]ven the IEEE could not
determine what percentage of installations had unused
pairs”).
The record shows a person of ordinary skill in the
art would have possessed the background knowledge
sufficient to provide PoE. Supra Section II.C.3, 4; see
also Randall Mfg. v. Rea, 733 F.3d 1355, 1362-63

App.182a
(Fed. Cir. 2013) (“[T]he Board failed to account for critical background information that could easily explain
why an ordinarily skilled artisan would have been
motivated to combine or modify the cited references
to arrive at the claimed inventions.”). For example, as
discussed above, Hunter at least suggests, if not
discloses, providing PoE over a 10Base-T Ethernet
bus. See supra Sections II.C.1, 3, 4. No reasonable
dispute exists over the fact that PoE was well-known
at the time of the invention-so well-known that skilled
artisans considered it as a potential IEEE standard.
See supra Section II.C.3, 4.
At least two patents identified on the face of
the ’012 patent, namely U.S. Patent No. 5,994,998
(“Fisher ’998”) and U.S. Patent No. 6,140,911 (“Fisher
’911”) (collectively, “the Fisher patents”), teach providing phantom power to Ethernet terminal equipment.29 Pet. Reply 7; Ex. 1025, 2:21-41, 3:49-67, 6:710; Ex. 1026, 2:32-52, 3:59-4:10, 6:17-20. And as
noted above, Hunter further shows skilled artisans
could have handled interference by explaining that “a
careful phantom power scheme must be implemented
to avoid problems that may arise due to interactions
between the power and the data.” Ex. 1003, 19:13-26;
supra Section II.C.3 (also noting Hunter discloses
“[o]f course, those of skill in the art will recognize
that the balance circuits 290 of the present invention
may be deleted at the risk of impairing signal
quality” (quoting Ex. 1003, 42:4-7) (emphasis added)).
29 Patent Owner argued at the Oral Hearing that the Fisher
patents do not teach certain limitations of the challenged
claims. See Tr. 124:7-126:8. The Fisher patents provide further
evidence that a person of ordinary skill in the art would have
known that phantom power would work in an Ethernet network.

App.183a
Therefore, Patent Owner’s arguments simply show
alternative ways (i.e., unused pairs) of providing operating power to Ethernet terminal equipment. This
does not detract from the related PoE benefits of
employing Ethernet data lines, including fewer wires,
less cost, and the capability to add more terminal
equipment on unused wire pairs as suggested by
Bloch and taught by Hunter. Even if Patent Owner
showed the well-known PoE would have been inferior
in some respects, this would not overcome Petitioner’s
persuasive showing. See In re Mouttet, 686 F.3d
1322, 1334 (Fed. Cir. 2012) (“[J]ust because better
alternatives exist in the prior art does not mean that
an inferior combination is inapt for obviousness
purposes.”); In re Fulton, 391 F.3d 1195, 1200 (Fed.
Cir. 2004) (“A case on point is In re Gurley, 27 F.3d
551, 552-53 (Fed.Cir.1994), in which we upheld the
Board’s decision to reject, on obviousness grounds,
the claims of a patent application directed to one of
two alternative resins disclosed in a prior art reference,
even though the reference described the resin claimed
by Gurley as ‘inferior.’”).
Patent Owner also argues that members of an
IEEE committee were skeptical about using PoE. PO
Resp. 22-27. Similar to its arguments with respect to
Hunter, Patent Owner’s arguments are not persuasive.
See supra Section II.C.3, C.4. The evidence cited by
Patent Owner primarily relates to whether the IEEE
committee members believed that phantom power
should be adopted as an Ethernet standard, not
whether they were skeptical as to whether phantom
power would work in an Ethernet network. See id.;
Ex. 2041, 3 (“Recount held due to closeness of vote”);
Pet. Reply 8-9.

App.184a
Although Patent Owner’s evidence indicates that
some IEEE committee members favored adopting an
Ethernet standard employing the delivery of operating power over unused lines, Petitioner identifies
evidence indicating that other committee members
favored using phantom power as the Ethernet
standard. Pet. Reply 8-9; Ex. 1046 ¶¶ 38-44; Ex.
1037, 3 (“Current will be injected via the center taps
using a Phantom Power method on the TX and RX
pairs.”); Ex. 1040, 3 (Listing the following bullet
points: “Power over signal pairs allows easier integration of discovery & power control circuitry onto the
PHY”; “Decreases system cost by lowering parts
count”; and “Short term may require extra complexity
until integrated solutions become available, but the
integrated solutions will come quickly”).
As Petitioner argues, adopting one standard
over another does not necessarily relate to obviousness, particularly where PoE was so well known it
was considered as a potential standard, and members
(and others of ordinary skill) recognized trade-offs.
See Pet. Reply 8-9; Ex. 1040, 3. That some members
considered an alternative way of providing operating
power to Ethernet terminal equipment as an IEEE
standard does not detract from the express teachings
of Hunter and Bloch and the fact that skilled artisans
knew how to implement PoE. See Mouttet, 686 F.3d
at 1334; Fulton, 391 F.3d at 1200. Even if Patent
Owner’s evidence indicates some amount of skepticism
for one reason or another, Petitioner shows that a
skilled artisan would have employed PoE in a simple
Ethernet circuit having one or two devices especially
in situations involving only two available twisted
pairs, as Bloch and Hunter teach. See In re Cyclo-

App.185a

benzaprine Hydrochloride Extended-Release Capsule
Patent Litigation, 676 F.3d 1063, 1079 (Fed. Cir.
2012) (weighing all evidence together).

Patent Owner also argues that Petitioner’s proposed combination of Bloch, IEEE 802.3-93, and
IEEE 802.3-95 would have degraded the Ethernet
data signal. PO Resp. 27-29. Specifically, Patent
Owner argues that switching a resistor into and out
of the phantom power circuit, as taught in Bloch,
would have created noise and degraded the Ethernet
data signal. Id. at 27-28 (citing Ex. 2038 ¶ 86; Ex.
2039, 172:20-173:3). In addition, Patent Owner contends
that applying operating power to just one side of the
transformers in Bloch, as Petitioner proposes in
Figure 6 of the Petition, would have saturated the
coils and degraded the Ethernet data signal. Id. at 27
(citing Ex. 2038 ¶ 87; Ex. 2039, 168:6-14). Patent
Owner also contends that even if Petitioner proposes
applying operating power to both sides of the transformers in Bloch, “a saturation problem would still
exist because the center taps are never perfectly
centered and there can be imbalances in the wires.”
Id. at 28 (citing Ex. 2038 ¶ 88; Ex. 2039, 169:14-15).
Patent Owner’s arguments are not persuasive.
Regarding the switching argument, Dr. Madisetti
testifies “[s]witching the resistor would create noise
that would degrade the Ethernet data propagation
and reduce bandwidth,” but Dr. Madisetti fails to
provide necessary context and support for that statement. Ex. 2038 ¶ 86. In contrast, Mr. Crayford, explains
that switching the resistor in Bloch would have
produced low frequency signals, which would have
been unlikely to interfere with the higher frequency
data signals of an Ethernet network. Pet. Reply 10-

App.186a
11; Ex. 1046 ¶¶ 49-51. Mr. Crayford also explains
that even if the resistor in Bloch would have caused
some interference with the Ethernet data signals, it
would have been within the knowledge and capabilities
of a person of ordinary skill in the art to separate the
low frequency resistor signals from the high frequency
Ethernet data signals, such as by using a filter. Pet.
Reply 11; Ex. 1046 ¶ 49; Ex. 2039, 172:20-173:3.
In addition, Petitioner points out Dr. Madisetti
relies on a theory of “instantaneous switching illustrated in Bloch Figure 7B.” See Reply Br. 11 (citing
Ex. 1020, 204:14-205:10). In response, Mr. Crayford
explains Bloch’s mere pictorial representation of fast
rise times does not imply a requirement for instantaneous switching, especially given the data rates
involved; skilled artisans knew that instantaneous
switching creates noise and would have been counterproductive; and, in any event, skilled artisans also
knew that filters would have addressed any interference issues with Ethernet. See Ex. 1046 ¶¶ 51-53;
Ex. 1020, 205:11-206:5 (Dr. Madisetti testifying filters
suppress noise and a “basic signal process” shows
square waves produce a noise spectrum predicted by a
Fourier series).
Patent Owner’s argument that applying operating
power to the transformers in Bloch would saturate the
coils also is not persuasive. Patent Owner premises its
arguments on abbreviated annotations by Petitioner
added to Figure 1 of Bloch in the Petition-a red line
indicating current flows through one side of the
transformer. See Pet. 44; PO Resp. 27; supra note 28.
But Mr. Crayford clarified during his deposition that
the current clearly flows through both sides of the
transformer. Ex. 2039, 167:14-169:22; see supra note

App.187a
28. Specifically, Mr. Crayford stated “I did not choose
to highlight both of the pairs of the twisted pair
which is the current path, but clearly they’re parallel
connectors connected to the same transformers with
the power and return path on the center tap,” so
“they probably should be highlighted.” Id. at 167:23168:4 (emphasis added). Thus, contrary to Patent
Owner’s argument, Petitioner does not propose applying operating power to just one side of the transformers
in Bloch.
Patent Owner’s argument that applying operating power to both sides of the transformer in Bloch
still creates a saturation problem also is not persuasive.
Bloch teaches that the phantom power circuit “is
connected to the two center taps of the transformers,”
thereby indicating that applying operating power to
the center taps of the transformers would work. Ex.
1005, 3:9-23. Consistent with the teaching of Bloch,
Mr. Crayford explains that the objective of balancing
the coils on either side of the transformer is “very
well known.” Ex. 2039, 169:14-22. Finally, as noted
above (Section I.B), Patent Owner argues its invention
enables PoE, but similar to CMTs, and BSTs, the ’102
patent does not describe overcoming power saturation
problems, indicating either no significant problem
existed, or if it did, indicating the ’102 does not
provide a saturation solution and the alleged saturation
problem is not commensurate in scope with the
claims.
4. Dependent Claims 35, 36, 40, 43, 52,
55, 56, 59, and 60
Claim 35 depends from claim 31 and “wherein
the impedance within the at least one path is part of

App.188a
a detection protocol.” Claim 40 depends from claim
31 and recites “the at least one path comprises at
least one resistor.” Petitioner persuasively relies on it
showing regarding claim 31, noting resistor 201
switches into and out of the path in Bloch’s circuit,
with changes detected as current pulses in receiver
400. See Pet. 54 (citing Ex. 1005, 5:44-57, 9:6-22,
10:3-12, 10:34-37; Ex. 1002 ¶ 144), 55 (citing resistor
201 and referring to the claim 31 showing). Further
regarding claim 35, Petitioner also cites Bloch’s disclosure of identifying on hook conditions. See id. at
54 (citing Ex. 1005, 11:37-41); Schreiber 128 F.3d at
1476 (“It is well settled that the recitation of a new
intended use for an old product does not make a
claim to that old product patentable.”).
Claim 36 depends from claim 31 and recites
“wherein the piece of Ethernet data terminal equipment
is a piece of BaseT Ethernet data terminal equipment.”
Petitioner persuasively relies on its showing with
respect to claim 31. Pet. 55.
Claim 43 depends from claim 31 and recites
“wherein the at least one path comprises a controller.”
Petitioner persuasively relies on Bloch’s modulator
200 and also contends modulators were well-known
and necessary to run software to operate using
Ethernet. See Pet. 56 (citing Ex. 1005, Fig. 1; Ex.
1002 ¶ 148).
Claim 52 depends from claim 31 and recites “the
impedance within the at least one path is a function
of voltage across the selected contacts.” Petitioner
persuasively cites voltage pulses appearing across
center taps C1 and C2 of Bloch. Pet. 56-57 (citing Ex.
1005, Fig. 1, 8:7-11, 10:41-55, Fig. 7A; Ex. 1002
¶ 149).

App.189a
Claim 55 depends from claim 31 and recites
“wherein the selected contacts are the same contacts
used for normal network communication.” Claim 56
depends from claim 55 and recites “wherein the
normal network communication is BaseT Ethernet
communication.” Dependent claims 59, 60, and 65
recite limitations similar to those of claims 55 and/or
56. Petitioner persuasively identifies the contacts
relied upon with respect to claim 31, and also relies
on its showing that IEEE 802.3 suggests sending
Base-T Ethernet communications over those contacts
as PoE. See Pet. 57-59 (citing Ex. 1005, 3:1-8, 5:19-29
(discussing superimposed audio and data with power);
Ex. 1002 ¶ 152; Ex. 1006, 4; Ex. 1007, 23).
As summarized above and in view of the record,
by a preponderance of evidence, the record supports
Petitioner’s showing that Bloch and IEEE 802.3
collectively teach or suggest the limitations of the
challenged dependent claims. We adopt Petitioner’s
persuasive showing as our own. See Pet. 55-59.
Patent Owner does not present arguments regarding
Petitioner’s showing with respect to the challenged
dependent claims and the ground based on Bloch and
IEEE 802.3.
5.

Summary of Claims 31, 35, 36, 40, 43, 52,
55, 56, 59, and 60

Based on the record and the foregoing discussion,
Petitioner shows by a preponderance of evidence that
the challenged claims would have been obvious over
the combination of Bloch and IEEE 802.3, and
alternatively, over Bloch, Huizinga, and IEEE 802.3.
As noted in Section II.C.6 above, Patent Owner
presents a number of arguments regarding Hunter

App.190a
and Bulan that apply to Bloch and IEEE 802.3 and vice
versa. See, e.g., PO Resp. 14-27 (directing arguments
to both combinations). Some overlap in our discussion
exists, but we accordingly apply the discussion of
each combination to the other to the extent it applies,
rather repeating the whole of each discussion.
E. Patent Owner’s Motion to Strike Petitioner’s
Reply
Patent Owner filed a Motion to Strike Petitioner’s
Reply. Paper 50 (“PO Mot. Str.”). In response, Petitioner filed an Opposition. Paper 57 (“Pet. Opp. Str.”).
Patent Owner argues that several portions of Petitioner’s Reply should be stricken because they are
beyond the scope of a proper reply. PO Mot. Str. i, 1.
Petitioner responds that its Reply properly responds to
arguments raised by Patent Owner in the Response.
Pet. Opp. Str. 1. For the reasons discussed below, we
deny Patent Owner’s Motion to Strike. In addition, to
the extent that this Decision does not rely on an
argument or evidence that Patent Owner contends is
improper, Patent Owner’s Motion to Strike is moot as
to that particular argument or evidence.
1. IsoEthernet
Patent Owner argues that Petitioner presented
a new theory of unpatentability in the Reply based
on Hunter’s teaching of isoEthernet. PO Mot. Str. 2.
Specifically, Patent Owner contends that “[t]he Reply
newly asserts that ‘Hunter’s disclosure of isoEthernet
also teaches Ethernet’ and interjects new concepts:
‘[i]soEthernet . . . 10Base-T and ISDN modes’ and
‘isoEthernet interfaces.’” Id. at 2-3 (citing Pet. Reply

App.191a
15, 19, 22; Ex. 1032; Ex. 1046 ¶¶ 48, 67-68, 74, 8081).
Patent Owner does not show the disputed portions of Petitioner’s Reply are improper or constitute a
new theory. The Petition states that Hunter preferably
uses a “10Base-T bus,” and asserts “10Base-T (and
100Base-T) were well-known Ethernet standards at
the time of the alleged invention.” Pet. 25-26 & n.7.
Petitioner, in the Petition, points to other teachings
in Hunter as not limited to a 10Base-T bus. Id. at 26
(“compatible with ISDN standards”); id. at 27 (“the
bus comprises a 10Base-T bus”); id. at 26 (“a bus
applying other Ethernet standards (such as 100BaseT” (emphasis deleted)); id. at 27 (“the present invention
is also compatible with Ethernet®, Token Ring®,
ATM, and isoEthernet® standards” (quoting Ex. 1003,
26:7-11)). Petitioner also argues in the Petition that
“it would have been obvious to a PHOSITA to
implement the teachings of Hunter terminal equipment
other than the exemplary ISTE, and/or with a bus
applying other Ethernet standards.” Id. at 26. Therefore, Petitioner’s reliance on isoEthernet does not
constitute a new theory of unpatentability raised for
the first time in the Reply. See Belden Inc. v. BerkTek LLC, 805 F.3d 1064, 1080 (Fed. Cir. 2015).
Furthermore, Patent Owner argues in the Response that Hunter does not teach Ethernet terminal
equipment. PO Resp. 35. For example, Patent Owner
contends that the “isoEthernet® interfaces [in Hunter]
were part of an IEEE standard called 802.9a,” which
indicates that “isoEthernet used ISDN signals, not
Ethernet signals, to transmit data.” Id. (citing Ex.
1003, 17:15-18; Ex. 2038 ¶ 76). Petitioner properly
responds in the Reply to Patent Owner’s Response

App.192a
argument. Pet. Reply 15, 22. Specifically, in the Reply,
Petitioner identifies evidence indicating that isoEthernet includes both an ISDN mode and a 10Base-T
mode, and, as a result, is not limited to carrying just
ISDN signals. Id. at 15 (citing Ex. 1003, 23:21-24, Ex.
1010, 165; Ex. 1032, 377).
Therefore, Petitioner’s argument regarding isoEthernet in the Reply not only occurs originally in
the Petition, it properly responds to an argument
raised by Patent Owner in the Response. See 37
C.F.R. § 42.23(b); Belden, 805 F.3d at 1078-79. These
(and other) disputed portions of the Reply explain
why the Response does not overcome the persuasive
showing in the Petition. See Belden, 805 F.3d at
1078-79.
Patent Owner also objects to Petitioner’s reliance on “a newly-cited IEEE standard for 802.9,”
which Petitioner submitted as Exhibit 1032 with the
Reply. PO Mot. Str. 2 (citing Pet. Reply 15-16, 22; Ex.
1032). Patent Owner contends that Hunter only
teaches “the trademarked version ‘isoEthernet®,’”
and Petitioner does not link the trademarked version
of isoEthernet in Hunter with the IEEE standard
described in Exhibit 1032. Id. at 2-3 (citing Pet. 27
n.8; Ex. 2055, 25:10-14, 31:9-21). Patent Owner also
points out that Hunter refers to “IEEE draft standard
802.9a,” but Exhibit 1032 is not a draft and only
describes IEEE standard 802.9. Id. at 3 (citing Ex.
1003, 18:7; Ex. 1032).
For the reasons discussed above, Petitioner’s
argument in the Reply regarding isoEthernet properly
responds to an argument raised by Patent Owner in
the Response and does not constitute a new theory of
unpatentability. Petitioner properly relies on Exhibit

App.193a
1032 to support its argument regarding isoEthernet
in the Reply. See Ariosa Diagnostics v. Verinata
Health, Inc., 805 F.3d 1359 (Fed. Cir. 2015) (indicating
the Board must consider prior art references cited as
“evidence of the background understanding of skilled
artisans,” even when cited in a reply to a patent
owner response.).
Patent Owner also argues that “had the Petition
relied on isoEthernet (trademarked or otherwise)
and/or Ex. 1032 as a basis for Ground 1, [Patent
Owner] would have provided evidence with its Response that, as late as 1999, the IEEE isoEthernet
committee prohibited combining phantom-power and
Ethernet data signals (‘10Base-T mode’) to ‘insure[]
that 10Base-T services are unaffected.’” PO Mot.
Str. 3 (citing Ex. 2055, 38:23-39:18) (emphasis deleted).
Patent Owner also presented this argument at the
Oral Hearing and referred to it as an offer of proof
under Fed. R. Evid. 103(a)(2). Tr. 83:2-18, 218:8-21.
In connection with this offer of proof, Patent Owner
alleged that it would have presented this evidence in
a sur-reply, but was denied the opportunity to do so
by the Board. Id.
Under Fed. R. Evid. 103(a)(2), “[a] party may
claim error in a ruling to . . . exclude evidence only if
the error affects a substantial right of the party,” and
the party “informs the court of its substance by an
offer of proof.” We did not, however, exclude evidence
offered by Patent Owner or deny Patent Owner the
opportunity to file a sur-reply in this proceeding.
Patent Owner instead made a strategic decision to
seek a motion to strike instead of a sur-reply. Specifically, Patent Owner requested “leave to file a
motion to strike Petitioner’s Reply Briefs in IPR Nos.

App.194a
2016-01389, 2016-1391, 2016-1397, and 2016-1399
or, in the alternative, for leave to file a Sur-Reply.”‘
Ex. 3008, 1 (emphasis added). In other words, Patent
Owner identified a motion to strike as the preferred
method to respond to Petitioner’s Reply, and identified a
sur-reply as an alternative to the motion to strike. Id.
Because we granted Patent Owner’s request for leave
to file a motion to strike, we did not grant the
proposed alternative of a sur-reply. Paper 45, 2-3.
Prior to the Oral Hearing, Patent Owner did not
request a clarification or modification of our Order
(Paper 45). Further, Patent Owner’s re-characterization
at the Oral Hearing of its request as being for both a
motion to strike and a sur-reply (Tr. 222:11-223:17)
contradicts the express language Patent Owner used
in its request to the Board (Ex. 3008, 1).
For the foregoing reasons, we deny Patent Owner’s
Motion to Strike Petitioner’s Reply sections that cite
Hunter’s isoEthernet teachings. Alternatively, we deem
the Motion to Strike moot as to those sections,
because we need not rely upon the disputed portions
of Petitioner’s Reply that address isoEthernet to
support the ultimate determination in this proceeding.
As discussed above, Hunter’s teachings regarding
10Base-T alone, and the obviousness of employing
Ethernet as a well-known standard, satisfy the disputed limitations of the challenged claims. See supra
Sections II.C.3, C.4.
2. Bob Smith Terminations and Common
Mode Chokes
Patent Owner argues that Petitioner addresses
BSTs and CMCs for the first time in the Reply. PO
Mot. Str. 4 (citing Pet. Reply 2, 5; Exs. 1021-24, 1029;

App.195a
Ex. 1046 ¶¶ 12-21). Patent Owner explains that Petitioner “knew that pre-existing Ethernet equipment
included terminations (e.g., BSTs and CMCs) that
were essential to the operation of an Ethernet network,” but “the Petition did not address the effects of
the blind-powering on pre-existing BSTs and CMCs.”
Id. at 4 (citing Ex. 2039, 45:10-21; Ex. 2055, 65:1367:11).
Patent Owner does not show Petitioner’s Reply
improperly relies on BSTs and CMCs. Patent Owner
raises BSTs and CMCs in the Response (PO Resp.
15-17), and Petitioner properly responds to those
arguments in the Reply (Pet. Reply 2-5). See 37
C.F.R. § 42.23(b); Belden, 805 F.3d at 1078-80. The
disputed portions of Petitioner’s Reply serve to explain,
at least in part, why Patent Owner’s arguments do
not overcome Petitioner’s persuasive showing in its
Petition. See Belden, 805 F.3d at 1078-79.
For the foregoing reasons, we deny Patent Owner’s
Motion to Strike Petitioner’s Reply sections that cite
BSTs and CMCs and evidence related thereto.
Alternatively, we deem the Motion to Strike moot as
to those sections, because we need not rely upon the
disputed portions of Petitioner’s Reply that address
BSTs and CMCs to support the ultimate determination
in this proceeding. As discussed above, the challenged
claims do not require BSTs or CMCs. See supra
Sections II.C.3, C.4, D.2, D.3; Reply Br. 3 (arguing
BSTs and CMCs are not relevant).
3. Fisher and De Nicolo Patents
Patent Owner argues that Petitioner improperly
submits new exhibits with the Reply, specifically, the
Fisher and De Nicolo patents, to show that using

App.196a
phantom power in an Ethernet network was known
at the time of the invention. PO Mot. Str. 5 (citing
Pet. Reply 7-8, 12-13; Exs. 1025-1028; Ex. 1046 ¶¶ 2735). Patent Owner acknowledges that Petitioner’s
“basic argument that [Patent Owner] did not invent
PoE is not new,” but contends Petitioner cannot cite
new evidence in the Reply to support that position.
Id. (citing Pet. 4-5).
Patent Owner fails to show that Petitioner
submitted an improper Reply regarding these patents.
As noted, Patent Owner acknowledges that the Petition
asserts Patent Owner did not invent PoE. Pet. 4-5;
PO Mot. Str. 5. Patent Owner argues in the Response
that “operating Power-over-Ethernet (‘PoE’) did not
exist in 1997.” PO Resp. 8. Petitioner responds
properly in the Reply by citing to the Fisher and De
Nicolo patents as evidence in response to Patent
Owner’s argument in the Response. Pet. Reply 6-7
(citing Exs. 1025-28). See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80.
Patent Owner specifically objects to Petitioner’s
reliance on the De Nicolo patents because Patent
Owner alleges it could have demonstrated that the
De Nicolo patents are not prior art to the ’012 patent.
PO Mot. Str. 5. We do not rely on the De Nicolo
patents in this Decision. Moreover, Patent Owner
acknowledged during the Oral Hearing that it did
not invent PoE. Tr. 85:1-3 (Panel Question: “[B]ut
you did not invent power over Ethernet? PO Answer:
“We did not. We invented—what we invented was a
way for power over Ethernet to work in the existing
infrastructure.”). As discussed above, Hunter’s teachings, even without the admission during the Oral

App.197a
Hearing, demonstrate that using PoE was known at
the time of the invention. See supra Sections II.C.3-4.
For the foregoing reasons, we deny Patent Owner’s
Motion to Strike Petitioner’s Reply sections that rely
on the Fisher patents (Ex. 1025-26). We do not rely
on the De Nicolo patents (Exhibits 1027-28), rendering
that portion of the Motion to Strike moot.
4. Alleged Skepticism
Patent Owner argues that Petitioner addresses
the objective indicia of non-obviousness, including
skepticism of those skilled in the art, for the first
time in the Reply. PO Mot. Str. 6 (citing Pet. Reply
6:6-7:5; Exs. 1035-42; Ex. 1046 ¶¶ 36-44).30 Patent
Owner contends that Petitioner was “aware of the
secondary considerations issues, but failed to address
them in the Petition.” Id. at 6.
Patent Owner fails to show an improper Reply
regarding alleged skepticism. Patent Owner raises
the issue of skepticism by those skilled in the art in
the Response (PO Resp. 21-26), and Petitioner responds
properly to that argument in the Reply (Pet. Reply 910). See 37 C.F.R. § 42.23(b); Belden, 805 F.3d at 107880. Petitioner’s Reply serves to explain, at least in
part, why Patent Owner’s arguments in the Response
do not overcome the persuasive showing in the Petition.
See supra Section II.C.3; II.D.3; Belden, 805 F.3d at
1078-79.

30 The Reply does not address skepticism on pages 6-7. We assume
Patent Owner intended to move to strike Section IV.C of the
Reply Brief. See Reply Br. 8-9 (addressing Patent Owner’s
alleged skepticism).

App.198a
For the foregoing reasons, we deny Patent Owner’s
Motion to Strike Petitioner’s Reply sections and other
evidence that address alleged skepticism raised by
Patent Owner’s Response.
5. CAT-3 and CAT-5 Cabling
Patent Owner argues that Petitioner addresses
the number of conductors in CAT-3 and CAT-5
cabling for the first time in the Reply. PO Mot. Str. 7
(citing Pet. Reply 13:6-17; Ex. 1031; Ex. 1046 ¶ 61).
Specifically, Patent Owner contends that Petitioner
knew that CAT-3 cabling was used for 10Base-T
Ethernet and CAT-5 cabling was used for 100Base-T
Ethernet, and, thus, “could have included” argument
and evidence in the Petition regarding the number of
conductors in that cabling. Id. at 7.
Patent Owner does not show that the Petitioner’s
Reply constitutes an improper response. Patent Owner
raises the issue of the number of conductors in CAT-3
and CAT-5 cabling in the Response (PO Resp. 19-20),
and Petitioner properly addresses the argument in
its Reply. Petitioner simply addresses Patent Owner’s
argument. Pet. Reply 13 (contending, inter alia, that
some CAT-3 and CAT-5 cables consisted of only 2
pairs of data, both of which carried data). See 37
C.F.R. § 42.23(b); Belden, 805 F.3d at 1078-80.
Patent Owner also argues that, if Petitioner had
addressed the number of conductors in CAT-3 and
CAT-5 cabling in the Petition, Patent Owner “would
have included the cable specification for CAT-3/CAT5 wiring, confirming that such cables comprise four
wire pairs.” PO Mot. Str. 7. (citing Ex. 2055, 171:23176:13). Patent Owner also presented this argument
at the Oral Hearing and referred to it as an offer of

App.199a
proof under Fed. R. Evid. 103(a)(2). Tr. 220:19-221:2.
As discussed above, Fed. R. Evid. 103(a)(2) provides
that “[a] party may claim error in a ruling to . . .
exclude evidence only if the error affects a substantial
right of the party,” and the party “informs the court
of its substance by an offer of proof.” We did not,
however, exclude evidence offered by Patent Owner
or deny Patent Owner the opportunity to file a surreply in this proceeding. See supra Section II.E.1.
Patent Owner instead made a strategic decision to
seek a motion to strike instead of a sur-reply. See id.;
Ex. 3008.
Moreover, the disputed portions of Petitioner’s
Reply that address the number of conductors in CAT-3
and CAT-5 cabling are not necessary to our ultimate
determination in this proceeding. As discussed above,
the portions of Hunter cited in the Petition independently demonstrate that a 10Base-T bus may
include only two twisted pair conductors, not four.
See supra Sections II.C.1, II.C.3. Even if other types
of Ethernet cables or connectors had more conductors,
as explained above, this would not overcome Petitioner’s persuasive showing in its Petition that relies
on well-known PoE. See supra Sections I.B., II.C.3,
II.C.4, II.D.2, II.D.3.
For the foregoing reasons, we deny Patent Owner’s
Motion to Strike Petitioner’s Reply section (Pet.
Reply 13:6-17) and evidence (Ex. 1031; Ex. 1046 ¶ 61)
that address CAT-3 and CAT-5 wiring. Alternatively,
we deem the Motion to Strike moot as to that section
and evidence, because we need not rely upon the
disputed portions of Petitioner’s Reply to support the
ultimate determination in this proceeding.

App.200a
F. Petitioner’s Motion to Exclude
Petitioner filed a Motion to Exclude (Paper 49,
“Pet. Mot. Excl.”), Patent Owner filed an Opposition
(Paper 53, “PO Opp. Excl.”), and Petitioner filed a
Reply (Paper 61, “Pet. Reply Excl.”). Petitioner’s
Motion to Exclude is moot, because we considered all
of Patent Owner’s evidence and it does not alter the
outcome.
F. Petitioner’s Motion to Exclude
Petitioner filed a Motion to Exclude (Paper 49,
“Pet. Mot. Excl.”), Patent Owner filed an Opposition
(Paper 53, “PO Opp. Excl.”), and Petitioner filed a Reply
(Paper 61, “Pet. Reply Excl.”). After considering the
parties’ arguments and for the reasons discussed
below, we deny Petitioner’s Motion to Exclude.
1. Exhibit 2038
Petitioner moves to exclude Exhibit 2038, the
Madisetti Declaration, under Fed. R. Evid. 401, 402,
403, 702, 703, as irrelevant, prejudicial, and unreliable.
Pet. Mot. Excl. 1-10. Specifically, Petitioner argues
that Dr. Madisetti 1) relies on an incorrect date of
invention for the challenged claims of the ’012 patent
(id. at 2-4); 2) fails to provide support for his opinion
that a person of ordinary skill in the art would have
provided operating power over the unused lines in an
Ethernet connection (id. at 5-6); 3) misunderstands
the isoEthernet standard (id. at 6-7); 4) fails to
provide support for his opinion that Bloch’s circuit
would interfere with Ethernet data signals (id. at 8);
5) provides inconsistent interpretations of what
constitutes terminal equipment (id. at 8-10); and 6)
fails to read the teachings of Hunter as a whole (id.

App.201a
at 10). Petitioner’s arguments do not demonstrate
that Exhibit 2038 lacks relevance. Rather, Petitioner’s
arguments, directed to the merits of the testimony in
Exhibit 2038, raise a question of the weight, not
admissibility. Therefore, Petitioner’s Motion to Exclude
is denied with respect to Exhibit 2038.
2. Exhibits 2040–46 and 2048
Petitioner moves to exclude Exhibits 2040-46
(“IEEE Exhibits”), and Exhibit 2048 (the “Camp
Declaration”) under Fed. R. Evid. 401, 402, 403, 801,
802, 804, 901, as irrelevant, prejudicial, hearsay, and
lacking authentication. Pet. Mot. Excl. 11-12. Petitioner’s arguments are not persuasive.
The proponent of an item of evidence must
produce evidence sufficient to support a finding that
the item is what the proponent claims it is. Fed. R.
Evid. 901. Here, the Camp Declaration testimony
avers “[t]he 802.3af Committee maintained a record
of its proceedings by posting documents pertaining to
its work, including meeting minutes and presentations,
on its public document server at http://www.ieee802.
org/3/af/public/ (“the Website”),” and that Exhibits
2040-2046 are such records. Ex. 2048 ¶¶ 4-11. Mr.
Camp explains that he bases his statements in
Exhibit 2048 on personal knowledge, he served as a
member of the “IEEE Standards Association . . .
Board,” was “personally aware” of work being done
regarding the relevant standards, and was familiar
with IEEE record-keeping policies. Id. ¶¶ 1-3.
Petitioner, on the other hand, does not provide any
specific reason showing that Exhibits 2040-2046 are
not what Patent Owner and Mr. Camp claim them to
be. See Pet. Mot. Excl. 11-12.

App.202a
Petitioner also fails to show that Exhibits 204046 constitute hearsay. See Fed. R. Evid. 801. Patent
Owner offers, and we consider, Exhibits 2040-2046 as
evidence of the effect that the statements in Exhibits
2040-2046 would have had on a person of ordinary
skill in the art considering the prior art combinations
proposed by Petitioner in this case. See supra Sections II.C., II.D. Thus, the statements in Exhibits
2040-2046 are not hearsay, because they are not
offered as evidence of the truth of the matter asserted.
See Fed. R. Evid. 801.
Petitioner’s arguments regarding the relevance
of Exhibits 2040-2046 raise a question of sufficiency
of proof, not admissibility. See Pet. Mot. Excl. 11-12
(arguing the evidence must be commensurate in
scope with the claims). Therefore, Petitioner’s Motion
to Exclude is denied with respect to Exhibits 20402046 and 2048.
3. Exhibit 2047
Petitioner moves to exclude Exhibit 2047, a
document entitled “FYI on ‘What is the Internet?’”
and produced by the User Services Working Group of
the Internet Engineering Task Force, under Fed. R.
Evid. 401, 402, 403, 801, 802, 805, 901, as irrelevant,
hearsay, and lacking authentication. Pet. Mot. Excl.
12-13. Petitioner’s arguments are not persuasive.
The proponent of an item of evidence must
produce evidence sufficient to support a finding that
the item is what the proponent claims it is. Fed. R.
Evid. 901. Here, Patent Owner submits Dr. Madisetti’s testimony that Exhibit 2047 is a document
entitled “FYI on ‘What is the Internet?’” produced by
the Internet Engineering Task Force, and is available

App.203a
at https://tools.ietf.org/html/rfc1462. Ex. 2038 ¶ 104.
Petitioner, on the other hand, does not provide
persuasive argument showing that Exhibit 2047 is
not what Patent Owner and Dr. Madisetti claim it to
be. See Pet. Mot. Excl. 12-13.
With respect to Petitioner’s argument regarding
hearsay, see Fed. R. Evid. 801, Patent Owner offers
Exhibit 2047 as extrinsic evidence of the definition of
“protocol” to show how skilled artisans would have
understood the term, but not for the truth of the
definition asserted. See Pet. Mot. Excl. 12-13; PO
Resp. 13-14. Accordingly, Petitioner fails to show the
relied-upon statements in Exhibit 2047 are hearsay.
Petitioner’s arguments regarding the relevance
of Exhibit 2047 raise a question regarding the proper
weight to afford to an alleged relationship between
different protocol types and the proper weight to
afford extrinsic evidence, not admissibility. See Pet.
Mot. Excl. 11-12 (arguing “it is improper to consider
extrinsic evidence that contradicts the intrinsic record
or that is not from around the time of the invention”).
Therefore, Petitioner’s Motion to Exclude is denied
with respect to Exhibit 2047.
4. Exhibits 2049, 2050, and 2054
Petitioner argues that Exhibits 2049, 2050, and
2054 should be excluded under Fed. R. Evid. 401,
402, 403, as irrelevant and prejudicial. Pet. Mot. Excl.
14-15. Petitioner’s arguments regarding the relevance
of Exhibits 2049, 2050, and 2054 raise a question of
sufficiency of proof, not admissibility. See id. Further,
Petitioner would not suffer any prejudice by our
admission of Exhibits 2049, 2050, and 2054. Therefore,

App.204a
Petitioner’s Motion to Exclude is denied with respect
to Exhibits 2049, 2050, and 2054.
G Patent Owner’s Motion to Exclude
Patent Owner filed a Motion to Exclude (Paper 48,
“PO Mot. Excl.”), Petitioner filed an Opposition (Paper
55, “Pet. Opp. Excl.”), and Patent Owner filed a
Reply (Paper 60, “PO Reply Excl.”). After considering
the parties’ arguments and for the reasons discussed
below, we deny-in-part and dismiss-in-part Patent
Owner’s Motion to Exclude.
1. Exhibit 1020
Other than pointing out that Petitioner filed, with
its Reply, Exhibit 1020 (Dr. Madisetti’s deposition
testimony), Patent Owner does not provide any specific
reason why Exhibit 1020 should be excluded. See PO
Mot. Excl. 1-9. Therefore, Patent Owner’s Motion to
Exclude is denied with respect to Exhibit 1020.
2. Exhibits 1021–24, 1032, and 1033
Patent Owner moves to exclude Exhibits 102124 (product datasheets, catalogs, and specifications),
Exhibit 1032 (IEEE 902.3 standard), and Exhibit
1033 (trade dictionary) as improper new evidence,
based on the same or similar reasons as set forth in
the Motion to Strike. See PO Mot. Excl. 4-5, 8; PO
Mot. Str. 3-5. Patent Owner’s arguments are not
persuasive for the same reasons discussed above with
respect to the Motion to Strike and Exhibits 1021-24
and 1032. See supra Sections II.E.1-2 (addressing
Exs. 1021-24, 1032).
Patent Owner does not address Exhibit 1033
(dictionary providing a definition for “terminal equip-

App.205a
ment”) in its Motion to Strike. In its Motion to Exclude,
Patent Owner argues Petitioner cites Exhibit 1033 in
its “Reply to assert a new claim construction argument
for the phrase ‘terminal equipment.’” PO Mot. Excl.
8. However, as Petitioner argues, a motion to exclude
“is not a mechanism to argue that a reply contains
new arguments or relies on evidence necessary to
make out a prima facie case.” Pet. Opp. Excl. 4
(quoting Liberty Mutual Insurance Co. v. Progressive
Casualty Insurance Co., Case CBM2012-00002 (PTAB
Jan. 23, 2014) (Paper 66, 62)). Patent Owner should
have presented this argument in its Motion to Strike;
otherwise, as Petitioner also argues, Patent Owner
would be circumventing the page requirements granted
for that motion. See Pet. Opp. Excl. 4 (citing Paper
45). Accordingly, we deny the Motion to Exclude as to
Exhibit 1033 as improper and without authorization.
Alternatively, even if we consider Patent Owner’s
Motion to Exclude to be proper and authorized as to
Exhibit 1033, Petitioner properly provides it as extrinsic evidence to help to rebut Patent Owner’s argument
that terminal equipment cannot include Hunter’s
hub 150. See Pet. Reply 16 (citing PO Resp. 30
(arguing “the ISTE card is an intermediate hub . . . not
an Ethernet terminal device”)). Moreover, even without
that extrinsic evidence, the intrinsic record shows
that “terminal equipment” as recited in the challenged
claims can include Hunter’s hub 150 and other modules
and peripheries. See supra Sections I.B, II.A.1, 3.
Patent Owner also argues that Exhibits 1021-24
should be excluded as impermissible hearsay. PO
Mot. Excl. 11. Patent Owner fails to show these
exhibits constitute impermissible hearsay. We rely
on Exhibits 1021-1024 in this Decision only to the

App.206a
extent they provide a basis for certain portions of Mr.
Crayford’s declaration cited in this Decision. See Ex.
1046 ¶¶ 13, 18-26. Patent Owner does not dispute
that Exhibits 1021-1024 present the kinds of facts
and data that Mr. Crayford would reasonably rely
upon in forming an opinion. See PO Mot. Excl. 11;
PO Reply Excl. 2-3. As a result, Exhibits 1021-1024
do not need to be independently admissible. See Fed.
R. Evid. 703; Power Integrations, Inc. v. Fairchild
Semiconductor Int’l, Inc., 711 F.3d 1348, 1373 (Fed.
Cir. 2013). Therefore, Patent Owner’s Motion to
Exclude is denied with respect to Exhibits 1021-1024,
1032, and 1033.
3. Exhibits 1025, 1026, 1029, and 1031
Patent Owner moves to exclude Exhibits 1025 and
1026 (Fisher patents), Exhibit 1029 (Smith patent),
and Exhibit 1031 (a Belden Technical Paper describing
Belden wiring products), as improper new evidence
for the same reasons set forth in the Motion to Strike.
PO Mot. Excl. 4-6; PO Mot. Str. 4-5. Patent Owner’s
arguments are not persuasive for the same reasons
discussed above with respect to the Motion to Strike.
See supra Sections II.E.2-3.
Patent Owner also moves to exclude Exhibits 1025,
1026, 1029, and 1031 as impermissible hearsay. See
PO Mot. Excl. 10-11; Fed. R. Evid. 801. That argument
is not persuasive. Petitioner offers, and we rely on,
the statements in Exhibits 1025, 1026, 1029, and
1031 as evidence of the effect those statements would
have had on a person of ordinary skill in the art, not
for the truth of the matter asserted. See Fed. R. Evid.
801.

App.207a
As an example, Patent Owner contends Petitioner “reli[es] on Exhibit 1031 to assert that ‘[i]n
April 1998, there were Cat-3 and Cat-5 cables with
only 2 pairs, which were both used for data’ and that
a ‘POSITA would not assume that an RJ-45 connector
with 8 pins necessarily has 8 wires (4 pairs)
connected.’” PO Mot. Excl. 11 (quoting Reply Br. 13).
Patent Owner fails to identify what hearsay statement
occurs in Exhibit 1031-Exhibit 1031 (describing Belden
products) does not contain any of the statements
Patent Owner quotes from the Reply. See Ex. 1031,
1. Exhibit 1031 provides circumstantial evidence
(i.e., not hearsay) that skilled artisans would have
understood that at least one type of Cat-3 and Cat-5
cable consisted of two pairs (“2-pair”) prior to 1998
(according to a 1997 web.archive.org date on the
bottom of pages of Exhibit 1031, as further corroborated by “UPDATED 8/25/97” nomenclature under
the title). See Ex. 1031, 2; Ex. 1046 ¶ 61 (citing Ex.
1031 to show Cat-3 and Cat-5 with two-pairs of
twisted wires existed at the time of the invention);
Seabery North America Inc. v. Lincoln Global, Inc.,
Case IPR2016-00840, slip. op. at 5-6 (PTAB Oct. 2,
2017) (Paper 60, 5-6 & n.2) (reasoning dates do not
constitute hearsay because they are not assertions).
We adopt the reasoning of Seabery.31
31 Patent Owner does not specify whether evidence regarding
the date of publication or two-pairs of twisted wires constitutes
hearsay. In Seabery, the Board reasoned as follows:
We agree with the view [of other PTAB panels] that
the dates [of publications] are not hearsay because
they are not assertions. . . . We are supported in this
by cases such as United States v. Snow, 517 F.2d
441, 445 (9th Cir. 1975), where a red tape bearing
the defendant’s name affixed to a briefcase where a

App.208a
In addition, under Fed. R. Evid. 703, this evidence constitutes the type of evidence an expert
would rely upon to support an opinion, and does not
constitute impermissible hearsay for that limited
purpose. See Ex. 1046 ¶ 61.
Even if relied-upon statements in Exhibits 1025,
1026, and 1029 constitute hearsay, they also are
admissible at least under Fed. R. Evid. 803(8). Specifically, Exhibits 1025, 1026, and 1029 constitute
records of the activities of the U.S. Patent and
Trademark Office, and Patent Owner has not shown
that the source of information or circumstances lack
trustworthiness. See PO Mot. Excl. 11-12; PO Reply
Excl. 3; Fed. R. Evid. 803(8); Fresenius Med. Care
Holdings, Inc. v. Baxter Int’l, Inc., No. C 03-1431,
2006 WL 1330003, at *2-4 (N.D. Cal. May 15, 2006).
Therefore, Patent Owner’s Motion to Exclude is
denied with respect to Exhibits 1025, 1026, 1029, and
1031.
gun was found was admitted as circumstantial evidence
that the defendant possessed the weapon. To the
same effect are United States v. Koch, 625 F.3d 470,
480 (8th Cir. 2010) (computer flash drive with
manufacturer’s label “China” not inadmissible hearsay
to prove place of manufacture); and United States v.
Bowling, 32 F.3d 3265 328 (8th Cir. 1994) (manufacturer’s name stamped on firearm not hearsay). We
are persuaded by these cases that dates appearing in
Exhibit 1003, like the examples in those cases, are
circumstantial evidence of publication and not assertions that publication occurred on a date certain. We,
therefore, overrule the objection and admit the dates
for this purpose.

See IPR2016-00840, Paper 60, 5-6 & n.2 (alternatively relying
on the residual exception to hearsay).

App.209a
4. Exhibits 1036–1042
Patent Owner argues that Exhibits 1036-1042,
documents relating to meetings of an IEEE committee, should be excluded as improper new evidence
for the same reasons set forth in the Motion to
Strike. PO Mot. Excl. 5-6; PO Mot. Str. 5-6. Patent
Owner’s arguments are not persuasive for the same
reasons discussed above with respect to the Motion to
Strike. See supra Section II.E.4. Therefore, Patent
Owner’s Motion to Exclude is denied with respect to
Exhibits 1036-1042.
5. Exhibit 1043
Exhibit 1043, U.S. Patent No. 8,155,012, relates
to the ’012 patent. Other than pointing out that
Petitioner filed Exhibit 1043 with Petitioner’s Reply,
Patent Owner does not provide any specific reason
why Exhibit 1043 should be excluded. See PO Mot.
Excl. 6. Therefore, Patent Owner’s Motion to Exclude
is denied with respect to Exhibit 1043.
6. Exhibits 1027, 1028, 1030, 1034, and
1035
We do not rely on Exhibits 1027, 1028, 1030,
1034, and 1035 in this Decision. Therefore, Patent
Owner’s Motion to Exclude is dismissed as moot with
respect to Exhibits 1027, 1028, 1030, 1034, and 1035.
H. Oral Hearing Objections
Each party objected to arguments presented by
the other party during the Oral Hearing. Petitioner
objected that Patent Owner improperly raised new
arguments for the first time at the oral hearing
regarding the IEEE 802.9f specification, the CAT-3

App.210a
and CAT-5 cabling specifications, blind power, and
power levels. Tr. 216:15-217:7. We considered Patent
Owner’s arguments in the Response in light of any
additional arguments presented by Patent Owner at
the Oral Hearing, but we ultimately do not find
Patent Owner’s arguments persuasive for the reasons
discussed in this Decision. Thus, Petitioner would
not suffer any prejudice by our admission of the
arguments presented by Patent Owner at the oral
hearing.
Patent Owner objected that Petitioner raised
arguments at the Oral Hearing that were the subject
of Patent Owner’s Motion to Strike and/or Motion to
Exclude. Tr. 66:20-67:20. For the reasons discussed
above, we deny Patent Owner’s Motion to Strike and
dismiss-in-part and deny-in-part Patent Owner’s
Motion to Exclude. See supra Sections E, G. We also
do not rely on allegedly improper arguments presented
by Petitioner at the Oral Hearing and rely instead on
the briefing and record evidence.
I. Patent Owner’s Observations on Cross Examination
Patent Owner filed a Motion for Observations on
the cross examination of Mr. Ian Crayford (Paper 47)
and Petitioner filed a Response (Paper 58). After considering Patent Owner’s observations and Petitioner’s
responses, we determine that Patent Owner’s observations do not undermine the credibility of Mr. Crayford’s
testimony. We also have considered Patent Owner’s
observations in connection with the arguments and
evidence discussed above, and we have afforded Mr.
Crayford’s testimony the appropriate weight in making
our determination in this case.

App.211a
III. Conclusion
Petitioner has demonstrated, by a preponderance
of the evidence, that claims 31, 35, 36, 40, 43, 52, 55,
56, 59, 60, and 65 of the ’012 patent are unpatentable.
IV. Order
For the reasons given, it is
ORDERED that claims 31, 35, 36, 40, 43, 52, 55,
56, 59, 60, and 65 of the ’012 patent are unpatentable;
FURTHER ORDERED that Patent Owner’s
Motions to Strike and Exclude are dismissed as mootin-part and denied-in-part;
FURTHER ORDERED that Petitioner’s Motion
to Exclude is denied; and
FURTHER ORDERED that because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
PETITIONER:
Nima Hefazi
Michael Fleming
Jonathan Kagan
Talin Gordnia
Irell & Manella, LLP
nhefazi@irell.com
mfleming@irell.com
jkagan@irell.com
tgordnia@irell.com

App.212a
Joseph A. Powers
Christopher J. Tyson
Matthew S. Yungwirth
Duane Morris LLP
japowers@duanemorris.com
cjtyson@duanemorris.com
msyungwirth@duanemorris.com

PATENT OWNER:
Frank A. Angileri
Thomas A. Lewry
Marc Lorelli
Christopher C. Smith
Brooks Kushman P.C.
CHRMC0110IPR2@brookskushman.com
Richard W. Hoffmann
Reising Ethington P.C.
hoffmann@reising.com

App.213a
FINAL WRITTEN DECISION OF UNITED STATES
PATENT TRIAL AND APPEAL BOARD ON ’838
PATENT—35 U.S.C. § 318(A) AND 37 C.F.R. § 42.73
(DECEMBER 29, 2017)
UNITED STATES PATENT AND
TRADEMARK OFFICE
________________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
________________________
JUNIPER NETWORKS, INC., RUCKUS
WIRELESS, INC., BROCADE COMMUNICATION
SYSTEMS, INC., and NETGEAR, INC.,

Petitioner,
v.
CHRIMAR SYSTEMS, INC.,

Patent Owner.

________________________
Case IPR2016-013971
Patent 9,019,838 B2

Before: Karl D. EASTHOM, Gregg I. ANDERSON,
and Robert J. WEINSCHENK, Administrative
Patent Judges.
1 Ruckus Wireless, Inc., Brocade Communication Systems,
Inc., and Netgear, Inc. filed a petition in IPR2017-00720 (now
terminated), and were joined to this proceeding.

App.214a
WEINSCHENK, Administrative Patent Judge.
I.

Introduction

Juniper Networks, Inc. filed a Petition (Paper 1,
“Pet.”) requesting an inter partes review of claims 1,
2, 7, 26, 29, 38, 39, 40, 47, 55, and 69 of U.S. Patent
No. 9,019,838 B2 (Ex. 1001, “the ’838 patent”). Chrimar Systems, Inc. (“Patent Owner”) filed a Preliminary Response (Paper 6, “Prelim. Resp.”) to the
Petition. On January 4, 2017, we instituted an inter
partes review of claims 1, 2, 7, 26, 29, 38, 39, 40, 47, 55,
and 69 (“the challenged claims”) of the ’838 patent on
the following grounds:
Claims

Statutory
Basis

Applied References

1, 2, 7,
26, 29,
38, 39,
40, 47,
55, and
69

35 U.S.C.
§ 103(a)2

Hunter et al., PCT
Publication No. WO 96/23377
(published Aug. 1, 1996) (Ex.
1003, “Hunter”); and Bulan et
al., U.S. Patent No. 5,089,927
(issued Feb. 18, 1992) (Ex.
1004, “Bulan”)

1, 2, 7,
26, 29,
38, 39,

35 U.S.C.
§ 103(a)

Bloch et al., U.S. Patent No.
4,173,714 (issued Nov. 6,
1979) (Ex. 1005, “Bloch”); The

2 The Leahy-Smith America Invents Act (“AIA”), Pub. L. No.
112-29, which was enacted on September 16, 2011, made
amendments to 35 U.S.C. §§ 102, 103. AIA § 3(b), (c). Those
amendments became effective eighteen months later on March
16, 2013. Id. at § 3(n). Because the application from which the
’838 patent issued was filed before March 16, 2013, any
citations herein to 35 U.S.C. §§ 102, 103 are to their pre-AIA
versions.

App.215a
40, 47,
55, and
69

1, 2, 7,
26, 29,
38, 39,
40, 47,
55, and
69

Institute of Electrical and
Electronics Engineers, Inc.,
IEEE Standard 802.3-1993
(1993) (Ex. 1006, “IEEE
802.3-1993”); and The
Institute of Electrical and
Electronics Engineers, Inc.,
IEEE Standard 802.3u-1995
(1995) (Exs. 1007-1008,
“IEEE 802.3-1995”)
35 U.S.C.
§ 103(a)

Bloch; IEEE 802.3-1993;
IEEE 802.3-1995; and
Huizinga et al., U.S. Patent
No. 4,046,972 (issued Sept. 6,
1977) (Ex. 1009, “Huizinga”)

Paper 8 (“Dec. on Inst.”), 17-18.
After institution, Ruckus Wireless, Inc., Brocade
Communication Systems, Inc., and Netgear, Inc. filed
a petition in IPR2017-00720 requesting an inter
partes review of the challenged claims of the ’838
patent and filed a motion requesting joinder to this
case. Paper 24, 2. On March 16, 2017, we joined Ruckus
Wireless, Inc., Brocade Communication Systems, Inc.,
and Netgear, Inc. to this case and terminated IPR201700720. Id. at 5-6. In this Decision, we refer to Juniper
Networks, Inc., Ruckus Wireless, Inc., Brocade Communication Systems, Inc., and Netgear, Inc. collectively
as Petitioner.
Also, after institution, Patent Owner filed a
Response (Paper 25, “PO Resp.”) to the Petition, and
Petitioner filed a Reply (Paper 32, “Pet. Reply”) to
the Response. An oral hearing was held on August

App.216a
31, 2017, and a transcript of the hearing is included
in the record. Paper 63 (“Tr.”). We issue this Final
Written Decision pursuant to 35 U.S.C. § 318(a) and
37 C.F.R. § 42.73. For the reasons set forth below,
Petitioner has shown by a preponderance of the
evidence that claims 1, 2, 7, 26, 29, 38, 39, 40, 47, 55,
and 69 of the ’838 patent are unpatentable.
A. Related Proceedings
The parties indicate that the ’838 patent is the
subject of several cases in the United States District
Court for the Eastern District of Michigan, the
United States District Court for the Eastern District
of Texas, and the United States District Court for the
Northern District of California. Pet. 1; Paper 5, 2-3;
Ex. 1012. The parties also indicate that the following
petitions for inter partes review are related to this
case:
Case No. Involved

U.S. Patent No.

IPR2016-00569

U.S. Patent No. 8,942,107

IPR2016-00573

U.S. Patent No. 9,019,838

IPR2016-00574

U.S. Patent No. 8,902,760

IPR2016-00983

U.S. Patent No. 8,155,012

IPR2016-01151

U.S. Patent No. 9,019,838

IPR2016-01389

U.S. Patent No. 8,155,012

IPR2016-01391

U.S. Patent No. 8,942,107

IPR2016-01399

U.S. Patent No. 8,902,760

IPR2016-01425

U.S. Patent No. 8,155,012

IPR2016-01426

U.S. Patent No. 9,019,838

App.217a
Pet. 1; Paper 5, 3.
B. The ’838 Patent
The ’838 patent relates to a system for managing,
tracking, and identifying remotely located electronic
equipment. Ex. 1001, 1:27-30. According to the ’838
patent, one of the difficulties in managing a computerized office environment is keeping track of a
company’s electronic assets. Id. at 1:32-57. Previous
systems for tracking electronic assets suffered from
several deficiencies. Id. at 1:62-65. For example,
previous systems could not determine the connection
status or physical location of an asset and could only
track assets that were powered-up. Id. at 1:65-2:2.
To address these deficiencies, the ’838 patent
describes a system for tracking an electronic asset.
Id. at 2:3-6, 3:23-27. In one embodiment described in
the ’838 patent, the system includes a central module
and a remote module. Id. at 3:27-30. The remote
module attaches to the electronic asset and transmits
a low frequency signal. Id. A receiver in the central
module monitors the signal transmitted by the remote
module and determines if the status or location of the
electronic asset changes. Id. at 3:30-32, 3:34-40.
C. Illustrative Claim
Claim 1 is independent and is reproduced below.
1. A central piece of network equipment comprising:
at least one Ethernet connector comprising
first and second pairs of contacts used to
carry BaseT Ethernet communication signals;
and

App.218a
the central piece of network equipment to
detect different magnitudes of DC current
flow via at least one of the contacts of the
first and second pairs of contacts and to
control application of at least one electrical
condition to at least one of the contacts of
the first and second pairs of contacts in
response to at least one of the magnitudes of
the DC current flow.
Ex. 1001, 17:13-23.
II.

Analysis
A. Level of Ordinary Skill in the Art

Petitioner argues that a person of ordinary skill
in the art would have had “at least a B.S. degree in
electrical engineering or computer science, or the
equivalent, and at least three years of experience in
the design of network communication products.” Pet.
5. Petitioner also argues that a person of ordinary
skill in the art would have been “familiar with, inter
alia, data communications protocols, data communications standards (and standards under development
at the time), and the behavior and use of common data
communications products available on the market.”
Id. (citing Ex. 1002 ¶¶ 49-50). Patent Owner argues
that a person of ordinary skill in the art would have
had “a B.S. degree (or equivalent) in electrical
engineering or computer science, and three years of
experience in the design of network communications
products.” PO Resp. 10 (citing Ex. 2038 ¶ 26). Patent
Owner also argues that a person of ordinary skill in
the art would have been “familiar with data communications protocols, data communications standards

App.219a
(and standards under development at the time,
including the 802.3 standard), and the behavior of
data communications products available on the
market.” PO Resp. 10 (citing Ex. 2038 ¶ 26).
Patent Owner indicates that the only difference
between the parties’ respective definitions of the
level of ordinary skill in the art is that Petitioner
uses the phrase “at least.” PO Resp. 10. According to
Patent Owner, the phrase “at least” is “too open ended”
and “would result in an expert, who has a Ph.D. and
15 years of experience, being considered an ordinary
artisan.” Id. Patent Owner, however, does not identify
any specific instance in which the difference between
the parties’ respective definitions of the level of
ordinary skill in the art impacts the analysis or
conclusions of either party, or either party’s declarant,
in this case. See id.
Our findings and conclusions in this case would
be the same under either party’s definition of the
level of ordinary skill in the art. To the extent necessary, though, we adopt Patent Owner’s definition,
which is supported by the declaration of Dr. Vijay K.
Madisetti. Id.; Ex. 2038 ¶ 26. As such, we determine
that a person of ordinary skill in the art would have
had a B.S. degree (or equivalent) in electrical
engineering or computer science and three years of
experience in the design of network communications
products, and would have been familiar with data
communications protocols, data communications
standards (and standards under development at the
time, including the 802.3 standard), and the behavior
of data communications products available on the
market.

App.220a
B. Claim Construction
The claims of an unexpired patent are interpreted using the broadest reasonable interpretation
in light of the specification of the patent in which
they appear. 37 C.F.R. § 42.100(b); Cuozzo Speed
Techs., LLC v. Lee, 136 S. Ct. 2131, 2144-45 (2016).
In applying that standard, claim terms generally are
given their ordinary and customary meaning, as would
be understood by one of ordinary skill in the art in
the context of the specification. In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). An
applicant may provide a different definition of the
term in the specification with reasonable clarity,
deliberateness, and precision. In re Paulsen, 30 F.3d
1475, 1480 (Fed. Cir. 1994). In the absence of such a
definition, limitations are not to be read into the
claims from the specification. In re Van Geuns, 988
F.2d 1181, 1184 (Fed. Cir. 1993).
1. BaseT
Claim 1 recites “at least one Ethernet connector
comprising first and second pairs of contacts used to
carry BaseT Ethernet communication signals.” Ex.
1001, 17:14-16. In a decision on institution in IPR201601391, we construed the term “BaseT” in a related
patent to mean “twisted pair Ethernet in accordance with the 10BASE-T or 100BASE-T standards.”
Juniper Networks, Inc. v. Chrimar Systems, Inc.,
Case IPR2016-01391, slip op. at 11-12 (PTAB Dec.
22, 2016) (Paper 9). Our construction is consistent
with Petitioner’s proposal that the term “BaseT” be
construed to mean “10BASE-T and 100BASE-T.” Pet.
5. Our construction also is consistent with the construction adopted by the United States District Court for

App.221a
the Eastern District of Texas in a related case. Ex. 2021,
18. Further, Patent Owner “does not contest” our
construction. PO Resp. 12. We note that our findings
and conclusions in this case are not dependent on a
particular construction of the term “BaseT.”
Nonetheless, because neither party disputes our prior
construction of that term, we adopt it in this case.
Specifically, we construe the term “BaseT” in claim 1
to mean “twisted pair Ethernet in accordance with
the 10Base-T or 100Base-T standards.”
2. Protocol
Claim 2 recites “wherein the different magnitudes of DC current flow are part of a detection
protocol.” Ex. 1001, 17:24-26. Patent Owner proposes
construing the term “protocol” to mean “a mutually
agreed upon method of communication.” PO Resp. 12.
Patent Owner argues that its proposed construction
is supported by a document entitled “FYI on ‘What
is the Internet?’” produced by the User Services
Working Group of the Internet Engineering Task
Force. Id. at 12-13 (citing Ex. 2038 ¶ 104; Ex. 2047,
1). Petitioner responds that Patent Owner’s proposed
construction improperly “reads in a requirement that
two devices knowingly communicate with each other
using an agreed upon method,” which is not supported
by the claim language or the specification. Pet. Reply
26-27.
We agree with Petitioner that Patent Owner’s
proposed construction is not the broadest reasonable
interpretation. First, Patent Owner does not direct
us to any intrinsic evidence to support its proposed
construction, but instead relies on a single piece of
extrinsic evidence. PO Resp. 12-13. Specifically, Patent

App.222a
Owner cites to a document that discusses the term
“protocol” in the context of explaining how “networks
that make up the Internet” communicate with one
another. Ex. 2047, 1. That, however, is not the context
in which the term “protocol” is used in the ’838
patent. For example, the ’838 patent relates to
tracking electronic equipment in an Ethernet network.
Ex. 1001, 1:27-30, 17:13-23. As a result, we are not
persuaded that the extrinsic evidence cited by Patent
Owner establishes the meaning of the term “protocol”
in the context of the ’838 patent.
Second, Patent Owner’s proposed construction
addresses the term “protocol” in isolation from the
remainder of the claim language. By limiting the
term “protocol” to a mutually agreed upon method of
communication, Patent Owner’s proposed construction appears to require a communication protocol.
Claim 2, though, recites a detection protocol, not a
communication protocol. Id. at 17:24-26. Claim 2
further specifies that the detection protocol is based
on different magnitudes of DC current flow detected
by the central piece of network equipment via Ethernet contacts. Id. at 17:13-26. Patent Owner does not
explain specifically why the central piece of network
equipment must mutually agree upon a method of
communication with other network equipment in
order to detect different magnitudes of DC current
flow. See PO Resp. 12-13; Pet. Reply 26-27.
Third, the specification of the ’838 patent indicates that the detection protocol does not require a
mutually agreed upon method of communication. For
example, the ’838 patent describes one embodiment
as follows:

App.223a
The existence of a connection between hub 1
and central module 15a is monitored by test
voltage source 64 and test voltage monitor
66 through a pair of receive data lines.
Current from test voltage source 64 flows
through a data line to an isolation transformer within hub 1. The current flows
through the primary winding of the isolation transformer and returns on the other
receive data line to the test voltage monitor
66. An interruption in the flow of current is
detected by the test voltage monitor 66.
. . . Similarly, current sourced onto a transmit line from signal modulator 7 and isolation power supply 8 through remote module
16a to the isolation transformer of PC 3A
which returns on the other transmit line is
monitored by test voltage monitor 84 to
verify that both remote module 16a and PC
3A are connected to central module 15a.
Ex. 1001, 8:6-23 (emphases added). In other words,
central module 15a (i.e., the central piece of network
equipment) monitors the existence of connections
with hub 1, remote module 16a, and PC 3A simply
by detecting interruptions in the DC current flow
between central module 15a and those other pieces of
network equipment. Id. Thus, the detection protocol
described in at least this embodiment of the ’838
patent does not require a mutually agreed upon
method of communication.
For the foregoing reasons, we do not adopt
Patent Owner’s proposed construction of the term
“protocol.” Specifically, we determine that the term
“protocol” in claim 2 is not limited to a mutually

App.224a
agreed upon method of communication.3 We also
determine that further construction of the term
“protocol” is not necessary to resolve the parties’
dispute regarding claim 2 in this case. See infra
Section II.C.3; Vivid Techs., Inc. v. Am. Sci. & Eng’g,
Inc., 200 F.3d 795, 803 (Fed. Cir. 1999) (“[O]nly those
terms need be construed that are in controversy, and
only to the extent necessary to resolve the controversy.”).
C. Obviousness of Claims 1, 2, 7, 26, 29, 38, 39,
40, 47, 55, and 69 Over Hunter and Bulan
Petitioner argues that claims 1, 2, 7, 26, 29, 38,
39, 40, 47, 55, and 69 would have been obvious over
Hunter and Bulan. Pet. 6. A claim is unpatentable as
obvious under 35 U.S.C. § 103(a) if the differences
between the claimed subject matter and the prior art
are such that the subject matter as a whole would
have been obvious at the time the invention was
made to a person having ordinary skill in the art to
which the subject matter pertains. KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 406 (2007). The question
of obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between
the claimed subject matter and the prior art; (3) the
level of ordinary skill in the art; and (4) any objective
3 Our determination that the term “protocol” does not require a
mutually agreed upon method of communication is consistent
with the opinion of Patent Owner’s expert in a related district
court case that “[i]n the context of these claims, ‘detection
protocol’ means that the equipment is configured or designed so
that the magnitude of the current (flow) or the impedance in the
path allow it to detect or determine some information about the
equipment at the other end of the path.” Ex. 2020, 9.

App.225a
indicia of non-obviousness. Graham v. John Deere
Co., 383 U.S. 1, 17-18 (1966).
We have considered the parties’ arguments and
supporting evidence, and we determine that Petitioner has shown by a preponderance of the evidence
that claims 1, 2, 7, 26, 29, 38, 39, 40, 47, 55, and 69
would have been obvious over Hunter and Bulan.
1. Overview of Hunter and Bulan
Hunter relates to a system for providing power
to terminal equipment in a computer network. Ex.
1003, Abstract, 16:26.4 Hunter explains that power
can be provided to terminal equipment in one of
three ways. Id. at 16:26. First, a local power supply
(e.g., in the office) can provide power to the terminal
equipment. Id. at 16:27-17:1. This is known as “local”
power. Id. at 17:1-2. Second, power may be delivered
to the terminal equipment using the same cable that
carries data through the network. Id. at 17:2-3. This
is known as “phantom” power. Id. at 17:3-5. Third,
power may be delivered to the terminal equipment
using a separate, dedicated power cable. Id. at 17:5-6.
This is known as “third pair” power. Id. at 17:6-8.
Hunter explains that there are advantages and
disadvantages to each type of power. Id. at 17:9-26.
For example, the advantage of phantom power is
that it does not require a dedicated power cable, but
the disadvantage is that it must be implemented
carefully to avoid potential interactions between the
4 Petitioner cites to the original page numbers of Hunter, whereas
Patent Owner cites to the page numbers that Petitioner added
when Hunter was filed as Exhibit 1003 in this case. To avoid
confusion, we cite to the original page numbers of Hunter.

App.226a
power and the data. Id. at 17:13-19. The advantage of
third pair power is that it separates the power from
the data, thereby avoiding potential interactions between
them, but the disadvantage is that it requires a
dedicated power cable, which can be expensive to
install. Id. at 17:20-26.
Hunter describes a preferred embodiment in
which phantom power is provided to terminal equipment using a 10Base-T Ethernet bus. Id. at 19:18-19,
21:17-18, 37:19-20. 10Base-T is an IEEE Ethernet
standard.5 Ex. 1002 ¶ 92 n.5; Ex. 2038 ¶ 32. Hunter
explains that the 10Base-T Ethernet bus comprises
two twisted pair conductors, with one pair used for
transmitting data from the terminal equipment and
the other pair used for receiving data into the terminal
equipment. Ex. 1003, 21:22-27, 37:20-26. In order to
implement phantom power, Hunter teaches that the
same two twisted pair conductors of the 10Base-T
Ethernet bus that transmit data are used to deliver
DC power to the terminal equipment. Id. at 21:27-29,
37:26-28. Hunter explains that its phantom power
embodiment is not limited to networks that use the
10Base-T Ethernet standard and indicates that it “is
also compatible with Ethernet® . . . , Token Ring® . . . ,
ATM, and isoEthernet® . . . standards.” Id. at 21:1721, 26:3-11.
Hunter further describes the preferred embodiment as including a current protection circuit. Id. at
22:27-23:7, 38:12-20. The current protection circuit
can be a resettable device, such as a thermistor or
5 Thus, contrary to Patent Owner’s argument that the asserted
prior art relates to telephone technology (PO Resp. 4), Hunter
relates to Ethernet technology.

App.227a
polyfuse, which protects both the power supply and
the bus from a potentially damaging overcurrent. Id.
at 23:3-6, 38:15-19.
Bulan relates to an improved current protection
circuit. Ex. 1004, 2:9-14. Bulan explains that a
typical current protection circuit with just a single
threshold value, such as the one described in Hunter,
is inadequate because it cannot distinguish between
a normal power up event for a DC-to-DC converter
and an operational fault. Id. at 1:26-31, 1:52-2:8. As a
result, a typical current protection circuit may stop
current from flowing during a normal power up event
and prevent the terminal equipment from starting
properly, or may allow current to flow during an operational fault and jeopardize the terminal equipment.
Id. at 1:65-2:8.
Bulan describes an improved current protection
circuit that addresses the aforementioned problem.
Id. at 2:9-14. Specifically, Bulan teaches a current
control apparatus that detects whether DC current
flow in a path exceeds static and dynamic current
limits, and, if so, switches a high impedance into the
path. Id. at 3:5-21, 4:35-40, 6:34-43. If the high
impedance reduces the DC current flow to a trickle
and then zero, the current control apparatus detects
a normal start up event for a DC-to-DC converter
and switches the high impedance out of the path to
allow the terminal equipment to start up properly.
Id. at 3:22-25, 4:62-5:1, 6:43-58. On the other hand, if
the high impedance only reduces the DC current flow
to a trickle, the current control apparatus detects an
operational fault and keeps the high impedance in
the path to protect the terminal equipment. Id.

App.228a
2. Claim 1
Claim 1 recites “[a] central piece of network equipment.” Ex. 1001, 17:13. Hunter teaches a network
with a central piece of network equipment, such as a
hub. Pet. 25-27; Ex. 1003, 32:3-9. Patent Owner does
not dispute that the combination of Hunter and
Bulan teaches the above limitation of claim 1.
Claim 1 recites “at least one Ethernet connector
comprising first and second pairs of contacts used to
carry BaseT Ethernet communication signals.” Ex.
1001, 17:14-16. Hunter teaches a 10Base-T Ethernet
bus comprising two twisted pair conductors for the
transmission of data. Pet. 27-28; Ex. 1002 ¶ 94; Ex.
1003, 37:19-28. Hunter also teaches connectors for
connecting network equipment to the 10Base-T Ethernet bus. Pet. 28; Ex. 1002 ¶ 95; Ex. 1003, 38:21-25,
Fig. 2.
Patent Owner responds that Petitioner does not
show sufficiently that Hunter teaches “‘Base T Ethernet’ as construed by the Board.” PO Resp. 35. Specifically, Patent Owner argues that Hunter repeatedly
refers to “Ethernet®,” but does not explain what the
term “Ethernet®” means. Id. (citing Ex. 1003, 12, 14,
21, 23, 28, 35, 36). Patent Owner also contends that
the term “Ethernet®” in Hunter refers to the original
trademarked version of Ethernet owned by Xerox
Corporation, not the subsequent non-trademarked
versions of Ethernet, such as 10Base-T and 100BaseT. PO Resp. 35 (citing Pet. 27; Ex. 1002 ¶ 93 n.8).
Patent Owner’s argument is not persuasive.
Patent Owner does not dispute that the term “BaseT
Ethernet” in claim 1 includes 10Base-T Ethernet. PO
Resp. 34-35. As discussed above, Hunter teaches a

App.229a
10Base-T Ethernet bus comprising two twisted pair
conductors for the transmission of data. Pet. 27-28; Pet.
Reply 16; Ex. 1003, 26:3-6, 37:19-28. For example,
Hunter teaches the following:
In the illustrated embodiment, the bus
comprises a 10Base-T bus. A 10Base-T bus
conventionally comprises two twisted-pair
conductors 240, 250, each used for unidirectional transmission of data. Thus, in
this embodiment, one of the twisted pairs
(say, 250) is employed for transmitting data
from the equipment 260, while the other of
the twisted-pairs (say, 240) is used for
receiving data into the equipment 260. The
present invention preferably employs each
of the twisted-pair conductors as a rail by
which to deliver DC power to the equipment
260.
Ex. 1003, 37:19-28 (emphasis added). Thus, regardless of whether Hunter’s use of the term “Ethernet®”
includes 10Base-T Ethernet, Hunter independently
teaches 10Base-T Ethernet.6 Id.
Patent Owner also responds that Petitioner does
not show sufficiently that the two twisted pair conductors of the 10Base-T Ethernet bus in Hunter carry
Base-T Ethernet communication signals, as required
by claim 1. PO Resp. 40-42. Specifically, Patent
Owner argues that hubs 140, 150, 160, 180 in Figure
1 of Hunter are connected to multimedia hub 120
through isoEthernet interfaces. Id. at 41 (citing Ex.
1003, 34:19-21, 35:14-16, 35:27-28, 36:13-17, 36:286 There is no dispute that 10Base-T is an IEEE Ethernet
standard. Ex. 1002 ¶ 92 n.5; Ex. 2038 ¶ 32.

App.230a
37:2). According to Patent Owner, isoEthernet interfaces only carry Integrated Services Digital Network
(“ISDN”) signals, not Ethernet signals. PO Resp. 41
(citing Ex. 1003, 17:15-18; Ex. 2038 ¶ 250). Patent
Owner also argues that hub 170 in Figure 1 of
Hunter is connected to multimedia hub 120 through
a 10Base-F interface. PO Resp. 41 (citing Ex. 1003,
36:20). According to Patent Owner, a 10Base-F interface requires a fiber connection, and “fiber cannot carry
electrical current.” PO Resp. 41-42 (citing Ex. 2038
¶ 252).
Patent Owner’s argument is not persuasive.
Patent Owner focuses on the embodiment shown in
Figure 1 of Hunter. PO Resp. 40-42. Hunter, though,
is not limited to that embodiment. Hunter teaches
that preferably “the bus comprises a 10Base-T bus,”
but notes that “[t]hose of skill in the art will recognize . . . that the present invention is also compatible
with Ethernet®, Token Ring®, ATM and isoEthernet®
standards.” Ex. 1003, 21:17-21, 26:3-11 (emphasis
added). Similarly, claim 3 of Hunter states that the
“bus comprises a two-pair twisted-pair bus selected
from the group consisting of: 10Base-T, Ethernet®,
Token Ring®, ATM, 100Base-T, and isoEthernet®.”
Ex. 1003, 51 (emphases added). These portions of
Hunter teach a network that preferably uses a 10BaseT Ethernet bus for connecting network equipment,
but alternatively may use an isoEthernet bus. Therefore, contrary to Patent Owner’s argument, Hunter is
not limited to an embodiment in which network
equipment is connected by isoEthernet interfaces.
Moreover, even if Hunter is limited to an embodiment in which network equipment is connected by
isoEthernet interfaces, Patent Owner’s argument still

App.231a
is not persuasive. As discussed above, Patent Owner
alleges that isoEthernet interfaces only carry ISDN
signals, not Ethernet signals. PO Resp. 41 (citing Ex.
1003, 17:15-18; Ex. 2038 ¶ 250). The evidence cited
by Patent Owner, however, does not support that
argument. The portion of Hunter cited by Patent
Owner indicates that isoEthernet interfaces can carry
ISDN signals, but does not establish that isoEthernet
interfaces only carry ISDN signals. Ex. 1003, 15:1518. Further, the portion of Dr. Madisetti’s declaration
cited by Patent Owner states that “isoEthernet used
ISDN signals, not Ethernet,” but Dr. Madisetti provides
no support for that statement other than citing the
same portion of Hunter discussed above. Ex. 2038
¶ 250. In contrast, the documentary evidence that
Petitioner submitted with the Petition (Pet. iv (exhibit
list); Pet. Reply 16) indicates that isoEthernet includes
a 10Base-T mode in which the “IsoEthernet layer
functions as a 10Base-T transceiver” (Ex. 1010, 165).7
As a result, even if we accept Patent Owner’s premise
that hub 120 in Figure 1 of Hunter communicates
with hubs 140, 150, 160, 180 using isoEthernet interfaces, the evidence of record indicates that isoEthernet
interfaces carry 10Base-T Ethernet signals at least
when used in the 10Base-T mode of isoEthernet.
Patent Owner’s argument regarding 10Base-T
hub 170 in Figure 1 of Hunter also is not persuasive
for an additional reason. As discussed above, Patent
Owner alleges that 10Base-T hub 170 is connected to
multimedia hub 120 only through a 10Base-F interface. PO Resp. 41 (citing Ex. 1003, 36:20). The evidence
7 We cite to the page numbers that Petitioner added to Exhibit
1010. Also, like Hunter, Exhibit 1010 refers to the IEEE 802.9a
standard for isoEthernet. Ex. 1003, 15:15-18; Ex. 1010, 160.

App.232a
cited by Patent Owner, however, does not support that
argument. The cited portion of Hunter states that
“[t]he 10Base-T hub 170 further provides an Ethernet®
AU interface and a single 10Base-F network interface.”
Ex. 1003, 34:19-20 (emphasis added). The phrase
“further provides” in this portion of Hunter indicates
that 10Base-T hub 170 includes an AU interface and
a 10Base-F interface, but does not establish that
10Base-T hub 170 only includes an AU interface and
a 10Base-F interface. Id. Further, Hunter teaches
that multimedia hub 120 includes a 10Base-T repeater,
and Figure 1 of Hunter shows that the 10Base-T
repeater in multimedia hub 120 is connected to
10Base-T hub 170 over the 10Base-T Ethernet bus.
Pet. Reply 16; Ex. 1003, 26:3-8, 32:16-27, 34:18-20,
37:19-28, Fig. 1. This indicates that the 10Base-T
Ethernet bus in Hunter carries 10Base-T Ethernet
signals from the 10Base-T repeater in multimedia
hub 120 to 10Base-T hub 170.
At the oral hearing, Patent Owner further argued
that, although Hunter teaches a 10Base-T Ethernet
bus, Hunter does not teach that the 10Base-T Ethernet
bus carries both 10Base-T Ethernet signals and DC
power. Tr. 126:9-127:11. According to Patent Owner,
when the 10Base-T Ethernet bus carries DC power,
it only carries ISDN signals. Id. at 128:22-129:3.
Patent Owner reads Hunter too narrowly. For example,
Hunter teaches the following:
In the illustrated embodiment, the bus
comprises a 10Base-T bus. A 10Base-T bus
conventionally comprises two twisted-pair
conductors 240, 250, each used for unidirectional transmission of data. Thus, in
this embodiment, one of the twisted pairs

App.233a
(say, 250) is employed for transmitting data
from the equipment 260, while the other of
the twisted-pairs (say, 240) is used for
receiving data into the equipment 260. The
present invention preferably employs each
of the twisted-pair conductors as a rail by
which to deliver DC power to the equipment
260.
Ex. 1003, 37:19-28 (emphases added). In other words,
Hunter teaches generally that the 10Base-T Ethernet bus can deliver DC power over the same two
twisted pair conductors used to transmit data. Id. at
21:22-29, 37:19-28. We, therefore, do not read Hunter
as teaching that the 10Base-T Ethernet bus can only
carry DC power with ISDN signals. Rather, as discussed above, Hunter indicates that isoEthernet and
ISDN are just alternatives to a preferred embodiment that uses 10Base-T Ethernet. Ex. 1003, 21:1721 (“also compatible with . . . isoEthernet®”); id. at
26:3-11 (“also compatible with . . . isoEthernet®”); id.
at 39:15-16 (“compatible with ISDN standards”).
Patent Owner also responds that Petitioner does
not show sufficiently that Hunter teaches providing
phantom power to Ethernet terminal equipment. PO
Resp. 35-40. Patent Owner contends that the Integrated Services Terminal Equipment (“ISTE”) device
in Figure 2 of Hunter (which Petitioner identifies as
terminal equipment (Pet. 25)) is just an intermediate
hub. PO Resp. 35-36. Patent Owner alleges that the
only terminal equipment in Figure 2 of Hunter is
voice instrument 299. Id. at 36. According to Patent
Owner, when Figures 1 and 2 of Hunter are considered together, those figures “show phantom-power
being delivered from a multimedia Hub (‘120’ in

App.234a
Hunter’s Figure 1) through multiple connectors (each
labelled ‘297’ in Hunter’s Figure 2) to an intermediate
Hub (‘150’ in Hunter’s Figure 1).” Id. at 38 (citing Ex.
2038 ¶ 245). Patent Owner concludes that “Hunter’s
phantom-power circuit does not connect to the phones
(‘end devices’), which are connected to the intermediate
Hub through separate connectors (each labelled ‘298’
in Hunter’s Figure 2).” PO Resp. 38.
Patent Owner’s argument is not persuasive.8
Patent Owner’s argument focuses on the specific
configuration shown in Figure 2 of Hunter. PO Resp.
35-40. But, as Petitioner explains in the Petition,
Hunter is not limited to the configuration shown in
Figure 2. Pet. 26-27, 36. Hunter teaches generally
supplying phantom power to network equipment. Ex.
1003, 19:2-8 (“it is a primary object of the present
invention to provide power subsystems for providing
either phantom or third pair power to equipment
coupled to a local area network”). For example, Hunter
teaches that phantom power and data are delivered
to network equipment using the two twisted pair
conductors of the 10Base-T Ethernet bus (id. at
21:22-29), and that “[i]n an overall LAN, many pieces
of equipment, each with its own third and fourth
transformers, can take power as well as data from
the bus” (id. at 21:11-13 (emphasis added)). Thus,
regardless of the specific configuration shown in
Figure 2, Hunter teaches providing phantom power
to Ethernet terminal equipment. Ex. 1002 ¶ 111.
8 We note that claim 1 does not recite Ethernet terminal
equipment. See Ex. 1001, 17:13-23. We address Patent Owner’s
argument anyway, though, to the extent it is applicable to the
“end device” recited in claim 26. Id. at 18:66-19:2.

App.235a
In addition, even if Hunter is limited to the
configuration shown in Figure 2, Hunter still teaches
providing phantom power to Ethernet terminal equipment. Specifically, as discussed above, Hunter teaches
that equipment 260 in Figure 2 of Hunter is an
Integrated Services Terminal Equipment (“ISTE”)
device. Ex. 1003, 23:18-20, 39:14-15, Fig. 2. The fact
that the “TE” in ISTE device stands for “Terminal
Equipment” indicates by itself that equipment 260 is
terminal equipment. Id. In addition, Patent Owner
proposed in the Preliminary Response that the term
“Ethernet terminal equipment” be construed to mean
a “device at which data transmission can originate or
terminate and that is capable of Ethernet communication.”9 Prelim. Resp. 13. Consistent with that
construction, the evidence of record indicates that
Ethernet data transmissions can originate and terminate at the ISTE device in Hunter.10 Pet. 36; Ex. 1002
¶ 111; Ex. 1003, 37:19-28, 39:14-16. Further, Hunter
teaches delivering phantom power to equipment 260
in Figure 2 over the same two twisted pair conductors
240, 250 of the 10Base-T Ethernet bus used to transmit
data to equipment 260. Ex. 1003, 37:19-28, Fig. 2.
9 Patent Owner does not propose a specific construction of the
term “Ethernet terminal equipment” in the Response. See PO
Resp. 12-13, 35-40. Nonetheless, Patent Owner’s proposed
construction in the Preliminary Response is consistent with
Petitioner’s proposed construction in the Petition (Pet. 36
(“because it originates and terminates Ethernet data
transmissions”)) and the District Court’s construction (Ex. 2018,
13).
10 Hunter indicates that the ISTE device is compatible with
ISDN standards, but Hunter does not indicate that the ISTE
device is limited to ISDN standards. Ex. 1003, 23:18-24.

App.236a
Moreover, even if Patent Owner were correct
that voice instrument 299 is the only terminal equipment in Figure 2 of Hunter, Patent Owner’s argument
is not persuasive. Hunter teaches that the phantom
power and data transmitted over the 10Base-T
Ethernet bus is supplied to both equipment 260 and
voice instrument 299. Pet. Reply 20; Ex. 1003, 38:2527 (“A voice instrument 299 is therefore couplable to
the equipment 260 and receives both data and power
therefrom.”).
Claim 1 recites “the central piece of network
equipment to detect different magnitudes of DC
current flow via at least one of the contacts of the
first and second pairs of contacts.” Ex. 1001, 17:1719. Bulan teaches a current control apparatus that
detects whether DC current flow in a path exceeds
static and dynamic current limits, and, if so, switches
a high impedance into the path. Pet. 11, 17-19, 29-31;
Ex. 1004, 3:5-21, 4:35-40, 6:34-43. Bulan also teaches
that, if the high impedance reduces the DC current
flow to a trickle and then zero, the current control
apparatus detects a normal start up event for a DCto-DC converter, whereas, if the high impedance only
reduces the DC current flow to a trickle, the current
control apparatus detects an operational fault. Pet.
11-12, 20-21, 31-32; Ex. 1004, 3:22-25, 4:62-5:1, 6:4358. By combining the current control apparatus of
Bulan with the central piece of network equipment of
Hunter, as Petitioner proposes (see infra Section
II.C.12), the current control apparatus of Bulan
detects the aforementioned different magnitudes of
DC current flow via at least one of the contacts of the
first and second pairs of the 10Base-T Ethernet bus
of Hunter. Pet. 15-16, 29-30; Ex. 1002 ¶ 75. Other

App.237a
than the arguments discussed above, Patent Owner
does not dispute that the combination of Hunter and
Bulan teaches the above limitation of claim 1.
Claim 1 recites “the central piece of network
equipment . . . to control application of at least one
electrical condition to at least one of the contacts of
the first and second pairs of contacts in response to
at least one of the magnitudes of the DC current flow.”
Ex. 1001, 17:17-23. Bulan teaches that, in response
to detecting DC current flow that exceeds static and
dynamic current limits, the current control apparatus
applies an electrical condition by switching a high
impedance into the path. Pet. 11, 17-19, 32; Ex. 1004,
3:5-21, 4:35-40, 6:34-43. Bulan also teaches that, if
the high impedance reduces the DC current flow to a
trickle and then zero, the current control apparatus
detects a normal start up event for a DC-to-DC
converter and applies an electrical condition by
switching the high impedance out of the path. Pet.
11-12, 20-21, 32-33; Ex. 1004, 3:22-25, 4:62-5:1, 6:4358. By combining the current control apparatus of
Bulan with the central piece of network equipment of
Hunter, as Petitioner proposes (see infra Section
II.C.12), the current control apparatus of Bulan applies
the aforementioned electrical conditions to at least
one of the contacts of the first and second pairs of the
10Base-T Ethernet bus of Hunter. Pet. 15-16, 29-30;
Ex. 1002 ¶ 75. Other than the arguments discussed
above, Patent Owner does not dispute that the
combination of Hunter and Bulan teaches the above
limitation of claim 1.

App.238a
3. Claim 2
Claim 2 depends from claim 1, and recites
“wherein the different magnitudes of DC current flow
are part of a detection protocol.” Ex. 1001, 17:24-26.
Bulan teaches that the current control apparatus
detects whether DC current flow in a path exceeds
static and dynamic current limits, and, if so, switches
a high impedance into the path. Pet. 11, 17-19, 29-31,
33; Ex. 1002 ¶ 104; Ex. 1004, 3:5-21, 4:35-40, 6:34-43.
Bulan also teaches that, if the high impedance reduces
the DC current flow to a trickle and then zero, the
current control apparatus detects a normal start up
event, whereas, if the high impedance only reduces
the DC current flow to a trickle, the current control
apparatus detects an operational fault. Pet. 11-12,
20-21, 31-33; Ex. 1002 ¶ 104; Ex. 1004, 3:22-25, 4:625:1, 6:43-58.
Patent Owner responds that Petitioner “do[es]
not identify any mutually agreed upon protocol, and
do[es] not explain how Bulan and the TE are communicating using such a protocol.” PO Resp. 43 (citing
Pet. 33; Ex. 2038 ¶¶ 255-256). Patent Owner’s argument is not persuasive. Patent Owner’s argument is
premised on its proposed construction of the term
“protocol,” which we do not adopt. See supra Section
II.B.2. Specifically, as discussed above, we determine
that the term “protocol” is not limited to a mutually
agreed upon method of communication. See id. Patent
Owner does not provide any other specific reason
why the aforementioned teachings of Bulan would
not have been considered a detection protocol. See
PO Resp. 43.

App.239a
4. Claim 7
Claim 7 depends from claim 1, and recites
“wherein the central piece of network equipment to
provide at least one DC current via at least one of the
contacts of the first and second pairs of contacts and
to detect distinguishing information within the DC
current via the at least one of the contacts of the first
and second pairs of contacts.” Ex. 1001, 17:45-50.
Hunter teaches that the central piece of network
equipment provides DC current via the two twisted
pair conductors of the 10Base-T Ethernet bus. Pet.
34; Ex. 1003, 37:19-28, Fig. 2. Bulan teaches that the
current control apparatus detects distinguishing information within the DC current, such as whether the
terminal equipment is experiencing an overcurrent
condition, and, if so, whether the overcurrent condition
is due to a normal start up event or an operational
fault. Pet. 11-12, 17-21, 29-32, 34-36; Ex. 1004, 3:5-25,
4:35-40, 4:62-5:1, 6:34-58. Other than the arguments
discussed previously with respect to claim 1, Patent
Owner does not dispute that the combination of
Hunter and Bulan teaches the above limitation of
claim 7.
5. Claims 26 and 29
Claim 26 depends from claim 1, and recites
“wherein the central piece of network equipment to
distinguish one end device from at least one other
end device based on at least one of the magnitudes of
the DC current flow.” Ex. 1001, 18:66-19:2. Claim 29
depends from claim 1, and recites a similar limitation. Id. at 19:9-12. Bulan teaches that the current
control apparatus determines whether DC current
flow exceeds static and dynamic current limits, and,

App.240a
thus, distinguishes one end device that is experiencing an overcurrent condition from other end devices
that are not experiencing an overcurrent condition.
Pet. 11, 17-19, 29-31, 36-37; Ex. 1002 ¶ 113; Ex.
1004, 3:5-21, 4:35-40, 6:34-43. Bulan also teaches
that the current control apparatus detects whether
an end device is experiencing a normal start up event
or an operational fault, thereby distinguishing different end devices that are experiencing different types
of overcurrent conditions. Pet. 11-12, 20-21, 31-32,
37; Ex. 1002 ¶ 114; Ex. 1004, 3:22-25, 4:62-5:1, 6:4358. Further, Bulan teaches that the current control
apparatus observes an iterative pattern that is unique
to a particular end device, and, thus, distinguishes
that end device from other end devices. Pet. 37; Ex.
1002 ¶ 115; Ex. 1004, 7:7-13.
Patent Owner responds that, when the current
control apparatus in Bulan detects an overcurrent
condition, it does not know whether the condition
occurred in an end device or any other network
object. PO Resp. 44-45. According to Patent Owner,
the current control apparatus in Bulan at most “can
determine only that the ‘overcurrent condition’ arose
from some fault . . . somewhere in the extended circuit
leading from the Bulan hub to the ISTE card and
back to the Bulan hub.” Id. at 45 (citing Ex. 1004,
Abstract, 3:13-21, 4:33-42, 6:36-47; Ex. 2038 ¶¶ 259260).
Patent Owner’s argument is not persuasive.
Hunter teaches that the central piece of network
equipment can include a separate current protection
circuit for each piece of terminal equipment. Pet.
Reply 25-26; Ex. 1003, 42:21-23; Ex. 1046 ¶ 87. Further,
as discussed above, Bulan teaches that the current

App.241a
control apparatus observes an iterative pattern that
is “peculiar to the particular terminal equipment
being connected to the line.” Ex. 1004, 7:7-13 (emphasis
added). Thus, in the proposed combination of Hunter
and Bulan, the central piece of network equipment
includes a separate current control apparatus that
detects an overcurrent condition for each piece of
terminal equipment, thereby allowing the central
piece of network equipment to distinguish one end
device from other end devices. Ex. 1046 ¶ 87. Further,
regardless of whether the overcurrent condition arose
in an end device or somewhere else in the circuit, the
fact that an end device is experiencing an overcurrent
condition distinguishes it from other end devices that
are not. Pet. Reply 26; Ex. 1046 ¶ 88.
6. Claim 38
Claim 38 depends from claim 1, and recites
“wherein the central piece of network equipment
comprises at least one DC supply.” Ex. 1001, 19:4244. Hunter teaches that the central piece of network
equipment includes a DC supply. Pet. 38; Ex. 1003,
35:27-36:1, 52:1-2, Fig. 2. Other than the arguments
discussed previously with respect to claim 1, Patent
Owner does not dispute that the combination of
Hunter and Bulan teaches the above limitation of
claim 38.
7. Claim 39
Claim 39 depends from claim 38, and recites
“wherein the at least one DC supply to provide at
least one DC power signal.” Ex. 1001, 19:45-47.
Hunter teaches that the DC supply in the central
piece of network equipment delivers a DC power

App.242a
signal. Pet. 38; Ex. 1003, 37:19-28. Other than the
arguments discussed previously with respect to claim
1, Patent Owner does not dispute that the combination
of Hunter and Bulan teaches the above limitation of
claim 39.
8. Claim 40
Claim 40 depends from claim 39, and recites
“wherein the central piece of network equipment to
control the application of the at least one DC power
signal.” Ex. 1001, 19:48-50. Bulan teaches that the
current control apparatus controls the application of
the DC power signal by switching a high impedance
into and out of the path. Pet. 11, 17-21, 29-33, 39; Ex.
1004, 3:5-25, 4:35-40, 4:62-5:1, 6:34-58. Other than
the arguments discussed previously with respect to
claim 1, Patent Owner does not dispute that the
combination of Hunter and Bulan teaches the above
limitation of claim 40.
9. Claim 47
Claim 47 depends from claim 1, and recites
“wherein the at least one electrical condition comprises
at least one voltage condition.” Ex. 1001, 20:7-9.
Bulan teaches that the current control apparatus
applies a voltage condition by switching a high
impedance into and out of the path. Pet. 11, 17-21,
29-33, 39-40; Ex. 1004, 3:5-25, 4:35-40, 4:62-5:1, 6:3458. Other than the arguments discussed previously
with respect to claim 1, Patent Owner does not
dispute that the combination of Hunter and Bulan
teaches the above limitation of claim 47.

App.243a
10. Claim 55
Claim 55 depends from claim 1, and recites
“wherein the different magnitudes of DC current flow
comprise a first magnitude followed by a second
magnitude.” Ex. 1001, 20:31-33. Bulan teaches that
the magnitude of DC current flow comprises a first
magnitude when a device is plugged in and the DC
current flow rises from zero to a static limit and then
a dynamic limit. Pet. 11, 17-19, 29-31, 40; Ex. 1004,
3:5-21, 4:35-40, 6:34-43. Bulan also teaches that the
first magnitude is followed by a second magnitude
when a high impedance is switched into the path
causing the DC current flow to drop to a trickle or
zero. Pet. 11-12, 20-21, 29-32, 40; Ex. 1004, 3:22-25,
4:62-5:1, 6:43-58. Other than the arguments discussed
previously with respect to claim 1, Patent Owner
does not dispute that the combination of Hunter and
Bulan teaches the above limitation of claim 55.
11. Claim 69
Claim 69 depends from claim 1, and recites
“wherein the at least one magnitude of DC current
flow is used by the central piece of network equipment to control application of at least one DC power
signal.” Ex. 1001, 21:15-18. Bulan teaches that, in
response to the magnitude of DC current flow, the
current control apparatus controls the application of
the DC power signal by switching a high impedance
into and out of the path. Pet. 11, 17-21, 29-33, 41; Ex.
1004, 3:5-25, 4:35-40, 4:62-5:1, 6:34-58. Other than
the arguments discussed previously with respect to
claim 1, Patent Owner does not dispute that the
combination of Hunter and Bulan teaches the above
limitation of claim 69.

App.244a
12. Reasons for Combining Hunter and
Bulan
Petitioner argues that a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Hunter and Bulan. Pet. 9-16. We
agree with and adopt Petitioner’s reasoning. Specifically, a person of ordinary skill in the art would have
substituted the typical current protection circuit in
Hunter with the improved current protection circuit
in Bulan. Id. at 15-16. Hunter and Bulan relate to
the same field of endeavor, which is powering network
terminal equipment. Id. at 9; Ex. 1003, Abstract; Ex.
1004, Abstract. Further, Bulan teaches that typical
current protection circuits are inadequate because
they cannot distinguish between a normal power up
event for a DC-to-DC converter and an operational
fault. Pet. 10; Ex. 1004, 1:26-31, 1:52-2:8. As a result,
a typical current protection circuit may stop current
from flowing during a normal power up event and
prevent network equipment from starting properly, or
may allow current to flow during an operational fault
and jeopardize network equipment. Pet. 10-11; Ex.
1002 ¶ 67; Ex. 1004, 1:65-2:8.
Hunter includes a typical current protection
circuit that is a simple thermistor or polyfuse, and,
thus, would have suffered from the deficiency identified in Bulan. Pet. 11; Ex. 1002 ¶ 68; Ex. 1003,
38:12-19. A person of ordinary skill in the art would
have substituted the current protection circuit in
Hunter with the current protection circuit in Bulan
because a person of ordinary skill in the art would
have recognized that “the Bulan current control
apparatus would be a superior alternative to Hunter’s
existing protective device.” Pet. 12; Ex. 1002 ¶¶ 70-

App.245a
71. Further, this substitution would have been a
straightforward task with a reasonable expectation
of success. Pet. 13-15; Ex. 1002 ¶¶ 72-74.
Patent Owner responds that a person of ordinary skill in the art would not have had a reason to
combine the cited teachings of Hunter and Bulan. PO
Resp. 13. The crux of Patent Owner’s argument is
that a person of ordinary skill in the art would not
have had a reason to use phantom power for Ethernet
terminal equipment. Id. at 13-26. However, as Patent
Owner acknowledged at the oral hearing, the basis
for Petitioner’s proposed combination of Hunter and
Bulan does not relate to using phantom power for
Ethernet terminal equipment. Tr. 157:19-158:12. We
explain in detail above that Hunter alone teaches
using phantom power for Ethernet terminal equipment.
See supra Section II.C.2. The proposed combination
of Hunter and Bulan instead relates to substituting
the current protection circuit in Hunter with the
improved current protection circuit in Bulan. Pet. 916. Thus, any alleged issues with using phantom
power for Ethernet terminal equipment are not
pertinent to the question of whether a person of
ordinary skill in the art would have had a reason to
combine the cited teachings of Hunter and Bulan in
the manner proposed by Petitioner. As such, Patent
Owner’s argument is not persuasive. Nonetheless, we
address each of Patent Owner’s specific contentions
in detail below, and we find that they also are not
persuasive for additional reasons.
First, Patent Owner argues that the invention of
the ’838 patent is “directed to equipment networked
over ‘pre-existing wiring or cables that connect pieces
of networked computer equipment to a network.’” PO

App.246a
Resp. 13 (citing Pet. 3; Ex. 1002 ¶ 45) (emphasis added).
According to Patent Owner, at the time of the ’838
patent, a pre-existing Ethernet network would have
contained billions of nodes that “commonly” included
Bob Smith terminations and common mode chokes.
PO Resp. 13-14 (citing Ex. 2038 ¶ 42; Ex. 2039,
43:20-44:2, 45:6-8, 193:6, 195:3-196:3). Patent Owner
contends that supplying phantom power to Ethernet
terminal equipment in a pre-existing Ethernet network
“would have burned out the existing Bob Smith
terminations” and “would saturate the common mode
chokes.” PO Resp. 14-16 (citing Ex. 2038 ¶¶ 45-47).
Patent Owner’s argument depends on the premise
that the invention of the ’838 patent is limited to
equipment networked over pre-existing wiring or
cables. PO Resp. 13-16. The specification and claims
of the ’838 patent, however, do not support that
premise. The specification of the ’838 patent states
that “[t]his invention is particularly adapted to be
used with an existing Ethernet communications link.”
Ex. 1001, 3:40-42 (emphases added). This portion of
the ’838 patent indicates that the system of the ’838
patent, while particularly suited for use with an
existing Ethernet network, is not limited to such a
use. Id. Further, the challenged claims of the ’838
patent do not require a pre-existing Ethernet network
or pre-existing wiring or cables.11 Tr. 107:18-111:6.

11 At the oral hearing, Patent Owner argued that the ’838 patent
describes transmitting a low DC current, which, according to
Patent Owner, would not have damaged Bob Smith terminations
or common mode chokes. Tr. 111:7-22. Patent Owner, however,
acknowledged that the challenged claims do not recite a limit on
the magnitude of the DC current flow. Id. at 130:20-131:15.

App.247a
We also note that Patent Owner does not direct
us to specific evidence indicating that the teachings
of Hunter or Bulan are limited to Ethernet equipment networked over pre-existing wiring or cables.
See PO Resp. 13-16. And Patent Owner acknowledged
at the oral hearing that applying phantom power to
“new” Ethernet terminal equipment would not have
caused any problems with Bob Smith terminations or
common mode chokes. Tr. 135:1-12. Thus, any alleged
issues with Bob Smith terminations or common node
chokes in a pre-existing Ethernet network are not
pertinent to the question of whether a person of
ordinary skill in the art would have had a reason to
combine the cited teachings of Hunter and Bulan.
Moreover, even if we accepted Patent Owner’s
premise, Patent Owner’s argument still is not persuasive. Patent Owner and Patent Owner’s declarant,
Dr. Madisetti, acknowledged that not all pre-existing
Ethernet networks included Bob Smith terminations
or common mode chokes.12 Tr. 115:19-116:3, 150:16151:8; Ex. 1020, 55:19-56:2, 80:16-23. Further, Petitioner’s declarant, Mr. Ian Crayford, explains that, even
for those pre-existing Ethernet networks that did
include Bob Smith terminations and/or common mode
chokes, it would have been within the knowledge and
capabilities of a person of ordinary skill in the art to
implement phantom power without damaging the
Bob Smith terminations or common mode chokes,
12 For example, as Petitioner explains (Pet. Reply 3-4), Bob Smith
terminations and common mode chokes were used to satisfy
electromagnetic emissions standards (Ex. 1046 ¶ 13), but those
emissions standards also could have been satisfied without
using Bob Smith terminations and common mode chokes (id.
¶¶ 18-21).

App.248a
such as by incorporating a blocking capacitor. Pet.
Reply 5; Ex. 1046 ¶¶ 22-26.
Second, Patent Owner argues that a person of
ordinary skill in the art seeking to supply operating
power to Ethernet terminal equipment would have
supplied that operating power over the unused lines
in an Ethernet connection, rather than over the same
lines used to transmit data. PO Resp. 16-20. Patent
Owner alleges that a standard 10Base-T Ethernet
network used eight lines, with four of the lines used
to transmit data and the other four lines left unused.
Id. at 18-19 (citing Pet. 49-50; Ex. 2038 ¶ 53). According to Patent Owner, a person of ordinary skill would
have provided operating power to Ethernet terminal
equipment over the unused lines to avoid interference
with the data signals. PO Resp. 17 (citing Ex. 1003,
19:20-22; Ex. 2038 ¶¶ 48-50; Ex. 2039, 138:16-139:11).
Patent Owner’s argument is not persuasive.
Hunter teaches a 10Base-T Ethernet bus that includes
only two twisted pair conductors, both of which are
used to transmit data. Ex. 1003, 37:19-28. Thus,
contrary to Patent Owner’s argument, the 10Base-T
Ethernet bus in Hunter does not include any unused
lines. Id. Further, Hunter teaches delivering DC
power over the same lines of the 10Base-T Ethernet
bus used to transmit data (see supra Section II.C.2)
because it “has the advantage of not requiring the
installation of a dedicated power cable” (Ex. 1003,
17:13-26). Hunter even addresses Patent Owner’s
alleged concerns about interference by explaining
that “a careful phantom power scheme must be
implemented to avoid problems that may arise due to
interactions between the power and the data . . . . ”
Id. Thus, although alternative ways of providing

App.249a
operating power to Ethernet terminal equipment
may have existed (PO Resp. 19-20), that does not
detract from the express teachings of Hunter. See In
re Mouttet, 686 F.3d 1322, 1334 (Fed. Cir. 2012)
(“[J]ust because better alternatives exist in the prior
art does not mean that an inferior combination is
inapt for obviousness purposes.”); In re Fulton, 391
F.3d 1195, 1200 (Fed. Cir. 2004).
Third, Patent Owner argues that “[a]t the time
of the invention, and for several years afterward,
experts in the field were skeptical that operating
power could be delivered to terminal equipment
using the Ethernet data pairs . . . without disrupting
the data propagation.” PO Resp. 21 (citing Ex. 2038
¶ 56). Specifically, Patent Owner relies on evidence
relating to meetings of an IEEE committee. PO Resp.
21-25. In particular, Patent Owner explains that
certain members of the committee identified the
advantages of supplying power over unused lines (id.
at 21-23 (citing Ex. 2040, 2-3; Ex. 2044, 3; Ex. 2048)),
and identified the technical issues with supplying
power over the data lines (PO Resp. 23 (citing Ex.
2044, 2)). Patent Owner also explains that at a
meeting in March 2000, “no one brought a motion
seeking to apply power to the data-carrying pairs,”
(PO Resp. 22 (citing Ex. 2041, 3) (emphasis omitted)),
and that it was only in July 2000, after 250 hours
of investigation, that the committee “believed that
putting power on the data pairs was technically
feasible without affecting the propagation of Ethernet
data” (PO Resp. 24-25 (citing Ex. 2045, 1, 3; Ex.
2046, 2)).
Patent Owner’s argument is not persuasive. The
evidence cited by Patent Owner relates to whether

App.250a
certain IEEE committee members believed that phantom power should be adopted as an Ethernet standard,
not whether phantom power would work in an Ethernet
network. PO Resp. 21-25; Ex. 2041, 3. Further,
although Patent Owner’s evidence indicates that some
IEEE committee members were in favor of adopting
an Ethernet standard in which operating power was
delivered over unused lines, Petitioner identifies
evidence indicating that other committee members
were in favor of using phantom power as the Ethernet
standard. Pet. Reply 9-10; Ex. 1037, 3 (“Current will
be injected via the center taps using a Phantom
Power method on the TX and RX pairs.”); Ex. 1040, 3
(“Power over signal pairs allows easier integration of
discovery & power control circuitry onto the PHY.”);
Ex. 1046 ¶¶ 38-44. In any event, the fact that an
alternative way of providing operating power to
Ethernet terminal equipment existed and was
considered for an IEEE standard does not detract
from the express teachings of Hunter. See Mouttet,
686 F.3d at 1334; Fulton, 391 F.3d at 1200. Moreover,
we note that even if Patent Owner’s evidence indicates
some amount of skepticism, we determine that it
does not outweigh the strong evidence of obviousness
presented by Petitioner and discussed in this Decision.
See In re Cyclobenzaprine Hydrochloride ExtendedRelease Capsule Patent Litigation, 676 F.3d 1063,
1079 (Fed. Cir. 2012).
Fourth, Patent Owner argues that Petitioner
does not show sufficiently “that Hunter had the
‘problem’ that the complex Bulan circuit allegedly
solves.” PO Resp. 29. More specifically, Patent Owner
contends that the central piece of network equipment
in Hunter does not need to be able to determine

App.251a
whether an overcurrent condition is due to a normal
power up event or an operational fault. Id. Further,
according to Patent Owner, Hunter teaches using a
simpler thermistor or polyfuse (id. at 29-30 (citing
Ex. 1003, 40:19-20)), and a person of ordinary skill in
the art would have been able to select the correct
thermistor for a given circuit in order to prevent the
thermistor from blocking the necessary start up
current (PO Resp. 30-31 (citing Ex. 2038 ¶¶ 84-85)).
Patent Owner’s argument is not persuasive.
Hunter itself does not have to identify the problem
that would have motivated a person of ordinary skill
in the art to combine the cited teachings of Hunter
and Bulan. See KSR, 550 U.S. at 417. Rather, “if a
technique has been used to improve one device, and a
person of ordinary skill in the art would recognize
that it would improve similar devices in the same
way, using the technique is obvious unless its actual
application is beyond his or her skill.” Id. As discussed above, Bulan explains that a typical current
protection circuit with just a single threshold value,
such as the one taught by Hunter, cannot distinguish
between a normal power up event for a DC-to-DC
converter and an operational fault. Pet. 10; Ex. 1002
¶¶ 67-68; Ex. 1004, 1:65-2:8; Tr. 13:3-15. Because the
Ethernet terminal equipment in Hunter includes a
DC-to-DC converter, the current protection circuit in
Hunter would have suffered from the same problem
described in Bulan. Pet. 12; Ex. 1002 ¶ 70; Ex. 1003,
39:5-8. As a result, even if Hunter does not require
the more advanced current protection circuit taught
by Bulan, a person of ordinary skill in the art would
have recognized it as an improvement. Pet. 11-12; Ex.
1002 ¶¶ 70-71. Further, even if Bulan’s current pro-

App.252a
tection circuit was more complex than Hunter’s simple
thermistor or polyfuse, that alone does not negate the
identified reason for combining the teachings of Hunter
and Bulan. See Winner Int’l Royalty Corp. v. Wang,
202 F.3d 1340, 1349 n.8 (Fed. Cir. 2000) (“The fact
that the motivating benefit comes at the expense of
another benefit, however, should not nullify its use
as a basis to modify the disclosure of one reference
with the teachings of another.”).
13. Summary
For the reasons discussed above, we determine
that Petitioner has shown by a preponderance of the
evidence that claims 1, 2, 7, 26, 29, 38, 39, 40, 47, 55,
and 69 would have been obvious over Hunter and
Bulan.
D. Obviousness of Claims 1, 2, 7, 26, 29, 38, 39,
40, 47, 55, and 69 Over Bloch, IEEE 802.3-1993,
and IEEE 802.3-1995, and Over Bloch,
Huizinga, IEEE 802.3-1993, and IEEE 802.31995
Petitioner argues that claims 1, 2, 7, 26, 29, 38,
39, 40, 47, 55, and 69 would have been obvious over
Bloch, Huizinga, IEEE 802.3-1993, and IEEE 802.31995. Pet. 6. In the Decision on Institution, we
explained that Petitioner demonstrated a reasonable
likelihood of prevailing in showing that claims 1, 2, 7,
26, 29, 38, 39, 40, 47, 55, and 69 would have been
obvious over Bloch, IEEE 802.3-1993, and IEEE
802.3-1995, even without Huizinga. Dec. on Inst. 1314. Therefore, we instituted an inter partes review on
the grounds that claims 1, 2, 7, 26, 29, 38, 39, 40, 47,
55, and 69 would have been obvious over Bloch,

App.253a
IEEE 802.3-1993, and IEEE 802.3-1995, and over
Bloch, Huizinga, IEEE 802.3-1993, and IEEE 802.31995. Id. at 17-18.
We have considered the parties’ arguments and
supporting evidence, and we determine that Petitioner has shown by a preponderance of the evidence
that claims 1, 2, 7, 26, 29, 38, 39, 40, 47, 55, and 69
would have been obvious over Bloch, IEEE 802.31993, and IEEE 802.3-1995, and over Bloch, Huizinga,
IEEE 802.3-1993, and IEEE 802.3-1995.
1. Overview of Bloch, Huizinga, IEEE
802.3-1993, and IEEE 802.3-1995
Bloch describes a system that comprises a control
unit and a terminal connected by two communication
channels with each communication channel having
two conductors. Ex. 1005, Abstract. According to
Bloch, “[p]ower feed and bi-directional signaling are
accomplished simultaneously over the same four conductors used for the two communication channels
without interference.” Id. Although Bloch describes
this phantom power circuit in the context of a key
telephone system, Bloch explains that it “can find
application in many different control unit/terminal
applications.” Id. at 4:49-52.
Bloch explains that the control unit detects DC
current pulses applied to the conductors when the
terminal switches a resistor into and out of the path.
Id. at 5:44-55. The DC current pulses detected by the
control unit provide information regarding the status
of different elements of the terminal. Id. at 5:56-6:2.
In response to the detected DC current pulses, the
control unit applies voltage pulses to the conductors

App.254a
to control indicators in the terminal. Id. at 10:34-40,
11:1-5.
Huizinga also describes a key telephone system.
Ex. 1009, 1:6-9. Huizinga explains that, when a user
presses a button to select a telephone line, the
terminal sends status information to the control unit.
Id. at 5:29-39. In response, the control unit sends
data to the terminal causing a lamp associated with
the selected telephone line to light up. Id.
IEEE 802.3-1993 and IEEE 802.3-1995 describe
a 10Base-T Ethernet network. Ex. 1006, 243; Ex.
1007, 23. In particular, IEEE 802.3-1993 and IEEE
802.3-1995 describe central network equipment, such
as a 10Base-T repeater, and terminal equipment. Ex.
1006, 243, 267; Ex. 1007, 27; Ex. 1008, 303-304.
IEEE 802.3-1993 and IEEE 802.3-1995 further describe
an Ethernet connector comprising one pair of contacts
(TD+ and TD-) used to transmit 10Base-T Ethernet
communication signals and a second pair of contacts
(RD+ and RD-) used to receive 10Base-T Ethernet
communication signals. Ex. 1006, 266-267; Ex. 1007,
147-148.
2. Claim 1
Claim 1 recites “[a] central piece of network
equipment.” Ex. 1001, 17:13. IEEE 802.3-1993 and
IEEE 802.3-1995 teach a central piece of Base-T
Ethernet equipment. Pet. 54-55; Ex. 1006, 243, 267;
Ex. 1007, 27; Ex. 1008, 303-304. Patent Owner does
not dispute that the combination of Bloch, IEEE
802.3-1993, and IEEE 802.3-1995 teaches the above
limitation of claim 1.

App.255a
Claim 1 recites “at least one Ethernet connector
comprising first and second pairs of contacts used to
carry BaseT Ethernet communication signals.” Ex.
1001, 17:14-16. IEEE 802.3-1993 and IEEE 802.31995 teach an Ethernet connector comprising one
pair of contacts (TD+ and TD-) used to transmit
10Base-T Ethernet communication signals and a
second pair of contacts (RD+ and RD-) used to receive
10Base-T Ethernet communication signals. Pet. 5556; Ex. 1006, 266-267; Ex. 1007, 147-148. Patent Owner
does not dispute that the combination of Bloch, IEEE
802.3-1993, and IEEE 802.3-1995 teaches the above
limitation of claim 1.
Claim 1 recites “the central piece of network
equipment to detect different magnitudes of DC
current flow via at least one of the contacts of the
first and second pairs of contacts.” Ex. 1001, 17:1719. Bloch teaches a control unit that detects DC
current pulses applied to conductors by a terminal
that switches a resistor into and out of the path. Pet.
56-57; Ex. 1005, 5:44-6:2, 9:6-15. By combining the
circuit of Bloch with the central piece of network
equipment of IEEE 802.3-1993 and IEEE 802.3-1995,
as Petitioner proposes (see infra Section II.D.12), the
control unit of Bloch detects the aforementioned DC
current pulses via at least one of the contacts of the
first and second pairs of the 10Base-T Ethernet
connector of IEEE 802.3-1993 and IEEE 802.3-1995.
Pet. 51-52; Ex. 1002 ¶¶ 144-146. Patent Owner does
not dispute that the combination of Bloch, IEEE
802.3-1993, and IEEE 802.3-1995 teaches the above
limitation of claim 1.
Claim 1 recites “the central piece of network
equipment . . . to control application of at least one

App.256a
electrical condition to at least one of the contacts of
the first and second pairs of contacts in response to
at least one of the magnitudes of the DC current
flow.” Ex. 1001, 17:17-23. Bloch teaches that, in
response to the detected DC current pulses, the
control unit applies voltage pulses to the conductors
to control indicators in the terminal. Pet. 57-58; Ex.
1005, 10:34-55, 10:66-11:10. By combining the circuit
of Bloch with the central piece of network equipment
of IEEE 802.3-1993 and IEEE 802.3-1995, as Petitioner proposes (see infra Section II.D.12), the control
unit of Bloch applies the aforementioned voltage
pulses to at least one of the contacts of the first and
second pairs of the 10Base-T Ethernet connector of
IEEE 802.3-1993 and IEEE 802.3-1995. Pet. 51-52;
Ex. 1002 ¶¶ 144-146. Patent Owner does not dispute
that the combination of Bloch, IEEE 802.3-1993, and
IEEE 802.3-1995 teaches the above limitation of
claim 1.13
3. Claim 2
Claim 2 depends from claim 1, and recites
“wherein the different magnitudes of DC current flow
are part of a detection protocol.” Ex. 1001, 17:24-26.
Bloch teaches that the DC current pulses detected by
the control unit provide information regarding the
status of different elements of the terminal. Pet. 5960; Ex. 1005, 5:62-6:2, 10:3-12, 10:34-40. 11:37-42.
13 Although not necessary to our ultimate determination, we
note that Huizinga teaches that the indicators in the terminal
can be lamps that illuminate for different telephone lines. Pet.
59; Ex. 1009, 4:26-30, 5:29-39. Patent Owner does not dispute
that the combination of Bloch, Huizinga, IEEE 802.3-1993, and
IEEE 802.3-1995 teaches the limitations of claim 1.

App.257a
Patent Owner does not dispute that the combination
of Bloch, IEEE 802.3-1993, and IEEE 802.3-1995
teaches the above limitation of claim 2.
4. Claim 7
Claim 7 depends from claim 1, and recites
“wherein the central piece of network equipment to
provide at least one DC current via at least one of the
contacts of the first and second pairs of contacts and
to detect distinguishing information within the DC
current via the at least one of the contacts of the first
and second pairs of contacts.” Ex. 1001, 17:45-50.
Bloch teaches that the control unit supplies DC
current to the terminal over the two pairs of conductors. Pet. 60; Ex. 1005, 4:14-18, 6:2-10, Fig. 1. Bloch
also teaches that the control unit detects DC current
pulses that provide distinguishing information regarding the status of different elements of the terminal.
Pet. 60; Ex. 1005, 5:61-6:2. Patent Owner does not
dispute that the combination of Bloch, IEEE 802.31993, and IEEE 802.3-1995 teaches the above limitation of claim 7.14
5. Claims 26 and 29
Claim 26 depends from claim 1, and recites
“wherein the central piece of network equipment to
distinguish one end device from at least one other
14 Although not necessary to our ultimate determination, we
note that Huizinga teaches that the status information from the
terminal is used by the control unit to determine which telephone
station is using a particular telephone line. Pet. 61; Ex. 1009,
5:29-39. Patent Owner does not dispute that the combination of
Bloch, Huizinga, IEEE 802.3-1993, and IEEE 802.3-1995 teaches
the above limitation of claim 7.

App.258a
end device based on at least one of the magnitudes of
the DC current flow.” Ex. 1001, 18:66-19:2. Claim 29
depends from claim 1, and recites a similar limitation. Id. at 19:9-12. Bloch teaches that the control unit
detects DC current pulses that provide distinguishing
information regarding the status of different elements
of the terminal. Pet. 60-61; Ex. 1005, 5:61-6:2. Patent
Owner does not dispute that the combination of
Bloch, IEEE 802.3-1993, and IEEE 802.3-1995 teaches
the above limitation of claims 26 and 29.
6. Claim 38
Claim 38 depends from claim 1, and recites
“wherein the central piece of network equipment
comprises at least one DC supply.” Ex. 1001, 19:4244. Bloch teaches that the control unit includes a DC
supply. Pet. 62; Ex. 1005, 4:14-18, 6:2-10, Fig. 1.
Patent Owner does not dispute that the combination
of Bloch, IEEE 802.3-1993, and IEEE 802.3-1995
teaches the above limitation of claim 38.
7. Claim 39
Claim 39 depends from claim 38, and recites
“wherein the at least one DC supply to provide at
least one DC power signal.” Ex. 1001, 19:45-47. Bloch
teaches that the DC supply provides a DC power
signal. Pet. 62; Ex. 1005, 4:14-18, 6:2-10, Fig. 1. Patent
Owner does not dispute that the combination of Bloch,
IEEE 802.3-1993, and IEEE 802.3-1995 teaches the
above limitation of claim 39.
8. Claim 40
Claim 40 depends from claim 39, and recites
“wherein the central piece of network equipment to

App.259a
control the application of the at least one DC power
signal.” Ex. 1001, 19:48-50. Bloch teaches that the
control unit controls the application of the DC power
signal to the terminal. Pet. 62; Ex. 1005, 4:14-18, 6:210, Fig. 1. Patent Owner does not dispute that the
combination of Bloch, IEEE 802.3-1993, and IEEE
802.3-1995 teaches the above limitation of claim 40.
9. Claim 47
Claim 47 depends from claim 1, and recites
“wherein the at least one electrical condition comprises at least one voltage condition.” Ex. 1001, 20:79. Bloch teaches that the control unit applies voltage
pulses to the conductors to control indicators in the
terminal. Pet. 62-63; Ex. 1005, 10:34-55, 10:66-11:10.
Patent Owner does not dispute that the combination
of Bloch, IEEE 802.3-1993, and IEEE 802.3-1995
teaches the above limitation of claim 47.15
10. Claim 55
Claim 55 depends from claim 1, and recites
“wherein the different magnitudes of DC current flow
comprise a first magnitude followed by a second
magnitude.” Ex. 1001, 20:31-33. Bloch teaches that
the DC current pulses detected by the control unit
can be a zero (i.e., low) magnitude followed by a one
(i.e., high) magnitude. Pet. 63-64; Ex. 1002 ¶¶ 170171; Ex. 1005, Fig. 7B. Patent Owner does not
15 Although not necessary to our ultimate determination, we
note that Huizinga teaches that the indicators in the terminal
can be lamps that illuminate for different telephone lines. Pet.
62-63; Ex. 1009, 4:26-30, 5:29-39. Patent Owner does not dispute
that the combination of Bloch, Huizinga, IEEE 802.3-1993, and
IEEE 802.3-1995 teaches the above limitation of claim 47.

App.260a
dispute that the combination of Bloch, IEEE 802.31993, and IEEE 802.3-1995 teaches the above limitation
of claim 55.
11. Claim 69
Claim 69 depends from claim 1, and recites
“wherein the at least one magnitude of DC current
flow is used by the central piece of network equipment to control application of at least one DC power
signal.” Ex. 1001, 21:15-18. Bloch teaches that, in
response to the DC current pulses applied by the
terminal, the control unit controls the application of
the DC power signal to the conductors to control
indicators in the terminal. Pet. 64; Ex. 1005, 6:62-7:2,
10:34-55. Patent Owner does not dispute that the
combination of Bloch, IEEE 802.3-1993, and IEEE
802.3-1995 teaches the above limitation of claim
69.16
12. Reasons for Combining Bloch, Huizinga,
IEEE 802.3-1993, and IEEE 802.3-1995
Petitioner argues that a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Bloch, IEEE 802.3-1993, and IEEE
802.3-1995. Pet. 53-54. We agree with and adopt
Petitioner’s reasoning. Bloch describes a phantom
power circuit in the context of a key telephone
system, but explains that it “can find application in
16 Although not necessary to our ultimate determination, we
note that Huizinga teaches that the indicators in the terminal
can be lamps that illuminate for different telephone lines. Pet.
64; Ex. 1009, 4:26-30, 5:29-39. Patent Owner does not dispute
that the combination of Bloch, Huizinga, IEEE 802.3-1993, and
IEEE 802.3-1995 teaches the above limitation of claim 69.

App.261a
many different control unit/terminal applications.”
Id. at 43; Ex. 1005, 4:49-52. Specifically, a person of
ordinary skill in the art would have combined the
circuit of Bloch with the 10Base-T Ethernet network
of IEEE 802.3-1993 and IEEE 802.3-1995 to achieve
the “benefit of supplying power over the same wires
used for the Ethernet communication channel.” Pet.
53; Ex. 1002 ¶ 148. This combination would have
“eliminate[d] the need to provide a local power supply
or separate conductors and connectors for powering
the DTE device,” and would have allowed devices to
“communicate and provide status and control information even when they are not operating normally and
the communication channel is not in use.” Pet. 53-54;
Ex. 1002 ¶ 148.
Patent Owner responds that a person of ordinary skill in the art would not have had a reason to
combine the cited teachings of Bloch, IEEE 802.31993, and IEEE 802.3-1995. PO Resp. 13. Patent
Owner relies on some of the same arguments discussed above with respect to the combination of
Hunter and Bulan (id. at 13-26), but also presents
some additional arguments that are specific to the
combination of Bloch, IEEE 802.3-1993, and IEEE
802.3-1995 (id. at 26-28). We address each of Patent
Owner’s specific contentions in detail below.
First, Patent Owner argues that providing phantom power over pre-existing Ethernet wiring and
cables would have damaged Bob Smith terminations
and common mode chokes. Id. at 13-16. Patent
Owner’s argument is not persuasive. As discussed
above, Patent Owner’s premise that the invention of
the ’838 patent is limited to a pre-existing Ethernet
network is not supported by the specification or

App.262a
claims of the ’838 patent. See supra Section II.C.12.
In addition, we note that Patent Owner does not
direct us to specific evidence indicating that the
teachings of Bloch, IEEE 802.3-1993, or IEEE 802.31995 are limited to a pre-existing Ethernet network.
See PO Resp. 13-16. And Patent Owner acknowledged
at the oral hearing that applying phantom power to
“new” Ethernet terminal equipment would not have
caused any problems with Bob Smith terminations or
common mode chokes. Tr. 135:1-12. Thus, any alleged
issues with Bob Smith terminations or common node
chokes in a pre-existing Ethernet network are not
pertinent to the question of whether a person of
ordinary skill in the art would have had a reason to
combine the cited teachings of Bloch, IEEE 802.31993, and IEEE 802.3-1995.
Moreover, even if we accepted Patent Owner’s
premise, Patent Owner’s argument still is not persuasive because not all pre-existing Ethernet networks
included Bob Smith terminations or common mode
chokes. See supra Section II.C.12. And, even for
those pre-existing Ethernet networks that did include
Bob Smith terminations or common mode chokes, it
would have been within the knowledge and capabilities
of a person of ordinary skill in the art to implement
phantom power without damaging the Bob Smith
terminations or common mode chokes. See id.
Second, Patent Owner argues that a person of
ordinary skill in the art would have provided operating power to Ethernet terminal equipment over
the unused lines in an Ethernet connection to avoid
interference with the data signals. PO Resp. 16-20.
In particular, Patent Owner points out that the
Ethernet connector taught by IEEE 802.3-1993 and

App.263a
IEEE 802.3-1995 includes two unused pairs of
conductors. Id. at 18-19 (citing Ex. 1006, 266-267; Ex.
1007, 147).
Patent Owner’s argument is not persuasive.
Bloch teaches providing operating power to terminal
equipment over the same lines used to transmit data.
Pet. 43-44; Ex. 1005, 2:54-61, 5:20-30, Fig. 1. Although
Bloch relates to a key telephone system, Bloch explains
that its phantom power circuit “can find application
in many different control unit/terminal applications.”
Ex. 1005, 4:49-52. Further, a person of ordinary skill
in the art would have possessed the background
knowledge that phantom power would work in an
Ethernet network. See Randall Mfg. v. Rea, 733 F.3d
1355, 1362-63 (Fed. Cir. 2013). For example, as
discussed above, Hunter teaches providing phantom
power to Ethernet terminal equipment over a 10BaseT Ethernet bus. See supra Section II.C.2. In addition,
at least two patents identified on the face of the ’838
patent, namely U.S. Patent No. 5,994,998 (“Fisher
’998”) and U.S. Patent No. 6,140,911 (“Fisher ’911”)
(collectively, “the Fisher patents”), teach providing
phantom power to Ethernet terminal equipment.17
Pet. Reply 7; Ex. 1025, 2:21-41, 3:49-67, 6:7-10; Ex.
1026, 2:32-52, 3:59-4:10, 6:17-20. Thus, although
alternative ways of providing operating power to
Ethernet terminal equipment may have existed (PO
17 Patent Owner argued at the oral hearing that the Fisher
patents do not teach certain limitations of the challenged
claims. Tr. 124:7-126:8. However, we do not rely on the Fisher
patents to teach any limitations of the challenged claims. We
rely on the Fisher patents as evidence that a person of ordinary
skill in the art would have known that phantom power would
work in an Ethernet network.

App.264a
Resp. 19-20), that does not detract from the phantom
power technique taught by Bloch (as well as Hunter
and the Fisher patents). See Mouttet, 686 F.3d at
1334; Fulton, 391 F.3d at 1200.
Third, Patent Owner argues that members of an
IEEE committee were skeptical that phantom power
would work in an Ethernet network. PO Resp. 21-25.
Patent Owner’s argument is not persuasive. As discussed above, the evidence cited by Patent Owner
relates to whether the IEEE committee members
believed that phantom power should be adopted as
an Ethernet standard, not whether phantom power
would work in an Ethernet network. See supra
Section II.C.12. Further, as also discussed above, at
least some committee members were in favor of using
phantom power as an Ethernet standard. See id. In
any event, the fact that an alternative way of providing operating power to Ethernet terminal equipment existed and was considered for an IEEE standard
does not detract from the phantom power technique
taught by Bloch. See Mouttet, 686 F.3d at 1334;
Fulton, 391 F.3d at 1200. Moreover, we note that
even if Patent Owner’s evidence indicates some amount
of skepticism, we determine that it does not outweigh
the strong evidence of obviousness presented by
Petitioner and discussed in this Decision. See In re
Cyclobenzaprine, 676 F.3d at 1079.
Fourth, Patent Owner argues that Petitioner’s
proposed combination of Bloch, IEEE 802.3-1993,
and IEEE 802.3-1995 would have degraded the Ethernet data signal. PO Resp. 26-28. Specifically, Patent
Owner argues that switching a resistor into and out
of the phantom power circuit, as taught in Bloch,
would have created noise and degraded the Ethernet

App.265a
data signal. Id. at 26-27 (citing Ex. 2038 ¶ 86; Ex.
2039, 172:20-173:3). In addition, Patent Owner contends
that applying operating power to just one side of the
transformers in Bloch, as Petitioner proposes in Figure
3 of the Petition, would have saturated the coils and
degraded the Ethernet data signal. PO Resp. 27
(citing Ex. 2038 ¶ 87; Ex. 2039, 168:6-14). Patent
Owner also notes that, even if operating power was
applied to both sides of the transformers in Bloch, “a
saturation problem would still exist because the
center taps are never perfectly centered and there
can be imbalances in the wires.” PO Resp. 27 (citing
Ex. 2038 ¶ 88; Ex. 2039, 169:14-15).
Patent Owner’s argument that switching a resistor
into and out of the phantom power circuit would have
degraded the Ethernet data signal is not persuasive.
Patent Owner’s declarant, Dr. Madisetti, states that
“[s]witching the resistor would create noise that
would degrade the Ethernet data propagation and
reduce bandwidth,” but does not otherwise explain or
provide support for that statement. Ex. 2038 ¶ 86. In
contrast, Petitioner’s declarant, Mr. Crayford, explains
that the resistor in Bloch would have produced low
frequency signals, which would have been unlikely to
interfere with the higher frequency data signals of an
Ethernet network. Pet. Reply 11; Ex. 1046 ¶¶ 49-51.
Mr. Crayford also explains that even if the resistor in
Bloch would have caused some interference with the
Ethernet data signals, it would have been within the
knowledge and capabilities of a person of ordinary
skill in the art to separate the low frequency resistor
signals from the high frequency Ethernet data signals,
such as by using a filter. Pet. Reply 11; Ex. 1046
¶ 49; Ex. 2039, 172:20-173:3.

App.266a
Patent Owner’s argument that applying operating power to the transformers in Bloch would saturate
the coils also is not persuasive. Patent Owner’s
argument is premised on annotations that Petitioner
added to Figure 1 of Bloch in the Petition. PO Resp.
27 (citing Pet. 44). Specifically, Petitioner added a
red line to Figure 1 of Bloch to indicate the flow of
DC current through the system, but, as Patent Owner
points out, the red line only shows current flowing
through one side of the transformer. Pet. 44; PO
Resp. 27. Petitioner’s declarant, Mr. Crayford, clarified
during his deposition that the annotations to Figure
1 were intended to illustrate the direction of current
flow, and that, even if not shown expressly by the
annotations, the current clearly flows through both
sides of the transformer. Ex. 2039, 167:14-169:22.
Specifically, Mr. Crayford stated that “I did not
choose to highlight both of the pairs of the twisted
pair which is the current path, but clearly they’re
parallel connectors connected to the same transformers
with the power and return path on the center tap,” so
“they probably should be highlighted.” Id. at 167:23168:4. Thus, contrary to Patent Owner’s argument,
Petitioner does not propose applying operating power
to just one side of the transformers in Bloch.
Further, we are not persuaded by Patent Owner’s
argument that, even if operating power was applied
to both sides of the transformer in Bloch, there would
still be a saturation problem. Bloch teaches that the
phantom power circuit “is connected to the two center
taps of the transformers,” thereby indicating that
applying operating power to the center taps of the
transfomers would work. Ex. 1005, 3:9-23. Further,
consistent with the teaching of Bloch, Mr. Crayford

App.267a
explained that the objective of balancing the coils on
either side of the transformer is “very well known.”
Ex. 2039, 169:14-22.
In addition to combining the cited teachings of
Bloch with IEEE 802.3-1993, and IEEE 802.3-1995,
Petitioner also argues that a person of ordinary skill
in the art would have had a reason to combine the
cited teachings of Bloch and Huizinga. Pet. 52-53.
Although the teachings of Huizinga are not necessary
to our ultimate determination in this Decision, we
nonetheless agree with and adopt Petitioner’s reasoning. Specifically, Bloch teaches a control unit that
detects the status of different elements of a terminal
and controls indicators in the terminal. Pet. 52-53;
Ex. 1005, 5:61-6:2, 10:66-11:10. Huizinga teaches
that the indicators in Bloch can be lamps that illuminate for different telephone lines. Pet. 52-53; Ex.
1009, 4:19-30, 5:29-39. These interrelated teachings of
Bloch and Huizinga would have provided a person of
ordinary skill in the art with a reason to combine
Bloch and Huizinga. See KSR, 550 U.S. at 418
(explaining that “interrelated teachings” of multiple
prior art references may provide a reason to combine
known elements). Patent Owner does not dispute
that a person of ordinary skill in the art would have
had a reason to combine the cited teachings of Bloch
and Huizinga.
13. Summary
For the reasons discussed above, we determine
that Petitioner has shown by a preponderance of the
evidence that claims 1, 2, 7, 26, 29, 38, 39, 40, 47, 55,
and 69 would have been obvious over Bloch, IEEE

App.268a
802.3-1993, and IEEE 802.3-1995, and over Bloch,
Huizinga, IEEE 802.3-1993, and IEEE 802.3-1995.
E. Patent Owner’s Motion to Strike
Patent Owner filed a Motion to Strike Petitioner’s
Reply (Paper 47, “PO Mot. Str.”), to which Petitioner
filed an Opposition (Paper 54, “Pet. Opp. Str.”).18
Patent Owner argues that several portions of Petitioner’s Reply should be stricken because they are
beyond the scope of a proper reply.19 PO Mot. Str. 1.
Petitioner responds that the Reply is proper because
it responds to arguments raised by Patent Owner in
the Response. Pet. Opp. Str. 1. We have considered
the parties’ arguments, and, for the reasons discussed
below, Patent Owner’s Motion to Strike is denied. In
addition, to the extent that this Decision does not
rely on an argument or evidence that Patent Owner
contends is improper, Patent Owner’s Motion to Strike
is moot as to that particular argument or evidence.
1. IsoEthernet
Patent Owner argues that Petitioner presented
a new theory of unpatentability in the Reply based
on Hunter’s teaching of isoEthernet. PO Mot. Str. 2.
Specifically, Patent Owner contends that “[t]he Reply
newly asserts that ‘Hunter’s disclosure of isoEthernet
also teaches Ethernet’ and interjects new concepts:
18 We authorized Patent Owner to file a motion to strike and
Petitioner to file an opposition. Paper 42, 3.
19 Patent Owner also argues that Petitioner’s Reply should be
stricken in its entirety. PO Mot. Str. 1. Because we are not
persuaded that any specific portions of the Reply should be
stricken, we also are not persuaded that the entire Reply should
be stricken.

App.269a
‘[i]soEthernet . . . 10Base-T and ISDN modes’ and
‘isoEthernet interfaces.’” Id. (citing Pet. Reply 16:1214, 20:21-21:4, 23:12-20; Ex. 1046 ¶¶ 48, 67-69, 74,
80-81).
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Petitioner explains
in the Petition that Hunter preferably uses a 10BaseT Ethernet bus, but points out that Hunter is not
limited to a 10Base-T Ethernet bus because Hunter
also is compatible with 100Base-T, isoEthernet, and
ISDN. Pet. 26 (“compatible with ISDN standards”);
id. at 27 (“[T]he bus comprises a 10Base-T bus.”); id.
at 28 (“a bus applying other Ethernet standards,
such as 100Base-T”); id. at 28 (“the present invention
is also compatible with Ethernet®, Token Ring®,
ATM, and isoEthernet® standards.”). Petitioner also
argues in the Petition that “it would have been
obvious to a PHOSITA to implement the teachings of
Hunter with a bus applying other Ethernet standards.”
Id. at 28. Thus, Petitioner’s reliance on isoEthernet is
not a new theory of unpatentability raised for the
first time in the Reply. See Belden Inc. v. Berk-Tek
LLC, 805 F.3d 1064, 1080 (Fed. Cir. 2015).
Further, Patent Owner argues in the Response
that Hunter does not teach contacts used to carry
Base-T Ethernet communications signals. PO Resp.
41. In particular, Patent Owner contends that the
“isoEthernet® interfaces [in Hunter] were part of an
IEEE standard called 802.9a,” which indicates that
“isoEthernet used ISDN signals, not Ethernet signals,
to transmit data.” Id. (citing Ex. 1003, 17:15-18; Ex.
2038 ¶ 250). Petitioner responds in the Reply by
explaining why Patent Owner’s argument in the
Response is incorrect. Pet. Reply 16. Specifically, in

App.270a
the Reply, Petitioner identifies evidence indicating
that isoEthernet includes both an ISDN mode and a
10Base-T mode, and, as a result, is not limited to
carrying just ISDN signals. Id. (citing Ex. 1003,
23:21-24, Ex. 1010, 165; Ex. 1032, 377). Thus, Petitioner’s argument regarding isoEthernet in the Reply
properly responds to an argument raised by Patent
Owner in the Response. See 37 C.F.R. § 42.23(b);
Belden, 805 F.3d at 1078-79. Further, we rely on the
disputed portions of Petitioner’s Reply only to explain,
at least in part, why we are not persuaded by Patent
Owner’s argument in the Response. See supra Section
II.C.2; Belden, 805 F.3d at 1078-79.
We note that Patent Owner specifically objects
to Petitioner’s reliance on “a newly-cited IEEE
standard for 802.9,” which Petitioner submitted as
Exhibit 1032 with the Reply. PO Mot. Str. 2 (citing
Pet. Reply 16:12-14, 17:2-7, 23:18; Ex. 1032). Patent
Owner contends that Hunter only teaches “the trademarked version ‘isoEthernet®,’” and Petitioner does
not link the trademarked version of isoEthernet in
Hunter with the IEEE standard described in Exhibit
1032. PO Mot. Str. 2-3 (citing Pet. 27 n.8; Ex. 2055,
25:10-14, 31:9-21). Patent Owner also argues that
Hunter refers to “IEEE draft standard 802.9a,” but
Exhibit 1032 is not a draft and only describes IEEE
standard 802.9. PO Mot. Str. 3 (citing Ex. 1003, 16:7;
Ex. 1032).
For the reasons discussed above, Petitioner’s
argument in the Reply regarding isoEthernet is a
proper response to an argument raised by Patent Owner
in the Response, not a new theory of unpatentability.
Thus, we see no problem with Petitioner’s reliance on
Exhibit 1032 to support its argument regarding

App.271a
isoEthernet in the Reply. Nonetheless, we do not rely
on Exhibit 1032 in this Decision. Rather, as discussed above, we rely on Exhibit 1010 as showing
that isoEthernet includes a 10Base-T mode. See supra
Section II.C.2. Petitioner submitted Exhibit 1010
with the Petition (Pet. iv), and cites Exhibit 1010 in
the Reply (Pet. Reply 16). Also, like Hunter, Exhibit
1010 refers to the IEEE 802.9a standard for isoEthernet. Ex. 1003, 15:15-18; Ex. 1010, 160. Patent
Owner does not raise any specific objections to Exhibit
1010 in the Motion to Strike. See PO Mot. Str. 1-3.
Patent Owner also argues that “had the Petition
relied on isoEthernet (trademarked or otherwise)
and/or Ex. 1032 as a basis for Ground 1, [Patent Owner]
would have provided evidence with its Response that,
as late as 1999, the IEEE isoEthernet committee
prohibited combining phantom-power and Ethernet
data signals (‘10Base-T mode’) to ‘insure[] that 10BaseT services are unaffected.’”20 PO Mot. Str. 3 (citing
Ex. 2055, 38:23-39:18). Patent Owner also presented
this argument at the oral hearing and referred to it
20 The evidence that Patent Owner allegedly would have presented
to support this argument is a draft IEEE 802.9f standard dated
June 17, 1999. Tr. 83:2-18; Paper 44 ¶ 4; Ex. 2055, 35:15-39:18.
We do not see how a draft IEEE standard dated after Hunter
limits the express teachings of Hunter. Further, Patent Owner’s
attempt to rely on this draft IEEE 802.9f standard is inconsistent
with Patent Owner’s position that Petitioner cannot rely on
evidence relating to an isoEthernet standard other than the
IEEE 802.9a standard expressly mentioned in Hunter. Tr. 75:1677:19. As discussed above, the evidence relating to an
isoEthernet standard that we rely on in this Decision is Exhibit
1010, which refers to the IEEE 802.9a standard mentioned in
Hunter. See supra Section II.C.2; Ex. 1003, 15:15-18; Ex. 1010,
160 (“IEEE 802.9a standard—IsoEthernet”).

App.272a
as an offer of proof under Fed. R. Evid. 103(a)(2).
Tr. 83:2-18, 218:8-21. In connection with this offer of
proof, Patent Owner alleged that it would have
presented this evidence in a sur-reply, but was denied
the opportunity to do so by the Board. Id.
Fed. R. Evid. 103(a)(2) provides that “[a] party
may claim error in a ruling to . . . exclude evidence
only if the error affects a substantial right of the
party,” and the party “informs the court of its substance
by an offer of proof. . . . ” We did not, however, exclude
any evidence offered by Patent Owner or deny Patent
Owner the opportunity to file a sur-reply in this
proceeding. Patent Owner instead made a strategic
decision to seek a motion to strike instead of a surreply. Specifically, Patent Owner requested “leave to
file a motion to strike Petitioner’s Reply Briefs in IPR
Nos. 2016-01389, 2016-1391, 2016-1397, and 20161399 or, in the alternative, for leave to file a SurReply.” Ex. 3008, 1 (emphasis added). In other words,
Patent Owner identified a motion to strike as the
preferred method to respond to Petitioner’s Reply,
and identified a sur-reply as an alternative to the
motion to strike. Id. Because we granted Patent
Owner’s request for leave to file a motion to strike,
we did not grant the proposed alternative of a surreply. Paper 42, 2-3. Patent Owner did not at any
time prior to the oral hearing request a clarification
of our ruling or identify any error in our ruling.
Further, Patent Owner’s attempt at the oral hearing
to re-characterize its request as being for both a
motion to strike and a sur-reply (Tr. 222:11-223:17)
is contradicted by the express language Patent Owner
used in its request to the Board (Ex. 3008, 1).

App.273a
Moreover, the disputed portions of Petitioner’s
Reply that address isoEthernet are not necessary to
our ultimate determination in this proceeding. As
discussed above, Hunter’s teachings regarding 10Base-T
Ethernet alone satisfy the disputed limitations of the
challenged claims. See supra Section II.C.2. Therefore,
we determine that the challenged claims would have
been obvious over Hunter and Bulan, even without
relying on Hunter’s teachings regarding isoEthernet.
2. Bob Smith Terminations and Common
Mode Chokes
Patent Owner argues that Petitioner addresses
Bob Smith terminations and common mode chokes
for the first time in the Reply. PO Mot. Str. 4 (citing
Pet. Reply 3:1-5:17, 8:11-14; Exs. 1021-1024, 1029;
Ex. 1046 ¶¶ 12-21). Specifically, Patent Owner argues
that Petitioner knew that the invention of the ’838
patent is directed to equipment networked over preexisting wiring and cables (PO Mot. Str. 4 (citing Pet.
3)), and that pre-existing Ethernet networks included
Bob Smith terminations and common mode chokes
(PO Mot. Str. 4 (citing Ex. 2039, 45:10-21; Ex. 2055,
65:13-67:11)), but did not address them in the Petition.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of Bob Smith terminations and
common mode chokes in the Response (PO Resp. 1316), and Petitioner responds in the Reply with an
explanation and evidence showing why Patent Owner’s
argument in the Response is incorrect (Pet. Reply 35). Thus, the portions of Petitioner’s Reply that
address Bob Smith terminations and common mode
chokes are a proper response to an argument raised

App.274a
by Patent Owner in the Response, not a new theory
of unpatentability. See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80. Further, we rely on the disputed
portions of Petitioner’s Reply only to explain, at least
in part, why we are not persuaded by Patent Owner’s
argument in the Response. See supra Sections II.C.12,
II.D.12; Belden, 805 F.3d at 1078-79.
Moreover, the disputed portions of Petitioner’s
Reply that address Bob Smith terminations and common mode chokes are not necessary to our ultimate
determination in this proceeding. As discussed above,
the premise of Patent Owner’s argument regarding
Bob Smith terminations and common mode chokes—
that the invention of the ’838 patent is limited to
equipment networked over pre-existing wiring or
cables—is not supported by the specification or claims
of the ’838 patent. See supra Sections II.C.12, II.D.12.
Therefore, we determine that the challenged claims
would have been obvious over the asserted prior art
combinations, even without relying on the disputed
portions of Petitioner’s Reply.
3. Fisher and De Nicolo Patents
Patent Owner argues that Petitioner submitted
new exhibits with the Reply, specifically, the Fisher
and De Nicolo patents, to show that using phantom
power in an Ethernet network was known at the
time of the ’838 patent. PO Mot. Str. 5 (citing Pet.
Reply 5:18-8:17, 13:15-21; Exs. 1025-1028; Ex. 1046
¶¶ 27-35). Patent Owner acknowledges that Petitioner
presents the same position in the Petition, but contends that Petitioner cannot cite new evidence in the
Reply to support that position. PO Mot. Str. 5 (citing
Pet. 4-5).

App.275a
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Petitioner’s position that using phantom power in an Ethernet network
was known at the time of the ’838 patent is presented
in the Petition. Pet. 4-5. Patent Owner argues in the
Response that “operating Power-over-Ethernet (‘PoE’)
did not exist in 1997” (PO Resp. 8), and Petitioner
responds in the Reply by citing to the Fisher and De
Nicolo patents as evidence that Patent Owner’s argument in the Response is incorrect (Pet. Reply 7 (citing
Exs. 1025-1028)). Thus, the portions of Petitioner’s
Reply that cite to the Fisher and De Nicolo patents
are a proper response to an argument raised by
Patent Owner in the Response, not a new theory of
unpatentability. See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80. Further, we rely on the disputed
portions of Petitioner’s Reply only to explain, at least
in part, why we are not persuaded by Patent Owner’s
argument in the Response. See supra Sections II.C.12,
II.D.12; Belden, 805 F.3d at 1078-79.
We note that Patent Owner specifically objects
to Petitioner’s reliance on the De Nicolo patents
because Patent Owner alleges it could have demonstrated that the De Nicolo patents are not prior art to
the ’838 patent. PO Mot. Str. 5. We do not rely on the
De Nicolo patents in this Decision. Rather, as
discussed above, we rely on Hunter and the Fisher
patents as showing that using phantom power in an
Ethernet network was known at the time of the ’838
patent. See supra Sections II.C.12, II.D.12.
Moreover, the disputed portions of Petitioner’s
Reply that rely on the Fisher and De Nicolo patents
are not necessary to our ultimate determination in
this proceeding. As discussed above, the teachings of

App.276a
Hunter alone demonstrate that using phantom power
in an Ethernet network was known at the time of the
’838 patent. See supra Sections II.C.2, II.C.12, II.D.12.
Therefore, we determine that the challenged claims
would have been obvious over the asserted prior art
combinations, even without relying on the disputed
portions of Petitioner’s Reply.
4. Alleged Skepticism
Patent Owner argues that Petitioner addresses
the objective indicia of non-obviousness, including
skepticism of those skilled in the art, for the first
time in the Reply. PO Mot. Str. 6 (citing Pet. Reply
9:1-10:11; Exs. 1035-1042; Ex. 1046 ¶¶ 36-44). Specifically, Patent Owner contends that Petitioner was
“aware of the secondary considerations issues, but
failed to address them in the Petition.” PO Mot.
Str. 6.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of skepticism by those skilled in the
art in the Response (PO Resp. 21-26), and Petitioner
responds in the Reply with an explanation and
evidence showing why Patent Owner’s argument in
the Response is incorrect (Pet. Reply 9-10). Thus, the
portions of Petitioner’s Reply that address the alleged
skepticism of those skilled in the art are a proper
response to an argument raised by Patent Owner in
the Response, not a new theory of unpatentability.
See 37 C.F.R. § 42.23(b); Belden, 805 F.3d at 107880. Further, we rely on the disputed portions of
Petitioner’s Reply only to explain, at least in part,
why we are not persuaded by Patent Owner’s argument

App.277a
in the Response. See supra Sections II.C.12, II.D.12;
Belden, 805 F.3d at 1078-79.
Moreover, the disputed portions of Petitioner’s
Reply that address the alleged skepticism of those
skilled in the art are not necessary to our ultimate
determination in this proceeding. As discussed above,
even if we just consider the evidence submitted by
Patent Owner, it does not establish that those skilled
in the art were skeptical that phantom power would
work in an Ethernet network. See supra Sections
II.C.12, II.D.12. Therefore, we determine that the
challenged claims would have been obvious over the
asserted prior art combinations, even without relying
on the disputed portions of Petitioner’s Reply.
5. CAT-3 and CAT-5 Cabling
Patent Owner argues that Petitioner addresses
the number of conductors in CAT-3 and CAT-5
cabling for the first time in the Reply. PO Mot. Str. 7
(citing Pet. Reply 14:12-15:5; Ex. 1031; Ex. 1046 ¶ 61).
Specifically, Patent Owner contends that Petitioner
knew that CAT-3 cabling was used for 10Base-T
Ethernet and CAT-5 cabling was used for 100Base-T
Ethernet, and, thus, “could have included” argument
and evidence in the Petition regarding the number of
conductors in that cabling. PO Mot. Str. 7.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of the number of conductors in CAT-3
and CAT-5 cabling in the Response (PO Resp. 19-20),
and Petitioner responds in the Reply with an explanation and evidence showing why Patent Owner’s
argument in the Response is incorrect (Pet. Reply 1415). Thus, the portions of Petitioner’s Reply that

App.278a
address the number of conductors in CAT-3 and CAT5 cabling are a proper response to an argument
raised by Patent Owner in the Response, not a new
theory of unpatentability. See 37 C.F.R. § 42.23(b);
Belden, 805 F.3d at 1078-80.
Patent Owner also argues that, if Petitioner had
addressed the number of conductors in CAT-3 and
CAT-5 cabling in the Petition, Patent Owner “would
have included the cable specification for CAT-3/CAT5 wiring, confirming that such cables comprise four
wire pairs.” PO Mot. Str. 7. (citing Ex. 2055, 171:23176:13). Patent Owner also presented this argument
at the oral hearing and referred to it as an offer of
proof under Fed. R. Evid. 103(a)(2). Tr. 220:19-221:2.
As discussed above, Fed. R. Evid. 103(a)(2) provides
that “[a] party may claim error in a ruling to . . . exclude
evidence only if the error affects a substantial right
of the party,” and the party “informs the court of its
substance by an offer of proof. . . . ” We did not, however, exclude any evidence offered by Patent Owner
or deny Patent Owner the opportunity to file a surreply in this proceeding. See supra Section II.E.1.
Patent Owner instead made a strategic decision to
seek a motion to strike instead of a sur-reply. See id.
Moreover, the disputed portions of Petitioner’s
Reply that address the number of conductors in CAT3 and CAT-5 cabling are not necessary to our ultimate
determination in this proceeding. As discussed above,
the portions of Hunter cited in the Petition independently demonstrate that a 10Base-T Ethernet bus
may include only two twisted pair conductors, not
four. See supra Sections II.C.2, II.C.12, II.D.12.
Therefore, we determine that the challenged claims
would have been obvious over the asserted prior art

App.279a
combinations, even without relying on the disputed
portions of Petitioner’s Reply.
F. Petitioner’s Motion to Exclude
Petitioner filed a Motion to Exclude (Paper 46,
“Pet. Mot. Excl.”), to which Patent Owner filed an
Opposition (Paper 50, “PO Opp. Excl.”), and Petitioner filed a Reply (Paper 58, “Pet. Reply Excl.”). We
have considered the parties’ arguments, and, for the
reasons discussed below, Petitioner’s Motion to Exclude
is denied.21
1. Exhibit 2038
Exhibit 2038 is Dr. Madisetti’s Declaration.
Petitioner argues that Exhibit 2038 should be excluded under Fed. R. Evid. 401, 402, 403, 702, 703, as
irrelevant, prejudicial, and unreliable. Pet. Mot. Excl.
1-10. Specifically, Petitioner argues that Dr. Madisetti: 1) relies on an incorrect date of invention for
the challenged claims of the ’838 patent (id. at 2-4);
2) fails to provide support for his opinion that a
person of ordinary skill in the art would have provided operating power over the unused lines in an
Ethernet connection (id. at 5-6); 3) misunderstands
the isoEthernet standard (id. at 6-7); 4) fails to
provide support for his opinion that the resistor in
21 Patent Owner requested authorization to file Exhibits 20522054 with its Opposition to Petitioner’s Motion to Exclude.
Paper 60, 2. Patent Owner withdrew that request with respect
to Exhibits 2052 and 2053, because Patent Owner did not cite
those exhibits in its Opposition. Id.; Paper 59, 12:11-15:1. We
note that Exhibits 2052 and 2053 would not change our
ultimate determination because we deny Petitioner’s Motion to
Exclude even without considering Exhibits 2052 and 2053.

App.280a
Bloch would interfere with Ethernet data signals (id.
at 8); 5) provides inconsistent interpretations of what
constitutes terminal equipment (id. at 8-10); and 6)
fails to read the teachings of Hunter as a whole (id.
at 10). Petitioner’s arguments raise a question of the
weight that should be given to Dr. Madisetti’s testimony, not admissibility. Therefore, Petitioner’s Motion
to Exclude is denied with respect to Exhibit 2038.
2. Exhibits 2040-2046, 2048
Exhibits 2040-2046 and 2048 are documents
relating to meetings of an IEEE committee. Petitioner argues that Exhibits 2040-2046 and 2048
should be excluded under Fed. R. Evid. 401, 402, 403,
801, 802, 804, 901, as irrelevant, prejudicial, hearsay,
and lacking authentication. Pet. Mot. Excl. 11-12.
Petitioner’s arguments are not persuasive.
The proponent of an item of evidence must
produce evidence sufficient to support a finding that
the item is what the proponent claims it is. Fed. R.
Evid. 901. Here, Patent Owner submits Mr. Clyde
Camp’s testimony that “[t]he 802.3af Committee
maintained a record of its proceedings by posting
documents pertaining to its work, including meeting
minutes and presentations, on its public document
server at http://www.ieee802.org/3/af/public/ (“the
Website”),” and that Exhibits 2040-2046 are such
records. Ex. 2048 ¶¶ 4-11. Mr. Camp explains that
his statements in Exhibit 2048 are based on personal
knowledge. Id. ¶ 1. Petitioner, on the other hand,
does not provide any specific reason for us to believe
that Exhibits 2040-2046 are not what Petitioner and
Mr. Camp claim them to be. See Pet. Mot. Excl. 11-12.

App.281a
Hearsay is limited to a statement that a party
offers in evidence to prove the truth of the matter
asserted in the statement. Fed. R. Evid. 801. Patent
Owner offers, and we consider, Exhibits 2040-2046 as
evidence of the effect that the statements in Exhibits
2040-2046 would have had on a person of ordinary
skill in the art considering the prior art combinations
proposed by Petitioner in this case. See supra Sections
II.C.12, II.D.12. Thus, the statements in Exhibits
2040-2046 are not hearsay because they are not
offered as evidence of the truth of the matter asserted.
Petitioner’s arguments regarding the relevance of
Exhibits 2040-2046 and 2048 raise a question of
sufficiency of proof, not admissibility. Further, as
discussed above, we considered Exhibits 2040-2046
and 2048 in connection with Patent Owner’s arguments
in the Response, but we do not find Patent Owner’s
arguments that rely on Exhibits 2040-2046 and 2048
to be persuasive. See supra Sections II.C.12, II.D.12.
As a result, Petitioner does not suffer any prejudice
by our admission of Exhibits 2040-2046 and 2048.
Therefore, Petitioner’s Motion to Exclude is denied
with respect to Exhibits 2040-2046 and 2048.
3. Exhibit 2047
Exhibit 2047 is a document entitled “FYI on
‘What is the Internet?’” produced by the User Services
Working Group of the Internet Engineering Task
Force. Petitioner argues that Exhibit 2047 should be
excluded under Fed. R. Evid. 401, 402, 403, 801, 802,
805, 901, as irrelevant, hearsay, and lacking authentication. Pet. Mot. Excl. 12-13. Petitioner’s arguments
are not persuasive.

App.282a
The proponent of an item of evidence must
produce evidence sufficient to support a finding that
the item is what the proponent claims it is. Fed. R.
Evid. 901. Here, Patent Owner submits Dr. Madisetti’s
testimony that Exhibit 2047 is a document entitled
“FYI on ‘What is the Internet?’” produced by the
Internet Engineering Task Force, and available at
https://tools.ietf.org/html/rfc1462. Ex. 2038 ¶ 104.
Petitioner, on the other hand, does not provide any
specific reason for us to believe that Exhibit 2047 is
not what Petitioner and Dr. Madisetti claim it to be.
See Pet. Mot. Excl. 12-13.
Hearsay is limited to a statement that a party
offers in evidence to prove the truth of the matter
asserted in the statement. Fed. R. Evid. 801. Patent
Owner offers Exhibit 2047 as evidence of the fact
that the term “protocol” had been defined a certain
way by the Internet Engineering Task Force, not
necessarily for the truth of the definition asserted.
PO Resp. 12-13. Thus, at least certain statements in
Exhibit 2047 are not hearsay.
Petitioner’s arguments regarding the relevance
of Exhibit 2047 raise a question of sufficiency of
proof, not admissibility. Further, as discussed above,
we considered Exhibit 2047 in connection with Patent
Owner’s proposed construction of the term “protocol,”
but we do not find Patent Owner’s arguments that
rely on Exhibit 2047 to be persuasive. See supra
Section II.B.2. As a result, Petitioner does not suffer
any prejudice by our admission of Exhibit 2047.
Therefore, Petitioner’s Motion to Exclude is denied
with respect to Exhibit 2047.

App.283a
4. Exhibits 2049, 2050, 2054
Petitioner argues that Exhibits 2049, 2050, and
2054 should be excluded under Fed. R. Evid. 401,
402, 403, as irrelevant and prejudicial. Pet. Mot. Excl.
14-15. Petitioner’s arguments regarding the relevance
of Exhibits 2049, 2050, and 2054 raise a question of
sufficiency of proof, not admissibility. Further, we do
not discern that Petitioner suffers any prejudice by
our admission of Exhibits 2049, 2050, and 2054.
Therefore, Petitioner’s Motion to Exclude is denied
with respect to Exhibits 2049, 2050, and 2054.
G. Patent Owner’s Motion to Exclude
Patent Owner filed a Motion to Exclude (Paper
45, “PO Mot. Excl.”), to which Petitioner filed an
Opposition (Paper 52, “Pet. Opp. Excl.”), and Patent
Owner filed a Reply (Paper 57, “PO Reply Excl.”). We
have considered the parties’ arguments, and, for the
reasons discussed below, Patent Owner’s Motion to
Exclude is denied-in-part and dismissed-in-part.
1. Exhibit 1020
Exhibits 1020 is the transcript of the deposition
of Patent Owner’s declarant, Dr. Madisetti. Other
than pointing out that Exhibit 1020 was filed with
Petitioner’s Reply, Patent Owner does not provide
any specific reason why Exhibit 1020 should be
excluded. See PO Mot. Excl. 1-9. Therefore, Patent
Owner’s Motion to Exclude is denied with respect to
Exhibit 1020.
2. Exhibits 1021-1024 and 1029
Exhibits 1021-1024 are product datasheets, catalogs, and specifications, and Exhibit 1029 is U.S.

App.284a
Patent No. 5,321,372. Patent Owner argues that
Exhibits 1021-1024 and 1029 should be excluded as
improper new evidence for the same reasons set forth
in the Motion to Strike. PO Mot. Excl. 4-5; PO Mot.
Str. 3-5. Patent Owner’s arguments are not persuasive for the same reasons discussed above with respect
to the Motion to Strike. See supra Section II.E.2.
Patent Owner also argues that Exhibits 10211024 and 1029 should be excluded as impermissible
hearsay. PO Mot. Excl. 11. We rely on Exhibits 10211024 and 1029 in this Decision only to the extent
they provide a basis for certain portions of Mr.
Crayford’s declaration that are cited in this Decision.
See supra Sections II.C.12, II.D.12 (citing Ex. 1046
¶¶ 13, 18-26). Patent Owner does not dispute that
Exhibits 1021-1024 and 1029 present the kinds of
facts and data that Mr. Crayford would reasonably
rely upon in forming an opinion. See PO Mot. Excl.
11; PO Reply Excl. 2-3. As a result, Exhibits 10211024 and 1029 do not need to be independently
admissible. See Fed. R. Evid. 703; Power Integrations,
Inc. v. Fairchild Semiconductor Int’l, Inc., 711 F.3d
1348, 1373 (Fed. Cir. 2013). Therefore, Patent Owner’s
Motion to Exclude is denied with respect to Exhibits
1021-1024 and 1029.
3. Exhibits 1025 and 1026
Exhibits 1025 and 1026 are the Fisher patents.
Patent Owner argues that Exhibits 1025 and 1026
should be excluded as improper new evidence for the
same reasons set forth in the Motion to Strike. PO
Mot. Excl. 4; PO Mot. Str. 5-6. Patent Owner’s arguments are not persuasive for the same reasons

App.285a
discussed above with respect to the Motion to Strike.
See supra Section II.E.3.
Patent Owner also argues that Exhibits 1025
and 1026 should be excluded as impermissible hearsay.
PO Mot. Excl. 10. Hearsay is limited to a statement
that a party offers in evidence to prove the truth of
the matter asserted in the statement. Fed. R. Evid.
801. Petitioner offers, and we rely on, the statements
in Exhibits 1025 and 1026 as evidence of the effect
those statements would have had on a person of
ordinary skill in the art, not for the truth of the
matter asserted. See supra Section II.D.12. (citing
Pet. Reply 7; Ex. 1025, 2:21-41, 3:49-67, 6:7-10; Ex.
1026, 2:32-52, 3:59-4:10, 6:17-20). As a result, Exhibits
1025 and 1026 are not hearsay. However, even if the
statements in Exhibits 1025 and 1026 are hearsay,
Exhibits 1025 and 1026 are admissible at least under
Fed. R. Evid. 803(8). Specifically, Exhibits 1025 and
1026 are records of the activities of the U.S. Patent
and Trademark Office, and Patent Owner has not
shown that the source of information or circumstances
lack trustworthiness. See PO Mot. Excl. 11-12; PO
Reply Excl. 3; Fed. R. Evid. 803(8); Fresenius Med.
Care Holdings, Inc. v. Baxter Int’l, Inc., No. C 031431, 2006 WL 1330003, at *2-4 (N.D. Cal. May 15,
2006). Therefore, Patent Owner’s Motion to Exclude is
denied with respect to Exhibits 1025 and 1026.
4. Exhibits 1036-1042
Exhibits 1036-1042 are documents relating to
meetings of an IEEE committee. Patent Owner argues
that Exhibits 1036-1042 should be excluded as
improper new evidence for the same reasons set forth
in the Motion to Strike. PO Mot. Excl. 6; PO Mot.

App.286a
Str. 6. Patent Owner’s arguments are not persuasive
for the same reasons discussed above with respect to
the Motion to Strike. See supra Section II.E.4. Therefore, Patent Owner’s Motion to Exclude is denied with
respect to Exhibits 1036-1042.
5. Exhibit 1043
Exhibit 1043 is U.S. Patent No. 8,155,012, which
is related to the ’838 patent and also owned by
Patent Owner. Other than pointing out that Exhibit
1043 was filed with Petitioner’s Reply, Patent Owner
does not provide any specific reason why Exhibit
1043 should be excluded. See PO Mot. Excl. 1-9.
Therefore, Patent Owner’s Motion to Exclude is denied
with respect to Exhibit 1043.
6. Exhibits 1027, 1028, and 1030-1035
We do not rely on Exhibits 1027, 1028, and 10301035 in this Decision. Therefore, Patent Owner’s
Motion to Exclude is dismissed as moot with respect
to Exhibits 1027, 1028, and 1030-1035.
H. Oral Hearing Objections
Each party objected to arguments presented by
the other party during the oral hearing. Petitioner
objected that Patent Owner improperly raised new
arguments for the first time at the oral hearing
regarding the IEEE 802.9f specification, the CAT-3
and CAT-5 cabling specifications, blind power, and
power levels. Tr. 216:15-217:7. We considered Patent
Owner’s arguments in the Response in light of any
additional arguments presented by Patent Owner at
the oral hearing, but we ultimately do not find
Patent Owner’s arguments persuasive for the reasons

App.287a
discussed in this Decision. Thus, Petitioner does not
suffer any prejudice by our admission of the arguments
presented by Patent Owner at the oral hearing.
Patent Owner objected that Petitioner raised
arguments at the oral hearing that were the subject
of Patent Owner’s Motion to Strike and/or Motion to
Exclude. Id. at 66:20-67:20. For the reasons discussed
above, we deny Patent Owner’s Motion to Strike and
deny-in-part and dismiss-in-part Patent Owner’s
Motion to Exclude. See supra Sections E, G. Thus, we
see no problem with the arguments presented by
Petitioner at the oral hearing.
I. Patent Owner’s Observations on Cross Examination
Patent Owner filed a Motion for Observations on
the cross examination of Mr. Ian Crayford (Paper
44), to which Petitioner filed a Response (Paper 55).
We have considered Patent Owner’s observations and
Petitioner’s responses, and we determine that Patent
Owner’s observations do not demonstrate any issues
with respect to the credibility of Mr. Crayford’s
testimony. We also have considered Patent Owner’s
observations in connection with the arguments and
evidence discussed above, and we have given Mr.
Crayford’s testimony the appropriate weight in making
our determination in this case.
III. Conclusion
Petitioner has shown by a preponderance of the
evidence that claims 1, 2, 7, 26, 29, 38, 39, 40, 47, 55,
and 69 of the ’838 patent are unpatentable.

App.288a
IV. Order
In consideration of the foregoing, it is hereby
ORDERED that claims 1, 2, 7, 26, 29, 38, 39, 40,
47, 55, and 69 of the ’838 patent are shown unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Strike is denied;
FURTHER ORDERED that Petitioner’s Motion
to Exclude is denied; FURTHER ORDERED that
Patent Owner’s Motion to Exclude is denied-in-part
and dismissed-in-part; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R.
§ 90.2.
PETITIONER:
Nima Hefazi
Michael Fleming
Jonathan Kagan
Talin Gordnia
Irell & Manella, LLP
nhefazi@irell.com
mfleming@irell.com
jkagan@irell.com
tgordnia@irell.com
Joseph A. Powers
Christopher J. Tyson
Matthew S. Yungwirth
Duane Morris LLP

App.289a
japowers@duanemorris.com
cjtyson@duanemorris.com
msyungwirth@duanemorris.com

PATENT OWNER:
Frank A. Angileri
Thomas A. Lewry
Marc Lorelli
Christopher C. Smith
Brooks Kushman P.C.
CHRMC0110IPR2@brookskushman.com
Richard W. Hoffmann
Reising Ethington P.C.
hoffmann@reising.com

App.290a
FINAL WRITTEN DECISION OF UNITED STATES
PATENT TRIAL AND APPEAL BOARD ON ’107
PATENT—35 U.S.C. § 318(A) AND 37 C.F.R. § 42.73
(DECEMBER 20, 2017)
UNITED STATES PATENT AND
TRADEMARK OFFICE
________________________
BEFORE THE PATENT TRIAL AND
APPEAL BOARD
________________________
JUNIPER NETWORKS, INC., RUCKUS
WIRELESS, INC., BROCADE COMMUNICATION
SYSTEMS, INC., and NETGEAR, INC.,

Petitioner,
v.
CHRIMAR SYSTEMS, INC.,

Patent Owner.

________________________
Case IPR2016-013911
Patent 8,942,107 B2

Before: Karl D. EASTHOM, Gregg I. ANDERSON,
and Robert J. WEINSCHENK,
Administrative Patent Judges.
1 Ruckus Wireless, Inc., Brocade Communication Systems, Inc.,
and Netgear, Inc. filed a petition in (now terminated) IPR201700718, who have been joined to the instant proceeding. Paper 25.

App.291a
ANDERSON, Administrative Patent Judge.
I.

Introduction

Juniper Networks, Inc. (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) pursuant to 35 U.S.C.
§§ 311-19 to institute an inter partes review of claims
1, 5, 31, 43, 70, 72, 74, 75, 83, 103, 104, 111, 123, and
125 (“the challenged claims”) of U.S. Patent No.
8,942,107 B2 (“the ’107 patent,” Ex. 1001), filed
February 10, 2012.2 ChriMar Systems, Inc. (“Patent
Owner”) filed a Preliminary Response (“Prelim. Resp.,”
Paper 7). We instituted an inter partes review of the
challenged claims (Paper 9, “Institution Decision” or
“Inst. Dec.”). We then joined the other three Petitioner parties listed above. See note 1; Paper 25.
Patent Owner filed a Response (“PO Resp.,” Paper
26) and Petitioner filed a Reply (“Pet. Reply,” Paper
33). The Board filed a transcription of the Final Hearing
held on August 31, 2017. (Paper 63, “Tr.”).
Petitioner relies on, inter alia, First Declaration
of Ian Crayford (“First Crayford Decl.,” Ex. 1002)
filed with the Petition and Second Declaration of Ian
Crayford (“Second Crayford Decl.,” Ex. 1046) filed
with its Reply. A Third Declaration of Ian Crayford
authenticates certain exhibits3 (Ex. 1048). Patent
2 The cover page of the ’107 patent alleges it is a “[C]ontinuation
of application No. 12/239,001, filed on Sep. 26, 2008, now Pat. No.
8,155,012, which is a continuation of application No. 10/668,708,
filed on Sep. 23, 2003, now Pat. No. 7,457,250, which is a
continuation of application No. 09/370,430, filed on Aug. 9,
1999, now Pat. No. 6,650,622, which is a continuation-in-part of
application No. PCT/US99/07846, filed on Apr. 8, 1999.” Ex.
1001 (63). A provisional application was filed April 10, 1998. Id. (1).
3 Exhibits 1021-1024, 1030, 1031, and 1035-1042.

App.292a
Owner took a first deposition of Mr. Crayford (“First
Crayford Deposition,” “First Crayford Dep.,” Ex. 2039)
and a second deposition of Mr. Crayford (“Second
Crayford Deposition,” “Second Crayford Dep.,” Ex.
2055) for which it filed Observations (“Obs.,” Paper
44) and Petitioner filed an Opposition to Observations (“Opp. Obs.,” Paper 55).
Patent Owner relies on, inter alia, a Declaration
by Dr. Vijay K. Madisetti (“Madisetti Decl.,” Ex.
2038) filed with its Response. Petitioner took the
deposition of Dr. Madisetti (“Madisetti Deposition,”
“Madisetti Dep.,” Ex. 1020).
Petitioner’s Motion to Exclude (Paper 46) is
denied. Patent Owner’s Motion to Exclude (Paper 45)
is denied-in-part and dismissed-in-part. Patent Owner’s
Motion to Strike Petitioner’s Reply (Paper 47) is denied.
The Board has jurisdiction under 35 U.S.C. § 6.
This Final Written Decision issues pursuant to 35
U.S.C. § 318(a) and 37 C.F.R. § 42.73. For the reasons
that follow, we determine that Petitioner has shown
by a preponderance of the evidence that the challenged
claims are unpatentable.
A. Related Proceedings
Petitioner advises us that the ’107 patent is the
subject of fifty one (51) civil actions filed in the
Eastern District of Michigan, Eastern District of
Texas, and Northern District of California. Pet. 1
(citing Docket Navigator printout dated July 7, 2016,
Ex. 1012). Petitioner is a defendant in Chrimar
Systems, Inc., et al. v. Juniper Networks, Inc., Case

App.293a
No. 3:16-cv-558 (N.D. Cal.).4 Id. The ’107 patent was
the subject of a now terminated inter partes review,
AMX, LLC, and Dell Inc. v. Chrimar Systems, Inc.,
IPR2016-00569 (“’569 IPR”). Id.5
Patent Owner identifies nineteen (19) related
actions. Paper 6, 2-3. Patent Owner cites specifically
to Chrimar Systems, Inc., et al. v. ADTRAN, Inc., et
al., Civil Action No. 6:15-cv-618-JRG-JDL (E.D. Tex.)
(the ’618 lawsuit”), Chrimar Systems, Inc., et al. v.
Alcatel-Lucent, et al., Civil Action No. 6:15-cv-163JDL (E.D. Tex.) (the “’163 lawsuit”), and Chrimar
Systems, Inc., et al. v. AMX LLC., No. 6:13-cv-881JDL (E.D. Tex.) (the “’881 lawsuit”) (collectively the
“District Court”) as having construed several terms
of the ’107 patent and several of Patent Owner’s
related patents sharing a common specification. Prelim.
Resp. 3 n4, 12-13. The Patent Owner indicates that
the following petitions for inter partes review are
related to this case:
Case No. Involved U.S. Patent No.
IPR2016-00569
(see n.5)

U.S. Patent No. 8,942,107

IPR2016-00573

U.S. Patent No. 9,019,838

IPR2016-00574

U.S. Patent No. 8,902,760

4 Patent Owner advises us that this lawsuit is stayed. Prelim.
Resp. 3.
5 We instituted trial in the ’569 IPR on August 10, 2016. ‘569
IPR, Paper 19. Trial was terminated as to Petitioner AMX LLC
only on November 9, 2016. Id. at Paper 27. Petitioner Dell Inc. was
terminated on January 20, 2017, terminating the proceeding.
Id. at Paper 40.

App.294a
IPR2016-00983

U.S. Patent No. 8,155,012

IPR2016-01151

U.S. Patent No. 9,019,838

IPR2016-01389

U.S. Patent No. 8,155,012

IPR2016-01397

U.S. Patent No. 9,019,838

IPR2016-01399

U.S. Patent No. 8,902,760

IPR2016-01425

U.S. Patent No. 8,155,012

IPR2016-01426

U.S. Patent No. 9,019,838

Paper 6, 3.
B.

Technology and the ’107 Patent
1. Technology

The ’107 patent “relates generally to computer
networks and, more particularly, to a network management and security system for managing, tracking,
and identifying remotely located electronic equipment on a network.” Ex. 1001, col. 1, ll. 27-30. The
’107 patent is “adapted to be used with an existing
Ethernet communications link or equivalents thereof.”
Id. at col. 3, ll. 41-43.
2. The ’107 Patent (Ex. 1001)
The ’107 patent describes a communication system
that generates and monitors data relating to the
electronic equipment, and can for example use the
“pre-existing wiring or cables that connect pieces of
networked computer equipment to a network.” Ex.
1001, col. 3, ll. 24-27. In a first embodiment, the
system includes a remote module attached to the
electronic equipment being monitored. Id. at col. 3, ll.
27-30. The remote module transmits a low frequency

App.295a
signal containing equipment information to a central
module over the cable. Id.
The communication or monitoring of the network
equipment can be accomplished “over preexisting
network wiring or cables without disturbing network
communications.” Ex. 1001, col. 12, ll. 1-7. This is
accomplished “by coupling a signal that does not
have substantial frequency components within the
frequency band of network communications.” Id. For
example, a high frequency network such as an Ethernet
network operates at higher frequencies of between 5
MHz to 10 MHz. Id. at col. 12, ll. 19-23. A lower
frequency signal on the order of 150 kHz may use the
same networking wires or cables as the higher
frequency network communications with “no disruption of the high frequency network information.” Id.
at col. 12, ll. 19-28.
C. Illustrative Claims
Of the challenged claims, claims 1 and 104 are
independent apparatus claims. Claims 5, 31, 43, 70,
72, 74, 75, 83, and 103 depend directly or indirectly
from claim 1. Claims 111, 123, and 125 depend from
claim 104. Claim 1 is reproduced below:
1. A piece of Ethernet terminal equipment comprising:
an Ethernet connector comprising:
first and second pairs of contacts used to
carry Ethernet communication signals,
at least one path for the purpose of drawing
DC current, the at least one path coupled
across at least one of the contacts of the first

App.296a
pair of contacts and at least one of the
contacts of the second pair of contacts, the
piece of Ethernet terminal equipment to
draw different magnitudes of DC current
flow via the at least one path,
the different magnitudes of DC current flow
to result from at least one condition applied
to at least one of the contacts of the first
and second pairs of contacts,
wherein at least one of the magnitudes of
the DC current flow to convey information
about the piece of Ethernet terminal equipment.
Ex. 1001, col. 17, ll. 11-25.
D. Asserted Grounds of Unpatentability
Petitioner challenges claims 1, 5, 31, 43, 53, 58,
70, 72, 75, 83, 84, 103, 104, 111, 123, and 125 of the
’107 patent as unpatentable on the following grounds.
Pet. 7-66.
References

Basis

Claims
Challenged

Hunter6 and
Bulan7

§ 103(a)8

1, 5, 31, 43, 70,
72, 74, 75, 83,

6 WO 96/23377, Richard K. Hunter et al., published August 1,
1996, (“Hunter,” Ex. 1003).
7 US 5,089,927, Sergio Bulan et al., issued February 18, 1992,
(“Bulan,” Ex. 1004).
8 The Leahy-Smith America Invents Act (AIA), Pub. L. No. 11229, 125 Stat. 284, 287-88 (2011), revised 35 U.S.C. § 103,
effective March 16, 2013. The ’107 patent has an effective filing

App.297a
103, 104, 111,
123, and 125
§ 103(a)
Bloch,9
10
Huizinga, and
IEEE
802.311
II.

1, 5, 31, 43, 70,
72, 74, 75, 83,
103, 104, 111,
123, and 125

Analysis
A. Claim Construction

In an inter partes review, claim terms are given
their broadest reasonable interpretation in light of
the Specification in which they appear. See 37 C.F.R.
§ 42.100(b); Cuozzo Speed Techs., LLC v. Lee, 136 S.
Ct. 2131, 2142 (2016). We presume that claim terms
have their ordinary and customary meaning. See
Trivascular, Inc. v. Samuels, 812 F.3d 1056, 1061-62
(Fed. Cir. 2016) (“Under a broadest reasonable interpretation, words of the claim must be given their
plain meaning, unless such meaning is inconsistent
with the specification and prosecution history”) (internal citation omitted); In re Translogic Tech., Inc., 504
F.3d 1249, 1257 (Fed. Cir. 2007). Any special definition
date of at least April 10, 1998, prior to the effective date of the
AIA. See Pet. Reply 2. Thus, the grounds asserted are under the
pre-AIA version of § 103.
9 US 4,173,714, Alan Bloch et al., issued November 6, 1979
(“Bloch,” Ex. 1005).
10 US 4,046,972, Donald D. Huizinga et al., issued September
6, 1977 (“Huizinga,” Ex. 1009).
11 IEEE Standard 802.3-1993 (“IEEE-93,” Ex. 1006) and IEEE
Standard 802.3-1995, Parts 1 and 2 (“IEEE-95,” Ex. 1007 (Part
1) and Ex. 1008 (Part 2)), collectively “IEEE 802.3.”

App.298a
for a claim term must be set forth in the Specification
with reasonable clarity, deliberateness, and precision.
In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). In
the absence of such a special definition or other
consideration, “limitations are not to be read into the
claims from the specification.” In re Van Geuns, 988
F.2d 1181, 1184 (Fed. Cir. 1993). “[O]nly those terms
need be construed that are in controversy, and only
to the extent necessary to resolve the controversy.”

See Nidec Motor Corp. v. Zhongshan Broad Ocean
Motor Co. Ltd., 868 F.3d 1013, 1017 (Fed. Cir. 2017);
Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d
795, 803 (Fed. Cir. 1999).

Petitioner identifies “powered off” and “BaseT” as
requiring construction. Pet. 5-6. Patent Owner identifies those same two terms plus “protocol.” PO Resp.
15-18.
The parties have not disputed the meaning of
either “Ethernet terminal equipment” or “end device.”
Patent Owner equates the two terms. See, e.g., PO
Resp. 45, Heading A. We apply the ordinary and
customary meaning of the claim terms not specifically
addressed.
1. “Path Coupled Across” (Claims 1 and
104)
Claims 1 and 104 recite, in part, “at least one
path coupled across at least one of the contacts of the
first pair of contacts and at least one of the contacts
of the second pair of contacts.” In the Institution
Decision we construed the term “path coupled across”
to mean “path permitting energy transfer.” Inst. Dec.
8. The term is not disputed and we, upon consideration

App.299a
of the full record, maintain the construction from the
Institution Decision.
2. “Pairs of Contacts” (Claims 1 and 104)
Claims 1 and 104 recite, in part, “an Ethernet
connector comprising first and second pairs of contacts
used to carry Ethernet communication signals, at
least one path for the purpose of drawing DC current.”
In the Institution Decision we construed “pairs of
contacts” to mean “at least two contacts which define
a path for carrying electrical signals.” Inst. Dec. 9.
The term is not disputed and we maintain the
construction from the Institution Decision.
3. “BaseT” (Claim 5)
Claim 5 depends from claim 1 and recites
additionally “wherein the Ethernet communication
signals are BaseT12 Ethernet communication signals.”
In the Institution Decision we preliminarily determined
that the broadest reasonable construction of “BASET,” consistent with the specification and the knowledge
of a person of ordinary skill in the art, is “twisted
pair Ethernet in accordance with the 10BASE-T or
100BASE-T standards.” Inst. Dec. 11-12. Patent Owner
does not contest this construction. PO Resp. 18.
Petitioner’s proposed construction is the same as the
Institution Decision except that it does not include
“twisted pair Ethernet.” Pet. 6.
In its Preliminary Response, Patent Owner cited
to the District Court’s construction in the ’163 lawsuit.
12 “BaseT,” “BASE-T,” and “Base-T” are all used in various
parts of the record, but we determine they all reference the
same Ethernet standard. We use the terms interchangeably here.

App.300a
Prelim. Resp. 14 (citing Ex. 2021, 16-18). The District
Court construed the term as meaning “twisted pair
Ethernet in accordance with the 10BASE-T or
100BASE-T standards.” Ex. 2021, 18. We agree with
the District Court that the specification lacks any
special definition of Base-T. Ex. 2021, 17. The record
before the District Court included evidence “that it
was commonly known that ‘Base’ refers to baseband
and ‘T’ designates twisted pair cabling, and that
‘BASE-T’ standards were known in the art at the
time of invention.” Id. Exhibit 1007, IEEE Standard
802.3-1995, does define “100BASE-T” and “10BASET.” Ex. 1007 ¶¶ 1.4.2 and 1.4.14. The definition of
“100BASE-T” does not include reference to a “twisted
pair,” while the definition of “10BASE-T” does. Id.
We agree with the District Court’s analysis that
“Base-T” references a baseband and a twisted pair
cable. Extrinsic dictionary evidence is that 10Base-T
and 100Base-T are “an Ethernet standard for baseband
LANs (local area networks) using twisted-pair cable.”
MICROSOFT COMPUTER DICTIONARY, 2
(Microsoft Press 5th ed. 2002) (Ex. 3001).
The parties do not dispute the construction in
the Institution Decision. See Pet. 6, PO Resp. 18. We
maintain our construction from the Institution Decision.
4. “Powered Off” (Claims 103 and 104)
Claim 103 is a multiple dependent claim which,
for purposes of this proceeding, depends on challenged claims 1 and 31, and recites “wherein the
piece of Ethernet of terminal equipment is a piece of
powered-off Ethernet terminal equipment.” Claim
104 is an independent claim which recites, in pertinent

App.301a
part, “[a] powered-off end device” instead of “Ethernet
terminal equipment.”
In the Institution Decision we interpreted “powered off” to mean “without operating power.” Inst.
Dec. 10. Petitioner proposed this construction. Pet. 56. Patent Owner also agreed with the Institution
Decision construction in its Preliminary Response,
citing the District Court construction from the ’163
lawsuit and our construction in the ’569 IPR. Prelim.
Resp. 14-15 (citing Ex. 2021, 18-20; ’569 IPR, Paper
19, 10); see also PO Resp. 16 (citing the same
authority).
Petitioner argues “‘powered-off’ does not mean
entirely removed from the application of power.” Pet.
6 (citing Ex. 1001, claims 103, 104, 111, 123, and 125;
First Crayford Decl. ¶¶ 52-55). In its Response Patent
Owner argues that the terminal device cannot be
“powered-off” if “operating voltage is applied, but not
used.” PO Resp. 16. Patent Owner concludes that
“[o]ne skilled in the art would understand ‘without
operating power’ to exclude devices that have ‘operating
power’ applied to the Ethernet terminal equipment/
end device.” Id. at 17 (citing Madisetti Decl. ¶ 102).
Petitioner argues that some power may be applied to
the device and the device is “powered-off.” Patent
Owner disagrees.
That the “Ethernet terminal device” or “poweredoff end device” receive some power is supported by
the claims, which recite that the devices draw “different magnitudes of current flow.” Ex. 1001, claims 1,
103, 104; see PO Resp. 16. The Specification describes
the isolation power supply of the central module as
providing “continuous direct current (DC) power
supply” for the remote module. Ex. 1001, col. 5, ll. 39-

App.302a
43 (“a low current preferably on the order of magnitude
of about 1mA.”)).
We maintain our construction of “powered-off”
from the Institution Decision with the qualification
that some power may be applied to the claimed
“Ethernet terminal equipment” or “end device” and
the devices may still be “powered-off.”
5. “Protocol” (Claims 72 and 123)
Claims 72 and 123 depend from claims 1 and
104, each reciting “wherein at least one magnitude of
the DC current is part of a detection protocol.” Patent
Owner contends “[a] protocol, as defined in the
computer networking field, is ‘a mutually agreed
upon method of communication.’” PO Resp. 17 (citing
Madisetti Decl. ¶ 104; Network Working Group, RFC
1462, “What is the Internet,” May 1993, 1 (Ex. 2047)).
Patent Owner does not cite to the Specification or the
claim language to support its construction.
As Petitioner contends, neither “detect” nor
“protocol” requires that two devices “agree to a
method of communication.” Pet. Reply 21-22 (citing
Second Crayford Decl. ¶ 90). Petitioner argues as
follows:
Instead, a POSITA understood that “detection” simply requires a discovery of something, and a “protocol” as rules. . . . In other
words, a detection protocol is merely rules
for making a discovery.
The claim language and the Specification support
Petitioner’s contentions. Claim 72, a device claim,
does not require communication with any other device.
Any disclosed communication involves control module

App.303a
15, but claim 72, drawn to “Ethernet terminal equipment,” reads on remote module 16a and PC 3a, and
does not necessarily encompass the central module. See
Ex. 1001, col. 8, ll. 33-56, Figs. 4, 5. Further, the
claimed device at most only needs to be capable of
being part of a detection protocol. See In re Schreiber,
128 F.3d 1473, 75-77 (Fed. Cir. 1997).
Accordingly, “wherein at least one magnitude of
the DC current is part of a detection protocol” means
that the claimed magnitude of DC current must be
capable of being part of a “detection protocol,” which
may involve, but is not limited to, rules for making a
discovery or a mutually agreed upon method of
communication.
B. Law of Obviousness
A patent claim is unpatentable as obvious if the
differences between the claimed subject matter and
the prior art are “such that the subject matter as a
whole would have been obvious at the time the
invention was made to a person having ordinary skill
in the art to which said subject matter pertains.” 35
U.S.C. § 103(a).
The ultimate determination of obviousness
is a question of law, but that determination
is based on underlying factual findings. The
underlying factual findings include (1) “the
scope and content of the prior art,” (2)
“differences between the prior art and the
claims at issue,” (3) “the level of ordinary
skill in the pertinent art,” and (4) the presence
of secondary considerations of nonobviousness such “as commercial success, long felt

App.304a
but unsolved needs, failure of others,” and
unexpected results.

In re Nuvasive, Inc., 842 F.3d 1376, 1381 (Fed. Cir.
2016) (internal citation omitted) (citing inter alia
Graham v. John Deere Co., 383 U.S. 1, 17-18 (1966)).
In assessing the prior art, the Board must
consider whether a person of ordinary skill would
have had a reason to combine the prior art to achieve
the claimed invention. Nuvasive, 842 F.3d at 1381.
As observed by our reviewing court in Personal Web
Technologies, LLC v. Apple, Inc., 848 F.3d 987, 99192 (Fed. Cir. 2017):
The Supreme Court in KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 127 S.Ct. 1727,

167 L.Ed.2d 705 (2007), explained that,
“because inventions in most, if not all,
instances rely upon building blocks long
since uncovered, and claimed discoveries
almost of necessity will be combinations of
what, in some sense, is already known,” “it
can be important to identify a reason that
would have prompted a person of ordinary
skill in the relevant field to combine the
elements in the way the claimed new invention
does.”
1. Level of Ordinary Skill

The Institution Decision substantially tracks
Petitioner’s proposal. Inst. Dec. 12-13; Pet. 5 (citing
First Crayford Decl. ¶¶ 49-51). Patent Owner’s only
issue with Petitioner’s proposal, and our prior determination, is that use of “at least” with respect to
education and experience is too open ended because

App.305a
it would include persons having more than ordinary
skill. PO Resp. 13-14 (citing Madisetti Decl. ¶ 26).
We agree with Patent Owner. Petitioner does
not contest the change in its Reply.13 We determine
the level of ordinary skill at the time of the invention
was a person having an undergraduate degree in
electrical engineering or computer science, or the
equivalent, and three years of experience. In addition,
a person of ordinary skill would have had a familiarity
with data communications protocols, data communications standards (and standards under development
at the time, including the 802.3 standard), and the
behavior of data communications products available
on the market. Madisetti Decl. ¶ 26.
C. Obviousness over Hunter and Bulan
Petitioner alleges claims 1, 5, 31, 43, 70, 72, 74,
75, 83, 103, 104, 111, 123, and 125 would have been
obvious to a person of ordinary skill in the art over
Hunter and Bulan. Pet. 7-42. Petitioner cites the
First Crayford Declaration in support of its positions.
See First Crayford Decl. ¶¶ 63-142. Based on Petitioner’s arguments and supporting evidence, we find
Petitioner has made its case by a preponderance of
the evidence and adopt the Petitioner’s reasoning
and factual assertions as our factual findings as
summarized and discussed below.
1. Hunter (Exhibit 1003)
Hunter discloses “[a] power subsystem and method
for providing phantom power and third pair power
13 At the Final Hearing Petitioner objected to a definition that
did not include “at least.” Tr. 14:13-19.

App.306a
via a computer network bus.” Ex. 1003, Abstract.
Phantom power is power that may be routed through
the same cable employed to carry data through the
network. Id. at col. 17, ll. 2-5. “[P]hantom powering []
is employed in current telephone systems.” Id. “In a
preferred embodiment of the first aspect of the
present invention, the bus comprises a 10Base-T
bus.” Id. at 21:17-18.

App.307a
Figure 2 of Hunter is reproduced below.

App.308a
Figure 2 is a schematic diagram of a phantom
powering subsystem 200. Ex. 1003, 35:21-23. “The
phantom powering subsystem 200 comprises a power
supply 210 having a positive output 211 and a
negative output 212.” Id. at 35:27-29. The subsystem
also includes first and second transformers 220 and
230 with windings having end taps and center taps
224, 234. Id. at 36:1-6. First and second twisted-pair
conductors 240 and 250 are connected to the respective end taps of the transformers “to allow data
communication there between.” Id. at 36:7-12. The
10Base-T bus includes the “two twisted-pair conductors
240, 250, each used for unidirectional transmission of
data.” Id. at 37:20-23.
One of the twisted pairs is employed for transmitting data from equipment 260 (Integrated Services
Terminal Equipment, “ISTE”) “while the other of the
twisted pairs (say, 240) is used for receiving data into
the equipment 260.” Ex. 1003, 23:18-21, 37:22-26.
“The subsystem further comprises a protective device
213 coupled to the power supply 210 to prevent power
exceeding a desired amount from passing through
the protective device 213.” Id. at 38:12-15.
2. Bulan (Exhibit 1004)
Bulan discloses a current control apparatus for
supplying direct current flow from a source of power
via a transmission line to a telecommunications
terminal so that the telecommunications apparatus
is “continuously operable while drawing a load current
which is exceeded by an inrush current being greater
than the load current at a moment of power up.” Ex.
1004, col. 2, ll. 17-23. Bulan’s system is used in a
network having terminal equipment (“TE”) which

App.309a
includes a DC to DC converter (“DC-DC”) in a wellknown phantom power feed arrangement. Id. at col.
1, ll. 52-56, col. 3, ll. 53-56, col. 4, ll. 2-10.
“The current control apparatus is for connection
in series between the power source and the transmission line.” Ex. 1004, col. 2, ll. 23-25. A current
path switch is placed between the power source and
the transmission line. Id. at col. 4, ll. 17-25.
Figure 2 of Bulan is reproduced below.

App.310a
Figure 2 is a schematic diagram of a line interface
circuit for coupling current from the power source.
Ex. 1004, col. 4, ll. 17-22. As shown in Figure 2, a
static reference generator provides a stable voltage
supply on a lead for use by a dynamic reference
generator and the current path switch. Id. at col. 4,
ll. 25-30. The dynamic reference generator generates
a control signal for use by the current path switch.
Id. at col. 4, ll. 33-36. The current path switch is
required to provide a current path which at any one
time is of a very low impedance, or alternately is of a
much higher impedance, in accordance with operation of the TE connected to the network. Id. at col. 4,
ll. 35-40.
Current exceeding Bulan’s static limit, set by the
static reference generator, is detected by the current
sensor indicating a current inrush condition. Ex.
1004, col. 3, ll. 5-12, col. 4, ll. 23-24, col. 5, ll. 37-39.
The dynamic reference generator responds to this
magnitude of current by setting a maximum limit on
the inrush current. Id. at col. 3, ll. 7-12, col. 5, ll. 615, ll. 42-46, Fig. 4 (see resistors 52 and 57 and
capacitor 53). When the TE’s DC-DC has finally
completed its startup, the TE can draw operating
power and proceed to draw a normal operating
current that remains below Bulan’s static limit. Id.
at col. 2, ll. 1-8, col. 3, ll. 5-6.
If “during start up there are several inrushes,
the maximum permitted current will return to a high
point of slightly more than the current which was
permitted just before the envelope returned to the
normal load current level.” Ex. 1004, col. 7, ll. 7-13.
“This may happen several times, as may be peculiar

App.311a
to the particular terminal equipment being connected
to the line.” Id.
3. Claim 1
Addressing the preamble of claim 1, limitation
[a],14 “[a] piece of Ethernet terminal equipment,”
Petitioner alleges the ISTE of Hunter is “‘Ethernet
terminal equipment’ because (10Base-T) Ethernet
data transmissions can originate and terminate there.”
Pet. 24 (citing Ex. 1003, 37:19-28 (“[T]he bus [to the
ISTE] comprises a 10Base-T bus.”)). Petitioner also
shows that the TE may include ISTE card 260
coupled to voice instrument 299 and drawing power
from the circuit, as explained further below. Pet. 9
(showing TE on the right-hand side of connectors on
cards 297 of Hunter’s Figure 2), 25-26 (citing equipment
in Hunter that draws power); First Crayford Decl.
¶ 102 (discussing “components along the path” of
Hunter’s Figure 2 (citing Exhibit 1003, 35:27-38:25,
Fig. 2)). Petitioner concludes it would have been
obvious to a person of ordinary skill in the art to
“implement the teachings of Hunter with terminal
equipment other than the exemplary ISTE, and/or
with a bus applying other Ethernet standards (such
as 100Base-T).” Id. at 25 (citing Ex. 1003, 16:26-18:1,
19:2-8 (“primary object” to provide “phantom” power
“to equipment coupled to a local area network,
including, but not limited to, Ethernet®, Token Ring®,
ATM, and isoEthernet®.”), 21:11-13, 26:7-11, claims
3 (“bus comprises a two-pair twisted-pair bus selected
14 Petitioner’s convention for identifying the limitations of claim
1 is to bracket them in alphabetical order. Accordingly, the
preamble, the first limitation of claim 1, is designated [a]. See,
e.g., Pet. 24. We follow the convention for purposes of this Decision.

App.312a
from the group consisting of: “10Base-T, Ethernet®,
Token Ring®, ATM, 100Base-T, and isoEthernet®”),
claims 13, 29: First Crayford Decl. ¶ 100).
Claim 1 next recites as limitation [b] “an Ethernet
connector comprising first and second pairs of
contacts used to carry Ethernet communication
signals.” Hunter teaches that “one of the twisted-pairs
(say, 250) is employed for transmitting data from the
equipment 260, while the other of the twisted-pairs
(say, 240) is used for receiving data into the
equipment 260.” Ex. 1003, 7:19-26. Petitioner cites
the preceding from Hunter as well as Figure 2,
reproduced in Section II.C.1 above, as showing “the
TE includes an Ethernet connector with a first and
second pair of contacts for connecting to each of the
two twisted-pairs (which are used to carry both
power and Ethernet communication signals).” Pet.
26-27 (citing Ex. 1003, 38:21-25, Fig. 2 (“connectors
297”)).
Addressing limitation [c], “at least one path for
the purpose of drawing DC current,” Petitioner relies
on the combined circuit of Hunter and Bulan annotated as “Petition Figure 3” from page 15 of the
Petition, which is reproduced below.

App.313a

App.314a
Petition Figure 3 includes Figure 2 of Hunter
(reproduced above in Section II.C.1) modified by substituting the current control apparatus from Figure 2
of Bulan (reproduced above in Section II.C.2) for the
protective device 213 from Figure 2 of Hunter. Pet. 15
(citing First Crayford Decl. ¶ 77). Petitioner argues
“[t]he purpose of Hunter’s phantom-powering system
is to permit the TE to draw DC current from the
same twisted-pairs it uses to communicate Ethernet
data.” Id. at 27 (citing Ex. 1003, 21:27-29 (“each of
the twisted-pair conductors as a rail by which to
deliver DC power to the equipment”). Referencing
Petition Figure 3, Petitioner traces the flow of DC
current, shown in red with arrows indicating current
direction, from phantom power source 210 to the TE
(ISTE Card) and back. Id. at 27-28.
Claim 1 next recites as limitation [d], “the at
least one path coupled across at least one of the
contacts of the first pair of contacts and at least one
of the contacts of the second pair of contacts.” Petitioner relies on the showing made above for limitation [c], “at least one path for the purpose of drawing
DC current.” Pet. 28 (citing Ex. First Crayford Decl.
¶ 103). Petitioner cites to its showing regarding
coupling of contacts. Id.; see also id. at 27 (describing
the current path “through a contact in ‘CONNECTOR
ON ISTE’ 297 . . . through the TE device . . . through the
TE’s ‘center tap 274,’ through a contact in
‘CONNECTOR ON ISTE’ 297 . . . ’’).
Addressing limitation [e] of claim 1, the “piece of
Ethernet equipment to draw different magnitudes of
DC current flow via the at least one path” recited in
claim 1, Petitioner argues both Hunter and Bulan
have a DC-to-DC-converter (“DC-DC”). Pet. 28 (citing

App.315a
Ex. 1003, 39:5-6; Ex. 1004, col. 1, ll. 52-56). The First
Crayford Declaration states that the DC-DC converters of the references are “to convert the phantom power
supplied via the twisted-pair Ethernet cable into
suitable operating power for the TE.” First Crayford
Decl. ¶ 104. Petitioner relies on the preceding to meet
the recited limitation because both references include
DC-DC and because the TE’s “current draw is regulated
by the Bulan current control apparatus in the Hub,
the TE will draw different magnitudes of DC current
flow via the at least one path.” Pet. 28-29.
More specifically, Petitioner asserts that when
power is first applied to Bulan’s current control
circuit the DC-DC will draw an inrush of current
which rises to the static current limit and then to the
dynamic current limit. Pet. 29 (citing Ex. 1004, col. 1,
ll. 57-65 (“[t]he surge of current . . . required to initiate
operation of the typical [DC-DC]”), col. 3, ll. 3-12
(static and dynamic current limits), col. 5, ll. 36-46,
col. 6, ll. 36-38). Petitioner asserts that Bulan then
switches to high impedance in the current path,
forcing the current to a “trickle” level and then to
zero. Id. at 29 (citing Ex. 1004, col. 3, ll. 13-21, col.
4,ll. 35-40, col. 6, ll. 36-51). In the next step of its
showing, Petitioner argues Bulan determines that
when the current in the circuit goes to zero it is
indicative of the DC-DC startup and not an operational
fault, like a short circuit, which would continue to
draw a trickle current. Id. at 29-30 (citing Ex. 1004,
col. 1, ll. 23-29, col. 1, ll. 57-65, col. 2, ll. 1-14, col. 3,
ll. 22-25, col. 6, ll. 46-51). Petitioner concludes that
Bulan draws different magnitudes of DC current by
switching the high impedance out of the current path
so the DC-DC may startup, reaching “the normal

App.316a
operating current level of the TE” if current stays
within the static and dynamic limits.” Id. at 30.
Alternatively, Petitioner argues if the static and
dynamic limits are exceeded, then further iterations
are done until the DC-DC completes startup. Id. (citing
Ex. 1004, col. 4, ll. 67-5:1, col. 6, ll. 52-58, col. 6, l. 65col. 7, l. 14 “This may happen several times, as may
be peculiar to the particular terminal equipment
being connected to the line.”).
The next limitation of claim 1, limitation [f],
recites the “the different magnitudes of DC current
flow to result from at least one condition applied to at
least one of the contacts of the first and second pairs
of contacts.” Petitioner argues the different magnitudes
of current flow discussed above in analyzing the “piece
of Ethernet equipment to draw different magnitudes
of DC current flow via the at least one path” limitation
of claim 1 all result from “conditions applied to at
least one of the contacts of the first and second pairs
of contacts.” Pet. 30 (citing First Crayford Decl.
¶¶ 109-113). For example, Petitioner points out that
plugging the phantom-powered twisted-pair Ethernet
cable into the TE “is a condition applied to the
contacts: e.g., current then begins to flow through
them.” Id. at 31.
The last limitation of claim 1 is limitation [g],
“wherein at least one of the magnitudes of the DC
current flow to convey information about the piece of
Ethernet terminal equipment.” Petitioner argues Bulan
monitors the different magnitudes of DC current flow
drawn by the TE. Pet. 31 (citing Ex. 1004, col. 4,ll.
23-24, col. 2, ll. 1-14; First Crayford Decl. ¶¶ 114118). For example, at startup if the current drawn by

App.317a
the TE exceeds the static limit and then the dynamic
limit”
this conveys to Bulan that a potentially
dangerous current “inrush” is occurring at
the TE—though Bulan does not yet know
whether the inrush is merely “the surge
required to initiate operation of the typical
[DC-DC]” in the TE (which should be
permitted), or the presence of an “unintended
operational fault[]” such as a “short circuit[].”

Id. at 32 (citing Ex. 1004, col. 1, ll. 60-62, col. 1, ll. 28-

29, Abstract, col. 3, ll. 5-6, col. 3, ll. 7-12). As
discussed above, Petitioner argues Bulan responds by
switching a high impedance into the path. Id. (citing
Ex. 1004, col. 3, ll. 13-21, col. 4, ll. 35-40, col. 6, ll. 3644).
Patent Owner alleges Petitioner’s citation to
“Ethernet®” has not been explained as relevant to
the claimed invention. PO Resp. 34 (citing Ex.1003
12, 14, 21, 23, 28, 35, 36). Patent Owner also contends
that the term “Ethernet®” in Hunter refers to the
original trademarked version of Ethernet owned by
Xerox Corporation, not the subsequent non-trademarked versions of Ethernet, such as 10Base-T and
100Base-T. Id. (citing Pet. 26; First Crayford Decl.
¶100, n. 6.)
Patent Owner’s argument is not persuasive.
Hunter “discloses 10Base-T, 100Base-T4, and isoEthernet standards that all teach the ‘Ethernet’ limitation.”
Pet. Reply 11 (citing Pet. 24-26). For example, Hunter
teaches the following:
In the illustrated embodiment, the bus
comprises a 10Base-T bus. A 10Base-T bus

App.318a
conventionally comprises two twisted-pair
conductors 240, 250, each used for unidirectional transmission of data. Thus, in this
embodiment, one of the twisted pairs (say,
250) is employed for transmitting data from
the equipment 260, while the other of the
twisted-pairs (say, 240) is used for receiving
data into the equipment 260. The present
invention preferably employs each of the
twisted-pair conductors as a rail by which to
deliver DC power to the equipment 260.
Ex. 1003, 37:19-28 (emphasis added). Patent Owner
does not dispute that the term 10Base-T and 100BaseT teach “Ethernet.” PO Resp. 18. Thus, regardless of
whether Hunter’s use of the term “Ethernet®” includes
10Base-T, Hunter independently teaches 10Base-T.15

Id.

Patent Owner argues that the Integrated Services Terminal Equipment (ISTE) card of Hunter is
an interconnecting “hub[]” and not claim 1’s “Ethernet terminal equipment” and claim 104’s “end device.”
PO Resp. 34-39; see also id. at 45-46 (making same
argument). Patent Owner alleges that the only terminal
equipment in Figure 2 of Hunter is voice instrument
299. Id. at 35. According to Patent Owner, when
Figures 1 and 2 of Hunter are considered together,
those figures “show phantom-power being delivered
from a multimedia Hub (‘120’ in Hunter’s Figure 1)
through multiple connectors (each labelled ‘297’ in
Hunter’s Figure 2) to an intermediate Hub (‘150’ in
Hunter’s Figure 1).” Id. at 37 (citing Ex. 2038 ¶ 71).
15 There is no dispute that 10Base-T is an IEEE Ethernet
standard. First Crayford Decl. ¶ 98 n.5; Madisetti Decl. ¶ 32.

App.319a
Patent Owner concludes that “Hunter’s phantompower circuit does not connect to the phones (‘end
devices’), which are connected to the intermediate
Hub through separate connectors (each labelled ‘298’
in Hunter’s Figure 2).” Id.
Patent Owner’s argument is not persuasive.
Patent Owner’s argument focuses on the specific
configuration shown in Figure 2 of Hunter. PO Resp.
34-39. Petitioner asserts Hunter is not limited to the
configuration shown in Figure 2. See, e.g., Pet. 25
(obvious to implement “Hunter with terminal equipment other than the exemplary ISTE”). Even were
Hunter so limited, we agree with Petitioner and find
that Hunter teaches both recited terms, “terminal
equipment” and “end device,” through its teaching of
an Integrated Services Terminal Equipment (ISTE)
card that “receives and transmits data over a 10BaseT bus.” See Pet. Reply 11-12 (citing Pet. 24-26); see
also Ex. 1003, 23:19-20 (“Integrated Services Terminal
Equipment (ISTE)”); Petition Figure 3 above (showing
the ISTE).
The ISTE of Hunter is “terminal equipment,” as
the name itself suggests. Hunter’s Figure 2 depicts
an “isoEthernet system where the ISTE splits isoEthernet data, a combined ISDN and 10Base-T signal,
into ISDN data for Voice Instrument 299 and 10BaseT LAN data for other equipment.” Pet. Reply 11-12
(citing Ex. 1003, Fig. 2; Second Crayford Declaration
¶ 6816); Pet. 24-26. A person of ordinary skill “would
16 We have reviewed Patent Owner’s Observations relating to
the Second Crayford Deposition. None of the Observations
concisely raise any issue about the credibility of Mr. Crayford’s
testimony. See, e.g., Obs. 14. To the extent they are not directed
to credibility, the Observations do not change our findings.

App.320a
understand that both ISDN and 10Base-T Ethernet
data terminate at the Hunter ISTE.” See Pet. Reply
11-12 (citing Second Crayford Decl. ¶ 68). A drawing
made by Dr. Madisetti’s during his deposition, Ex.
1034, “shows ‘Ethernet terminal equipment’ can include
a remote module, a PC or Phone device, and associated
connectors.” See id. at 13 (citing Ex. 1034). We
specifically find that “the power supplied to the ISTE
in Hunter powers the Voice Instrument.” Id. at 14
(quoting Ex. 1003, 38:25-27) (“[V]oice instrument 299
is . . . couplable to the equipment 260 and receives
both data and power therefrom.”); see also Second
Crayford Decl. ¶ 71 (noting Hunter explains the Voice
Instrument “remain[s] powered even when associated
devices are not or in the event of a power failure”
(quoting Ex. 1003, 37:15-18)); First Crayford Decl.
¶ 102 (the path delivering power continues “at least”
to the ISTE, which continues to the Voice Instrument);
Pet Reply 13 (citing First Crayford Dep., 84:6-9
(“everything to the right of [connector 297 is] what
we called the terminal equipment or data terminal
equipment”); Pet. Fig. 1).
Patent Owner argues Hunter does not apply
to Ethernet communications. PO Resp. 39-41. In
support, Patent Owner cites to Hunter’s disclosure
that “[e]xcept for hub 170, all other hubs 140-180
(and the PC 125) are connected to the multimedia
hub 120 through ‘isoEthernet® network interfaces.’”
Id. at 40 (citing Ex.1003, 34:28-35:2, see also 34:1921, 35:14-16, 35:27-28, 36:13-17, Fig.1). According to
Patent Owner, isoEthernet network interfaces only
carry ISDN signals, not Ethernet signals. Id. (citing
Ex. 1003, 15:15-18; Madisetti Decl. ¶ 76). Patent
Owner also argues that hub 170 in Figure 1 of

App.321a
Hunter is connected to multimedia hub 120 through
a 10Base-F interface. Id. (citing Ex. 1003, 36:20).
According to Patent Owner, a 10Base-F interface
requires a fiber connection, and “fiber cannot carry
electrical current.” Id. at 40-41 (citing Madisetti Decl.
¶ 78).
Patent Owner’s argument is not persuasive.
Patent Owner focuses on the embodiment shown in
Figure 1 of Hunter. PO Resp. 39-41. Hunter, though,
is not limited to that embodiment. Hunter teaches
that preferably “the bus comprises a 10Base-T bus,”
but notes that “[t]hose of skill in the art will recognize . . . that the present invention is also compatible
with Ethernet®, Token Ring®, ATM and isoEthernet® standards.” Ex. 1003, 21:17-21, 26:3-11 (emphasis
added). Therefore, contrary to Patent Owner’s argument, Hunter is not limited to an embodiment in
which network equipment is connected by isoEthernet
interfaces.
Even if limited to network equipment connected
by isoEthernet interfaces, we are not persuaded that
isoEthernet interfaces only carry ISDN signals, not
Ethernet signals. PO Resp. 41 (citing Ex. 1003,
15:15-18; Madisetti Decl. ¶ 76). The portion of Hunter
cited by Patent Owner indicates that isoEthernet
interfaces can carry ISDN signals, but does not
establish that isoEthernet interfaces only carry ISDN
signals. Ex. 1003, 15:15-18. Paragraph 76 of the
Madisetti Declaration cited by Patent Owner states
that “isoEthernet used ISDN signals, not Ethernet,”
but Dr. Madisetti provides no support for that statement other than citing the same portion of Hunter,
“Transport Standards,” discussed above. Madisetti
Decl. ¶ 76. In contrast, the documentary evidence

App.322a
that Petitioner submitted with the Petition (Pet. iv
(exhibit list); Pet. Reply 11) indicates that isoEthernet
includes a 10Base-T mode in which the “IsoEthernet
layer functions as a 10Base-T transceiver” (Ex. 1010,
165).17 As a result, even if we accept Patent Owner’s
premise that hub 120 in Figure 1 of Hunter
communicates with hubs 140, 150, 160, 180 using
isoEthernet interfaces, the evidence of record indicates
that isoEthernet interfaces carry 10Base-T signals at
least when used in the 10Base-T mode of isoEthernet.
Patent Owner’s argument regarding 10Base-T hub
170 in Figure 1 of Hunter also is not persuasive for
an additional reason. As discussed above, Patent
Owner alleges that 10Base-T hub 170 is connected to
multimedia hub 120 only through a 10Base-F interface. PO Resp. 40 (citing Ex. 1003, 36:20). The evidence
cited by Patent Owner, however, does not support
that argument. The cited portion of Hunter states
that “[t]he 10Base-T hub 170 further provides an
Ethernet® AU interface and a single 10Base-F network
interface.” Ex. 1003, 34:18-20 (emphasis added). The
phrase “further provides” in this portion of Hunter
indicates that 10Base-T hub 170 also includes a
10Base-F interface, but does not establish that 10BaseT hub 170 only includes a 10Base-F interface. Id.
At the oral hearing, Patent Owner further argued
that, although Hunter teaches a 10Base-T bus, Hunter
does not teach that the 10Base-T bus carries both
10Base-T signals and DC power. Tr. 126:9-127:11.
According to Patent Owner, when the 10Base-T bus
17 We cite to the page numbers that Petitioner added to Exhibit
1010. Also, like Hunter, Exhibit 1010 refers to the IEEE 802.9a
standard for isoEthernet. Ex. 1003, 15:15-18; Ex. 1010, 160.

App.323a
carries DC power, it only carries ISDN signals. Id. at
128:22-129:3. Patent Owner reads Hunter too narrowly.
For example, Hunter teaches the following:
In the illustrated embodiment, the bus
comprises a 10Base-T bus. A 10Base-T bus
conventionally comprises two twisted-pair
conductors 240, 250, each used for unidirectional transmission of data. Thus, in this
embodiment, one of the twisted pairs (say,
250) is employed for transmitting data from
the equipment 260, while the other of the
twisted-pairs (say, 240) is used for receiving
data into the equipment 260. The present
invention preferably employs each of the
twisted-pair conductors as a rail by which to
deliver DC power to the equipment 260.
Ex. 1003, 37:19-28 (emphasis added). In other words,
Hunter teaches generally that the 10Base-T bus can
deliver DC power over the same two twisted pair
conductors used to transmit data. Id. at 21:22-29,
37:19-28. We, therefore, do not read Hunter as
teaching that the 10Base-T bus can only carry DC
power with ISDN signals. Rather, as discussed above,
Hunter indicates that isoEthernet and ISDN are just
alternatives to a preferred embodiment that uses
10Base-T. Ex. 1003, 21:17-21 (“also compatible with
. . . isoEthernet®”); id. at 26:3-11 (“also compatible
with . . . isoEthernet®”); id. at 39:15-16 (“compatible
with ISDN standards”).
Patent Owner contends Petitioner has not shown
that the terminal equipment is configured “to draw
different magnitudes of DC current flow via the at
least one path . . . to convey information about” the
recited equipment or device. PO Resp. 47-50. Patent

App.324a
Owner argues that Bulan’s current “information”
cannot be about the terminal equipment (TE) because
Bulan is separate from the TE and cannot convey
information about itself. Id. at 48-49 (citing Madisetti
Decl. ¶¶ 110, 112; id. at 48, Petition Figure 3 (illustrating the combined Bulan and Hunter circuit)).
Patent Owner contends that “Bulan describes a
circuit in the hub-not the terminal equipment-that
manipulates the voltage applied to a generic, unknown,
terminal device if it contains a DC-DC converter.” Id.
at 49 (citing Madisetti Decl. ¶ 113.)
We are not persuaded that the Hunter and Bulan
combination does not convey information about a
terminal device as recited in independent claims 1
and 104. The claims only require “at least one of the
magnitudes of the DC current flow to convey information about” the “Ethernet terminal equipment” or
the “end device.” In one Bulan example, the current
drawn by the TE may exceed the static limit and
dynamic limit. See Pet. 32. Information about the TE
is conveyed which may be a permitted current surge
required to initiate operation of the TE or the presence
of an “unintended operational fault[]” which is
suppressed by adding a high impedance to the path.
Id. (citing Ex. 1004, col. 1, ll. 60-62, col. 1, ll. 28-29,
Abstract, col. 3, ll. 5-6). Bulan’s iterative process “as
a whole conveys information about the electrical
design and state of the TE.” Id. at 33 (citing Ex.
1004, col. 7. ll. 7-14, Fig. 7).
We are not persuaded that Hunter shows interconnecting “hubs” and not Ethernet terminal devices.
As discussed above we find that the recited “terminal
equipment” or “end device” includes Integrated Services
Terminal Equipment (ISTE) card 260 and may also

App.325a
may include Voice Instrument 299 or other similar
attached terminal devices envisioned by Hunter’s
system. We find that a person of ordinary skill would
understand the hubs described in Hunter and the PC
each connect to Multimedia Hub 120 (Ex. 1003, Fig.
1) “to a telephone and each have an ISTE Card to
separate LAN data from voice data as shown in
Figure 2.” Pet. Reply 16 (citing Second Crayford Decl.
¶ 74). We find that a person of ordinary skill “would
understand the hubs themselves could include power
sources for phantom powering associated devices.” Id.
(citing Ex. 1003, 19:2-7).
4. Claim 104 and Dependent Claim 103
Petitioner contends that “[c]laims 1 and 104 recite
identical language, except that claim 104 refers to a
‘powered-off end device’ instead of the ‘piece of Ethernet
terminal equipment’ in claim 1.” Pet. 41. Claim 103
depends from claim 1, among other claims, and
recites the same “powered-off” limitation present in
independent claim 104. Id. at 41-42. We address
claims 103 and 104 immediately below.
Claim 103 depends from claim 1 and multiple
other dependent claims, additionally reciting “wherein the piece of Ethernet of terminal equipment is a
piece of powered-off Ethernet terminal equipment.”
Independent claim 104 is identical to claim 103,
including claim 1 limitations, differing in that the
device claimed is “a powered-off end device” instead
of “powered-off Ethernet terminal equipment.” We
interpreted “powered off” to mean “without operating
power.” See Section II.A.4 above. Because of their
similarity, Petitioner references its showing for claims

App.326a
1 and 103 (discussed below) for its showing regarding
claim 104. Pet. 41-42.
With respect to claim 103, Petitioner asserts
Bulan regulates the initial inrush current needed to
start the TE’s DC-to-DC converter (DC-DC). Pet. 40
(citing Ex. 1004, col. 1, ll. 52-62, col. 7, l. 78, Fig. 7).
Because the TE cannot draw operating power until
the DC-DC has started, Petitioner asserts the TE is
“powered-off,” as we construed the term, throughout
all of the iterations of the Bulan procedure previously
described. Id.; see also First Crayford Decl. ¶¶ 134138 (detailing Bulan’s process). Petitioner further
contends both Hunter and Bulan refer to the uses of
DC-DC and it would have been obvious that the TE
would require a DC-DC to “convert the phantom
power supplied by the Hub into power suitable for
operating the TE.” Pet. 40 (citing Ex. 1003, 38:28-39:8;
Ex. 1004, col. 1, ll. 52-56); see also id. at 41 (citing
Ex. 1004, col. 1, ll. 57-62, col. 7, ll. 7-14, Fig. 7).
Petitioner argues that only once the DC-DC has
complete startup does the TE receive operating power
and draw “normal operating current.” Id. at 41 (citing
Ex. 1004, col. 1, ll. 57-62, col. 2, l. 2, col. 6, l. 65-col. 7,
l. 14, Fig. 7). Petitioner concludes “the TE is ‘poweredoff’ throughout all of the iterations of the Bulan
procedure.” Id.
Patent Owner argues Petitioner has not shown
that the claims meet the limitations that recite a
“powered-off device,” including claims 103 and 104.
PO Resp. 56-57. According to Patent Owner, Petitioner’s showing relies on Bulan for its teaching of
“applying operating power to the DC-DC converter,
which is part of the end device: ‘A typical TE includes
a direct current to direct current (DC to DC[)]

App.327a
converter.’” Id. at 57 (citing Ex. 1004 col. 1, ll. 52-56).
Patent Owner concludes that Bulan is continuously
applying operating power to the DC-DC converter
which is a piece of the “Ethernet terminal equipment,”
and is not “powered off.” Id. (citing Madisetti Decl.
¶ 141).
Patent Owner cites to an annotation of Bulan’s
Figure 7 (Response Figure 3) as supporting its position that Bulan’s “control current apparatus” activates
only when more than the normal operating current is
applied to the device. PO Resp. 58 (citing Madisetti
Decl. ¶ 143). Patent Owner concludes that even the
DC-DC converter is part of the TE and even if the TE
is otherwise not operating the claim limitation of
“powered-off” is met because “at least via its DC-DC
converter-[it] is drawing operating power, and therefore
is not “powered-off” under the Board’s claim construction.” Id. at 59-60 (citing Madisetti Decl. ¶ 146; see
also First Crayford Decl. ¶ 136 (citing Ex.1004, col. 1,
ll. 52-56 (“A typical TE includes a . . . DC to DC
converter”)).
We construed “powered-off” to mean without
operating power but that some power may be applied
to the “remote module” and it may still be “poweredoff.” The TE cannot draw sufficient power “to
operate/perform its functions until the DC-DC
component has completed its startup,” at the end of
the iterative Bulan procedure. Pet. Reply 24 (citing
Pet. 39-42, 11-13, 16-24, 28-30). We are not persuaded
that when a component of a TE receives power that
the TE has “operating power.” See Second Crayford
Decl. ¶ 97 (for example, a VCR does not receive “operating power” when a display is on). This conclusion
follows from the Specification, which explains that as

App.328a
between the central module and the remote module
attached to the equipment to be monitored, the
remote module is always powered. Ex. 1001, col. 3, ll.
27-30, col. 5, ll. 39-58.
We find that Petitioner has shown that the TE is
“powered-off” when the “remote module” described in
the Specification receives operating power while the
TE (i.e., PC) does not. See Pet. Reply 26-27. We are
not persuaded by Patent Owner’s argument that,
when just the DC-DC converter receives power, the
TE has operating power. We find that the “poweredoff” limitation is shown by the combination of Hunter
and Bulan and the TE may be “powered-off” even
when the DC-DC converter has operating power.
5. Dependent Claims 5 and 31
Petitioner’s showing on claims 5 and 31 is found
at pages 33 through 35 of the Petition and paragraphs
119 through 123 of the First Crayford Declaration.
Petitioner’s stated reasons for modifying Hunter with
respect to claim 1 also apply to all the dependent
claims. See Pet. 10-15. Claims 5 and 31 both depend
from claim 1. Each recites a further limitation on the
“Ethernet terminal equipment” of claim 1.
Claim 5 requires “BaseT Ethernet communication
signals.” Petitioner relies on its showing for limitation [b] of claim 1 for “10Base-T” or “100Base-T” as
its showing. Pet. 33; First Crayford Decl. ¶ 119
(referring to ¶ 101 on limitation 1 [b], “twisted-pair
Ethernet (e.g., 10Base-T or 100Base-T) . . . two twisted
pairs []are used to carry both power and Ethernet
communication signals[].”).

App.329a
Patent Owner argues that Petitioner’s reliance
on Ethernet in general does not disclose the 10BaseT or 100Base-T standards. PO Resp. 54 (citing Pet.
26. We are persuaded that Hunter discloses both
Ethernet® and “BaseT Ethernet communication
signals” as recited in claim 5. Pet. Reply 11 (citing
Pet. 24-26); see also Section II.C.3 above (Hunter
discloses 10Base-T, 100Base-T4, and isoEthernet standards). We credit the First Crayford Declaration that
regardless of the type of twisted-pair Ethernet, 10BaseT or 100Base-T, Hunter discloses Ethernet communications. First Crayford Decl. ¶ 100 (citing Ex. 1001,
claim 3). We find Hunter shows the 10Base-T and
100Base-T recitations in claim 5 because 10Base-T
and 100Base-T are twisted pairs, as Dr. Madisetti
testifies. Madisetti Decl. ¶ 134. We construed 10Base-T
and 100Base-T to mean “twisted pair Ethernet in
accordance with the 10BASE-T or 100BASE-T
standards.” See Section II.A.3 above. Patent Owner
does not contest that construction. See PO Resp. 18.
Claim 31 requires that the “DC current” recited
in claim 1 is within “a predetermined range of
magnitudes.” Petitioner cites to Bulan examples,
including that current will rise from zero to the
“static limit” or above or, in another example, fall to
the static limit to trickle level and finally to zero. Id.
at 33-34 (citing Ex. 1004, col. 1, ll. 57-65, col. 3, ll. 325, col. 6, ll. 36-58, col. 7, ll. 3-4 (“falls to less than
the static threshold”), col. 7, ll. 11-13: First Crayford
Decl. ¶ 120).
6. Dependent Claims 43 and 111
Petitioner’s showing on claims 43 and 111 is
found at pages 35 through 36 and 42 of the Petition

App.330a
and paragraphs 124 and 140 of the First Crayford
Declaration. Claim 43 depends from claim 1 and
recites “wherein the information to distinguish the
piece of Ethernet terminal equipment from at least
one other piece of Ethernet terminal equipment.”
Petitioner relies, in part, on its showing with respect
to limitation [g] of claim 1, which is similar to claim
43.18 See Pet. 35; Section II.C.3.a above. Claim 43
differs from limitation [g] of claim 1 in that the
“information” must be capable of distinguishing
between at least two different pieces of Ethernet
terminal equipment. See n.19. Petitioner relies on
Bulan’s “procedure iterations as a whole distinguishes
the TE from other TE’s which would have a different
pattern.” Pet. 36 (citing Ex. 1004, col. 7, ll. 11-14
(“This may happen several times, as may be peculiar
to the particular terminal equipment being connected
to the line.”); First Crayford Decl. ¶ 124). Claim 111
depends from claim 104 and recites the same subject
matter as claim 43 for a “powered-off end device”
instead of “Ethernet terminal equipment.” Petitioner
relies on its showing regarding claim 43 (see above).
Id. at 42 (citing First Crayford Decl. ¶ 140).
Patent Owner argues that none of the Petitioners’ arguments or supporting evidence show the
“distinguish” limitation recited in claims 43, 111, and
103. PO Resp. 50-51 (citing Pet. 35-36). Patent Owner
lists the four examples cited in the Petition: inrush
current, trickle current, a decline in trickle current to
18 Limitation [g] of claim 1 recites “wherein at least one of the
magnitudes of the DC current flow to convey information about
the piece of Ethernet terminal equipment” instead of “at least
one other piece of Ethernet terminal equipment” of claim 43.
Emphasis added.

App.331a
zero, and Bulan’s iterative procedure as a whole. Id.
Patent Owner repeats the argument we addressed
above regarding distinguishing information in general.
See Section II.C.3 above. Specifically to the instant
issue, Patent Owner argues “none of Petitioners’ four
examples distinguishes one Ethernet terminal/end
device from another Ethernet terminal/ end device.”
PO Resp. 51-52 (citing Madisetti Decl. ¶¶ 118, 119).
We find Petitioner has shown that, with respect
to these apparatus claims, the Bulan circuit at least
has the capability of distinguishing, and does distinguish, one piece of Ethernet equipment from
another. See Schreiber, 128 F.3d at 1475-77. As
discussed above in connection with claim 1, we are
persuaded that Bulan’s “procedure iterations as a
whole distinguishes the TE from other TE’s which
would have a different pattern.” Pet. 36 (quoting Ex.
1004, col. 7, ll. 11-14 (“This may happen several
times, as may be peculiar to the particular terminal
equipment being connected to the line.”) (emphasis
added); First Crayford Decl. ¶ 124). We find that
“Hunter states that the Hub can include a protective
device for each TE.” Pet. Reply 20-21 (citing Ex.
1003, 42:21-23; Second Crayford Decl. ¶ 87). If an
operational fault occurs, the Hub will cease providing
power to the affected TE only. Pet. 21-24. We agree
with Petitioner and find that “the Hub differentiates
TEs from one another based on the detected magnitudes
of current within the path for each TE.” Pet. Reply 21
(citing Pet. 31-33, 35-36; 21-24; First Crayford Dep.,
118:10-119:18, 126:21-127:9).

App.332a
7. Dependent Claim 70
Petitioner’s showing on claim 70 is found at
pages 36 through 37 of the Petition and paragraphs
125 through 128 of the First Crayford Declaration.
Claim 70 depends from claim 1 and recites “current
for a first interval followed by a second magnitude of
DC current for a second interval, wherein the second
magnitude is greater than the first magnitude.”
Relying on the First Crayford Declaration, Petitioner
shows that “[t]here are several intervals in which the
DC current would comprise a second magnitude that
is greater than the magnitude comprised in some
previous interval.” Pet. 36-37 (citing First Crayford
Decl. ¶¶ 125-128); see also id. at 37 (citing Ex. 1004,
col. 6, ll. 36-51, col. 6, ll. 53-58, col. 7, ll. 7-13)
(switching a high impedance into a path and static
and dynamic current limits).
8. Dependent Claims 72 and 123
Petitioner’s showing on claims 72 and 123 is
found at pages 38 and 42 of the Petition and paragraphs 129 and 141 of the First Crayford Declaration.
Claim 72 depends from claim 1 and recites “wherein at
least one magnitude of the DC current is part of a
detection protocol.” Petitioner argues “[t]he different
magnitudes of DC current flow as relied on in Claim
1(e) and (g) are part of a detection protocol.” Pet. 38
(First Crayford Decl. ¶ 129; see above regarding
limitations [e] and [g] of claim 1). Relying on the
cited First Crayford Declaration, Petitioner asserts
the “detection protocol” of Bulan detects “whether the
TE is experiencing an overcurrent condition, and to
then further detect and distinguish between overcurrent conditions caused by a TE’s DC-DC starting

App.333a
up and overcurrent conditions caused by unintended
operational faults.” Id. Petitioner concludes that
Bulan removes the high impedance for startup but
not for unintended faults and “this detection protocol
is central to Bulan’s purpose.” Id.
Claim 123 depends from claim 104 and recites
the same subject matter as claim 72 for a “poweredoff end device” instead of “Ethernet terminal equipment.” Petitioner relies on its showing regarding
claim 72 (see above). Id. at 42 (citing First Crayford
Decl. ¶ 141).
Patent Owner alleges the combination does not
teach a “detection protocol” as required by claims 72
and 123. PO Resp. 56. Relying in part on its proposed
construction of “protocol,” the TE does not communicate with the circuit of Bulan but only “detects information” about the TE. Id.
In Section II.A.5 we construed “detection protocol” to mean that the claimed magnitude of DC
current must be capable of being part of a detection
protocol, which may involve, but is not limited to,
rules for making a discovery or a mutually agreed
upon method of communication. Patent Owner’s
arguments about “detection protocol” as required by
claims 72 and 123 are based on its position that a
communication back and forth must occur. See PO
Resp. 56. We are persuaded that the different magnitudes of DC current flow detected by the Bulan
circuit fall within the scope of “a detection protocol”
because the circuit detects the state of the TE. See
Pet. 38 (citing Pet. 27-29, 31-32; First Crayford Decl.
¶ 129). In addition, or alternatively, the TE components that create the different magnitudes have the
capability of being part of a protocol as recited in

App.334a
these apparatus claims. See In re Schreiber, 128 F.3d
at 1475-77. We determine, as noted above, it is not
necessary that there be bi-directional communication
as Patent Owner proposes in its claim construction.
9. Dependent Claims 74 and 75
Petitioner’s showing on claims 74 and 75 is
found at page 38 through 39 of the Petition and
paragraphs 130 through 131 of the First Crayford
Declaration. Claim 74 depends from claim 1 and
recites “wherein the at least one path comprises an
electrical component.” Petitioner relies on the current
path through the Bulan’s current control apparatus,
which includes “various electrical components,” such
as resistors 40 and 48 in Figure 3. Pet. 38 (citing Ex.
1004, col. 4, ll. 49-50, col. 4, ll. 60-65, Figs. 2, 3; First
Crayford Decl. ¶ 130). This showing is also cited by
Petitioner for claim 75, which depends from claim 74
and recites that the electrical component is a resistor.
Id. at 39.
Patent Owner argues the “ISTE card” hub “Connector on ISTE” 297 of Hunter identified as the
contacts for the path does not disclose a “resistor” in
the path. PO Resp. 52, 53 (citing annotated Fig. 2 of
Hunter; Pet. 26-27), 54 (citing Madisetti Decl. ¶¶ 131132).
The claimed “at least one path” comprises an
“electrical component” per claim 74 and the component is a resistor per claim 75. Patent Owner does
not contest claim 74 but argues that the resistor of
claim 75 is not in the recited path. Patent Owner
argues the path is as shown in its Response. PO
Resp. 53-54 (citing Madisetti Decl. ¶ 131). We find
that the “at least one path” as proposed by Petitioner

App.335a
in the Hunter and Bulan combination is as shown in
Petitioner Figure 3, which is shown and discussed at
pages 14 through 15 of the Petition. See Pet. Reply
22 (reproducing Petition Figure 3). The path relied
on by Petitioner shows a resistor 40 in the current
sensor. See Pet. 38 (citing Bulan col. 4, ll. 49-50).
10. Dependent Claim 83
Petitioner’s showing on claim 83 is found at page
39 of the Petition and paragraph 132 of the First
Crayford Declaration. Claim 83 depends from claim 1
and recites “wherein the piece of Ethernet equipment
comprises a controller.” Petitioner argues that Ethernet terminal equipment commonly includes “a network
controller to execute network protocol(s) needed by
the device (e.g., Ethernet, IP).” Pet. 39 (citing Ex.
1003, 10:12-14; First Crayford Decl. ¶ 132).
11. Dependent Claim 125
Petitioner’s showing on claim 125 is found at
page 42 of the Petition and paragraph 142 of the
First Crayford Declaration. Claim 125 depends on
claims 104 through 124 and recites “wherein the
powered-off end device is a powered-off Ethernet end
device.” Petitioner challenges claim 125 to the extent
it depends on claims 104, 111, and 123. Pet. 42
(heading n). Petitioner relies, among other things, its
showing regarding claim 1’s recitation of an “Ethernet terminal equipment.” Pet. 42 (citing First Crayford
Decl. ¶ 142).

App.336a
12. Rationale for the Hunter and Bulan
Combination
Petitioner advances several reasons to combine
Hunter and Bulan, primarily based on their interrelated teaching. Pet. 10-14. Petitioner argues both
Hunter and Bulan are directed to systems for
phantom powering network terminal equipment. Id.
at 10 (citing Ex. 1003, Abstract, 36:12-15, Fig. 2; Ex.
1004, col. 4:7-10, Fig. 1). Petitioner argues “Hunter
and Bulan disclose similar terminal equipment that
could be phantom powered, and similar levels of DC
voltage.” Id. at 10-11 (citing Ex. 1003, 23:19-21, 23:9;
Ex. 1004, Abstract, col. 1, ll. 49-50; First Crayford
Decl. ¶ 67).
Petitioner further argues “Bulan is intended to
provide a superior replacement for the ‘typical current
limiting circuit’ in such phantom powering systems,
and Hunter employs just such a current limiting
circuit: i.e., its ‘protective device 213.’” Pet. 11 (citing
Ex. 1004, col. 1, l. 65-col. 2, l. 14; Ex. 1003, 38:12-15).
The current control circuit of Bulan would, according
to Petitioner, replace Hunter’s protective device 213.
Id. (citing Ex. 1003, 38:15-19 (protective device protects
from “overcurrents that may damage” the “power
supply 210 and the bus”); First Crayford Decl. ¶ 68).
Petitioner notes that “Bulan criticizes the ‘typical current limiting circuit’ as ‘inappropriate for
operation throughout the whole current load regime’”
because it fails to distinguish between operational
faults and a normal power up event in a TE that
contains a DC-DC. Pet. 11 (citing Ex. 1004, Abstract,
col. 1, ll. 26-31, col. 1, l. 52-col. 2, 1; First Crayford
Decl. ¶ 69). According to Petitioner, this is in part
because the “typical current limiting circuit” either

App.337a
sets a current limit so low that startup cannot occur
or so high that a fault will draw excessive current
jeopardizing the operation of the power circuit. Id. at
11-12 (citing Ex. 1004, col. 1, l. 66-2:8; First Crayford
Decl. ¶ 71). Petitioner argues “Hunter’s protective
device 213 suffers from the deficiency identified in
Bulan.” Id. at 12 (citing Ex. 1003, 38:12-19; First
Crayford Decl. ¶ 71).
Based on the preceding, Petitioner argues
replacement of the protective circuit of Hunter with
Bulan’s current control circuit would be a “particularly straightforward task” for the person of ordinary
skill in the art who would have had “a more than
reasonable expectation of success, since the Bulan
appartus is intended to simply replace prior art
current limiting circuits without further modification.”
Pet. 13 (citing Ex. 1004, col. 2, ll. 23-26; Ex. 1003,
Fig. 2 (showing protective device 213); First Crayford
Decl. ¶ 74). Petitioner argues both Hunter and Bulan
“assume there is a separate protective device in the
Hub to regulate the current to each separate TE,
making the combination a simple one-for-one replacement.” Id. at 13-14 (citing Ex. 1003, Fig. 2 (“protective
device 213 in series to single remote ‘ISTE’”); Ex.
1004, Fig. 1 (“each ‘NT1’ in Hub connected to a single
remote TE device”), col. 4, ll. 17-25 (“‘Each of the
NT1s includes a line interface circuit’ that includes
the current control apparatus of the invention.”).
Petitioner concludes that “[i]n the combined
system, Bulan’s current control apparatus simply
replaces the existing ‘protective device 213’ of Hunter,
and DC current and power continue to flow through
the phantom power circuit unchanged.” Pet. 14. The

App.338a
combined system of Hunter and Bulan would be as
shown in Petition Figure 3, reproduced above.
Patent Owner first contends that Petitioner does
not show a sufficient rationale for a person of ordinary skill in the art to combine the references as
Petitioner proposes. PO Resp. 18-31. Patent Owner’s
argument depends on the premise that the invention
of the ’107 patent is limited to equipment networked
over pre-existing wiring or cables. Id. at 19 (citing
Pet. 3; First Crayford Decl. ¶ 42 (“pre-existing wiring
or cables that connect pieces of networked computer
equipment to a network”)). The specification and
claims of the ’107 patent, however, do not support
that premise. The specification of the ’107 patent
states that “[t]his invention is particularly adapted to
be used with an existing Ethernet communications
link.” Ex. 1001, 3:40-42. This portion of the ’107
patent indicates that the system of the ’107 patent,
while particularly suited for use with an existing
Ethernet network, is not limited to such a use. Id. We
also note that Patent Owner does not direct us to
specific evidence indicating that the system taught
by the combination of Hunter and Bulan is limited to
Ethernet equipment networked over pre-existing wiring
or cables, let alone to billions of nodes. See PO Resp.
19-20.
Moreover, even if we accepted Patent Owner’s
premise, Patent Owner’s argument still is not persuasive. Patent Owner first argues that, “at the time
of the invention, an ordinary artisan would not have
had a reason to apply telephone-based phantom

App.339a
operating power to Ethernet terminal equipment.”19
PO Resp. 19 (heading A), id. at 19-21. In Section
II.C.3 above, we find Hunter discloses Ethernet
terminal equipment and Ethernet communications.
Thus, we find this argument unpersuasive and we
give little weight to the unsupported testimony in the
Madisetti Declaration that Hunter is “a phone system (not an Ethernet system).” See PO Resp. 19 (citing
Madisetti Decl. ¶ 43); 37 C.F.R. § 42.65(a) (failure to
disclose “underlying data or facts . . . entitled to little
or no weight.”).
Patent Owner contends that “Petitioners’ proposed telephone-based phantom-power combinationsunaltered, as proposed-in an existing Ethernet network
would have burned out the existing Bob Smith
terminations”20 resulting in impaired and degraded
propagation of Ethernet data. PO Resp. 20 (citing
Madisetti Decl. ¶ 45; First Crayford Dep. 45:10-21).
We find that the ’107 patent does not describe or
discuss BSTs or CMCs in the described network or in
the claims. See Pet. Reply 2; supra n.21. We are not
persuaded of the relevance of these terminations,
which are a design issue and are not a part of the
10BASE-T standard issued by IEEE. Madisetti Dep.,
142:20-143:12; Pet. Reply 2. Finally, we credit the
Second Crayford Declaration and find that a person
19 This argument and the next argument are asserted as to the
combination of Hunter and Bulan and the combination of Bloch,
Huizinga, and IEEE 802.3, which is discussed in section II.D
below. See PO Resp. 19 (heading A).
20 Network nodes have “Bob Smith terminations” (BST) in
existing terminal equipment and common mode chokes (CMC).
PO Resp. 19 (citing First Crayford Dep. 43:20-44:2, 45:6-8,
195:3-196:3; Madisetti Decl. ¶ 42).

App.340a
of ordinary skill would know how to design a circuit
considering BSTs and CMCs without damage to the
circuitry as well as satisfying FCC emissions requirements without them. Second Crayford Decl. ¶¶ 2226.
Patent Owner argues that “[w]hen an unused pair
of contacts is available-as in Ethernet-an ordinary
artisan would have supplied power over the unused
pairs, not the data pairs as Petitioners assert.” PO
Resp. 22-31; see n.20 (argument applies to both
grounds). Patent Owner argues that “[n]either Hunter
nor Bloch teach how to supply phantom power and
Ethernet data over the same wires to Ethernet
terminal equipment without affecting the Ethernet
data.” PO Resp. 22 (citing Madisetti Decl. ¶ 49).
Further, Hunter teaches a third wiring pair for power
that does not carry data, making it easier to keep the
two separate. Id. at 22 (citing Ex. 1003, col. 19, ll. 2022; Madisetti Decl. ¶ 51; Pet. 47). Patent Owner
argues a “motivating reason” to use wires other than
data pairs is that using the data pairs will disrupt
the data propagation. Id. at 23 (citing Crayford Dep.
138:16-139-11; Madisetti Decl. ¶ 50).
Patent Owner’s argument is not persuasive.
Hunter teaches a 10Base-T bus that includes only
two twisted pairs of conductors, both of which are
used to transmit data. Ex. 1003, 37:19-28. Thus,
contrary to Patent Owner’s argument, the 10Base-T
bus in Hunter does not include any unused lines. Id.
Further, Hunter teaches delivering DC power over
the same lines of the 10Base-T bus used to transmit
data (see supra Section II.C.1) because it “has the
advantage of not requiring the installation of a dedicated power cable” (Ex. 1003, 17:13-26). Hunter even

App.341a
addresses Patent Owner’s alleged concerns about
interference by explaining that “a careful phantom
power scheme must be implemented to avoid problems
that may arise due to interactions between the power
and the data.” Id. Thus, although alternative ways of
providing operating power to Ethernet terminal
equipment may have existed (PO Resp. 22-23), that
does not detract from the express teachings of Hunter.
See In re Mouttet, 686 F.3d 1322, 1334 (Fed. Cir.
2012) (“[J]ust because better alternatives exist in the
prior art does not mean that an inferior combination
is unapt for obviousness purposes.”); In re Fulton,
391 F.3d 1195, 1200 (Fed. Cir. 2004).
Patent Owner then argues experts were skeptical that data pairs could be used to deliver operating
power to terminal equipment “without disrupting the
data propagation.” PO Resp. 26 (citing Madisetti
Decl. ¶ 56). Patent Owner cites to an IEEE 802.3
committee in January of 2000 which “concluded that
the unused pairs should be used, not the datacarrying pairs.” Id. at 26-27 (citing Madisetti Decl.
¶¶ 57-67; see also Exs. 2040-2046 (IEEE documents,21
e.g., Ex. 2040, 2-3 (reasons to use “idle pair” for
power)). In July of 2000, a Power over Ethernet (PoE)
committee meeting of IEEE resulted in considering
applying power over data lines. Id. at 28-29 (citing
Ex. 2045, 1). At this meeting, two Cisco engineers
shared their finding, after “250 hrs of investigation,”
that sending common mode power on the signal pairs
was found technically feasible. Id. (citing Ex. 2046, 2).

21 Authenticated by Ex. 2048, Declaration of Clyde Camp. PO
Resp. 27.

App.342a
That in 2000 the IEEE committee considered
separating data and power as an Ethernet Standard
does not address the converse that using the same
wire for data and power would not work in an
Ethernet network. PO Resp. 27 (citing Ex. 2041, 3).
Further, although Patent Owner’s evidence indicates
that some IEEE committee members were in favor of
adopting an Ethernet standard in which operating
power was delivered over unused lines, Petitioner
identifies evidence indicating that other committee
members were in favor of using phantom power as
the Ethernet standard. Pet. Reply 6-7 (citing Second
Crayford Decl. ¶¶ 36-44; Ex. 1037, 3 (“Current will
be injected via the center taps using a Phantom
Power method on the TX and RX pairs.”)); see also
Ex. 1040, 3 (“Power over signal pairs allows easier
integration of discovery & power control circuitry
onto the PHY.”). In any event, as noted above, the
fact that an alternative way of providing operating
power to Ethernet terminal equipment existed and
was considered for an IEEE standard does not detract
from the express teachings of Hunter. See In re
Mouttet, 686 F.3d at 1334; In re Fulton, 391 F.3d at
1200. Moreover, we note that, even if Patent Owner’s
evidence indicates some amount of skepticism, we
determine that it does not outweigh the strong evidence
of obviousness presented by Petitioner and discussed
in this Decision. See In re Cyclobenzaprine Hydrochloride Extended-Release Capsule Patent Litigation,
676 F.3d 1063, 1079 (Fed. Cir. 2012).
Patent Owner further argues a person of ordinary skill would not have combined Hunter and Bulan
because Hunter describes a “preferable” protection
circuit and adding Bulan would raise undesirable issues

App.343a
of complexity. PO Resp. 41-45. Patent Owner argues
the problem solved by the Bulan circuit was not a
common problem. Id. at 42-43 (citing Ex. 2049,22 col.
2, ll. 26-28; Madisetti Decl. ¶ 82). Hunter discloses a
thermistor or polyfuse to protect both the power
supply and the bus that includes conductors from
overcurrents that may damage either one of them.
Ex.1003, 38:15-19. Because it already had a “preferred”
protection circuit, Patent Owner argues there is no
“evidence that Hunter had the ‘problem’ that the
complex Bulan circuit allegedly solves.” PO Resp. 42
(citing Madisetti Decl. ¶ 82), id. at 43 (citing Crayford
Dep., 126:21-127:9 (24 circuits of Bulan for every
Hunter hub)).
We agree with Petitioner that “Bulan is intended
to provide a superior replacement for the ‘typical
current limiting circuit’ in such phantom powering
systems, and Hunter employs just such a current
limiting circuit: i.e., its ‘protective device 213.’” Pet.
11 (citing Ex. 1004, col. 1, l. 65-col. 2, l. 14; Ex. 1003,
38:12-15). Even assuming Bulan addresses a problem
that was not common, a person of ordinary skill
would have employed Bulan’s current protection circuit
in Hunter’s circuit, replacing Hunter’s simpler current
limiting component, in order to provide similar
protection while adding a beneficial mechanism to
distinguish start-up currents from fault currents, as
Bulan expressly teaches. Ex. 1004, Abstract, col. 2, ll.
1-14. Obviousness does not require using the simplest
or best approach when a reference expressly teaches

22 Michael James Turner, U.S. Patent No. 5,995,392, issued
November 30, 1999 (“Turner,” Ex. 2049).

App.344a
a reason why a person having ordinary skill would
make the proposed combination.
13. Summary Hunter and Bulan
On this record and for the reasons stated in the
Petition and summarized above, Petitioner’s arguments
and supporting evidence have shown by a preponderance of the evidence that claims 1, 5, 31, 43, 70,
72, 74, 75, 83, 103, 104, 111, 123, and 125 of the ’107
patent would have been obvious over Hunter and
Bulan.
D. Obviousness over Bloch, Huizinga,23 and
IEEE 802.3
Petitioner alleges claims 1, 5, 31, 43, 70, 72, 74,
75, 83, 103, 104, 111, 123, and 125 would have been
obvious to the person of ordinary skill in the art over
Bloch, Huizinga, and IEEE 802.3. Pet. 7, 42-66.
Petitioner cites the Crayford Declaration in support
of its positions. See Ex. 1002 ¶¶ 143-195. Based on
Petitioner’s arguments and supporting evidence, we
find Petitioner has made its case by a preponderance
of the evidence and adopt the Petitioner’s reasoning
and factual assertions as our factual findings as
summarized and discussed below.
23 Huizinga is not independently relied on in the challenge. See
PO Resp. 31-32, n.8; see also Tr. 197:19-198:16 (Petitioner
agrees, noting Bloch cites Huizinga, which further explains bidirectional communication). The Petition does rely on Huizinga
in conjunction with claim 43. Pet. 60 (“Huizinga confirms this
point”). Patent Owner does not argue the de minimus use of
Huizinga as a basis for denial of the Petition and we decline to
do so independently. Also, Petitioner may rely on the reference
to support its view of the state of the art.

App.345a
1. Bloch (Exhibit 1005)
Bloch is a communication system consisting of a
control unit and a terminal unit connected by four
conductors that form a communication channel between
the two units. Ex. 1005, Abstract, col. 1, ll. 9-13, Fig.
1. A “phantom circuit arrangement” is disclosed
which allows the control unit to supply power to the
terminal unit “over the same four conductors” used
for the communication channel. Id. Figure 1 of Bloch
is reproduced below.

App.346a

App.347a
Figure 1 is a block diagram of the circuit arrangement of Bloch. Ex. 1005, col. 4, ll.7-13, col. 4, ll. 4652. A terminal unit 20 is connected to control unit 10
with two conductor pairs, conductor pair 1 and 2 and
conductor pair 3 and 4. Id. at col. 4, ll. 46-48.
“Connected to both conductor pairs 1,2 and 3, 4 at
each end is circuitry necessary to create a complete
communication channel.” Id. at col. 5, ll. 3-5. This
circuitry includes two transformers at each unit,
which are connected to information receivers and
generators for receiving and generating voice signals,
such as microphones and speakers. Id. at col. 5, ll. 511.
The control unit and terminal unit include
circuitry for supplying power from a DC voltage
source in the control unit to the terminal, and for bidirectional data signaling between the units over the
same two pairs of conductors that form the communication channel. Ex. 1005, Abstract, col. 2, ll. 53-61,
col. 5, ll. 20-30. In the phantom pair circuit arrangement “[a] d.c. voltage source is connected at the
control unit to the phantom pair circuit arrangement.” Id. at col. 3, ll. 17-19. “Power is supplied from
the control unit 10 to the terminal 20 by applying d.c.
current from the d.c. sources 10, 12 via the phantom
circuit to terminal 20.” Id. at col. 6, ll. 3-5.
The terminal unit may send various types of
status data by modulating its internal impedance to
fluctuate the terminal unit’s current draw and transmit different magnitude current pulses to the control
unit over the phantom circuit. Ex. 1005, col. 3, ll. 2833, col. 5, l. 44-col. 6, l. 2. The current pulses, which
are detected by a receiver in the control unit, may
provide the control unit “information with respect to

App.348a
the status of different elements of terminal 20.” Id. at
col. 3, ll. 33-36, col. 5, l. 56-col. 6, l. 2. In response to
the current pulses, the control unit may send data (in
the form of voltage pulses) to control the terminal
unit. Id. at col. 6, ll. 25-49, col. 11, ll. 1-5. The
terminal unit receives this control data and applies it
“to logic circuits in the terminal for controlling various
circuits and equipment within the terminal.” Id. at
col. 5, ll. 35-38, col. 10, ll. 34-40.
2. Huizinga (Exhibit 1009)
Huizinga is an electronic key telephone station
set having line selection buttons. Ex. 1009, Abstract.
Data is exchanged over leads between a station set
and an interface controller. Id. at col. 3, ll. 14-17. A
common control network effects the exchange of data
via a path established by a cross-connection network.
Id. at col. 3, ll. 17-20. In response to receiving signals
indicating actions taken by a user with respect to
buttons, the interface controller may send data to the
station to set “LED lamp actuation.” Id. at col. 4, ll.
27-29.
3. IEEE 802.3 (Exhibits 1006, 1007, 1008)
“Ethernet” is syntax for “IEEE Std 802.3.” Ex.
1008, 350. IEEE 802.3 teaches 10BASE-T Ethernet,
which is the physical layer specification for 10Mb/s
“LAN [local area network] over two pairs of twisted
telephone wire.” Ex. 1007, 23; see also Ex. 1006, 243
(“[t]he medium for 10BASE-T is twisted pair wire.”)
(citations to exhibit pages). IEEE 802.3 discloses
Ethernet “data terminal equipment (DTE),” which it
describes as “[a]ny source or destination of data
connected to the LAN (local area network).” Ex. 1008,

App.349a
303 (Fig. 29-1, “information on building 100BASE-T
networks.”); Ex. 1006, 269 (describing 10BASE-T
equipment); Ex. 1007, 7 (describing iterations of IEEE
802.3).
4. Claim 1
Petitioner alleges limitation [a]24 is taught by
IEEE 802.3 which “discloses a piece of Ethernet
terminal equipment, namely DTEs.” Pet. 54 (citing
Ex. 1007, 27 (“Data Terminal Equipment”), 303
(Figs. 29-1 and 29-2); Ex. 1006, 243 (“networks with
. . . DTE”), 267 (“twisted-pair link connects a DTE to
a repeater.”).
Petitioner argues limitation [b] is met by the
DTE of IEEE 802.3, which accepts twisted-pair
conductors. Pet. 54-55 (citing Ex. 1006, 266, Figs. 1420, 14-21; Ex. 1007, 147, Figs. 23-26, 23-27); see also
Pet. 50 (“Petition Figure 7”). Petitioner further alleges
“[i]n the combined system, the DTE would include
the Ethernet MDI connector and the conductors (1, 2,
3, and 4) would connect to the transformers T1 and
T2 through the connector’s receive pair and transmit
pair of contacts.” Id. at 55 (citing Ex. 1005, Fig. 1; Ex.
1006, 266-67; Ex. 1007, 147; see also Ex. 1005, col. 2,
ll. 30-47 (“audio communication channels over the
four conductors”), col. 3, ll. 1-8) (“communication
channels, typically audio channels”); First Crayford
Decl. ¶ 170.

24 As we did for the challenge based on Hunter and Bulan, we
adopt Petitioner’s convention of using [] in alphabetical order to
represent the limitations of claim 1.

App.350a
For limitation [c], Petitioner, at page 55 of the
Petition, references an annotation of Figure 1 of
Bloch as “Petition Fig. 6,” which is reproduced below.

App.351a
Petition Fig. 6 includes annotations in red added
to Bloch Figure 1 reproduced above in Section II.D.1.
Pet. 45. Petitioner argues “the DTE has a path coupled
across the four contacts that connect the DTE to
conductors 1, 2, 3, 4.” Id. at 55-56 (citing Ex. 1005,
col. 6, ll. 27-40 (“‘Voltage sources 10 and 12’ are
‘connected in series so as to force current in the same
direction, that is [in] from terminal center tap connection C3’ through ‘Q2 and then through voltage
sources 12 and 10’ to ‘Q1’ and then out ‘the center tap
connection C4’”); col. 5, ll. 20-27). Petitioner then
alleges the path is for the purpose of drawing DC
current from the control unit to the DTE via the
conductors 1, 2, 3, 4. Id. at 56 (citing Ex. 1005, Fig. 1
(as annotated in Petition Fig. 6), col. 6, ll. 3-6; col. 9,
ll. 6-22; First Crayford Decl. ¶ 171).
For limitation [d], Petitioner alleges that in
Figure 1 of Bloch the center tap C1 of transformer T1
is coupled across the two contacts of one conductor
pair (1, 2). Pet. 56. Then, according to Petitioner, the
center tap C1 of transformer T2 is coupled across the
two contacts of the other conductor pair (3, 4). Id.
For limitation [e] Petitioner cites to Bloch’s DTE
which “draws different magnitudes of current flow
via the path by switching resistor [R]201 in and out
of the current path.” Pet. 57 (citing Ex. 1005, col. 5,
ll. 44-55, col. 9, ll. 6-22). Specifically, Petitioner notes
Bloch’s teaching of changing current supplied to the
phantom circuit, which equals the current through
resistor R201 connected across center-taps C1 and
C2 (see Petition Fig. 6 above) or drops if the resistor
is not in the circuit. Id. (citing Ex. 1005, col. 9, ll. 1215, First Crayford Decl. ¶ 173).

App.352a
Petitioner alleges that limitation [f], is met by
Bloch’s resistor R201 “coupled across center taps C1
and C2 of transformers T1 and T2, which connect to
the first and second pair of contacts and conductors
(1, 2, 3, 4).” Id. at 57-58 (citing First Crayford Decl.
¶ 175). Petitioner references its showing made above
in connection with limitation [e], “Ethernet terminal
equipment to draw different magnitudes of DC current
flow” limitation. Id.
For limitation [g], Petitioner again cites to
Bloch’s teaching that by “switching resistor R201 in
and out of the path, the current through the path is
modulated and generates different magnitudes of DC
current flow that are received by a Receiver 400
inside the control unit.” Pet. 58 (citing Ex. 1005, col.
5, ll. 44-59, col. 9, ll. 2-15, col. 9, ll. 37-40). Petitioner
argues the different current magnitudes “provide
information with respect to the status of different
elements of terminal 20.” Id. (citing Ex. 1005, col. 5,
l. 60-col. 6, l. 2, col. 11, ll. 1-4; First Crayford Decl.
¶ 176). One example identified by Petitioner is the
“status of line keys (i.e., whether a line is in use).” Id.
(citing Ex. 1005, col. 5, l. 64-col. 6, l. 2, col. 11, l. 1-4).
5. Claims 103 and 104
Following our construction of “powered-off,” Petitioner cites Bloch’s teaching that a DTE may be
powered off when “the DTE sends hook switch current
pulses when the DTE is hung up and not operational.”
Pet. 64-65 (citing Ex. 1005, col. 11, ll. 17-22 (“As
illustrated in FIG. 7B, during each word, short width
current pulses during time interval two, are transmitted from the telephone station set over the phantom
circuit of conductors 1,2,3,4 to the key service unit,

App.353a
whenever the hook switch is open and the speaker
phone is not operational.”). Petitioner concludes that
a person of ordinary skill in the art would have
understood that “a device that is not operational does
not draw the power it would draw when it is operational.” Id. at 65 (citing First Crayford Decl. ¶ 191).
Patent Owner’s sole argument regarding alleged
limitations not disclosed in the Bloch, Huizinga, and
IEEE 802.3 combination is that Petitioner has not
shown sufficiently that the combination discloses the
recited devices, “Ethernet terminal equipment” of
claim 103 or “end device” of claims 104, 111, 123, and
125. Patent Owner argues “Petitioners rely on Bloch,
exclusively, for these claim limitations.” PO Resp. 6061. Additionally, Patent Owner alleges “Bloch discloses
a power arrangement that always supplies operating
power to a connected terminal device.” Id. (citing Ex.
1005, col. 3, ll. 17-23; Madisetti Decl. ¶ 144).
Regarding the power arrangement, Patent Owner
notes that Petitioner’s evidence is that Bloch Figure
7B shows short width current pulses are transmitted
during a time interval over the phantom circuit of
conductors to the “key service unit” whenever “the
hook switch is open and the speaker phone is not
operational.” Id. at 62 (quoting from Pet. 64-65).
Patent Owner argues the preceding does not show
that the “end device is configured ‘to draw different
magnitudes of DC current flow via the at least one
path . . . to convey information about’ itself, without
operating power.” Id. According to Patent Owner,
just because “the speakerphone portion of a phone
may not be operating to amplify sound does not mean
that the voltage source is not applying operating
power to the end device.” Id. (citing Madisetti Decl.

App.354a
¶ 151). Patent Owner asks rhetorically how a phone
(the terminal device) rings without power. Id. at 63
(citing Madisetti Decl. ¶ 152 (phone rings only when
hook switch is on and speakerphone is off), see also
id. ¶ 153 (concluding Bloch’s device has operating
power).
We find that Bloch “teaches that the DTE draws
different magnitudes of DC current flow (hook switch
current pulses) via the at least one path . . . even when
the DTE is in an ‘on hook’ state (i.e. ‘powered off’).”
Pet. Reply 28 (citing Pet. 64-65, 55-57, 44-45 (Petition
Figure 6), 47-48). We find that only the voltage regulator 500 component shown in Petition Figure 6
receives power in the “on-hook” state. See PO Resp.
61 (stating voltage regulator of Petition Figure 6
always has operating power). The terminal 20 (Petition
Figure 6) includes other equipment. See Pet. 45
(illustrating Petition Figure 6). Dr. Madisetti testifies
that the voltage source applies power at all times,
even when the speakerphone portion is not operational.
Madisetti Decl. ¶¶ 151-153. Thus, the DTE, the phone,
otherwise is without operating power. We find the
combination and specifically Bloch discloses “powered
off” terminal equipment. Id. at 28-29 (citing PO Resp.
60-62; Second Crayford Decl. ¶¶ 102-103).
Dependent Claims 5 and 31
Petitioner’s showing on claims 5 and 31 is found
at pages 59 through 60 of the Petition and paragraphs
177 through 178 of the First Crayford Declaration.
Petitioner’s stated reasons for combining Bloch, Huizinga, and IEEE 802.3 with respect to claim 1 also
apply to the dependent claims. See Pet. 52-54, see
infra Section II.D.13. Claims 5 and 31 both depend from

App.355a
claim 1. Each recites a further limitation on the
“Ethernet terminal equipment” of claim 1.
Claim 5 requires “BaseT communication signals.”
Petitioner relies on its showing for limitation [b] of
claim 1 for “10Base-T” or “100Base-T” as its showing
Ethernet communication signals. Pet. 59; First Crayford Decl. ¶ 177. In addition, IEEE 802.3 is cited for
its teaching of “Ethernet communication signals
would be BaseT Ethernet communication signals.” Id.
(citing Ex. 1006, 4 (“Specification for MAU types. . .
10BASET”)).
Claim 31 requires that the “DC current” recited
in claim 1 is within “a predetermined range of
magnitudes.” Petitioner cites to its showing regarding
limitation [e]. Pet. 59. In addition, the predetermined
current magnitudes in Bloch change when resistor
R201 in Figure 7B is switched on or off in the path.
Id. at 59-60 (citing Ex. 1005, col. 9, ll. 12-15, col. 10,
ll. 56-65, Fig. 7B).
6. Dependent Claims Dependent Claims
43 and 111
Petitioner’s showing on claims 43 and 111 is
found at pages 60 through 61 and 65 of the Petition
and paragraphs 179 through 180 and 193 of the First
Crayford Declaration. Claim 43 depends from claim 1
and recites “the information to distinguish the piece
of Ethernet terminal equipment from at least one
other piece of Ethernet terminal equipment.” Petitioner relies, in part, on its showing with respect to
limitation [g] of claim 1, which is similar to claim 43.
See Pet. 60; Section II.D.4 above. Claim 43 differs
from limitation [g] of claim 1 in that the “information”
distinguishes between at least two different pieces of

App.356a
Ethernet terminal equipment. Petitioner relies, in
part, on Bloch’s teaching that the “current pulses
generated by the DTE ‘provide information with
respect to the status of different elements of terminal
20’ including the status of different line keys.” Ex.
1005, col. 5, ll. 61-68; First Crayford Decl. ¶ 179). Claim
111 depends from claim 104 and recites the same
subject matter as claim 43 for a “powered-off end
device” instead of “Ethernet terminal equipment.”
Petitioner relies on its showing regarding claim 43
(see above). Id. at 65 (citing First Crayford Decl.
¶ 193).
7. Dependent Claim 70
Petitioner’s showing on claim 70 is found at
pages 61 through 62 of the Petition and paragraphs
181 through 183 of the First Crayford Declaration.
Claim 70 depends from claim 1 and recites “wherein
the DC current to comprise first magnitude of DC
current for a first interval followed by a second
magnitude of DC current for a second interval, wherein
the second magnitude is greater than the first magnitude.” Petitioner cites its disclosure regarding limitation [e]. Pet. 61; see Section II.D.4. Petitioner argues
Figure 7B of Bloch “illustrates an example in which
the DTE draws a magnitude of current indicating a
‘zero’ pulse during the third interval (TI-3) of Word 1,
and a ‘one’ pulse during the fourth interval (T1-4) of
Word 1.” Id. “[T]herefore, the second magnitude of DC
current during interval TI-4 is greater than the
magnitude in the preceding interval TI-3.” Id. at 62
(citing First Crayford Decl. ¶ 182).

App.357a
8. Dependent Claims 72 and 123
Petitioner’s showing on claims 72 and 123 is
found at pages 62 through 63 and 66 of the Petition
and paragraphs 184 and 194 of the First Crayford
Declaration. Claim 72 depends from claim 1 and
recites “wherein at least one magnitude of the DC
current is part of a detection protocol.” Petitioner
argues Bloch teaches the limitation by “switching the
resistor R201 in and out of the path, the current
through the path is modulated and generates current
pulses that are received by a Receiver 400 inside the
control unit.” Pet. 62 (citing Ex. 1005, col. 5, ll. 44-57,
col. 9, ll. 6-22; First Crayford Decl. ¶ 184). Claim 123
depends from claim 104 and recites the same subject
matter as claim 72 for a “powered-off end device”
instead of “Ethernet terminal equipment.” Petitioner
relies on its showing regarding claim 72 (see above).
Id. at 66 (citing First Crayford Decl. ¶ 194).
9. Dependent Claims 74 and 75
Petitioner’s showing on claims 74 and 75 is
found at page 63 of the Petition and paragraphs 185
through 186 of the First Crayford Declaration. Claim
74 depends from claim 1 and recites “wherein the at
least one path comprises an electrical component.”
Petitioner relies on its showing regarding limitation
[e] of claim 1. Pet. 63 (citing Ex. 1005, Fig. 1; Petition
Figure 6); First Crayford Decl. ¶ 185). This showing
is also cited by Petitioner for claim 75, which depends
from claim 74 and recites that the electrical component
is a resistor. Id. (citing First Crayford Decl. ¶ 186).

App.358a
10. Dependent Claim 83
Petitioner’s showing on claim 83 is found at
pages 63 through 64 of the Petition and paragraph
187 through 189 of the First Crayford Declaration.
Claim 83 depends from claim 1 and recites “wherein
the piece of Ethernet equipment comprises a controller.”
Petitioner argues that “IEEE-95 teaches that DTEs
include hardware and software.” Pet. 63 (citing Ex.
1007, 19). Furthermore, a person of ordinary skill
“would understand that a controller, for example a
processor, is necessary to run software and to operate
over Ethernet.” Id. at 63-64 (citing First Crayford
Decl. ¶ 188).
11. Dependent Claim 125
Petitioner’s showing on claim 125 is found at
page 66 of the Petition and paragraph 195 of the
First Crayford Declaration. Claim 125 depends on
claims 104 through 124 and recites “wherein the
powered-off end device is a powered-off Ethernet end
device.” Petitioner challenges claim 125 to the extent
it depends on claims 104, 111, and 123. Pet. 66
(heading n.). Petitioner relies, among other things, on
its showing regarding claim 1’s recitation of an
“Ethernet terminal equipment.” Pet. 66 (citing Ex.
1007, 27 (DTE would be an Ethernet end device);
First Crayford Decl. ¶ 195).
12. Rationale for Combining Bloch, Huizinga,
and IEEE 802.3
We have reviewed Petitioner’s argument and
evidence that a person of ordinary skill in the art
would have been motivated to combine Bloch and
Huizinga and Bloch and IEEE 802.3. Pet. 52-54. We

App.359a
adopt Petitioner’s arguments and rationale for the
combination and are persuaded that Petitioner has
shown a person of ordinary skill would have been
motivated to combine the references.
Among other reasons, Petitioner points out that
Bloch on its face references Huizinga. Id. at 52; see
Ex. 1005 (56). Further, “[b]oth references are directed
to key telephone systems and bi-directional signaling
between station sets and controllers.” Pet. 52 (citing
Ex. 1005, Abstract; Ex. 1006, Abstract). Petitioner
also argues that the benefit of combining Bloch with
IEEE 802.3 was more than just providing bi-directional
signaling of status and control information over
Ethernet cables; the benefit was doing so without
using any bandwidth from the Ethernet communication channel. Id. at 53 (citing First Crayford Decl. ¶ 167
(“At the time of the invention, conserving bandwidth
was a known consideration and design motivation in
the prior art.”)).
Patent Owner first contends that Petitioner does
not show a sufficient rationale for a person of ordinary
skill in the art to combine Bloch, Huizinga, and IEEE
802.3 as Petitioner proposes. PO Resp. 18-31. To the
extent the arguments were made for both combinations, we refer to Section II.C.12 above.
Further, as also discussed in Section II.C.12, we
disagree with Patent Owner’s premise that the invention of the ’107 patent is limited to a pre-existing
Ethernet network (see PO Resp. 20) which is not
supported by the specification or claims of the ’107
patent. Thus, we see no reason why a person of
ordinary skill in the art would have been dissuaded
from combining the cited teachings of Bloch, IEEE
802.3-1993, and IEEE 802.3-1995 based on potential

App.360a
issues with a pre-existing Ethernet network. Moreover,
even if we accepted Patent Owner’s premise, Patent
Owner’s argument still is not persuasive because not
all pre-existing Ethernet networks included Bob Smith
terminations or common mode chokes. See PO Resp.
20; Section II.C.12 above.
Specific to the Bloch, Huizinga, and IEEE 802.3
combination, Patent Owner first argues that Bloch’s
unaltered circuitry is used in telephone systems and
the Petition fails to show why a person of ordinary
skill would combine a telephone system to Ethernet,
as disclosed in IEEE 802.3. PO Resp. 20 (citing
Madisetti Decl. ¶ 44; see also First Crayford Dep.
173:10-19 (Bloch does not disclose Ethernet terminal
equipment). That Bloch does not disclose Ethernet
communications alone is insufficient to persuade us
that a person of ordinary skill would not combine
Bloch with IEEE 802.3, which does disclose 10BASET and 100BASE-T networks in the context of Ethernet
communications. See, e.g., Ex. 1008, 303 (Fig. 29-1,
“information on building 100BASE-T networks.”); Ex.
1006, 269 (describing 10BASE-T equipment); Ex.
1007, 7 (describing iterations of IEEE 802.3). We find
that Bloch is not limited to a telephone system but
also includes “many different control unit/terminal
applications.” Pet. 53 (citing Ex. 1005, col. 4, ll. 49-52).
Patent Owner argues that a person of ordinary
skill in the art would have provided operating power
to Ethernet terminal equipment over the unused
lines in an Ethernet connection to avoid interference
with the data signals. PO Resp. 22. In particular,
Patent Owner points out that the Ethernet connector
taught by IEEE 802.3-1993 and IEEE 802.3-1995

App.361a
includes two unused pairs of conductors. Id. at 24
(citing Ex. 1006, 266-267; Ex. 1007, 147).
We are not persuaded by Patent Owner’s argument. We credit the First Crayford Declaration
testimony that a person of ordinary skill in the art
“would understand that Bloch’s phantom power circuit
could be used in a 10BASE-T (or 100Base-T) Ethernet
network with the Ethernet control and terminal
units connected over [the] same twisted pairs of
telephone wire used in the telephone system discussed
by Bloch.” First Crayford Decl. ¶ 167. Thus, a person
of ordinary skill in the art would have possessed the
background knowledge that phantom power also would
work in an Ethernet network. See Randall Mfg. v.
Rea, 733 F.3d 1355, 1362-63 (Fed. Cir. 2013). In
addition, at least two patents identified on the face of
the ’107 patent (Ex. 1001 (56)), namely U.S. Patent
No. 5,994,998 (“Fisher ’998,” Ex. 1025) and U.S. Patent
No. 6,140,911 (“Fisher ’911,” Ex. 1026) (collectively,
“the Fisher patents”), teach providing phantom power
to Ethernet terminal equipment. Pet. Reply 4-5.
Patent Owner argues that members of an IEEE
committee were skeptical that phantom power would
work in an Ethernet network. PO Resp. 26-31. This
argument was made as to both challenges and is
discussed above in connection with the Hunter and
Bulan challenge. See supra Section II.C.12. No skepticism argument is made specifically to the Bloch,
Huizinga, and IEEE 802.3 challenge.
Patent Owner also contends that Petitioner has
not shown that Bloch could be modified to eliminate
interference. PO Resp. 32 (citing First Crayford Dep.
173:10-13). Additionally, Patent Owner asserts that
if operating power is applied to the center taps of TE

App.362a
terminal, as would occur with Bloch’s design (see Pet.
45, Petition Figure 6), it “would saturate the coils and
degrade the propagation of Ethernet data.” Id. (citing
First Crayford Dep. 168:6-14; see also Madisetti Decl.
¶ 87 (Ethernet device higher power requirements over
telephone systems would make the problem greater).
Patent Owner suggests a design change to Bloch,
current flow on both sides of the center tap, would
not resolve the problem due to “imbalances in the
wires.” Id. at 33 (citing Madisetti Decl. ¶ 88; First
Crayford Dep. 169:14-15).
We are not persuaded that issues of noise,
degradation of Ethernet data propagation, and reduced
bandwidth interference would preclude one of ordinary
skill from making the Bloch combination. Patent
Owner argues that Petitioner has not shown that
Bloch could be modified to eliminate interference.
Petitioner responds with evidence that a person of
ordinary skill would use filters to segregate higher
Ethernet frequencies from lower Bloch frequencies.
Pet. Reply 7-8 (citing Ex. 1043,25 col. 8, ll. 39-42; col.
10, ll. 25-27; Madisetti Dep., 205:11-206:5 (filter
would prevent noise from interfering with Ethernet
communications); Second Crayford Decl. ¶ 49). Dr.
Madisetti’s cited testimony is that “the R201 creates
a square wave in the context of Bloch that would
interfere with Ethernet communications. If there’s a
filter, it won’t.” Madisetti Dep. 205:21-206:9. Further,
contrary to Patent Owner’s argument regarding saturation, Petitioner does not propose applying operating
power to just one side of the transformers in Bloch.
25 John F. Austermann, III et al., U.S. Patent No. 8,155,012,
filed September 26, 2008, issued April 10, 2012 (“Austermann,”
Ex. 1043).’

App.363a
First Crayford Dep., 167:14-169:22. Also, Mr. Crayford
explained that the objective of balancing the coils on
either side of the transformer to avoid saturation is
“very well known.” Id. at 169:14-22.
13. Summary
On this record and for the reasons stated in the
Petition and summarized above, Petitioner’s arguments and supporting evidence have shown by a
preponderance of the evidence that claims 1, 5, 31,
43, 70, 72, 74, 75, 83, 103, 104, 111, 123, and 125 of
the ’107 patent would have been obvious over Bloch,
Huizinga, and IEEE 802.3.
E. Petitioner’s Motion to Exclude
Petitioner’s move to exclude: (1) the Madisetti
Declaration (Ex. 2038); (2) Exs. 2040-2046 (“IEEE
Exhibits”); (3) the declaration of Clyde Camp (“Camp
Decl.,” Ex. 2048); (4) Exhibit 2047; (5) Exhibit 2049;
and (6) Exhibits 2050 and 2054, and related testimony
from the Second Crayford Deposition. Pet. Mot. Excl.
1. Patent Owner opposed the Petitioner’s Motion to
Exclude (Paper 50) and Petitioner filed a Reply
(Paper 58).
1. Madisetti Declaration (Ex. 2038)
Petitioner argues the Madisetti Declaration should
be excluded as unreliable “under F.R.E. 702, 703, 37
C.F.R. § 42.65 and the standards in Daubert v. Merrell
Dow Pharm., Inc., 509 U.S. 579 (1993) and Kumho
Tire Co. v. Carmichael, 526 U.S. 137 (1999).” Pet.
Mot. Excl. 1. Petitioner’s basis for exclusion is that
the Madisetti Declaration is based on a “1997” date
of invention of the ’107 patent when the earliest

App.364a
filing date on the face of the patent is April 10, 1998.
Id. at 2. Petitioner alleges this is not inconsequential
because, inter alia, “[b]ased on this error, he opines
that ‘Power over Ethernet (‘PoE’) did not exist in
1997.’” Id. at 3 (citing Madisetti Declaration ¶¶ 90,
155, 189, 232; see also id., ¶¶ 37, 56, 67, 88, 93, 157,
191).
Patent Owner argues Petitioner’s objection was
untimely because it did not specifically mention the
date of invention argument now asserted. Paper 50, 2
(citing Paper 27, 1-2). Patent Owner does not concede
that 1997 is not the date of invention only that it did
not need to prove the date because the references
relied on all predated 1997.26 Id. at 3. Petitioner
argues in response that its factual assertions are
unrebutted (Paper 58, 1-3) and the objection made
gave sufficient notice (Paper 58, 3-5).
We agree with Patent Owner that the basis for
the opinion of Dr. Madisetti goes to the weight
afforded it. See Paper 50, 1 (citing Liberty Mutual
Ins. Co. v. Progressive Cas. Ins. Co., CBM201200002, Paper 66 at 60 (PTAB Jan. 23, 2014)). The
testimony provided by Dr. Madisetti was weighed in
the context of the unproven 1997 date of invention he
testifies to. See, e.g., Paper 50, 2-4. Petitioner’s additional arguments regarding the Madisetti Declaration
(Pet. Mot. Excl. 4-11) similarly go the weight to be
afforded to it.

26 Patent Owner mistakenly references the prior art at issue as
being “the De Nicolo patents.” Opp. Pet. Mot. Excl. 3. Regardless, all the references relied on here predate 1997. See Section
I.D. above.

App.365a
Because we overrule the objections to the Madisetti Declaration, we deny Petitioner’s Motion to
Exclude it.
2. IEEE Exhibits (Exs. 2040-2046)
Petitioner move to exclude Exhibits 2040-2046
(“IEEE Exhibits”) and related testimony in the Madisetti Declaration as “irrelevant, unauthenticated, hearsay, and prejudicial.” Pet. Mot. Excl. 11-12 (citing
Paper 27, 1-5; F.R.E. 901, 801, 802, 804, 401, 402,
403).
We overrule the relevance objection. According
to Patent Owner’s theory, the IEEE Exhibits evidence
skepticism that PoE using data wires was questioned,
continuing to a time well after the date of invention.
Paper 50, 13; see also PO Resp. 26-31 (arguing
skepticism regarding PoE on data lines). We disagree
with Petitioner that the IEEE Exhibits are irrelevant
because Patent Owner has not “met its burden to
show a nexus between these exhibits and the claims
of the ’107 Patent.” Paper 58, 5. Petitioner’s argument
that Patent Owner has not shown a nexus is an issue
of sufficiency of proof, not relevance. Because we
determine the IEEE Exhibits are relevant, we also
deny the objection based on prejudice.
We overrule the authentication objection. We
determine that the testimony of authentication is
sufficient. Petitioner cites only to the Camp declaration
(Ex. 2048) as the only authenticating evidence. Mr.
Camp does testify to familiarity “with the recordkeeping system and policies used by IEEE 802 LAN/
MAN Standards Committee including 802.3af.” Paper
50, 11 (citing Ex. 2048 ¶ 1). Patent Owner cites to
additional authenticating evidence. The documents

App.366a
are linked at the IEEE website and the Johnson
Declaration (Ex. 2054) is cited to establish that “the
documents were indexed and captured by the Internet
Archive about the time they were created.” Id. at 1112; see also Ex. 2054 ¶¶ 3-13, attached Exs. A-G
(corresponding to Exs. 2040-2046).
We overrule the hearsay objection. We agree
with Patent Owner that the IEEE Exhibits are not
hearsay because they are not offered for the truth of
the matter asserted. Paper 50, 12. Rather they are
offered as proof of skepticism, the state of mind of a
person of ordinary skill. See Fed. R. Evid. 803 (3) (a
statement is excluded from hearsay if made regarding the declarant’s “state of mind (such as motive,
intent, or plan) . . . ”).
Because we overrule the objections to the IEEE
Exhibits, we deny Petitioner’s Motion to Exclude
them and Dr. Madisetti’s testimony relating to them.
3. “What is the Internet?” (Ex. 2047)
Petitioner argues that a website printout, “What
is the Internet?” (Ex. 2047) is unauthenticated, irrelevant, and hearsay. Pet. Mot. Excl. 13-14. We overrule
the relevancy objection. The meaning of “protocol” is
an issue in the case. See section II.A.5 above.
Dr. Madisetti testified that he found and relied
on Ex. 2047 in giving his expert opinions. Paper 50,
14 (citing Madisetti Decl. ¶ 104). Petitioner has provided no evidence that Exhibit 2047 is not what it
purports to be and Dr. Madisetti has testified as to
what it is. The authentication objection is overruled.
We also agree that Exhibit 2047 is not hearsay
because it is not offered for the truth of the matter

App.367a
asserted. Paper 50, 14; see also F.R.E. 801(c)(2) (not
hearsay if not offered for truth of matter asserted). A
definition is not an assertion of truth. Even if Exhibit
2047 were inadmissible, Dr. Madisetti’s opinion based
on it is admitted. See F.R.E. 703.
Because we overrule the objections to the
Exhibit 2047, we deny Petitioner’s Motion to Exclude
it and Dr. Madisetti’s testimony relating to it.
4. Turner Patent (Ex. 2049)
Petitioner argues that Turner (Ex. 2049) is
irrelevant, prejudicial, and confuses the issues. Pet.
Mot. Excl. 14-15. If evidence is relevant, it may be
excluded if its relevance is outweighed by its prejudice
or it confuses the issues. See F.R.E. 403.
The relevance test requires only that “(a) it has
any tendency to make a fact more or less probable
than it would be without the evidence; and (b) the
fact is of consequence in determining the action.”
Fed. R. Evid. 401. We agree with Patent Owner that
the evidence has a tendency to support its claim that
a person of ordinary skill would not have reason to
combine Hunter and Bulan because Turner is about
“thermistors that could protect circuits without interfering with normal device power-up.” Paper 50, 14-15.
We also agree with Patent Owner that Turner’s relevance is not outweighed by any prejudice or confusion
of issues that we are not capable of weighing and
deciding. Id. at 15.
Because we overrule the objections to the Exhibit 2049, we deny Petitioner’s Motion to Exclude it
and Dr. Madisetti’s testimony relating to it.

App.368a
5. IEEE Standards for Local & Metropolitan Area Networks/EIA/TIA Bulletin
(Exs. 2050 and 2054)
Petitioner argues that IEEE Standards for Local
& Metropolitan Area Networks (Ex. 2050) and EIA/
TIA Bulletin (Ex. 2054), referenced in the Second Crayford Deposition, are irrelevant and untimely. Pet.
Mot. Excl. 15. Patent Owner filed Observations with
respect to that deposition and Petitioner filed an
Opposition. Papers 44, 55. Exhibits 2050 and 2054 were
read into the record made at the Crayford Second
deposition (Ex. 2055). See Opp. Obs., 3, 15.
We determine that Exhibits 2050 and 2054 are
proper cross-examination as used in Second Crayford
Deposition. However, neither exhibit was authenticated
by Mr. Crayford nor did he have any familiarity with
them. Second Crayford Dep., 35:18-36:5 (Ex. 2050);
id. at 171:20-172:17 (Ex. 2054). The Exhibits are not
otherwise admissible. Paper 50, 15. We therefore
overrule the relevance objection.
Because Exhibits 2050 and 2054 are not offered
as evidence separate from the cross-examination of Mr.
Crayford and are otherwise inadmissible for reasons
not alleged by Petitioner, we deny Petitioner’s Motion
to Exclude Exhibits 2050 and 2054 and decline to
exclude any related testimony of Mr. Crayford.
F. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude what it alleges
is new evidence presented in the Petitioner’s Reply.
PO Mot. Excl. 1-9. Patent Owner also moves to exclude
Exhibits 1021-1029, 1031, and 1035 as inadmissible
hearsay. Id. at 9-12. Petitioner opposed the Patent

App.369a
Owner’s Motion to Exclude (Paper 52) and Patent
Owner filed a Reply (Paper 57).
1. Exhibit 1020 and Other Listed Exhibits
Exhibits 1020 is the transcript of the deposition
of Patent Owner’s declarant, Dr. Madisetti. Other
than pointing out that Exhibit 1020 was filed with
and cited in Petitioner’s Reply, Patent Owner does
not provide any specific reason why Exhibit 1020, or
any other exhibit listed in the table but not otherwise
objected to, should be excluded. PO Mot. Excl. 1-9.
We find in Section II.G that these exhibits are
properly raised in Petitioner’s Reply. Therefore, Patent
Owner’s Motion to Exclude is denied with respect to
Exhibit 1020 and any other exhibit listed in the table
at page 3 but not specifically objected to or argued.
2. Exhibits 1023-1024 and 1043
Exhibits 1021-1024 are product datasheets, catalogs, and specifications, and Exhibit 1043 is Austermann, which is related to the ’107 patent and also is
owned by Patent Owner. Patent Owner argues that
Exhibits 1021-1024 and 1043 should be excluded as
improper new evidence for the same reasons set forth
in the Motion to Strike. PO Mot. Excl. 4-5; PO Mot.
Str. 3-5. We do not cite to Exhibits 1021 and 1022. In
general, Patent Owner’s arguments are not persuasive
for the same reasons discussed below with respect to
the Motion to Strike. See infra Section II.G.2.
Patent Owner argues specifically that Exhibits
1023-1024 should be excluded as impermissible hearsay. PO Mot. Excl. 9. We rely on Exhibits 1023-1024
and 1043 in this Decision only to the extent they
provide a basis for certain portions of the Second

App.370a
Crayford Declaration that are cited in this Decision.
See supra Section II.C.12 (citing Second Crayford
Decl. ¶¶ 22-26 (citing Exs. 1023-1024, 1043)). Patent
Owner does not dispute that Exhibits 1023-1024
present the kinds of facts and data that Mr. Crayford
would reasonably rely upon in forming an opinion.
See PO Mot. Excl. 9-10; PO Reply Excl. 2-3. As a result,
Exhibits 1023-1024 do not need to be independently
admissible. See Fed. R. Evid. 703; Power Integrations,
Inc. v. Fairchild Semiconductor Int’l, Inc., 711 F.3d
1348, 1373 (Fed. Cir. 2013). Therefore, Patent Owner’s
Motion to Exclude is denied with respect to Exhibits
1023-1024 and 1043 and denied as moot with respect
to Exhibits 1021 and 1022.
3. Exhibits 1025 and 1026
Exhibits 1025 and 1026 are the Fisher patents.
Patent Owner argues that Exhibits 1025 and 1026
should be excluded as improper new evidence for the
same reasons set forth in the Motion to Strike. PO
Mot. Excl. 3; PO Mot. Str. 5. Patent Owner’s arguments
are not persuasive for the same reasons discussed
below with respect to the Motion to Strike. See infra
Section II.G.3.
Patent Owner also argues that Exhibits 1025
and 1026 should be excluded as impermissible hearsay.
PO Mot. Excl. 9-12. Hearsay is limited to a statement
that a party offers in evidence to prove the truth of
the matter asserted in the statement. Fed. R. Evid.
801. Petitioner offers, and we rely on, the statements
in Exhibits 1025 and 1026 as evidence of the effect
those statements would have had on a person of
ordinary skill in the art, not for the truth of the
matter asserted. See supra Section II.D.13 (citing

App.371a
Pet. Reply 4-5; Exs. 1025, 1026). As a result, Exhibits
1025 and 1026 are not hearsay. However, even if the
statements in Exhibits 1025 and 1026 are hearsay,
Exhibits 1025 and 1026 are admissible at least under
Fed. R. Evid. 803(8). Specifically, Exhibits 1025 and
1026 are records of the activities of the U.S. Patent
and Trademark Office, and Patent Owner has not
shown that the source of information or circumstances
lack trustworthiness. See PO Mot. Excl. 9-12; PO
Reply Excl. 3; Fed. R. Evid. 803(8); Fresenius Med.
Care Holdings, Inc. v. Baxter Int’l, Inc., No. C 031431, 2006 WL 1330003, at *2-4 (N.D. Cal. May 15,
2006). Therefore, Patent Owner’s Motion to Exclude
is denied with respect to Exhibits 1025 and 1026.
4. Exhibit 1034
Exhibit 1034 is a drawing made by Dr. Madisetti
at his deposition. Patent Owner argues the drawing
was drawn “under duress” and is beyond the scope of
cross-examination. PO Mot. Excl. 9. We overrule
Patent Owner’s objection to the extent it asserts
“duress” because “duress” is not a proper objection.
We also overrule the objection that the drawing is
beyond the scope of cross-examination. Whether or
not an “Ethernet terminal equipment” can include
intermediate devices, like a remote module depicted
in Exhibit 1034, which receives operating power,
while the “Ethernet terminal equipment” does not, is
an issue in this case. See Pet. Reply 25-27 (discussing
Madisetti Deposition and Ex. 1034). Therefore, Patent
Owner’s Motion to Exclude is denied with respect to
Exhibit 1034.

App.372a
5. Exhibits 1036-1042
Exhibits 1036-1042 are documents relating to
meetings of an IEEE committee. Patent Owner argues
that Exhibits 1036-1042 should be excluded as
improper new evidence for the same reasons set forth
in the Motion to Strike. PO Mot. Excl. 5-6; PO Mot.
Str. 5-6. Patent Owner’s arguments are not persuasive
for the same reasons discussed below with respect to
the Motion to Strike. See infra Section II.G.4. Therefore, Patent Owner’s Motion to Exclude is denied with
respect to Exhibits 1036-1042.
6. Exhibits 1021-1022, 1027-1031, and 1035
We do not rely on Exhibits 1021-1022, 10271031, and 1035 in this Decision. Therefore, Patent
Owner’s Motion to Exclude is dismissed as moot with
respect to Exhibits 1021-1022, 1027-1031, and 1035.
G. Patent Owner’s Motion to Strike
Per our authorization (Paper 42) Patent Owner
filed a Motion to Strike (Paper 47) Petitioner’s Reply
(Paper 33) alleging it “introduces significant new
evidence and new arguments, which they could have
and should have raised in their Petition.” PO Mot.
Str. 1. Petitioner opposes the Motion to Strike (“Pet.
Opp. Mot. Str.,” Paper 54). No reply was authorized.
Patent Owner’s Motion to Strike Petitioner’s Reply
(Paper 47) is denied.
Patent Owner argues that several portions of
Petitioner’s Reply should be stricken because they
are beyond the scope of a proper reply.27 PO Mot.
27 Patent Owner also argues that Petitioner’s Reply should be
stricken in its entirety. PO Mot. Str. 1. Because we are not

App.373a
Str. 1. Petitioner responds that the Reply is proper
because it responds to arguments raised by Patent
Owner in the Response. Pet. Opp. Str. 1. We have
considered the parties’ arguments, and, for the reasons
discussed below, Patent Owner’s Motion to Strike is
denied. In addition, to the extent that this Decision
does not rely on an argument or evidence that Patent
Owner contends is improper, Patent Owner’s Motion
to Strike is moot as to that particular argument or
evidence.
1. IsoEthernet
Patent Owner argues that Petitioner presented
a new theory of unpatentability in the Reply based
on Hunter’s teaching of isoEthernet. PO Mot. Str. 2.
Specifically, Patent Owner contends that “[t]he Reply
newly asserts that ‘Hunter’s disclosure of isoEthernet
also teaches Ethernet’ and interjects new concepts:
‘[i]soEthernet . . . 10Base-T and ISDN modes’ and
‘isoEthernet interfaces.’” Id. (citing Pet. Reply 11:1414, 15:14-17, 18:3-10; Second Crayford Decl. ¶¶ 48,
67-68, 73, 79-80).
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Petitioner explains
in the Petition that Hunter preferably uses a 10BaseT bus, but points out that Hunter is not limited to a
10Base-T bus because Hunter also is compatible with
100Base-T, isoEthernet, and ISDN. Pet. 24 (“[T]he
bus [to the ISTE] comprises a 10Base-T bus.”); id. at
25 (“compatible with ISDN standards”); id. at 25 (“a
persuaded that any specific portions of the Reply should be
stricken, we also are not persuaded that the entire Reply should
be stricken.

App.374a
bus applying other Ethernet standards, such as
100Base-T”); id. at 26 (“the present invention is also
compatible with Ethernet®, Token Ring®, ATM, and
isoEthernet® standards.”). Thus, Petitioner’s reliance
on isoEthernet is not a new theory of unpatentability
raised for the first time in the Reply. See Belden Inc.
v. Berk-Tek LLC, 805 F.3d 1064, 1080 (Fed. Cir.
2015).
Further, Patent Owner argues in the Response
that Hunter does not teach contacts used to carry
Base-T Ethernet communications signals. PO Resp.
41. In particular, Patent Owner contends that the
“isoEthernet® interfaces [in Hunter] were part of an
IEEE standard called 802.9a,” which indicates that
“isoEthernet used ISDN signals, not Ethernet signals,
to transmit data.” Id. (citing Ex. 1003, 15:15-18;
Madisetti Decl. ¶ 76). Petitioner responds in the
Reply by explaining why Patent Owner’s argument
in the Response is incorrect. Pet. Reply 10-11. Specifically, in the Reply, Petitioner identifies evidence
indicating that isoEthernet includes both an ISDN
mode and a 10Base-T mode, and, as a result, is not
limited to carrying just ISDN signals. Id. at 11 (citing
Ex. 1003, 23:21-24, Ex. 1010, 165; Ex. 1032, 377;
First Crayford Decl. ¶ 67). Thus, Petitioner’s argument
regarding isoEthernet in the Reply properly responds
to an argument raised by Patent Owner in the
Response. See 37 C.F.R. § 42.23(b); Belden, 805 F.3d
at 1078-79. Further, we rely on the disputed portions
of Petitioner’s Reply only to explain, at least in part,
why we are not persuaded by Patent Owner’s argument
in the Response. See supra Section II.C.3; Belden,
805 F.3d at 1078-79.

App.375a
We note that Patent Owner specifically objects
to Petitioner’s reliance on “a newly-cited IEEE standard for 802.9,” which Petitioner submitted as
Exhibit 1032 with the Reply. PO Mot. Str. 2 (citing
Pet. Reply 11:12-14, 12:3-7, 18:9; Ex. 1032). Patent
Owner contends that Hunter only teaches “the trademarked version ‘isoEthernet®,’” and Petitioner does
not link the trademarked version of isoEthernet in
Hunter with the IEEE standard described in Exhibit
1032. Id. at 2-3 (citing Pet. 26 n.8; Ex. 2055, 25:1014, 31:9-21). Patent Owner also points out that
Hunter refers to “IEEE draft standard 802.9a,” but
Exhibit 1032 is not a draft and only describes IEEE
standard 802.9. Id. at 3 (citing Ex. 1003, 16:7; Ex. 1032).
For the reasons discussed above, Petitioner’s
argument in the Reply regarding isoEthernet is a
proper response to an argument raised by Patent
Owner in the Response, not a new theory of unpatentability. Thus, we see no problem with Petitioner’s
reliance on Exhibit 1032 to support its argument
regarding isoEthernet in the Reply. Nonetheless, we
do not rely on Exhibit 1032 in this Decision. Rather,
as discussed above, we rely on Exhibit 1010 as
showing that isoEthernet includes a 10Base-T mode.
See supra Section II.C.3. Petitioner submitted Exhibit
1010 with the Petition (Pet. IV), and cites Exhibit
1010 in the Reply (Pet. Reply 11). Also, like Hunter,
Exhibit 1010 refers to the IEEE 802.9a standard for
isoEthernet. Ex. 1003, 15:15-18; Ex. 1010, 160. Patent
Owner does not raise any specific objections to Exhibit
1010 in the Motion to Strike. See PO Mot. Str. 1-3.
Patent Owner also argues that “had the Petition
relied on isoEthernet (trademarked or otherwise) and/or
Ex. 1032 as a basis for Ground 1, [Patent Owner]

App.376a
would have provided evidence with its Response that,
as late as 1999, the IEEE isoEthernet committee
prohibited combining phantom-power and Ethernet
data signals (‘10Base-T mode’) to ‘insure[] that 10BaseT services are unaffected.’” PO Mot. Str. 3 (citing
Second Crayford Dep., 38:23-39:18). Patent Owner
also presented this argument at the oral hearing and
referred to it as an offer of proof under Fed. R. Evid.
103(a)(2). Tr. 83:2-18, 218:8-21. In connection with
this offer of proof, Patent Owner alleged that it
would have presented this evidence in a sur-reply,
but was denied the opportunity to do so by the Board.

Id.

Fed. R. Evid. 103(a)(2) provides that “[a] party
may claim error in a ruling to . . . exclude evidence
only if the error affects a substantial right of the
party,” and the party “informs the court of its substance
by an offer of proof.” We did not, however, exclude
any evidence offered by Patent Owner or deny Patent
Owner the opportunity to file a sur-reply in this
proceeding. Patent Owner instead made a strategic
decision to seek a motion to strike instead of a surreply. Specifically, Patent Owner requested “leave to
file a motion to strike Petitioner’s Reply Briefs in IPR
Nos. 201601389, 2016-1391, 2016-1397, and 20161399 or, in the alternative, for leave to file a SurReply.” Ex. 3008, 1. In other words, Patent Owner
identified a motion to strike as the preferred method
to respond to Petitioner’s Reply, and identified a surreply as an alternative to the motion to strike. Id.
Because we granted Patent Owner’s request for leave
to file a motion to strike, we did not grant the
proposed alternative of a sur-reply. Paper 42, 2-3.
Patent Owner did not at any time prior to the oral

App.377a
hearing request a clarification of our ruling or identify
any error in our ruling. Further, Patent Owner’s
attempt at the oral hearing to re-characterize its
request as being for both a motion to strike and a
sur-reply (Tr. 222:11-223:17) is contradicted by the
express language Patent Owner used in its request to
the Board (Ex. 3008, 1).
Lastly, Petitioner’s arguments and evidence
regarding isoEthernet in the Reply are not necessary
to our ultimate determination in this proceeding. As
discussed above, Hunter’s teachings regarding 10BaseT alone satisfy the disputed limitations of the
challenged claims. See supra Section II.C.2. Therefore,
we determine that the challenged claims would have
been obvious over Hunter and Bulan, even without
relying on Hunter’s teachings regarding isoEthernet.
2. Bob Smith Terminations and Common
Mode Chokes
Patent Owner argues that Petitioner addresses
Bob Smith terminations and common mode chokes
for the first time in the Reply. PO Mot. Str. 3-4
(citing Pet. Reply 2:13-4:8, 5:16-19; Exs. 1021-1024,
1029; Second Crayfor Decl. ¶¶ 12-21). Specifically,
Patent Owner argues that Petitioner knew that the
invention of the ’107 patent is directed to equipment
networked over pre-existing wiring and cables (PO
Mot. Str. 4 (citing Pet. 3)), and that pre-existing
Ethernet networks included Bob Smith terminations
and common mode chokes (PO Mot. Str. 4 (citing Ex.
2039, 45:10-21; Ex. 2055, 65:13-67:11)), but did not
address them in the Petition.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner

App.378a
raises the issue of Bob Smith terminations and
common mode chokes in the Response (PO Resp. 1921), and Petitioner responds in the Reply with an
explanation and evidence showing why Patent Owner’s
argument in the Response is incorrect (Pet. Reply 23). Thus, the portions of Petitioner’s Reply that
address Bob Smith terminations and common mode
chokes are a proper response to an argument raised
by Patent Owner in the Response, not a new theory
of unpatentability. See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80. Further, we rely on the disputed
portions of Petitioner’s Reply only to explain, at least
in part, why we are not persuaded by Patent Owner’s
argument in the Response. See supra Sections II.C.12,
II.D.13; Belden, 805 F.3d at 1078-79.
Moreover, the disputed portions of Petitioner’s
Reply that address Bob Smith terminations and common mode chokes are not necessary to our ultimate
determination in this proceeding. As discussed above,
the premise of Patent Owner’s argument regarding
Bob Smith terminations and common mode chokes—
that the invention of the ’107 patent is limited to
equipment networked over pre-existing wiring or
cables—is not supported by the specification or claims
of the ’107 patent. See supra Sections II.C.12, II.D.13.
Therefore, we determine that the challenged claims
would have been obvious over the asserted prior art
combinations, even without relying on the disputed
portions of Petitioner’s Reply.
3. Fisher and De Nicolo Patents
Patent Owner argues that Petitioner submitted
new exhibits with the Reply, specifically, the Fisher
and De Nicolo patents, to show that using phantom

App.379a
power in an Ethernet network was known at the time
of the ’107 patent. PO Mot. Str. 5 (citing Pet. Reply
4:11-6:2, 9:11-18; Exs. 1025-1028; Second Crayford
Decl. ¶¶ 27-35). Patent Owner acknowledges that
Petitioner presents the same position in the Petition,
but contends that Petitioner cannot cite new evidence
in the Reply to support that position. Id. (citing Pet.
4-5).
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Petitioner’s position that using phantom power in an Ethernet network
was known at the time of the ’107 patent is presented
in the Petition. Pet. 3-5. Patent Owner argues in the
Response that “operating Power-over-Ethernet (‘PoE’)
did not exist in 1997” (PO Resp. 8), and Petitioner
responds in the Reply by citing to the Fisher and De
Nicolo patents as evidence that Patent Owner’s
argument in the Response is incorrect (Pet. Reply 5
(citing Exs. 1025-1028)). Thus, the portions of Petitioner’s Reply that cite to the Fisher and De Nicolo
patents are a proper response to an argument raised
by Patent Owner in the Response, not a new theory
of unpatentability. See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80. Further, we rely on the disputed
portions of Petitioner’s Reply only to explain, at least
in part, why we are not persuaded by Patent Owner’s
argument in the Response. See supra sections II.C.12,
II.D.13; Belden, 805 F.3d at 1078-79.
We note that Patent Owner specifically objects
to Petitioner’s reliance on the De Nicolo patents
because Patent Owner alleges it could have demonstrated that the De Nicolo patents are not prior art to
the ’107 patent. PO Mot. Str. 5. Rather, as discussed
above, we specifically rely on Hunter and the Fisher

App.380a
patents as showing that using phantom power in an
Ethernet network was known at the time of the ’107
patent. See supra sections II.C.12, II.D.13. We rely
on the De Nicolo patents to the extent Petitioner’s
Reply and the Second Crayford Declaration make use
of them as additional evidence, and a basis for expert
testimony, showing that using phantom power in an
Ethernet network was known at the time of the ’107
patent.
Moreover, the disputed portions of Petitioner’s
Reply that rely on the Fisher and De Nicolo patents
are not necessary to our ultimate determination in
this proceeding. As discussed above, the teachings of
Hunter alone demonstrate that using phantom power
in an Ethernet network was known at the time of the
’107 patent. See supra Sections II.C.3, II.C.12, II.D.13.
Therefore, we determine that the challenged claims
would have been obvious over the asserted prior art
combinations, even without relying on the disputed
portions of Petitioner’s Reply.
4. Alleged Skepticism
Patent Owner argues that Petitioner addresses
the objective indicia of non-obviousness, including
skepticism of those skilled in the art, for the first
time in the Reply. PO Mot. Str. 5-6 (citing Pet. Reply
6:6-7:5; Exs. 1035-1042; Second Crayford Decl. ¶¶ 3644). Specifically, Patent Owner contends that Petitioner
was “aware of the secondary considerations issues,
but failed to address them in the Petition.” PO Mot.
Str. 6.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of skepticism by those skilled in the

App.381a
art in the Response (PO Resp. 26-31), and Petitioner
responds in the Reply with an explanation and evidence
showing why Patent Owner’s argument in the
Response is incorrect (Pet. Reply 6-7). Thus, the
portions of Petitioner’s Reply that address the alleged
skepticism of those skilled in the art are a proper
response to an argument raised by Patent Owner in
the Response, not a new theory of unpatentability.
See 37 C.F.R. § 42.23(b); Belden, 805 F.3d at 107880. Further, we rely on the disputed portions of
Petitioner’s Reply only to explain, at least in part,
why we are not persuaded by Patent Owner’s argument
in the Response. See supra Sections II.C.12, II.D.13;
Belden, 805 F.3d at 1078-79.
Moreover, the disputed portions of Petitioner’s
Reply that address the alleged skepticism of those
skilled in the art are not necessary to our ultimate
determination in this proceeding. As discussed above,
even if we just consider the evidence submitted by
Patent Owner, it does not establish that those of
skilled in the art were skeptical that phantom power
would work in an Ethernet network. See supra
Sections II.C.12, II.D.13. Therefore, we determine
that the challenged claims would have been obvious
over the asserted prior art combinations, even without relying on the disputed portions of Petitioner’s
Reply.
5. CAT-3 and CAT-5 Cabling
Patent Owner argues that Petitioner addresses
the number of conductors in CAT-3 and CAT5 cabling
for the first time in the Reply. PO Mot. Str. 6-7
(citing Pet. Reply 9:19-10:5; Ex. 1031; Second Crayford
Decl. ¶ 60). Specifically, Patent Owner contends that

App.382a
Petitioner knew that CAT-3 cabling was used for
10Base-T Ethernet and CAT-5 cabling was used for
100Base-T Ethernet, and, thus, “could have included”
argument and evidence in the Petition regarding the
number of conductors in that cabling. Id. at 7.
We are not persuaded that the disputed portions
of Petitioner’s Reply are improper. Patent Owner
raises the issue of the number of conductors in CAT-3
and CAT5 cabling in the Response (PO Resp. 25-26),
and Petitioner responds in the Reply with an explanation and evidence showing why Patent Owner’s argument in the Response is incorrect (Pet. Reply 9-10).
Thus, the portions of Petitioner’s Reply that address
the number of conductors in CAT-3 and CAT5 cabling
are a proper response to an argument raised by
Patent Owner in the Response, not a new theory of
unpatentability. See 37 C.F.R. § 42.23(b); Belden,
805 F.3d at 1078-80.
Patent Owner also argues that, if Petitioner had
addressed the number of conductors in CAT-3 and
CAT5 cabling in the Petition, Patent Owner “would
have included the cable specification for CAT-3/CAT5 wiring, confirming that such cables comprise four
wire pairs.” PO Mot. Str. 7. (citing Ex. 2055, 171:23176:13). Patent Owner also presented this argument
at the oral hearing and referred to it as an offer of
proof under Fed. R. Evid. 103(a)(2). Tr. 220:19-221:2.
As discussed above, Fed. R. Evid. 103(a)(2) provides
that “[a] party may claim error in a ruling to . . .
exclude evidence only if the error affects a substantial
right of the party,” and the party “informs the court of
its substance by an offer of proof.” We did not, however,
exclude any evidence offered by Patent Owner or
deny Patent Owner the opportunity to file a sur-reply

App.383a
in this proceeding. See supra Section II.G.1. Patent
Owner instead made a strategic decision to seek a
motion to strike instead of a sur-reply. See id.
Moreover, the disputed portions of Petitioner’s
Reply that address the number of conductors in CAT3 and CAT5 cabling are not necessary to our ultimate
determination in this proceeding. As discussed above,
the portions of Hunter cited in the Petition independently demonstrate that a 10Base-T bus may
include only two twisted pair conductors, not four.
See supra Sections II.C.4, II.C.12, II.D.13. Therefore,
we determine that the challenged claims would have
been obvious over the asserted prior art combinations,
even without relying on the disputed portions of
Petitioner’s Reply.
H. Oral Hearing Objections
Each party objected to arguments presented by
the other party during the oral hearing. Petitioner
objected that Patent Owner improperly raised new
arguments for the first time at the oral hearing
regarding the IEEE 802.9f specification, the CAT-3
and CAT-5 cabling specifications, blind power, and
power levels. Tr. 216:15-217:7. We considered Patent
Owner’s arguments in the Response in light of any
additional arguments presented by Patent Owner at
the oral hearing, but we ultimately do not find Patent
Owner’s arguments persuasive for the reasons discussed in this Decision. Thus, Petitioner would not
suffer any prejudice by our admission of the arguments
presented by Patent Owner at the oral hearing.
Patent Owner objected that Petitioner raised
arguments at the oral hearing that were the subject
of Patent Owner’s Motion to Strike and/or Motion to

App.384a
Exclude. Tr. 66:20-67:20. For the reasons discussed
above, we deny Patent Owner’s Motion to Strike and
dismiss-in-part and deny-in-part Patent Owner’s
Motion to Exclude. See supra Sections II.E, II.G. Thus,
we see no problem with the arguments presented by
Petitioner at the oral hearing.
III. Order
Accordingly, it is
ORDERED claims 1, 5, 31, 43, 70, 72, 74, 75, 83,
103, 104, 111, 123, and 125 of the ’107 patent are
held unpatentable;
FURTHER ORDERED that Patent Owner’s
Motion to Exclude is denied-in-part and dismissedin-part;
FURTHER ORDERED that Petitioner’s Motion
to Exclude is denied;
FURTHER ORDERED that Patent Owner’s
Motion to Strike is denied;
FURTHER ORDERED that because this is a
final written decision, parties to the proceeding seeking
judicial review of the decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.
PETITIONER:
Nima Hefazi
Michael Fleming
Jonathan Kagan
Talin Gordnia
Irell & Manella, LLP
nhefazi@irell.com

App.385a
mfleming@irell.com
jkagan@irell.com
tgordnia@irell.com
Joseph A. Powers
Christopher J. Tyson
Matthew S. Yungwirth
Duane Morris LLP
japowers@duanemorris.com
cjtyson@duanemorris.com
msyungwirth@duanemorris.com

PATENT OWNER:
Frank A. Angileri
Thomas A. Lewry
Marc Lorelli
Christopher C. Smith
Brooks Kushman P.C.
CHRMC0110IPR2@brookskushman.com
Richard W. Hoffmann
Reising Ethington P.C.
hoffmann@reising.com

App.386a
PATENT TRIAL AND APPEAL BOARD
CONSOLIDATED TRIAL PRACTICE GUIDE
NOVEMBER 2019—RELEVANT EXCERPTS
INTRODUCTION
This consolidated Office Patent Trial Practice
Guide (“Practice Guide”) incorporates the updates
from August 2018 and July 2019 into the original
August 2012 Practice Guide.
In August 2012, the Office published the Practice
Guide, concurrent with the promulgation of the AIA
Trial Rules. See 77 Fed. Reg. 48,756 (Aug. 14, 2012).
The Practice Guide apprised the public of standard
practices before the Board during AIA trial proceedings,
including inter partes reviews, post-grant reviews,
covered business method reviews, and derivation
proceedings. The Practice Guide also encouraged consistency of procedures among panels of the Board.
The Office has updated the Practice Guide to take
into account stakeholder feedback, lessons learned
during the years since the first AIA trial, and the
natural evolution of the Board’s practices. A first
update to the Practice Guide was published on August
13, 2018, and a second update was published on July
16, 2019. This edition incorporates the updates from
August 2018 and July 2019 into the original August
2012 Practice Guide so that the most recent versions
of all sections of the Practice Guide are available in a
single document. It also makes revisions to ensure
consistency across the newly consolidated guide. Revisions to reconcile updates and to reflect the Board’s
current practices relate to institution of trial after
SAS Institute Inc. v. Iancu, 138 S. Ct. 1348 (2018);

App.387a
use of sur-replies in lieu of observations; how parties
may contact the Board to request an initial conference call; use of word counts; updates to the
sample scheduling order for derivation proceedings;
and updates to the default protective order. The Office
anticipates making further updates, if needed, on an
annual
[...]
. . . Luxembourg S.A., Case IPR2017-00948, slip op.
at 5 (PTAB Jan. 18, 2019) (Paper 34) (precedential).
Thus, petitioner may raise, and the Board may consider, other grounds of unpatentability, including 35
U.S.C. §§ 101 and 112, as to proposed substitute
claims.
I.

Reply to Patent Owner Response and Reply to
Petitioner Opposition to a Motion to Amend; SurReplies

A petitioner may file a reply to a patent owner
response, and a patent owner may file a reply to an
opposition to a motion to amend. 37 C.F.R. § 42.23.
Additionally, in response to issues arising from the
Supreme Court’s decision in SAS (138 S. Ct. at 1358),
the Board will permit the petitioner, in its reply
brief, to address issues discussed in the institution
decision. The patent owner will similarly be allowed
to address the institution decision in its sur-reply, if
necessary to respond to petitioner’s reply. Petitioner
may not submit new evidence or argument in reply that
it could have presented earlier, e.g. to make out a
prima facie case of unpatentability. A party also may
submit rebuttal evidence in support of its reply. See
Belden Inc. v. Berk-Tek LLC, 805 F.3d 1064, 1077-78
(Fed. Cir. 2015). If a party submits a new expert

App.388a
declaration with its reply, the opposing party may
cross-examine the expert, move to exclude the declaration, and comment on the declaration and crossexamination in any sur-reply. Id. at 1081-82.
Sur-replies to principal briefs (i.e., to a reply to a
patent owner response or to a reply to an opposition
to a motion to amend) normally will be authorized by
the scheduling order entered at institution. The surreply may not be accompanied by new evidence other
than deposition transcripts of the cross-examination
of any reply witness. Sur-replies should only respond
to arguments made in reply briefs, comment on reply
declaration testimony, or point to cross-examination
testimony. As noted above, a sur-reply may address
the institution decision if necessary to respond to the
petitioner’s reply. This sur-reply practice essentially
replaces the previous practice of filing observations
on cross-examination testimony.
Generally, a reply or sur-reply may only respond
to arguments raised in the preceding brief. 37 C.F.R.
§ 42.23, except as noted above. “Respond,” in the context of 37 C.F.R. § 42.23(b), does not mean proceed in
a new direction with a new approach as compared to
the positions taken in a prior filing. While replies
and sur-replies can help crystalize issues for decision,
a reply or sur-reply that raises a new issue or belatedly
presents evidence may not be considered. The Board
is not required to attempt to sort proper from improper
portions of the reply or sur-reply.
Examples of indications that a new issue has been
raised in a reply include new evidence necessary to
make out a prima facie case for the patentability or
unpatentability of an original or proposed substitute
claim, such as newly raised rationale to combine the

App.389a
prior art references that was not expressed in the
petition. See Intelligent Bio-Sys., Inc. v. Illumina
Cambridge Ltd., 821 F.3d 1359, 1369-70 (Fed. Cir.
2016) (holding that the Board did not err in refusing
the reply brief as improper under 37 C.F.R. § 42.23(b)
because petitioner relied on an entirely new rationale
to explain why one of skill in the art would have
combined the references at issue). It is also improper
for a reply to present new evidence (including new
expert testimony) that could have been presented in
a prior filing, for example newly cited prior art
references intended to “gap-fill” by teaching a claim
element that was not present in

